<html>
<title> - FISHERIES MANAGEMENT SUCCESSES IN ALASKA AND THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 FISHERIES MANAGEMENT SUCCESSES IN ALASKA AND THE REAUTHORIZATION OF 
     THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

=======================================================================

                        OVERSIGHT FIELD HEARINGS

                               before the

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

           Wednesday, July 6, 2005 in Ketchikan, Alaska, and
                 Friday, July 8, 2005 in Kodiak, Alaska

                               __________

                           Serial No. 109-23

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                 U.S. GOVERNMENT PRINTING OFFICE

22-445                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                         COMMITTEE ON RESOURCES


                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON FISHERIES AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Walter B. Jones, Jr., North          Neil Abercrombie, Hawaii
    Carolina                         Solomon P. Ortiz, Texas
Thelma Drake, Virginia               Ron Kind, Wisconsin
Luis G. Fortuno, Puerto Rico         Madeleine Z. Bordallo, Guam
Bobby Jindal, Louisiana              Nick J. Rahall II, West Virginia, 
Marilyn N. Musgrave, Colorado            ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 6, 2005..........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     1
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bedford, David, Deputy Commissioner, Alaska Department of 
      Fish and Game..............................................    16
        Prepared statement of....................................    18
    Behnken, Linda, Executive Director, Alaska Longline 
      Fishermen's Association....................................    58
        Prepared statement of....................................    60
    Crome, Cora, United Fishermen of Alaska......................    43
        Prepared statement of....................................    44
    Kelley, Dale, Executive Director, Alaska Trollers Association    51
        Prepared statement of....................................    54
    Madsen, Stephanie, Chair, North Pacific Fishery Management 
      Council....................................................    24
        Prepared statement of....................................    26
    Norosz, Kristine M., Director of Government Affairs, Icicle 
      Seafoods, Inc..............................................    46
        Prepared statement of....................................    47
    Olson, Rear Admiral James C., Commander, District 17, U.S. 
      Coast Guard, Department of Homeland Security...............    10
        Prepared statement of....................................    12
    Salveson, Sue, Chief, Assistant Regional Administrator for 
      Sustainable Fisheries, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................     4
        Prepared statement of....................................     5
    Woodby, Douglas, Ph.D., Fisheries Scientist, Alaska 
      Department of Fish and Game, and Member, Scientific and 
      Statistical Committee, North Pacific Fishery Management 
      Council....................................................    32
        Prepared statement of....................................    34
Additional materials supplied:
    Pautzke, Dr. Clarence, Executive Director, North Pacific 
      Research Board, Statement submitted for the record.........    71
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Friday, July 8, 2005.............................    75

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................    75
        Prepared statement of....................................    76

Statement of Witnesses:
    Asicksik, Eugene, President and CEO, Norton Sound Economic 
      Development Corporation....................................   163
        Prepared statement of....................................   166
    Benton, David, Executive Director, Marine Conservation 
      Alliance...................................................   109
        Prepared statement of....................................   112
    Bonney, Julie, Executive Director, Alaska Groundfish Data 
      Bank.......................................................   116
        Prepared statement of....................................   118
    Childers, Dorothy, Executive Director, Alaska Marine 
      Conservation Council.......................................   132
        Prepared statement of....................................   135
    Duffy, Kevin C., Executive Director, At-Sea Processors 
      Association................................................   157
        Prepared statement of....................................   160
    Fields, Duncan, Technical Advisor, Gulf of Alaska Coastal 
      Communities Coalition......................................   126
        Prepared statement of....................................   128
    Floyd, Hon. Carolyn L., Mayor, City of Kodiak................    77
        Prepared statement of....................................    79
    Kelty, Frank, Natural Resource Analyst, City of Unalaska.....   148
        Prepared statement of....................................   150
    Madsen, Stephanie, Chair, North Pacific Fishery Management 
      Council....................................................    92
        Prepared statement of....................................    95
    Reed, Glenn E., President, Pacific Seafood Processors 
      Association................................................   153
        Prepared statement of....................................   156
    Salveson, Sue, Assistant Regional Administrator for 
      Sustainable Fisheries, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................    86
        Prepared statement of....................................    87
    Selby, Hon. Jerome, Mayor, Kodiak Island Borough.............    81
        Prepared statement of....................................    84
    Smith, Thorn, Executive Director, North Pacific Longline 
      Association................................................   176
        Prepared statement of....................................   180
    Stinson, Jay E., President, Alaska Draggers Association......   121
        Prepared statement of....................................   122
    Thomson, Arni, Executive Director, Alaska Crab Coalition.....   168
        Prepared statement of....................................   170

Additional materials supplied:
    Central Bering Sea Fishermen's Association, Statement 
      submitted for the record...................................   189


OVERSIGHT FIELD HEARING ON FISHERIES MANAGEMENT SUCCESSES IN ALASKA AND 
   REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

                              ----------                              


                        Wednesday, July 6, 2005

                     U.S. House of Representatives

                  Subcommittee on Fisheries and Oceans

                         Committee on Resources

                           Ketchikan, Alaska

                              ----------                              

    The Subcommittee met, pursuant to call at 11:00 a.m., at 
the Ted Ferry Civic Center, 888 Venetia Avenue, Ketchikan, 
Alaska, Hon. Wayne T. Gilchrest, Chairman of the Subcommittee, 
presiding.
    Members present: Gilchrest and Young.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The hearing of the Subcommittee on Fisheries 
and Oceans will come to order. I have a prepared--a very well 
prepared statement, and I'll ask unanimous consent that it be 
submitted for the record.
    Mr. Young. Without objection.
    [The prepared statement of Mr. Gilchrest follows:]

         Statement of The Honorable Wayne Gilchrest, Chairman, 
                  Subcommittee on Fisheries and Oceans

    I'd like to thank Chairman Young for his invitation to come to 
Alaska to hear from his constituents about the fisheries management 
successes and how we can take the lessons that have been learned here 
to other parts of the country.
    This Subcommittee has been working on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act for a number 
of years and I hope we will reauthorize the Act within the next year. I 
plan on working very closely with Chairman Young and with my Senate 
counterparts, including Senators Stevens and Murkowski.
    As we have heard testimony on the Magnuson-Stevens Act, we have 
heard a lot about how well managed the Alaskan fisheries are. We have 
met with all the Councils and have heard from a number of constituent 
groups that we should look at how the fisheries are managed in Alaska. 
While I realize no fishery management system is perfect, I would like 
to see what lessons we can learn here and I appreciate all of you being 
here today.
    I understand that this is probably not the best time to be here, 
especially with all of the fisheries that are open right now, but 
unfortunately, this was the only time we could get away from Washington 
for this amount of time until this winter and I hope we will be further 
along on the reauthorization by then. For those fishermen that could 
not be here, I apologize and I hope we will still hear from you when 
you get back.
    I thank those of you who could be here today.
    I have also been told by Mr. Young that fisheries are different 
here in Southeast than in other parts of the state. That is one of the 
reasons we wanted to hold two field hearings this week--so that we can 
see and understand the differences, but also see how the management has 
worked despite these differences.
    I am pleased to be here and hope this will just be the beginning of 
a dialog on important fishery management issues and how we can best 
make the Magnuson-Stevens Act work even better--for the fishery 
resources, the fishermen, and the fishing communities.
                                 ______
                                 
    Mr. Gilchrest. Thank you. And I would like to welcome all 
of you here today. We look forward to your testimony. We are in 
the process over the next so many months of reauthorizing the 
Magnuson-Stevens-Young Act. And we are moving around the 
country actually, to gather information about how each of the 
Council's deals with myriad of issues dealing with fisheries. 
From science to total allowable catch, to by catch, to observer 
programs, to industry and public involvement. To the working 
relationships of the Federal, state fisheries community, 
environmental community, and so on. And we would like this 
morning to--and we will listen to your input on how the Act is 
working. How you see the Council's involvement with the 
Magnuson Act, and how that should change or have minor 
adjustments, or stay the same.
    And what we want to do over the course of the next many 
months, the next hearing we have will be in Maine.
    Mr. Young. Kodiak.
    Mr. Gilchrest. Oh, I'm sorry. The next meeting we have will 
be in Kodiak in a couple of days. The next meeting after Alaska 
will be in New England. And we like to take a look and 
understand the safety issues, especially with the Coast Guard. 
The economic viability issues with the industry. And the 
ecological integrity issues dealing with science and the input 
from the industry and the public. So we look forward to your 
testimony.
    And one last comment I'd like to make before I yield to 
the--my good friend Mr. Young is that it seems that the North 
Pacific Council, while we understand these issues are volatile 
wherever you go. And they are certainly that way in Alaska. But 
what you've done to integrate is the different systems in your 
Council to do deal with these issues is quite extraordinary. 
And we'd like to take a look at that and see how that can, in a 
flexible way be adapted to other Council's around the country.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. And I want to thank you 
for taking your holiday, 4th of July break to come to Alaska. 
Especially to come to Southeast. It was my idea and you 
followed through with it that we actually have different 
fisheries in the State of Alaska, and Southeast is totally 
different from Bering Sea, and of course the Gulf. And I think 
it's important that we recognize that and the hearing was 
taking place here is because of that difference. I requested by 
actually by the industry down here. I do appreciate you coming 
and--Mr. Gilchrest is a individual that I have great respect 
for. He does not vote with me all the time. I sometimes lecture 
him on that, but he has his own mind. But he does take the 
time--and why I admire him to go and look and to see what other 
areas of the United States are doing. He's done this with 
timber, been in districts in California, and of course in the 
fisheries. Extremely interested in the oceans. He is now the 
head of a new task force. Hopefully we can work it in to a full 
committee standing on the oceans. Not in conflict with the 
Stevens-Magnuson Act, you notice that it's Stevens-Magnuson 
Act. Left my name out, but I'm not going to call it the 
Magnuson-Stevens Act. But in reality we believe that the oceans 
play a major role in the land mass of this globe. And how 
they're being affected, is it man or is it natural, or whatever 
is occurring, that's part of this new program. But this hearing 
is about the Chairman has mentioned about what's good about the 
Act, because we have to renew it. What's wrong with the Act, 
what can we do to improve it. If you have suggestions we're 
here to listen, more than anything else to what you have to 
pose. Mr. Chairman, I thank you again and I think we ought to 
proceed with the witnesses.
    [The prepared statement of Mr. Young follows:]

   Statement for The Honorable Don Young, Congressman for All Alaska

    Mr. Chairman, I want to thank you for coming to Alaska. The waters 
off Alaska provide for more than half of the entire production of 
seafood in the United States. We have a number of very important 
fisheries and the management of those fisheries is of utmost importance 
to the people of this state.
    Fisheries management in Alaska has not always been the success 
story that you hear about today. One of the reasons that Alaska wanted 
to become a state was to get the Federal government out of salmon 
management.
    We now have a State-managed salmon fishery that allows our 
fishermen to continue to land a high quality, healthy product that can 
put any farm-raised salmon to shame. Unfortunately, the product we have 
can only be harvested for a short period of time every year and this 
leaves our markets vulnerable to imported salmon products for the rest 
of the year.
    Mr. Chairman, salmon isn't the only fishery here in Alaska, but it 
is an important one. A number of other fisheries are managed by the 
North Pacific Fishery Management Council. The Council system was one of 
the great ideas that was included in the Magnuson Act (which now honors 
Senator Stevens as well as former Senator Magnuson).
    This system is a transparent process that allows the stakeholders 
to participate in the management of their own fishery resources. It 
also allows a regional approach to management so that different regions 
can deal with their problems in innovative ways.
    I won't say that the Council system is perfect and I won't say that 
we don't have fights over fish here in Alaska. But I will say that this 
system works better than any other I've seen.
    I know you are here to get a better understanding of how we manage 
fish in Alaska and I appreciate you taking the time to come to my great 
state. I hope you will hear some good suggestions on how to reauthorize 
the Magnuson-Stevens Act while maintaining the Council system and the 
regional flexibility that is so important.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Young. And our witnesses this 
morning are Ms. Sue Salveson, Admiral Olson, Mr. Bedford, Ms. 
Madsen, and Dr. Woodby. Thank you all for coming. We look 
forward to your testimony. We're going to start with Ms. Sue 
Salveson.

  STATEMENT OF SUE SALVESON, SUSTAINABLE FISHERIES DIVISION, 
        ALASKA REGION, NATIONAL MARINE FISHERIES SERVICE

    Ms. Salveson. Thank you, Mr. Chairman. For the record, I 
wish I were a doctor, but I'm not. I'm just a Ms., Ms. Sue 
Salveson.
    Mr. Gilchrest. Ms. Sue Salveson.
    Ms. Salveson. Thank you. Thank you, Mr. Chairman and 
Congressman Young, for the opportunity to testify before you on 
your Fishery Management Program here in Alaska. And the 
reauthorization of the Magnuson-Stevens Act. I am Sue Salveson, 
Assistant Regional Administrator for Sustainable Fisheries here 
in Alaska Region of the National Marine Fisheries Service.
    The waters off Alaska support a variety of fisheries. These 
fisheries are one of the most important industries in Alaska 
and provide nearly half of all private sector jobs. Off Alaska 
this management is undertaken in partnership with the North 
Pacific Fishery Management Council. And other state and Federal 
management agencies. We have achieved management successes in 
Alaska that we can learn from. As we move forward with 
reauthorizing the Magnuson-Stevens Act. I would like to focus 
on a few key areas today. Those are ecosystem approaches to 
fisheries management, market-based management systems, and the 
use of the best available scientific information.
    The U.S. Ocean Action Plan endorses and ecosystem approach 
to management. In 1996 amendments to the Magnuson-Stevens Act, 
particularly provisions relating to by catch and essential 
habitat laid the ground work for ecosystem approaches to 
fisheries. The North Pacific Management Program includes gear 
and season specific closures totally approximately 150,000 
square nautical miles to protect habitat and protected species 
stocks. Habitat protection will be expanded significantly when 
NMFS's implements extensive new closed areas in the Aleutian 
Islands and Gulf of Alaska recently endorsed by the Council.
    Because we still have much to learn, an ecosystem approach 
must be implemented incrementally. Our approach in the North 
Pacific includes single species management and exploitation 
models to establish target and nontarget species harvest quotas 
that conserve stocks. But scientists have developed, and 
current are testing whole ecosystem models to assess fishing 
impacts on patterns of energy flow in large marine ecosystems.
    The U.S. Ocean Action Plan also promotes a partnership 
under which we will work with Regional Fishery Management 
Councils to promote greater use of market-based systems for 
fisheries management. The Alaska dedicated access privilege 
programs developed for Alaska groundfish, pacific halibut, 
sablefish, and crab fisheries are examples of DAP programs that 
can be used to develop these approaches nationwide. In 
partnership with the North Pacific Council we implemented the 
IFQ program for pacific halibut in 1995. Subsequently we have 
provided coastal communities the opportunity to provide--to 
purchase quota share or IFQ to enhance fishery-based revenues 
generated by local residents. We also are in the midst of 
implementing a sophisticated crab rationalization program that 
includes harvester and processor quota shares, community 
quotas, and fishing cooperatives.
    Any national guidelines promoting these programs should 
provide flexibility to Regional Fishery Management Council's 
and to NMFS to tailor these programs to the specific needs of 
regional fisheries. While the Alaska programs have been 
successful and provide important lessons for the rest of the 
nation, they may not be applicable to specific regional, 
social, economic, and fishery conditions in other parts of the 
country.
    The U.S. Ocean Action Plan also commits NOAA to establish 
guidelines to develop and apply scientific advice for fisheries 
management decisions. Scientific information and advice are 
integral to the resource management decisions undertaken by 
NMFS, in partnership with the Regional Fishery Management 
Council's. Ongoing success of the North Pacific Management 
Programs will continue to rely on a science-based and 
precautionary policy direction historically embraced by the 
North Pacific Council. This responsiveness is reflected in four 
fundamental components of our decisionmaking process. The 
first, the promotion of a strong research program. Second, 
acceptance of the best available science as a foundation for 
establishing a conservative fishery, harvest quotas, and for 
conservation measures to protect protected species. Third, and 
extensive in season catch monitoring program. And fourth, a 
transparent public process.
    In addition we believe the structure and breath of 
experience on the North Pacific Council's Scientific and 
Statistical Committee provides a basis for peer reviewed, 
science-based management of the North Pacific resource. The 
North Pacific Council's reliance on it's SSC is an important 
consideration in the successful management of these resources 
and serves as a good example of how to use science-based 
decisionmaking to manage our nations natural resources.
    Fisheries observers deployed on fishing vessels and 
processors are an additional source of important information. 
The North Pacific Groundfish Observer Program is the largest in 
the nation, with over 36,000 observer days per year. Although 
coverage is extensive we are studying ways to improve the 
coverage and effectiveness of our fisheries observers in this 
and other observer programs nationwide. Comprehensive catch 
monitoring programs insure compliance with North Pacific 
fishery restrictions. Incorporating existing technology such as 
Vessel Monitoring Systems and leveraging strong enforcement 
partnerships are becoming more and more important to mitigate 
the greater number of resources needed to manage and enforce 
new fishery programs.
    Mr. Chairman, Congressman Young thank you for the 
opportunity to discuss the North Pacific Fishery Management 
Programs, as we undertake reauthorization of the Magnuson Act. 
I would be happy to answer any questions.
    Mr. Gilchrest. Thank you, Ms. Salveson.
    [The prepared statement of Ms. Salveson follows:]

    Statement of Sue Salveson, Assistant Regional Administrator for 
  Sustainable Fisheries, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to testify before you on our fishery management program 
here in Alaska and the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act). I am Sue 
Salveson, Assistant Regional Administrator for Sustainable Fisheries, 
Alaska Region, National Marine Fisheries Service (NMFS), National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce. My testimony today will focus on how we work with our 
partners in Alaska to successfully manage our fisheries and how this 
experience may serve as a model for managing our nation's fisheries and 
other ocean resources into the future.
    The current process for managing our nation's marine fishery 
resources has been in place since 1977, when the Fishery Conservation 
and Management Act of 1976 was first implemented. The Sustainable 
Fisheries Act of 1996 implemented several new provisions specific to 
the North Pacific and underscored many of the management measures 
already in place or under development there. The Fishery Management 
Council process results in transparent, deliberative decision making 
based on best available science.
    The North Pacific is a highly productive ecosystem with no depleted 
or overfished groundfish stocks. Our area exemplifies how the 
management process can accommodate both national and regional interests 
in responsible stewardship of marine resources. Our success is driven 
by the North Pacific Fishery Management Council's tenet to adhere to 
the underlying science provided by NMFS, the State of Alaska, 
universities, and other independent scientists. Our success is also due 
in part to relatively focused interjurisdictional issues involving only 
a single state (Alaska), which reduces complexity in the decision-
making process.
Background on Alaskan Fisheries
    With over 47,000 miles of coastline and 336,000 square miles of 
fishable continental shelf area, the waters off Alaska support a 
variety of fisheries. Fisheries are one of the most important 
industries in Alaska and provide nearly half of all private-sector 
jobs. Over 10,000 people are involved in groundfish fishing and 
processing alone; thousands more work in salmon, crab, scallop, 
halibut, and other fisheries. Vessels range from skiffs used for 
halibut fishing with hook-and-line or jig gear, to 600-foot motherships 
and 400-foot catcher processors involved in the midwater trawl fishing 
for pollock.
    The Magnuson-Stevens Act authorizes federal management of fisheries 
in the Exclusive Economic Zone (EEZ). Off Alaska, this management is 
undertaken in partnership with the North Pacific Fishery Management 
Council and other state and federal management agencies. The North 
Pacific Council has developed five fishery management plans to manage 
the groundfish (Bering Sea and Aleutian Islands; Gulf of Alaska), crab, 
scallop and salmon fisheries off Alaska. Much of the management of the 
crab, scallop, and salmon fisheries is deferred to the State of Alaska 
with federal oversight, including the authority to set and enforce 
harvest limits to avoid overfished stocks. Development and 
implementation of allocation programs or dedicated access privilege 
programs are retained as a federal function in partnership with the 
North Pacific Council. The Council also develops allocation programs 
for the Pacific halibut fishery in partnership with NMFS and the 
International Pacific Halibut Commission.
    The primary target groundfish species off Alaska are pollock, 
Pacific cod, flatfish, Atka mackerel, sablefish, and rockfish. In the 
Bering Sea and Aleutian Islands, the maximum annual removals limit has 
been capped at 2 million metric tons, or 4.4 billion pounds, since 
1984. This cap is an example of the North Pacific's precautionary 
approach to management. Although this cap could be set higher--given 
the existing groundfish abundance of over 3 million metric tons--the 
annual harvest limits are capped at this lower level to account for 
species interactions within the ecosystem and to provide a buffer for 
scientific uncertainty in setting catch quota levels.
    Fishery management decisions originate with recommendations 
provided by the North Pacific Fishery Management Council. The Council's 
11 voting members represent state and federal fisheries agencies, 
industry, fishing communities, and four nonvoting members represent the 
U.S. Coast Guard, U.S. Fish and Wildlife Service, U.S. Department of 
State, and the Pacific States Marine Fisheries Commission. The Council 
receives advice at each meeting from a 20-member Advisory Panel, 
representing user groups, environmentalists, recreational fishermen, 
and consumer groups. A 15-member Scientific and Statistical Committee 
composed of highly respected scientists reviews all information and 
analyses and provides advice to the Council.
    The North Pacific Council conducts a transparent public process by 
incorporating diverse views into its decision making, and ensuring open 
public debate regarding the best paths to follow when making difficult 
decisions. The North Pacific Council accepts public comment at all 
meetings on all issues addressed, and the Plan Teams, Advisory Panel, 
and Scientific and Statistical Committee also receive issue-specific 
public testimony. In addition, the Council appoints working committees 
with representation from industry sectors, environmental organizations, 
and other constituents to provide recommendations on specific issues. 
These committees often rely on management expertise and scientific 
input from NMFS and other management agency staff and scientists. This 
committee process is critical to the Council's development of fishery 
management measures and provides an additional level of stakeholder 
input on all decisions.
    NMFS maintains effective partnerships with the North Pacific 
Council, Alaska Department of Fish and Game, International Pacific 
Halibut Commission, Pacific States Marine Fisheries Commission, U.S. 
Fish and Wildlife Service, and U.S. Coast Guard. These partnerships 
help us ensure that management decisions are based on sound science and 
can be effectively monitored and enforced.
    NMFS is considering a wide range of potential amendments to the 
Magnuson-Stevens Act, and plans to prepare a formal package of 
Amendments. We have learned many things from our experiences here in 
Alaska that can help us achieve similar management successes in other 
areas of the country as we move forward with reauthorizing the 
Magnuson-Stevens Act. I would like to focus on a few key areas today--
ecosystem approaches to fisheries management; market-based management 
systems (specifically, dedicated access privilege (DAP) programs); and 
use of the best available scientific information.
Ecosystem Approaches to Fisheries Management
    The U.S. Ocean Action Plan endorses an ecosystem approach to 
management. The plan states that ``the Administration will continue to 
work toward an ecosystem-based approach in making decisions relating to 
water, land, and resource management in ways that do not erode local 
and State authorities and are flexible to address local conditions.'' 
The 1996 amendments to the Magnuson-Stevens Act--particularly the 
provisions relating to bycatch and essential fish habitat--laid the 
groundwork for Ecosystem Approaches to Fisheries (EAF). NOAA has 
identified three large marine ecosystems off Alaska: the Arctic, the 
Bering Sea and Aleutian Islands, and the Gulf of Alaska. The North 
Pacific Fishery Management Council is advancing fishery management to 
address principles of EAF, which focus on ecosystem considerations in 
fishery management decisions as well as in the broad context of entire 
ecosystems and the relative role of all activities occurring within 
them.
    Because not all necessary scientific information is ever available, 
an ecosystem approach must be implemented incrementally. Our approach 
in the North Pacific includes single species management and 
exploitation models used to establish target and nontarget species 
harvest quotas that conserve the stocks. For example, quotas currently 
are managed through an extensive in-season catch monitoring program 
that documents total catch relative to established quotas; when quotas 
are reached, fisheries are closed. But scientists have developed and 
currently are testing whole ecosystem models to assess fishing impacts 
on patterns of energy flow in large marine ecosystems. These models 
provide descriptions of the food web and may be useful in evaluating 
ecosystem-level harvest limits.
    The North Pacific management program includes gear and season-
specific closures totaling approximately 150,000 nm2 to protect habitat 
and protected species stocks. These areas have been closed to fishing 
to minimize fishery interactions with Steller sea lions, reduce impacts 
on sensitive habitat important to crab, or to eliminate fishing gear 
impacts in areas with deep-water coral concentrations. The North 
Pacific Council, in consultation with NMFS scientists and managers, 
closed certain areas to the pollock, Pacific cod, and Atka mackerel 
fisheries to minimize impacts on Steller sea lions; refinements to 
Steller sea lion protection measures are ongoing. A comprehensive 
seabird bycatch reduction program has been implemented that includes 
education, outreach, and mandatory seabird avoidance measures.
    Bycatch controls always have been a facet of the fishery management 
plans for the Alaska fisheries. They originally focused on fully 
utilized species taken incidentally in the groundfish fisheries, such 
as halibut, salmon, crab, and herring. However, the Council is now 
expanding its focus to address management of non-target species taken 
incidentally in the groundfish fisheries (e.g., sculpins and other 
species taken in fisheries but not retained for sale). Since the mid-
1990s, measures to address overall discard amounts and increase 
utilization of catch in the groundfish fisheries resulted in a dramatic 
reduction in discard rates, from 17 percent in 1993 to less than 7 
percent by 2002.
    Habitat protection will be expanded significantly when NMFS 
completes the rulemaking process within the next year to implement 
extensive new closed areas in the Aleutian Islands and Gulf of Alaska 
recently endorsed by the Council to protect Essential Fish Habitat 
(EFH). The Council's EFH action is noteworthy for several reasons.
    <bullet>  The scale is unprecedented. The new EFH measures include 
nearly 300,000 square nautical miles of areas closed to bottom 
trawling, some of which will be closed to other bottom-tending mobile 
gear and fixed gear.
    <bullet>  The Council adopted these new closures as a precaution. 
The best available information indicates that fishing in Alaska has no 
more than minimal adverse effects on EFH, but NMFS' analysis noted 
considerable scientific uncertainty. The Council chose to protect 
relatively undisturbed habitats to guard against potential problems for 
sustainable fisheries in the future.
    <bullet>  These closures have broad support from both the fishing 
industry and environmental groups, demonstrating again that compromise 
and consensus can be achieved through the Council process.
    <bullet>  The Council adopted a site-specific approach for 
identifying Habitat Areas of Particular Concern (HAPCs) within EFH. Our 
experience in Alaska suggests that HAPCs are a useful tool for 
prioritizing especially valuable and/or vulnerable portions of EFH for 
conservation and management.
    Although progress has been made toward an integrated ecosystem 
approach to management in the North Pacific, much work remains to fully 
understand biological, climate, and habitat interactions. New studies 
are required to move forward with ecosystem approaches. NMFS scientists 
are poised to pursue research that would provide new information to 
better enable managers to integrate ecosystem approaches to fishery 
management. This work will focus on developing spatially explicit 
resource assessment models for predicting recruitment, abundance, and 
species interactions by region and by season. These expanded programs 
will help us evaluate resource responses to harvest at local scales, 
assess the impact of fishing on the foraging success of seabirds and 
marine mammals, and improve the information upon which management 
decisions are based. Efforts to identify the scientific, social, 
economic, and policy issues associated with an adaptive, incremental 
approach to ecosystem management will also greatly enhance our ability 
to manage fisheries.
    Pilot programs may help assess information needs for EAF and the 
associated costs. The North Pacific Fishery Management Council is 
considering a pilot program in the Aleutian Islands area that would 
test the use of a Fishery Ecosystem Plan to inform Council decision 
making under the existing fishery management plans. NMFS, the Council, 
and the State of Alaska are also discussing the possibility of an 
ecosystem council or other form of regional collaboration to integrate 
considerations from various ocean uses (e.g., fisheries, marine 
transportation, and oil and gas development).
Market-Based Management Systems
    The U.S. Ocean Action Plan also promotes a partnership under which 
we will ``work with regional fishery management councils to promote 
greater use of market-based systems for fisheries management.'' The DAP 
programs can mitigate overfishing and overcapacity, as well as 
contribute to the economic well-being of the marine fishery sector. The 
Alaska programs--specifically those developed for Alaskan groundfish, 
Pacific halibut, sablefish, and crab fisheries--are examples of DAP 
programs that can be used to develop these approaches nationwide.
    NOAA has committed to develop, in consultation with the regional 
fishery management councils and interested parties, national standards 
and guidelines for the implementation of individual fishing quota (IFQ) 
programs. These guidelines will draw on the 1999 congressionally 
mandated report by the National Research Council, Sharing the Fish: 
Toward a National Policy on Individual Fishing Quotas, as well as the 
ongoing discussions on standards and requirements for DAPs.
    In partnership with the North Pacific Council, we implemented the 
IFQ program for Pacific halibut and sablefish in 1995. Recently, we 
provided coastal communities the opportunity to purchase quota share or 
IFQ to enhance fishery-based revenues generated by local residents. 
Fishing cooperatives have successfully rationalized the Bering Sea 
pollock fishery under the American Fisheries Act. We are in the midst 
of implementing a sophisticated Alaska crab rationalization program 
that includes harvester and processor quota shares, community quotas, 
and fishing cooperatives. The North Pacific Council is considering a 
Gulf of Alaska groundfish rationalization plan that would also include 
a number of distinct DAP programs. The direct allocations of groundfish 
and crab to the Western Alaska Community Development Program has proven 
very successful in generating revenue for western Alaska coastal 
communities and providing for a sustainable fishery-based economy.
    During the past several years, we have worked closely with the U.S. 
General Accountability Office in its studies of various IFQ-related 
issues. This collaboration, as well as experience here in Alaska and 
elsewhere, has helped us refine our views on how to develop and 
administer these programs. Any national guidelines promoting DAP 
programs should provide flexibility to regional fishery management 
councils and to NMFS to tailor these programs to the specific needs of 
the regional fisheries. While the Alaskan programs have been 
successful, and provide important lessons for the rest of the nation, 
they may not be applicable to specific regional, social, economic, and 
fishery conditions in other parts of the country. These programs must 
balance the program's complexity and cost with its overall objectives. 
Existing Magnuson-Stevens Act authority for cost-recovery programs can 
result in insufficient revenue for sustained management and enforcement 
of complex DAP programs. We are considering ways to ensure that 
sufficient revenue is available to manage the DAP programs 
appropriately.
Best Available Scientific Information and Other Data
    The U.S. Ocean Action Plan also commits NOAA to ``establish 
guidelines and procedures for the development and application of 
scientific advice for fisheries management decisions.'' The 
Administration supports the use of independent peer-reviewed science in 
resource management decisions. We are considering several Magnuson-
Stevens Act amendment proposals relating to the collection and use of 
best available scientific information. Scientific information and 
advice is integral to the resource management decisions undertaken by 
NMFS in partnership with the regional fishery management councils.
    Ongoing success of the North Pacific management programs will 
continue to rely on the science-based and precautionary policy 
directions historically embraced by the North Pacific Fishery 
Management Council. This responsiveness is reflected in four 
fundamental components of our decision making process:
    1.  Promotion of a strong research program;
    2.  Acceptance of the best available science as a foundation for 
establishing conservative fishery harvest quotas and for conservation 
measures necessary to protect listed species or their critical habitat 
under the Endangered Species Act;
    3.  An extensive in-season catch monitoring program that relies on 
timely observer data, accurate catch weight measurements for at-sea and 
shoreside processors, and an electronic catch reporting system that 
ensures we will not exceed established quotas; and
    4.  A transparent public process.
    NMFS also is working to improve our marine resource survey 
capability and our capacity to develop stock assessments. In 2001, the 
National Task Force for Improving Fish Stock Assessments, composed of 
senior stock assessment scientists from each NMFS science center, 
issued the Marine Fisheries Stock Assessment Improvement Plan. This 
report continues to serve as NMFS' principal roadmap for enhancing and 
modernizing programs for data collection, data management, stock 
assessments, and supporting scientific research. The stock assessments 
on which annual quotas for North Pacific groundfish, crab, and halibut 
are based rely on extensive stock assessment surveys and sophisticated 
stock assessment models used by NMFS, the State of Alaska, academia, 
and International Halibut Commission scientists.
    Observers deployed on-board fishing or processing vessels and at 
shoreside processing facilities are an additional source of important 
information. For NMFS and the public to have confidence in this 
information, it must be of high quality and free from bias. The North 
Pacific groundfish observer program is the largest in the nation with 
over 36,000 observer days per year. Costs of observer deployment for 
the North Pacific fisheries are borne by the industry and currently 
total about $13 million annually; an additional $3 million in federal 
funding is required each year to support the costs of administering the 
observer program and the data collected by observers. Although coverage 
is extensive, we are studying ways to improve the coverage and 
effectiveness of our on-board and shoreside fisheries observers in this 
and other observer programs.
    We are considering proposals that would give the regional 
management councils and NMFS broader authority to collect social and 
economic data, including cost and revenue data. Collecting this 
information from shoreside fish processors, under appropriate 
confidentiality standards, would allow us to conduct more meaningful 
social and economic analyses of the potential impacts of fishery 
regulations. This information will enable NMFS and the regional fishery 
management councils to conduct better regulatory assessments, in 
particular those concerning the impacts of proposed measures on fishing 
communities, small business enterprises, and processors. This 
information also will allow NMFS and the councils to assess the effects 
of programs that have been implemented and determine whether 
refinements or adjustments should be made to address unintended impacts 
on various sectors or constituencies. The North Pacific Fishery 
Management Council used this approach to develop an economic data 
collection program for Bering Sea/Aleutian Island crab harvesters and 
processors as part of its comprehensive rationalization program for 
this fishery. Implementation of this program required special 
legislation.
    To properly incorporate the best available science into our 
management process, the Councils need to rely on our Scientific and 
Statistical Committees (SSC) to review all biological and socioeconomic 
information used in decision making. We believe the structure and 
breadth of expertise on the North Pacific Fishery Management Council's 
SSC allows science-based decision making to govern the management of 
our nation's natural resources. NMFS will continue to play a key role 
in providing the best possible scientific information, and supports the 
use of peer-reviewed science in resource management decisions.
Enforcement Issues
    At-sea and shoreside catch monitoring programs are in place to 
ensure that fishery restrictions are honored. These programs include 
timely reporting of total catch by species, and vessel monitoring 
system (VMS) requirements in some fisheries to monitor closed or 
restricted areas. VMS is an excellent enforcement tool because it 
provides remote monitoring of vessel positions in relation to 
regulatory areas and maritime boundary lines. We rely on the 
complementary enforcement efforts of NOAA, state enforcement agencies, 
and the U.S. Coast Guard, both in the fishing grounds and dockside.
    We are considering a number of amendments to the Magnuson-Stevens 
Act to enhance the effectiveness of fisheries law enforcement. In 
Alaska, tools such as broader application of VMS and cooperative state-
federal enforcement programs are used to achieve enforcement, 
management, and safety objectives. Incorporating existing technology 
and leveraging strong enforcement partnerships are becoming more and 
more important to mitigate the greater number of resources needed to 
enforce new fisheries regulations.
Conclusion
    Mr. Chairman, thank you for the opportunity to discuss the North 
Pacific fishery management programs as we undertake reauthorization of 
the Magnuson-Stevens Act. Alaska is fortunate to have large areas of 
relatively pristine habitat that support bountiful and sustainable fish 
harvests. That said, management of the North Pacific has benefited from 
adherence to the best available science in developing prudent and 
precautionary approaches to the management of marine resources. Our 
emerging focus on ecosystem approaches to fisheries management and 
dedicated access privilege programs will rely on research and sound 
science to support increasingly complex conservation and management 
programs. In addition, we want to continue our work with all 
stakeholder groups to achieve a collaborative consensus-building forum. 
Such partnerships will become increasingly important as new interests, 
perspectives, and knowledge are incorporated into an ecosystem approach 
to management.
                                 ______
                                 
    Mr. Gilchrest. Admiral Olson.

            STATEMENT OF REAR ADMIRAL JAMES OLSON, 
       COMMANDER OF THE SEVENTEENTH COAST GUARD DISTRICT

    Admiral Olson. Good morning, Mr. Chairman, Congressman 
Young. I am Rear Admiral Jim Olson, Commander of the 
Seventeenth Coast Guard District. Thank you for the opportunity 
to appear before you today as the Coast Guard's----
    Mr. Gilchrest. Admiral, can I interrupt you? Can you hear 
in the back?
    [Inaudible reply.]
    Mr. Gilchrest. What's happened to the mikes? Are they on?
    [Inaudible reply.]
    Mr. Gilchrest. OK. Or pull a little closer, because I don't 
think they can hear you back there. I hear--I look, people 
going like this, so that's the first clue I had. 
    Admiral Olson. Yes, sir. I am Rear Admiral Jim Olson, 
Commander of the Seventeenth Coast Guard District. Thank you 
for the opportunity to appear before you today to discuss the 
Coast Guard's fisheries enforcement role in Alaska in support 
of the Magnuson-Stevens Act.
    I'd like to start by providing you with a snap shot of 
Coast Guard operation in Alaska today. In the Bering Sea the 
Cutter ALEX HALEY is patrolling the US/Russian Maritime 
Boundary Line. Cutter ACHUSNET is refueling in Dutch Harbor and 
will soon be patrolling the Gulf of Alaska. And the Cutter 
JARVIS is in the North Pacific participating in multi-national 
illegal, unreported, and unregulated fishing operations. Two 
patrol boats are underway in Homeland Security missions, and 
one is conducting halibut IFQ enforcement. There are also a 
number of aircraft flights today in support from cutters--that 
support the cutters. One will embark on a National Marine 
Fisheries service agent from Kodiak.
    The Coast Guard is firmly committed to providing at-sea 
enforcement in support of the Magnuson-Stevens Act. We 
recognize that the health of our fisheries is of considerable 
national importance, and as the District Commander responsible 
for Coast Guard operations in Alaska, I am keenly aware of the 
significance of fisheries to the residents of this state. 
Effective fisheries enforcement means preventing illegal 
encroachments on the U.S. EEZ, and insuring compliance with 
both domestic fisheries regulations and relevant international 
fishery agreements.
    My job is to implement this national Coast Guard policy in 
Alaska. To protect the EEZ, we patrol our maritime boundaries 
with both Russia and Canada. These are my top fishery law 
enforcement priorities and incursions in both of these areas 
have trended downward in recent years.
    Our domestic fisheries have seen major changes in the past 
decade. Regulatory regimes are increasingly complex, closed 
areas have expanded and in an order of magnitude. And a 
movement toward rationalization continues to lengthen fishing 
seasons. These factors all placed increased demands on 
enforcement resources. Coast Guard supports rationalization 
programs, as they provide safer working conditions. However, 
they also require increased enforcement efforts.
    We also patrol areas outside our EEZ to monitor compliance 
with international fishery agreements such as Central Bering 
Sea Pollock Convention and the North Pacific Anadromous Fish 
Commission.
    Another important component of our fisheries program is 
safety. Commercial fishing is the deadliest occupation in the 
nation. In D17 we have a robust prevention, enforcement, and 
response programs. As a result, long-term trends show a 
decrease in casualties. Essentially the Coast Guard ensures 
vessels are fishing when, where, and how they're allowed by 
domestic and international law. This takes an active patrol 
presence by our largest and most capable cutters and aircraft. 
This is becoming more of a challenge as our cutters continue to 
experience increased mechanical failures. However, a number of 
initiatives are underway to improve our effectiveness.
    Strong partnerships, the use of technology, and world class 
fisheries training program, new maritime security assets, and 
most importantly integrated Deepwater system will greatly 
contribute to our fisheries mission here in Alaska. Coast Guard 
enjoys and values the excellent relationships with the North 
Pacific Fisheries Management Council, the National Marine 
Fisheries Service, the State of Alaska, and the fishing 
industry. We have also developed solid working relationships 
with our international Pacific Rim partners. To leverage 
technology we are promoting the expanded use of the VMS to 
better monitor compliance with the ever growing regulations and 
closed areas. And our fisheries training center in Kodiak has 
been key to enforcing the increasingly complex management 
programs. Our greatest gains will come from new capability 
provided by the Maritime Safety and Security Teams, and more so 
Deepwater.
    MSST Anchorage was commissioned late last year and has 
already begun to conduct security missions throughout the 
state, such as cruise ship escorts in Southeast Alaska, and 
security patrols in Valdez. Thus, freeing our patrol boats to 
perform more fisheries enforcement. However, most at sea Alaska 
fisheries enforcement is conducted by Deepwater assets. Major 
cutters and aircraft are the centerpiece of our presence in the 
North Pacific and the Bering Sea. But continue to face severe 
readiness challenges. The two oldest cutters in fleet are both 
homeported in Alaska and slated for decommissioning in the not 
to distant future. The scheduled replacement of these cutters 
is in jeopardy if Deepwater funding is reduced. 
    The Coast Guard greatly appreciates your support over the 
years and asks you to support the President's current Deepwater 
funding request. With respect to the Magnuson-Stevens 
reauthorization, fisheries management in Alaska is a success 
story. Fish stocks are healthy and there is a commitment to the 
resource from managers, industry, and enforcement. This is in 
and of itself fosters compliance, and therefore facilities our 
job.
    Our role on the Council is to provide expert advice on at 
sea enforcement and vessel safety. Nevertheless we can and do 
influence regulations, we value this role and take this 
responsibility seriously. Coast Guard efforts would benefit 
from an expanded use of VMS for national security purposes 
currently restricted by confidentially provisions in the Act. 
This will greatly improve our maritime domain awareness.
    In closing, the Coast Guard has always been a welcome 
partner at the North Pacific Fisheries Management Council, and 
our recommendations are carefully considered. We care committed 
to maintaining this partnership into the future, and thank you 
for the opportunity to discuss this important issue with you 
today. I'd be happy to answer any of your questions.
    [The prepared statement of Rear Admiral Olson follows:]

Statement of Rear Admiral James C. Olson, Commander, Seventeenth Coast 
   Guard District, U.S. Coast Guard, Department of Homeland Security

    Good morning, Mr. Chairman and distinguished members of the 
subcommittee. I am Rear Admiral James Olson, Commander of the 
Seventeenth Coast Guard District. Thank you for the opportunity to 
appear before you today to discuss the Coast Guard's fisheries 
enforcement role in Alaska in support of the Magnuson-Stevens Fisheries 
Conservation and Management Act.
    The Coast Guard is firmly committed to providing at-sea enforcement 
in support of the Magnuson-Stevens Act and national goals for living 
marine resource conservation and management. The Coast Guard recognizes 
that the economic and biological health of our fisheries is of 
considerable national importance, and as the District Commander 
responsible for Coast Guard operations in Alaska, I am keenly aware of 
the significance of fisheries to the residents of Alaska. Alaskan 
fisheries provide a livelihood for a large commercial harvesting 
industry, subsistence for Alaskans, a product for consumption by the 
American public, and recreational opportunities for countless Alaskans 
and visitors alike. The Magnuson-Stevens Act embodies the principle 
that we all have a collective responsibility to exercise good 
stewardship over these valuable resources and that the various 
stakeholders should be part of the process that seeks to achieve that 
stewardship. The Coast Guard is committed to support these management 
goals by providing effective enforcement and by participating in the 
process every step of the way.
Coast Guard Living Marine Resource Enforcement
    The Coast Guard's long-range mission is, ``To provide effective and 
professional enforcement to advance national goals for the conservation 
and management of living marine resources and their environment.'' To 
accomplish this, we have established three objectives:
    <bullet>  Prevent illegal encroachments of the U.S. Exclusive 
Economic Zone (EEZ) and internal waters by foreign fishing vessels.
    <bullet>  Ensure compliance with domestic living marine resource 
laws and regulations within the U.S. EEZ by U.S. fishers.
    <bullet>  Ensure compliance with international agreements for the 
management of living marine resources.
    As the operational commander responsible for all Coast Guard 
operations in Alaska, my job is to turn the national Coast Guard policy 
outlined above into at-sea enforcement that takes into account the 
regional characteristics of fisheries. To prevent illegal encroachments 
of the U.S. EEZ, Coast Guard cutters and aircraft in Alaska patrol both 
the U.S./Russian Maritime Boundary in the Bering Sea and the U.S./
Canadian Maritime Boundary in Dixon Entrance. These are my top fishery 
law enforcement priorities, and incursions in both these areas have 
trended downward in recent years. We attribute this to a number of 
factors including a robust enforcement presence, strong partnerships 
with our counterparts in Russia and Canada, as well as declining fish 
stocks in the Russian and Canadian EEZs near U.S. maritime borders. The 
threats on both borders have seasonal changes and activity may vary 
from year to year, but protecting the sovereignty of Alaska's maritime 
boundaries requires significant resources and a near full time Coast 
Guard presence during peak activity periods that may last several 
months. Of the two boundaries, the U.S./Russian Maritime Boundary is 
more resource intensive to enforce due to its remote location, extreme 
weather conditions, and high level of activity which starts in mid-May 
and can continue through December.
    Domestic fisheries in Alaska are where the Coast Guard exerts most 
of its effort in support of the Magnuson-Stevens Act. In the past 
decade, Alaskan fisheries have seen major changes. Regulatory regimes 
continue to grow increasingly complex, closed areas have expanded by 
over an order of magnitude encompassing hundreds of thousands of square 
miles, and a movement toward rationalization continues to lengthen 
fishing seasons, while also reducing the number of search and rescue 
missions. These factors all place changing demands on fisheries 
enforcement and require new approaches.
    Regulations in the North Pacific are vast and complex. There are 
over 300 federal time, area, and species openings and closings per 
year. Vast portions of the EEZ in Alaska are closed for habitat 
conservation, protected species, or by-catch management. These areas 
are most often in or adjacent to historical fishing grounds requiring 
close monitoring. This includes a recent proposal to close 279,000 
square miles in the Aleutian Islands. The Coast Guard is essentially 
required to ensure vessels are fishing when, where and how they are 
permitted to by law. This takes an active patrol presence by our 
largest and most capable cutters and aircraft.
    Nearly every fishery in Alaska is either currently rationalized or 
is on the North Pacific Fishery Management Council (NPFMC) agenda to be 
rationalized within the next five years. The Coast Guard supports these 
rationalization programs as they provide safer working conditions, 
afford fishermen more latitude in when they fish, and thus avoid harsh 
weather conditions. However, rationalized fisheries have different 
requirements for enforcement than traditionally managed fisheries. For 
example, in the first rationalized fishery in Alaska, and the largest 
Individual Fishing Quota (IFQ) program in the world, the halibut/ 
sablefish IFQ fishery expanded from a few days to an eight month long 
season. While the number of Search and Rescue cases has dropped 
dramatically, these particular fisheries require a much longer 
enforcement season.
    Coast Guard Cutters and aircraft also patrol areas outside the U.S. 
EEZ to monitor compliance with international agreements for the 
management of marine resources. Important examples include the Central 
Bering Sea (``Donut Hole'') Pollock Convention and the North Pacific 
Ocean in support of the United Nations' worldwide moratorium on large-
scale high seas pelagic drift net (HSDN) fishing. The Coast Guard works 
closely with the North Pacific Anadromous Fish Commission (NPAFC) to 
coordinate international enforcement efforts in a threat area covering 
over one million square miles. The Coast Guard in Alaska also 
participates in the North Pacific Heads of the Coast Guard forum that 
has a working group dedicated to high seas fishery enforcement issues 
around the Pacific Rim.
    This period of growth in our fisheries enforcement mission in the 
post 9/11 operating environment requires a balance of cutters and 
aircraft to meet myriad mission demands with aging legacy assets. Some 
of the challenges of the aging fleet are that our cutters continue to 
experience more and more lost operational days due to mechanical 
failures. However, there are a number of long and short-range 
initiatives underway to improve our effectiveness and mitigate the 
reduced hours dedicated to fisheries enforcement.
    Strong partnerships with other agencies, the use of technology, a 
world-class fisheries training program, new maritime security assets, 
and most importantly the development and implementation Integrated 
Deepwater System will greatly contribute to our effectiveness in 
Alaskan fisheries enforcement.
    Strong Partnerships: Effective living marine resource management 
and enforcement requires a team effort. In Alaska, the Coast Guard 
enjoys and values excellent relationships with the NPFMC, National 
Marine Fisheries Service (NMFS), National Oceanic and Atmospheric 
Administration, the United States Attorney, the State of Alaska, and 
the fishing industry. We have also developed solid working 
relationships with our Pacific Rim partners in Russia, Japan, South 
Korea, China, and Canada to help thwart illegal fishing on the high 
seas. This summer, the USCGC JARVIS is participating in a multilateral 
effort involving all these countries to combat illegal, unreported and 
unregulated (IUU) fishing in the North Pacific. This operation will 
also set the stage for multilateral cooperation in other mission areas 
such as migrant interdiction, counter narcotics, and maritime security.
    Use of Technology: To better leverage existing technology, the 
Coast Guard is promoting the expanded use of VMS in Alaska fisheries. 
This will allow us to better monitor compliance with the ever-growing 
regulatory regimes and expansive closed areas. VMS can also benefit 
resource managers and has been used a number of times in SAR cases. As 
new sweeping fishery management programs are being developed, new tools 
for enforcement need to be developed as well. Existing technologies 
such as VMS, electronic logbooks and video monitoring all have 
potential applications as fishery enforcement tools that can help 
mitigate some of the enforcement challenge of complex fishery 
regulations that occur over an enormous space in Alaska. A good example 
is the VMS provisions required under the new crab rationalization 
program. Crab rationalization will likely take what has recently been a 
one-week fishery and expand it to several months and distribute fishing 
effort over a much larger area. VMS will be a critical component in 
helping to ensure the safety of its participants, and to ensure 
compliance with this extremely valuable fishery.
    Fisheries Training: The Coast Guard's North Pacific Regional 
Fisheries Training Center (NPRFTC) in Kodiak has been a key component 
in training Coast Guard boarding officers in these increasingly complex 
regulations. At the start of each major cutter patrol, the Center 
provides just-in-time training in the specific fisheries the cutter 
will enforce throughout their patrol. NPRFTC also deploys instructors 
with the cutters to reinforce the training provided and to assist with 
actual boardings. Imperative to the great success of the Training 
Center is the ongoing enthusiastic participation of the fishing 
industry, NMFS, and other federal/state partners in the training 
process.
    New Maritime Security Assets: What will have the greatest impact on 
our ability to continue to provide effective enforcement in Alaska 
fisheries is the new capability that comes with the Maritime Safety and 
Security Teams (MSST) and most significantly, the Integrated Deepwater 
System. MSST Anchorage was commissioned earlier this year and has 
already begun to execute a number of Ports Waterways and Coastal 
Security missions throughout the State; missions previously 
accomplished by our cutters and small boats. For example, to date, the 
MSST has conducted over 50 cruise ship escorts, provided several weeks 
of harbor patrols in Valdez, and provided security for a military out 
load in Anchorage. This has allowed my patrol boats to focus more 
effort on fisheries enforcement.
    Deepwater: at-sea fisheries enforcement is conducted by the Coast 
Guard Deepwater assets. The Deepwater program will modernize our aging 
and obsolete legacy cutters, aircraft, and C4ISR systems, greatly 
increasing the Coast Guard's Deepwater mission performance and 
awareness within the maritime domain. Deepwater has never been more 
relevant for conducting Coast Guard operations, and in this case the 
fisheries enforcement in a vast and often harsh environment. Despite 
notable successes, of which there are many, there are areas of concern 
that warrant continued focus and attention. Most notably is the 
continuing readiness struggle of our Deepwater fleet. Our major cutters 
and aircraft are the centerpiece of our maritime presence in the North 
Pacific and Central Bering Sea. These assets are continuing to face 
severe maintenance and readiness challenges that, when combined with an 
increased post-9/11 operations tempo, impair the Coast Guard's ability 
to ensure effective enforcement presence in all areas of concern. Any 
reduction in Deepwater funding will result in operational capacity 
going away faster than it can be replaced. The two oldest cutters in 
the fleet are both home ported in Alaska and are slated to be 
decommissioned in the not-too-distant future and replaced with new 
Deepwater cutters. The scheduled replacement of these cutters is in 
jeopardy if Deepwater funding is reduced below the President's 
requested levels. Without the requested funding, the acquisition and 
thus current and future Coast Guard readiness and ability to perform 
at-sea fisheries enforcement is put at substantial risk. The Coast 
Guard greatly appreciates your support over the years and asks for your 
continued support of The President's Deepwater funding request of $966M 
in Fiscal Year 2006.
Magnuson-Stevens Reauthorization
    The fisheries management system is working well in Alaska. 
Federally managed stocks in Alaska are healthy and there is a 
commitment to the resource from managers, industry and enforcement 
agencies alike. The open public process and culture of science and 
conservation that exists in the North Pacific guides the decisions of 
the Council. This in and of itself fosters compliance, and therefore, 
facilitates the job of the Coast Guard. The Coast Guard routinely 
provides comment throughout the development of management measures and 
regulations regarding both enforcement and safety, but remains neutral 
to allocation issues and specific conservation and economic objectives. 
Our role in the Council process is to provide expert advice on the 
operational realities of at-sea law enforcement and vessel safety 
during the development of various management measures and alternatives. 
Nevertheless, the Coast Guard can and does influence the development of 
regulations. Our participation as a non-voting member on the regional 
councils is the starting point of effective enforcement. We value this 
role and take this responsibility very seriously.
    The Administration is considering a number of amendments to the 
Magnuson-Stevens Act to enhance the effectiveness of fisheries law 
enforcement. In Alaska, tools such as broader application of VMS and 
cooperative state-federal enforcement programs are used to achieve 
enforcement, management, and safety objectives. Incorporating existing 
technology and leveraging strong enforcement partnerships are becoming 
more and more important as the requirements for fisheries enforcement 
change in response to changes in fisheries regulations and other law 
enforcement demands.
Closing
    Federal fisheries management, through the work of the North Pacific 
Council, is a collective success story. The Coast Guard has always been 
a welcome partner at the NPFMC and our recommendations regarding 
enforcement and safety are always carefully considered. Fishery 
management in the North Pacific continues to be successful because the 
three core components of sound management, use of the best available 
science and effective enforcement are part and parcel of every 
management measure. We look forward to and are committed to maintaining 
this effective partnership into the future.
    Thank you for the opportunity to discuss this important issue with 
you today. I will be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Admiral Olson. The sound from the 
microphones is at maximum right now. So I would just ask the 
witnesses, if the could to speak directly into the microphones 
so those in the rear can hear a little more clearly. Thank you, 
Admiral Olson. Mr. Bedford.

 STATEMENT OF DAVID BEDFORD, DEPUTY COMMISSIONER OF FISHERIES, 
               ALASKA DEPARTMENT OF FISH AND GAME

    Mr. Bedford. Good morning Mr. Chairman and Congressman 
Young. For the record, my name is David Bedford. I serve as 
Deputy Commissioner of the Alaska Department of Fish and Game. 
I also serve as the Commissioner for the State of Alaska on the 
Pacific Salmon Commission. I want to welcome you to Alaska and 
thank you for the opportunity to provide some comments on 
Alaska's stewardship of its bountiful fishery resources. The 
Alaskan approach to fishery management is grounded on 
obligations set in the State Constitution, requiring management 
of fish and wildlife to provide for sustained yield and 
reserving fish and wildlife for the common use of the people. 
Management responsibility is divided between the Department of 
Fish and Game and a seven-member Board of Fisheries. The Board 
is charged with developing management plans that provide for 
resource conservation and allocate harvest among sport, 
personal use, commercial, and subsistence fisheries. The 
department is charged with conducting research, monitoring 
resource status, and with managing harvest consistent with the 
management plans developed by the board.
    Federal waters fisheries are subject to regulation under 
the Magnuson-Stevens Fisheries and Conversation Management Act. 
With the North Pacific Fishery Management Council responsible 
for developing fishery management plans. NOAA Fisheries is the 
principal management agency, but the management of many Federal 
waters fisheries is delegated in substantial measure to the 
State of Alaska.
    The major turning points in the development of Alaska's 
fishery management were marked by events that increased local 
control. Prior to statehood Alaska's salmon fishery were 
managed by Federal agencies in Washington, D.C. Federal 
management of salmon was an unqualified failure. In 1953 
President Dwight Eisenhower declared a disaster in Alaska 
because salmon runs had declined precipitously. With statehood 
Alaska replaced distant disengaged Federal management with 
direct local hands on control. As a consequence Alaska's salmon 
runs were restored.
    The other significant turning point came in 1976 with the 
passage of the Magnuson-Stevens Act. With the creation of the 
North Pacific Fisheries Management Council, and consequent 
local control under Magnuson-Stevens, the Council instituted a 
management program with conservation and long term 
sustainability at the heart of that program. 
    Alaskan fisheries management is successful because it's 
based on a long term perspective seeking to conserve fishery 
resources for use both today and by succeeding generations. 
Alaska relies on a number of strategies. Management decisions 
provide first for resource conservation, and then for human 
use. In that fashion we provide for use across generations. 
Management is based on science, management is adaptive, it uses 
current information. Harvest allocation and resource management 
are held distinct. The public has a meaningful role in 
allocation of management decisions. One important distinction 
between management under the Magnuson Act and the state 
management program is the effect of litigation on fisheries 
management. While the state has comprehensive statutes 
governing the regulatory process, it is rare that the 
implementation of a management plan is delayed by litigation. 
In contrast the Council's regulatory process is often 
interrupted by litigation. Generally with claims asserting a 
procedural violation of the National Environmental Policy. This 
is unfortunate since the public process that the Council 
follows and the rigorous science that grounds Council actions 
satisfies the policies that underline NEPA and covers most of 
the substance of that Act as well.
    The success in maintaining abundant resources and viable 
fisheries in Alaska leads to the conclusion that Magnuson-
Stevens is, in many regards effective as written. Some 
provisions of Magnuson-Stevens Act are particularly important 
if we expect to continue this record of success. In particular 
the Council structure should be kept as is. With the Governor's 
making recommendations for Council appointments and the seats 
designated by statute left unchanged. There are also some 
amendments to the Act which would improve management.
    The Magnuson-Stevens Act, NEPA, and the Administrative 
Procedures Act all influence fisheries planning and program 
development. And sometimes create long delays in permitting and 
decisionmaking. This can be addressed by amending the Magnuson-
Stevens Act to deem Fisheries Management Plans to be the 
functional equivalent of the NEPA document. The Act should also 
be modified to authorize dedicated access privileges. The North 
Pacific Management Council has implemented successful fishery 
management programs, including Individual Fishing Quotas, 
cooperatives, and community development quotas. This should be 
in the toolbox for the Council's in the future.
    There should be a change in the definition of over fishing 
to acknowledge natural impacts. Currently there is not codified 
term for natural population declines. So the terms over fished 
and over fishing are used in all instances in which that 
occurs, regardless of cause.
    Perhaps the greatest challenge that the State of Alaska 
will face is preserving the active role that our state plays in 
fisheries management. As Congress considers reauthorization, 
the establishment of a national oceans policy and other 
relevant fishery related legislation. The State of Alaska's 
greatest challenge and highest priority will be to insure that 
Congress acknowledges our state's jurisdiction, considers our 
state's unique characteristics, recognizes our management 
successes, incorporates local knowledge in the management 
process, and fosters firm Federal, state partnerships. The 
driving force behind Alaska statehood was the opportunity to 
gain sovereign control over the management of our fisheries 
resources. The exercise of this sovereignty is responsible for 
the sustainability and success of our fisheries. As we discuss 
fishery policy at a national level, local control of the 
fisheries and fisheries resources is something that the state 
will seek to maintain. Thank you very much for the opportunity 
to speak. I'd be glad to answer any questions you have.
    Mr. Gilchrest. Thank you, Mr. Bedford.
    [The prepared statement of Mr. Bedford follows:]

           Statement of David Bedford, Deputy Commissioner, 
                   Alaska Department of Fish and Game

Introduction
    Good morning, Mr. Chairman. For the record, my name is David 
Bedford. I serve as Deputy Commissioner of the Alaska Department of 
Fish and Game focusing on fishery issues. I also serve as the 
Commissioner for the State of Alaska on the Pacific Salmon Commission, 
the body responsible for developing conservation and harvest sharing 
agreements for Pacific Salmon under a treaty between the United States 
and Canada. I am appearing on behalf of Governor Murkowski. He 
appreciates your invitation but was called away on other pressing 
business and asked that I appear on his behalf.
    I want to welcome you and the members of the Committee to Alaska 
and thank you for the opportunity to offer comments to the Committee on 
Alaska's stewardship of its bountiful fishery resources. Alaska's 
people depend on our fisheries as a source of livelihood, recreation 
and nutrition. Alaskans take advantage of our fishery resources in 
subsistence, commercial, sport and personal use fisheries. Over half of 
the total harvest of fish in the United States is taken from the waters 
off Alaska. Our fisheries support half of the jobs in Alaska fully or 
in part.
    I intend to address the questions raised by the committee in its 
letter inviting Governor Murkowski to testify. Management in Alaska is 
divided between state and federal waters. It is my understanding that 
the Committee has invited other witnesses who will speak directly to 
federal management under Magnuson Stevens so I will focus my comments 
on management under the state system.
I. Fishery Management in Alaska.
    Fishery management in Alaska is divided between federal waters 
fisheries and state waters fisheries with different bodies of law, 
management agencies, and regulatory authorities engaged in each.
    Alaskan fishery management is grounded on obligations set in the 
state constitution requiring management of fish and wildlife to provide 
for sustained yield and reserving fish and wildlife for the common use 
of the people. Thus, the constitution sets the standard for 
conservation of the resource with the objective of allowing for human 
use of that resource in perpetuity. To meet these basic obligations 
Alaska's founders divided management responsibility between the 
Department of Fish and Game and a seven member Board of Fisheries. In 
broad-brush strokes, the Board is charged with developing management 
plans that provide for resource conservation and allocate harvestable 
surplus among users. The department is charged with conducting 
research, monitoring resource status to generate the information 
necessary to support development of management plans and with managing 
harvest consistent with those management plans.
    The state's management program embraces an array of human uses 
including sport, personal use, commercial and customary and traditional 
subsistence fisheries. Subsistence, which accounts for a small 
percentage of the total harvest, is accorded a priority under state 
law. After providing for the subsistence opportunities, the Board of 
Fisheries allocates the remaining harvestable surplus among the other 
fisheries.
    The state manages a wide variety of fisheries with management plans 
in each region of the state that address specific fisheries for 
identified species. For example, the Alaska Administrative Code has 
nine management plans for the harvest of finfish in subsistence 
fisheries with the first applying to Kotzebue in Western Alaska and 
proceeding across the state to Southeast Alaska where we currently sit. 
Elsewhere, the code contains twelve management plans for the commercial 
harvest of salmon in the Bristol Bay region. Each area has a set of 
management plans that fit its unique set of fisheries and may cover 
salmon, herring, crab, black cod, rockfish, ling cod and a variety of 
other species.
    Federal waters fisheries are subject to regulation under the 
Magnuson-Stevens Fishery Conservation and Management Act with the North 
Pacific Fishery Management Council responsible for developing fishery 
management plans. NOAA Fisheries is the principle management agency but 
the management of many federal waters fisheries is delegated in 
substantial measure to the State of Alaska. This is not surprising 
since fish move freely between state and federal waters and the state 
had a fully developed management program for many of the species of 
concern to the Council and NOAA when the Magnuson-Stevens Act was 
adopted. The Council and Alaska Board of Fisheries collaborate in 
development of fishery management plans when the stocks and fisheries 
overlap their respective jurisdictions.
II. Major turning points in the development of fisheries management in 
        Alaska.
    The major turning points in the development of Alaska's fishery 
management were marked by events that increased local control. Prior to 
Statehood, in 1959, salmon fisheries were managed by federal agencies 
in Washington D.C. With statehood, Alaska gained local control of 
fishery management, replacing federal management with the state agency 
and Board of Fisheries. In 1976, with the passage of the Magnuson Act, 
the United States began to take control of fisheries in federal waters 
from 3 to 200 miles off shore and vested regulatory authority in the 
North Pacific Fishery Management Council, a body with a majority from 
Alaska.
    Federal management of salmon in Alaska was an unqualified failure. 
Under federal management, fishery seasons were set prior to the 
beginning of the fishery with little resource monitoring or in-season 
control of the fisheries. In 1953, President Dwight Eisenhower declared 
a disaster in Alaska because salmon runs had declined precipitously and 
at statehood in 1959 the total harvest had fallen to 25 million fish, 
the lowest catch since 1900.
    The crisis in the salmon fishery was one of the principle driving 
forces behind Alaska's efforts to secure statehood. Bill Egan, 
President of the Alaska Constitutional Convention put it succinctly in 
a message to the Delegates of the Convention, February 5, 1956:
        It is my very firm conviction that, in the immediate years 
        following the advent of statehood to Alaska, our fisheries 
        conservation problem will be solved. With local control of our 
        fisheries, the annual pack of salmon taken from territorial 
        waters will quickly take an upturn because conservation 
        policies would then be laid down by Alaskans intimately 
        familiar with the problem. ``the solving of the problem of 
        perpetuation of our great fisheries resource can only be 
        accomplished with the right to fully govern ourselves.
    With statehood, Alaska replaced distant, disengaged federal 
management with direct, local, hands-on control. Area management 
biologists were empowered to open and close fisheries based on the data 
collected during the fishery. Instead of establishing fishing periods 
at the beginning of the year, openings were modified weekly or even 
daily.
    While this approach introduced day-to-day uncertainty for fishermen 
and fish processors, it gave substantial assurance that conservation 
goals would be met thereby improving prospects for harvests in future 
years. With local control, sustained yield came first. As one 
management biologist put it, ``If you put too many salmon in the river 
and short changed the fishermen's harvest you could expect some pointed 
criticism. But if you put too many fish in the fishermen's nets and 
shortchanged the escapement you could expect to lose your job.''
    By the early 1980's, the salmon runs were restored and the 1990's 
saw a series of record harvests.
    The other significant turning point came with the implementation of 
the Magnuson-Stevens Fishery Conservation and Management Act (MSA) in 
1976. The MSA was intended to extend the United States' control over 
submerged lands and marine resources out to 200 miles off shore. MSA 
Americanized the offshore fisheries, which at the time, were controlled 
by foreign fishing fleets. It also established the fishery management 
councils, which created a substantial level of local control over the 
developing federal waters fisheries.
    Prior to the MSA, the foreign fleets had every reason to maximize 
harvest and no reason to support long-term conservation since harvests 
were not limited and any fish forgone by one vessel would likely be 
hauled in by someone else.
    As Ted Stevens observed:
        As a young Senator, I once went to Kodiak... and flew up to the 
        Pribilofs. As we flew up there we counted 90 factory trawlers 
        that were fishing out there during the winter. This was right 
        about the time of the Russian Christmas. We were appalled. I 
        sent them back to make some photographs of the decks of those 
        trawlers. There was everything on the decks from ocean mammals 
        to all types and species of fish. Many of the trawlers had a 
        hole in the center of the deck. They just shoved everything 
        in--there was a big grinder inside and everything that went 
        down the hole was ground up into meal. Being appalled about 
        that I went back and talked to my friend, Warren Magnuson, and 
        that was the beginning of the 200-mile limit legislation.
 Testimony of U.S. Senator Ted Stevens, U.S. Commission on 
 Ocean Policy, Alaska Regional Meeting, Anchorage, Alaska, 
                                            August 21, 2002
    With the creation of the North Pacific Fishery Management Council 
and the consequent local control under MSA, the council instituted a 
management program similar in many ways to that employed by the State 
of Alaska with conservation and long-term sustainability at the heart 
of its management program.
III. Strengths of Alaskan fisheries management.
    Alaskan fishery management is successful because it is based on a 
long-term perspective, seeking to conserve fishery resources for use 
both today and by succeeding generations. Alaska relies on a number of 
strategies in its management to achieve these ends:
    <bullet>  The resource comes first. To assure long-term use and 
sustained yield, management must begin by setting conservation 
objectives and control harvest to ensure that these objectives are met.
    <bullet>  Management is based on science. Fishery resources are 
studied to determine life history, long-term conservation requirements 
and harvests are set based on the resource that is surplus.
    <bullet>  Where possible, management is adaptive and uses current 
information. Alaskan managers monitor the fishery harvests and respond 
with fishery openings and closures or other modifications as new 
information becomes available. If there is no source of current 
information the harvest is set at conservative levels.
    <bullet>  Harvest allocation and resource management are distinct. 
The managers responsible for monitoring the fishery resource and making 
decisions on when and where the public can harvest must make objective 
decisions based on science and dictated by the status of the resource. 
Decisions on allocating the available harvest users should be and is 
decided by another body, the Board of Fisheries.
    <bullet>  The public has a meaningful role in allocation and 
management decisions. The resource allocation process conducted by the 
Alaska Board of Fisheries is open to the public with the issues debated 
and decisions made in public session. In addition, the Department of 
Fish and Game has established a number of advisory groups to help 
develop strategies to implement fishery management plans. Meaningful 
public involvement in resource management engenders support for 
resource conservation and helps in the development of harvest plans 
that increase efficient use.
    The management of federal waters fisheries is parallel in many 
regards. Harvests are established based on the best available science 
with caution increasing as the certainty of the data decreases. 
Furthermore, the activities of the council are kept distinct from that 
of scientific advisors with the council limiting harvests to levels 
below the maximum determined acceptable by the Scientific and 
Statistical Committee. As with state fisheries, management of the 
federal waters fisheries relies on in season catch monitoring with the 
fisheries closed as harvest levels are reached.
    A single important distinction between management under MSA and the 
state management program is the effect of litigation on fishery 
management. While the state has comprehensive statutes governing the 
regulatory process relatively few decisions of the Board of Fisheries 
are overturned in state court and it is rare that implementation of a 
management plan is delayed by litigation. In contrast the Council's 
regulatory process is often interrupted by litigation, generally a 
claim asserting a procedural violation of the National Environmental 
Policy Act (NEPA). This is unfortunate since the public process that 
the Council follows and the rigorous science that grounds Council 
actions satisfies the policies that underlie NEPA and covers most of 
the substance of the Act.
IV. Progress toward ecosystem-based approaches to fisheries management.
    The state management program takes ecosystem considerations into 
account both in the science underlying management and in the regulatory 
process. For example, the department generally manages salmon stocks 
for a biological escapement goal, that is, the number of salmon 
returning to a river that is necessary to provide for maximum sustained 
yield. Biological escapement goals, when calculated, take a holistic 
view toward identifying the escapement level, on average, that will, in 
perpetuity, provide these yields, given all other mortality to the 
stock, the ecological role of the stock and its function within the 
various ecosystems in which it is involved.
    While ecosystem management is a new and developing approach to 
fishery management, quite frankly the ecosystem factors of greatest 
impact in Alaska are large-scale environmental changes over which we 
have little influence and to which we can only react. For example, the 
cyclical changes in weather and water temperatures of the Pacific 
Decadal Oscillation have very substantial effects on the abundance and 
distribution of marine populations with consequent impacts on 
opportunities for human use.
    At the federal level, the North Pacific Fishery Management Council 
currently includes many ecosystem considerations in the development of 
fishery management plans. I understand that the Council has constituted 
a committee that is assessing how ecosystem management might be better 
incorporated into existing management process and is looking at 
developing a Fishery Ecosystem Plan for the Aleutians Islands.
V. Lessons from the North Pacific for the reauthorization of the 
        Magnuson-Stevens Act.
    The success in maintaining abundant resources and viable fisheries 
in Alaska leads to the conclusion that Magnuson- Stevens is, in many 
regards, effective as written. Some provisions of MSA are particularly 
important if we expect to continue this record of success:
    <bullet>  The Council structure should be kept as is, with the 
governors making recommendations for council appointments and the seats 
designated by statute left unchanged. Local knowledge and local control 
of the fisheries is one of the keys to the success of management at 
both the federal and state levels.
    <bullet>  Science is the firmament on which management stands. 
Therefore, the Act should maintain the use of credible science with a 
clear separation between resource assessment and allocation by 
utilizing an independent Scientific and Statistical Committee.
    <bullet>  The North Pacific Fishery Management Council has proved 
to be an effective steward of the marine resources. Consequently, the 
Act when reauthorized, should continue to support the council process 
by:
        1.  Maintaining current authority of the Council to address 
        cold water corals/fisheries interaction issues through fishery 
        management plans and Essential Fish Habitat (EFH) provisions.
        2.  Maintaining current authority of the Council to regulate 
        Marine Protected Areas (MPAs) through Fishery management plans.
        3.  Maintain ``rollovers'' of Fisheries Management Plans if 
        they are not approved by NOAA Fisheries in a timely manner once 
        approved by the Regional Fishery Management Councils.
    While the Act, as written, has in general permitted effective 
management of fisheries in the North Pacific, there are some amendments 
to the Act which would improve management:
<bullet>  Reconcile MSA, NEPA, APA, etc. in the interest of a more 
        efficient process.
    The Magnuson-Stevens Act, NEPA, and the Administrative Procedure 
Act (APA) all influence fishery management planning and program 
development, sometimes creating long delays in permitting and decision-
making. These delays are unnecessary and cost the government, the 
fishing industry, and coastal communities time and money. The MSA could 
include the best parts of NEPA and the APA--such as ensuring public 
participation and thorough environmental and economic analyses--while 
removing many of the cumbersome requirements.
    What it means to Alaska: Alaska's fishing industry is its largest 
private sector employer and produces over half of the nation's seafood 
harvests. The economy of many Alaska coastal communities is dependent 
upon fisheries. A streamlined regulatory process helps assure the 
timely and responsive fisheries management that the Alaskan fishing 
industry and dependent coastal communities require to maximize 
fisheries value.
    Amendment: Insert language into MSA deeming Fishery Management 
Plans (FMP) to be the functional equivalent of a NEPA document. To 
achieve this functional equivalency, Congress may choose to require an 
FMP include:
        a.  a description and assessment of alternatives;
        b.  an evaluation of the relationship between local short-term 
        uses of the fishery resources and the maintenance and 
        enhancement of long-term productivity;
        c.  an assessment of significant impacts on non-targeted 
        species;
        d.  an assessment of significant adverse effects to the marine 
        ecosystem which cannot be avoided should the proposal be 
        implemented;
        e.  an assessment of significant social and economic effects, 
        including those to coastal communities; and
        f.  a public participation requirement that is fulfilled 
        through oral and written public testimony to the Regional 
        Fishery Management Councils (RFMCs).
<bullet>  Assure an appropriate definition for an ecosystem-based 
        approach to fisheries management.
    Ecosystem approaches to management are the new trend in marine 
management. If ecosystem-based approaches to fisheries management is 
added to the MSA, it must be appropriate to implement, scientifically 
defensible, and recognize human uses as essential. Therefore, socio-
economic data must be an integral component of an ecosystem-based 
approach to management. Ecosystem variables must be explicitly defined, 
new funding made available so that base programs are not sacrificed, 
and research priorities made clear.
    What it means to Alaska: The State of Alaska and the North Pacific 
FMC already manage resources with the ecosystem in mind, as Alaska's 
sustainable fisheries demonstrate. Proposed changes to law such as, 
compelling RFMCs to consider matters that aren't scientifically 
defensible or fiscally feasible, or that fail to account for human 
uses, threaten Alaska's current sustainable fisheries management 
regimes.
    Amendment: Provide a definition of an ecosystem-based approach to 
fishery management that recognizes human uses as a vital ecosystem 
component, evolves with new science, and expands to sufficiently 
support the approach. Since the number of factors that might be 
involved in ecosystem approaches to management would be numerous, MSA 
should specify the factors that RFMCs must consider or establish a 
process in which the RFMCs make that determination. If the RFMC 
identified the factors, the Science and Statistical Committee should be 
identified as the source of expert advice in statute.
<bullet>  Authorize Dedicated Access Privileges (DAPs) for use by 
        RFMCs.
    The NPFMC has implemented several successful fishery management 
programs that allow fishermen to fish with DAPs--including Individual 
Fishing Quotas (IFQs), cooperatives, and community development quotas 
(CDQs). Every RFMC should have the opportunity to develop and utilize 
DAP programs in the future, if they feel it appropriate for their 
fisheries. If use fees are implemented as part of DAPs management, a 
share of such fees should be allocated to states to assist with their 
share of research, data, management, and enforcement costs.
    What it means to Alaska: The race for fish has intensified in 
Alaskan fisheries; as a result, fishermen are more efficient and fleets 
are overcapitalized. Fast-paced, compressed fisheries encourage 
productivity over safety for fisheries participants, restrain bycatch 
reduction, reduce attention to habitat concerns, and hinder use of 
quality handling practices that provide for product and market 
diversity and increased value. Alaska's experience with IFQs and 
cooperative management demonstrates that share-based fishery management 
effectively addresses these problems. DAPs are a tool that must remain 
in the RFMC management toolbox.
    Amendment: DAPs should be authorized for use by RFMCs and replace 
``IFQ'' throughout MSA.
<bullet>  Change the definition of ``overfishing'' to acknowledge 
        natural impacts.
    Shifts in water temperature, degradation in habitat, pollution, or 
disease can cause fish populations to drop below harvestable levels. 
Currently, there is no codified term for natural population declines, 
so the terms ``overfished'' and ``overfishing'' are used. Using these 
terms unfairly places the blame on fishermen, when fishing is not the 
cause of a population decline.
    What it means to Alaska: In Alaska, while there is little habitat 
degradation or pollution, there is widespread evidence of climatic 
changes that have affected the distribution and abundance of marine 
resources. In order to avoid unnecessary and undesirable economic and 
regulatory consequences, it is important that when stocks of groundfish 
and shellfish are at lower levels of abundance, as a result of changes 
in the natural environment, they are not mislabeled as ``overfished''.
    Amendment: The terms ``overfishing'' and ``overfished'' should 
refer only to the effects of fishing harvests and pressure, not to the 
effects of habitat degradation, pollution, or natural environmental of 
climatic changes.
<bullet>  Support federal funding of VMS deployment requirements, as 
        necessary.
    Vessel Monitoring Systems (VMS) can monitor, among other things, 
vessel location, when a boat is fishing, and surface water temperature. 
Tracking vessels by satellite can facilitate search, rescue and 
enforcement efforts. However, VMS should not be required, but used as 
necessary, practicable, and feasible. When VMS is used, state and 
federal agencies should jointly determine the appropriateness of its 
use and share VMS data, something not currently occurring. VMS data is 
not protected from the Freedom of Information Act and therefore, 
confidentiality is of concern. When VMS is required, capital costs 
should be borne by the federal government.
    What it means to Alaska: Alaska's fisheries are prosecuted by a 
very diverse fleet, ranging in size from under 30' to the largest 
factory trawler. A one-size fits all approach to VMS requirements is 
inappropriate given this diversity.
    Amendment: Congress should require a cost/benefit analysis to 
determine the feasibility of VMS use for its potential conservation, 
enforcement, and safety benefits, as well as a cumulative impacts 
examination as to existing, overlapping, and redundant requirements for 
commercial fishing vessels. Data-sharing agreements between state and 
federal agencies should be developed, while considering individual 
confidentiality.
<bullet>  Prevent Data Quality Act infringement on RFMC use of science 
        for management.
    The Data Quality Act has recently come to our attention. While we 
have not yet had the opportunity to fully explore this Act, we do 
believe that, that as written, it has the potential to have significant 
ramifications on the RFMC process and could result in major delays in 
management actions, as well as a defacto de-regionalization result.
    Amendment: Given the uncertainty that this Act interjects into the 
RFMC process, we recommend that inclusion of language in MSA which 
stipulates that a properly constituted Scientific and Statistical 
Committee could serve as the peer review panel for influential and 
highly influential data and analyses related to management of the 
fisheries in the U.S. Exclusive Economic Zone.
VII. Sources and levels of funding for fisheries management and 
        scientific activities.
    Alaska manages fisheries in both state and federal waters and is 
subject to commitments entered into by the United States under 
international fishery treaties. Furthermore, the state receives grants 
under entitlement programs available to all the states for the 
development and management of sport fisheries. Consequently, Alaska's 
fishery management program is supported by both state and federal 
funds.
    Overall, the state will provide approximately $36 million for 
fishery management in Fiscal Year 2005. The federal contribution to 
management of commercial fisheries will be approximately $14 million. 
Additional federal resources are available for fisheries research 
through the Alaska-Yukon-Kuskokwim Sustainable Salmon Initiative and 
the North Pacific Research Board.
VIII. What new challenges do you foresee?
    In general, Alaska's fisheries face the same challenges as any 
other fishery ranging from changes in weather to changes in water 
temperatures. As I mentioned previously, these factors have the 
potential to affect marine populations, and as a consequence, are 
likely to impact human use opportunities.
    But perhaps the greatest challenge that the State of Alaska will 
face, is preserving the active role that our state plays in fisheries 
management. As Congress considers MSA reauthorization, the 
establishment of a national oceans policy, and other relevant 
fisheries-related legislation, the State of Alaska's greatest challenge 
and highest priority will be to ensure that Congress (1) acknowledges 
our state's jurisdiction, (2) considers our state's unique 
characteristics, (3) recognizes our management successes; (4) 
incorporates local knowledge in the management process; and (5) fosters 
strong federal-state partnerships.
    The driving force behind Alaska's statehood was the opportunity to 
gain sovereignty over the management of our fisheries resources. The 
exercise of this sovereignty is responsible for the sustainability and 
success of our fisheries. As we discuss fisheries policy at a national 
level, it is this sovereignty and local control of the fisheries and 
fishery resources that the state will seek to maintain.
    We also face the challenges created by ever-increasing 
globalization of the economy. In the past, markets were regional. Now, 
they are global. Improvements in technology, communication, and 
transportation have changed the socio-economic landscape of our world. 
While these changes present new opportunities, they also present new 
challenges.
    Take, for example, the proliferation of finfish farming around the 
world. Today, farmed salmon raised in Chile compete directly in market 
places around the world with wild Alaska salmon. Farmed salmon has 
provided a cheaper alternative to wild Alaska salmon, and as a result, 
has depressed salmon prices around the globe. In recent years, Alaskan 
fishermen and the State of Alaska have been working diligently to 
promote the benefits of eating wild Alaskan salmon. And, our promotion 
efforts are yielding impressive results. Still, the realities of this 
global marketplace are presenting some unprecedented challenges.
    Finally, we face the difficult challenge of balancing economic and 
social interests associated with fisheries. One need only look to the 
debate over crab fishery rationalization in the Bering Sea or 
groundfish fishery rationalization in the Gulf of Alaska to understand 
how difficult slowing ``the race for fish'' can be. In many of these 
cases, fisheries that used to last for weeks are now executed in days 
thanks to better technology and gear. But these improvements, and the 
speed of the fisheries, have impacts on the health of our fishery 
resources.
    As the State of Alaska attempts to slow ``the race for fish,'' 
public debates over rationalization and cooperative structures are 
ensuing. As responsible managers of our state's fishery resources, we 
face the difficult tasks of finding a way to sustain our fisheries, 
increasing the value of our catch, and providing economic benefits to 
the state, our local communities, and individual fishermen. Balancing 
these interests will not be easy and will take time, but I'm confident 
that Alaskans are up to the challenge.
                                 ______
                                 
    Mr. Gilchrest. Ms. Madsen?

                STATEMENT OF STEPHANIE MADSEN, 
            NORTH PACIFIC FISHERY MANAGEMENT COUNCIL

    Ms. Madsen. Thank you. Good morning, my name is Stephanie 
Madsen. And I'm the Chair of the North Pacific Fishing 
Management Council. Welcome to Alaska, Mr. Chairman, and 
welcome home Congressman Young. Thank you for the opportunity 
to offer comments to the Subcommittee this morning. On 
fisheries management successes in Alaska and the 
reauthorization of the Stevens-Magnuson Fisheries Conversation 
Act.
    First, let me say that the North Pacific Fishery Management 
Council believes strongly that the current system of managing 
our fisheries, as envisioned by the Magnuson-Stevens Act can 
and is working effectively. When carried out properly the 
council process has all the ingredient of responsible 
stewardship of our marine resources. It is based on science. It 
is deliberative and transparent. And it representative of all 
user groups, and the general public. We believe we have a very 
successful model in the North Pacific which demonstrates that 
the basic tools for successful and sustainable management 
exists within the current MSA. However, we recognize that a 
number of changes are being contemplated and we hope our input 
and our examples will be informative to the development of 
appropriate amendments to the act.
    My written testimony provides comments in all the areas of 
interest expressed in your invitation. I thank the committee 
for allowing the Council to appear here as well as in Kodiak on 
Friday. I would like to use my time this morning to address the 
members interest in the process of fisheries management in 
Alaska. And our ecosystem-based management work. In Kodiak I 
will provide information on our programs, as well as lessons we 
would like to share from the North Pacific for reauthorization. 
Successful management program for Alaska's offshore fisheries 
has been developed in the North Pacific Council through it's 
partnerships with NOAA Fisheries. And working closely with 
ADF&G, the International Pacific Halibut Commission, Pacific 
States Fisheries Marine Commission, and of course the United 
States Coast Guard.
    Another key to successful management is incorporating 
diverse views and to decisionmaking. Through a transparent 
public process. Meetings are open and public testimony, both 
written and oral are taken on every issue prior to 
deliberations and final decisions. The foundation for success 
has been a long standing precautionary approach embraced in the 
North Pacific. Supported by an underpinning of sound science. 
And reliance on that science. And by a fishing industry 
supporting a priority toward long term sustainability. Strict 
annual catch limits for every groundfish fishery are set using 
a rigorous process that has been in place for almost 30 years. 
Which insures that annual quotas are set at conservative, 
sustainable levels.
    Beginning with the scientific data from regular abundant 
surveys, stock assessment scientists recommend acceptable 
biological catch. Our ABC's, these are reviewed by the Councils 
Groundfish Plan Teams. Further reviewed by the Councils SSC 
prior to the Council setting the total allowable catch, our 
TAC's. Which is always set at or below the ABC, and far below 
the designated over fishing level.
    We believe scientific advice is critical to the successful 
management process and should be an integral part of the 
council process rather than separate aspect of the overall 
decisionmaking process. These quotas are closely monitored to 
insure accurate accounting on a real time basis. At the core of 
the monitoring system is a comprehensive, industry funded, 
onboard observer program. Coupled with requirement for total 
weight measurement of most fish harvested. Enforcement of 
fishery regulations is accomplished as you've heard today by 
complementary efforts of NOAA and the state enforcement 
agencies and the U.S. Coast Guard, both one the grounds and 
dockside.
    Notwithstanding this success, the Council and NOAA 
Fisheries continue to develop new and innovative approaches to 
address issues such as by catch, protecting habitat, over 
capacity, and further development of ecosystem oriented 
management approaches. In 2004 the Council and NOAA Fisheries 
completed a comprehensive assessment of it's overall management 
programs through approval of a Programmatic Supplemental 
Environmental Impact Statement, which we call our PSEIS. This 
process included adoption of revised goals and objective for 
the groundfish FMP's, which further strengthen the 
precautionary ecosystem-based approach to management. Specific 
measures have been take to minimize potential impact for marine 
mammals, seabirds, and other components of the Alaska marine 
ecosystem.
    MSA currently allows for an ecosystem-based approach to 
fisheries management. And then incorporating ecosystem 
considerations into management can be strengthened with 
increased research funding and enhanced collaborative efforts. 
As you will hear, Mr. Chairman, in the next few days management 
of fisheries off Alaska is by all accounts a success story of 
biologic and economic sustainability. The importance of 
fisheries to Alaska coastal communities demand it. In summary, 
I believe our overall management process illustrates that the 
current MSA contains the necessary tools for successful, 
sustainable fisheries management. Strengthening the existing 
tools or imposing requirements to use the existing tools may be 
necessary in the reauthorization process. Thank you again for 
the opportunity to comment on the issues. We stand ready to 
help in any way we can as you further--as you are further 
shaping important changes to the Act, and to respond to those 
changes when they are finalized.
    Mr. Gilchrest. Thank you very much, Ms. Madsen.
    [The prepared statement of Ms. Madsen follows:]

                 Statement of Stephanie Madsen, Chair, 
                North Pacific Fishery Management Council

    Good morning. My name is Stephanie Madsen, and I am the Chair of 
the North Pacific Fishery Management Council based in Anchorage, 
Alaska. Thank you for the opportunity to offer comments to the 
Subcommittee on fisheries management successes in Alaska and 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. We believe we have a very successful model in the North 
Pacific, and we believe that the basic tools for successful and 
sustainable management exist within the current Magnuson-Stevens Act. 
However, we recognize that a number of changes are being contemplated 
and we hope that our input, and our examples, will be informative to 
development of appropriate amendments to that Act.
Fisheries Management in the North Pacific
    The successful management program for Alaska's offshore fisheries 
has been developed by the North Pacific Council, through its 
partnership with NOAA Fisheries and close working relationship with 
other state and federal agencies, including the Alaska Department of 
Fish and Game (ADF&G), the International Pacific Halibut Commission, 
the Pacific States Marine Fisheries Commission, and the United States 
Coast Guard.
    The North Pacific Fishery Management primarily manages groundfish 
in the Gulf of Alaska, Bering Sea, and Aleutian Islands. Groundfish 
include cod, pollock, flatfish, Atka mackerel, sablefish, and rockfish 
species harvested by trawl, longline, jig, and pot gear. The Council 
also makes allocation decisions for halibut, in concert with the 
International Pacific Halibut Commission which manages biological 
aspects of the resource for U.S.-Canada waters. Other large Alaska 
fisheries such as salmon, crab, scallops and herring are managed 
jointly with the State of Alaska.
    The Council has eleven voting members representing state and 
federal fisheries agencies, and fishery participants. Six are from 
Alaska, three are from Washington, one from Oregon, and one 
representative from NOAA Fisheries. The Council's four non-voting 
members represent the U.S. Coast Guard, U.S. Fish and Wildlife Service, 
Department of State, and the Pacific States Marine Fisheries 
Commission. The Council receives advice at each meeting from a 20 
member Advisory Panel (representing commercial fishing and processing 
industry sectors, environmentalists, recreational fishermen, and 
consumer groups), and from a 15 member Scientific and Statistical 
Committee (SSC) of highly respected scientists who review all 
information and analyses considered by the Council.
    Decisions must conform with the Magnuson-Stevens Act, the National 
Environmental Policy Act, Endangered Species Act, Marine Mammal 
Protection Act, Regulatory Flexibility Act, and other applicable law 
including several executive orders. Regulatory changes may take a year 
or longer to develop, analyze, and implement, particularly if complex 
or contentious. All Council decisions are forwarded as recommendations 
to the Secretary of Commerce, for review and approval.
    One of the keys to successful fishery management is incorporating 
diverse views into decision making through a transparent public 
process. Council meetings are open, and public testimony--both written 
and oral--is taken on each and every issue prior to deliberations and 
final decisions. Public comments are also taken at all Advisory Panel 
and Scientific and Statistical Committee meetings.
Importance of Alaska Fisheries
    Fisheries are one of the most important industries in Alaska, 
culturally and economically, providing nearly half of all private 
sector jobs, and second only to the oil industry in providing revenue 
to the state. Over 10,000 people are involved in groundfish fishing and 
processing alone; thousands more work in the salmon, crab, scallop, and 
other fisheries. In addition, thousands of people work in other 
fisheries and fishing support industries, such as sport fishing guides, 
gear and fuel suppliers, restaurants, hotels, airlines, and others. 
With over 47,000 miles of coastline, and 336,000 square miles of 
fishable continental shelf area, the waters off Alaska support a 
variety of fisheries. Approximately 1,400 vessels participate in the 
groundfish and crab fisheries directly managed by the Council, ranging 
from small 20 foot skiffs fishing for near-shore halibut, to a 200+ 
foot catcher/processors prosecuting midwater pollock fisheries in the 
open waters of the Bering Sea. The majority of the fleet, however, 
consists of mid-size vessels, anywhere from 40 to 150 feet in length. 
These vessels are engaged in longline fisheries for halibut, sablefish, 
and cod; trawl fisheries for cod, pollock, and flatfish species; and 
pot fisheries for cod and crab. Recreational fisheries for halibut and 
salmon are an important part of the fisheries off Alaska.
    These fisheries are worth nearly $1 billion ex-vessel annually 
(amount paid to fishermen at delivery, prior to value-added 
processing). The groundfish fisheries account for a majority of the 
overall value, but the halibut, salmon, and shellfish (crab) fisheries 
also contribute substantially. Additionally, the Council's community 
development quota (CDQ) program allocates from 7.5% to 10% of all 
groundfish and crab quotas to six CDQ groups consisting of 66 western 
Alaska coastal communities. Through partnerships with other industry 
groups, and through direct involvement in fisheries and development of 
fisheries related infrastructures, this program allows these remote 
coastal communities to continue and enhance their participation in 
Alaska fisheries.
Major Turning Points in Alaska Fisheries
    Passage of the Magnuson-Stevens Act in 1976 marked a new era in 
U.S. fisheries management. Foreign fisheries in the EEZ off Alaska were 
rapidly phased out through joint-ventures, with the fisheries fully 
prosecuted by domestic fisheries (``Americanized'') by 1990. Management 
efforts in the early 1990's focused on limiting effort of the 
burgeoning domestic groundfish fleet. By 1992, the fleet had grown to 
over 2,200 vessels, including about 110 trawl catcher processors 
(factory trawlers). The symptoms of overcapacity intensified; the 
``race for fish'' resulted in shorter fishing seasons and allocation 
disputes among various fishing and processing interests.
    To address the overcapacity problem, the Council, working together 
with the NOAA Fisheries Alaska Regional office, aggressively pursued 
capacity limitations in all managed fisheries. An Individual Fishing 
Quota program for halibut and sablefish fisheries was adopted in 1992, 
and fully implemented in 1995. A moratorium on new vessel entry for 
groundfish and crab fisheries was implemented in 1996, with a more 
restrictive license limitation program in place by 2000. In 1998, the 
American Fisheries Act was passed by Congress and implemented by the 
Council and NOAA Fisheries the following year. The Act limited access 
to the Bering Sea pollock fisheries only to qualifying vessels and 
processors, eliminated a number of large catcher processor vessels from 
the fleet, and established a system of fishery cooperatives that allows 
for individual catch and bycatch accountability. Lower bycatch and 
significantly higher product recovery rates have resulted under the 
pollock cooperative system. In 1999, the Council adopted a very 
restrictive limited entry program for the scallop fishery. In 2003, the 
Council completed its work on an individual fishing and processing 
quota system for the Bering Sea crab fisheries (crab rationalization), 
consistent with Congressional legislation. Current Council initiatives 
include development of further rationalization programs for Bering Sea 
non-pollock groundfish fisheries, and development of some form of 
rationalization program for Gulf of Alaska groundfish fisheries.
    Measures implemented in the 1990's also were designed to limit 
impacts on target and bycatch species, marine mammals and seabirds, and 
habitat, and provide opportunities for disadvantaged coastal 
communities along the Bering Sea. A comprehensive domestic groundfish 
observer program, funded by participating vessels, was instituted in 
1990 to provide the basis for controlling catch within allowable levels 
and monitoring removals of both target and bycatch species. Closure 
areas and bycatch limits were established for chinook and chum salmon 
taken in Bering Sea trawl fisheries. Additional year-round trawl 
closure areas were established to reduce bycatch and protect habitat 
for Bering Sea crab stocks. To reduce bycatch and discards of Alaska 
groundfish, mandatory retention of all pollock and cod was required 
beginning in 1998. Retention requirements are soon to be implemented 
for Bering Sea flatfish fisheries, and further reductions in bycatch 
and discard amounts (currently about 7%) are expected.
    In 1990, Steller sea lions were listed as threatened under the 
Endangered Species Act, and numerous measures were implemented over the 
following decade to minimize potential interactions with fisheries and 
potential competition for prey. These measures included incidental take 
limits, 3 nm no entry buffer zones, 10 nm no trawl zones around 
rookeries, 20 nm no pollock fishing zones, seasonal and spatial 
dispersal of pollock and mackerel fisheries, and a prohibition on the 
harvest of forage fish. In 2001, a comprehensive suite of protection 
measures was implemented through Council recommendation which closed 
over 58,000 square miles of ocean to fishing for certain species, or in 
some cases to all fishing activities, to reduce fish removals and 
fishing activities in Steller sea lion critical habitat areas 
throughout the Gulf of Alaska, Bering Sea, and Aleutian Islands.
What Makes Alaska Different?
    Management of fisheries off Alaska is, by all accounts, a success 
story of biological and economic sustainability. The foundation for 
success has been the long-standing, precautionary approach embraced in 
the North Pacific, supported by an underpinning of sound science and a 
reliance on that science, and by a fishing industry supporting a 
priority toward long-term sustainability. Strict catch quotas for all 
managed species, coupled with an effective monitoring program, 
represent the forefront of the conservative management approach in the 
North Pacific. Since 1976, groundfish harvests have been maintained in 
the range of 3 to 5 billion pounds annually, and no groundfish stocks 
are overfished. Vast areas of the Bering Sea and Gulf of Alaska are 
closed to trawling, or in some cases to all fishing, to protect 
habitat, minimize bycatch, or minimize interactions with protected 
species such as Steller sea lions.
    The Council's precautionary management approach is to apply 
judicious and responsible fisheries management practices, based on 
sound scientific research and analysis, proactively rather than 
reactively, to ensure the sustainability of fishery resources and 
associated ecosystems for the benefit of future, as well as current 
generations. The basic tenets of this approach include public 
participation, reliance on scientific research and advice, conservative 
catch quotas, comprehensive monitoring and enforcement, limits on 
bycatch of non-target species, marine protected areas, measures to 
protect marine mammals and seabirds, and other measures.
    Strict annual catch limits for every groundfish fishery are the 
foundation of the sustainable fisheries management approach in the 
North Pacific. A rigorous process in place for almost 30 years ensures 
that annual quotas are set at conservative, sustainable levels. 
Beginning with scientific data from regular groundfish abundance 
surveys, stock assessment scientists recommend acceptable biological 
catch (ABC) levels for each species. These are reviewed by the 
Council's Groundfish Plan Teams, then further reviewed by the Council's 
Scientific and Statistical Committee, prior to the Council's setting of 
the Total Allowable Catch (TAC), which is always set at or below the 
ABC, and far below the designated overfishing level.
    As an additional precautionary measure, the Bering Sea and Aleutian 
Islands quotas, for all groundfish combined, are capped at a maximum of 
2 million metric tons (mt) annually, regardless of the maximum 
recommended ABC levels. For example, ABCs for the past several years 
have ranged from 3 to 4 million mt, yet TACs were reduced to stay 
within the 2 million mt cap. The Gulf of Alaska has a similar overall 
TAC cap. Catch of all species, whether targeted or taken as bycatch, 
whether retained or discarded, count toward the annual catch limits, 
and fisheries are closed when these limits are reached. This is one of 
the fundamental aspects of responsible management in the North Pacific 
groundfish fisheries.
    These catch quotas are closely monitored to ensure accurate 
accounting on a real-time basis. At the core of the monitoring system 
is a comprehensive, industry-funded, on-board observer program, coupled 
with requirements for total weight measurement of most fish harvested. 
Except for small vessels less than 60 feet, all vessels fishing for 
groundfish in federal waters are required to carry observers, at their 
own expense, for at least a portion of their fishing time. The largest 
vessels, those over 125 feet, are generally required to carry observers 
100% of the time, with multiple observers required on catcher/
processors and in certain fisheries. Scales to weigh catch are also 
required on many of the larger vessels. Most shoreside processing 
plants are also required to have observers at all times, and to weigh 
all fish landed at each processing location. Observers estimate total 
catch weight, catch composition, and discards, and collect biological 
information critical to stock assessment. In excess of 36,000 observer 
days, by over 500 observers, are logged in these fisheries each year. 
In the North Pacific's largest fishery, for walleye pollock, nearly 85% 
of the total catch is measured and sampled by observers, with 99% of 
the catcher/processor (factory trawler) harvest sampled by observers. 
Used in conjunction with reporting and weighing requirements, the 
information collected by observers provides the foundation for in-
season management and for tracking species-specific catch and bycatch 
amounts.
    The Council and NOAA Fisheries are currently developing amendments 
to the fishery management plans that are designed to better ensure 
ongoing collection and quality observer data. These amendments will 
examine alternative funding mechanisms (for example, a fee-based 
program instead of direct payment by vessels required to carry 
observers), and alternative service delivery models, all designed to 
allow fisheries managers to more effectively determine specific 
observer deployments by fishery and by vessel. Technological 
innovations, such as digital (video) observer applications, are also 
being evaluated by the Council and NOAA to potentially supplement 
onboard observers.
    Enforcement of fishery regulations is accomplished by complementary 
efforts of NOAA and State enforcement agencies, and the U.S. Coast 
Guard, both on the grounds and dockside. As part of their patrol 
activities, the Coast Guard enforces a complex array of domestic 
regulations and international treaties, including enforcement of the 
maritime boundary and high seas driftnet violations. The Coast Guard 
also maintains its priority mission of search and rescue, a critical 
mission in all U.S. waters, particular in the volatile Bering Sea. NOAA 
Enforcement also conducts patrols and investigations throughout coastal 
Alaska to enforce fisheries regulations and total catch limits.
    The North Pacific region also enjoys one of the strongest science 
support structures of any region. The Alaska Fisheries Science Center 
conducts annual stock assessments in the North Pacific, and provides 
the information upon which annual catch quotas are set. The 
comprehensive North Pacific groundfish observer program also is managed 
through the Science Center, and biological and economic analyses of 
proposed actions often involve Science Center personnel. The Alaska 
Department of Fish and Game also administers an observer program for 
the crab fisheries, and provides stock assessment information and in-
season management for the crab fisheries, as well as the scallop 
fisheries and some rockfish species.
    Notwithstanding this success, the Council and NOAA Fisheries 
continue to develop new and innovative approaches to address issues 
such as bycatch, protecting habitat, overcapacity, and further 
development of ecosystem-oriented management approaches. In 2004 the 
Council and NOAA Fisheries completed a comprehensive assessment of its 
overall management programs through approval of a programmatic 
supplemental environmental impact statement (PSEIS). This process 
included adoption of revised goals and objectives for the groundfish 
FMPs, which further strengthen the precautionary, ecosystem-based 
approach to management.
Progress Towards Ecosystem-Based Management
    The North Pacific Fishery Management Council has a long track 
record of making precautionary fishery management decisions, and has 
continued developing its ecosystem-based approach. The approach is 
built upon four goals: 1) maintain biodiversity consistent with natural 
evolutionary and ecological processes, including dynamic change and 
variability; 2) maintain and restore habitats essential for fish and 
prey; 3) maintain system sustainability and sustainable yields for 
human consumption and non-extractive uses; and 4) maintain the concept 
that humans are part of the ecosystem.
    The existing Alaska Groundfish FMPs contain many components of 
fishery ecosystem plans, or an ecosystem approach to management. 
Specific measures have been taken to minimize potential impacts to 
marine mammals, seabirds, and other components of the Alaska marine 
ecosystem. Major measures include limits on total removals from the 
system, a prohibition on directed fishing for forage fish species, 
seabird deterrent devices to minimize incidental bycatch of seabirds, a 
variety of measures to protect Steller sea lions from disturbance and 
potential competition with prey, and quasi marine reserves to conserve 
benthic biodiversity. However, recent recommendations from the U.S. 
Commission on Ocean Policy, and NOAA's own internal initiatives, 
underscore the need to even more explicitly incorporate ecosystem 
considerations in management of all U.S. fisheries.
    In February 2005, the Council took significant action to identify 
and conserve essential fish habitat (EFH) from potential adverse 
effects of fishing. A 2,500+ page scientific analysis was prepared to 
evaluate the total impacts of fishing on EFH, and evaluate alternatives 
to describe and conserve EFH from fishing impacts. Although the 
analysis concluded that fisheries do have long term effects on habitat, 
these impacts were considered minimal and would not have detrimental 
effects on fish populations or their habitats. Nevertheless, continuing 
with its long history of precautionary, ecosystem-based management 
policy, the Council adopted several new and significant measures to 
conserve EFH. Specifically, to protect deep-water corals, the Council 
took action to prohibit all bottom trawling in the Aleutian Islands, 
except in small discrete ``open'' areas. Over 95% of the Aleutian 
Islands management area will be closed to bottom trawling (277,100 nm2) 
and about 4% (12,423 nm2) will remain open. Additional bottom trawl 
closures were created in the Gulf of Alaska. Further, on the Alaska 
seamounts, and in areas with especially high density coral and sponge 
habitat, the Council voted to close these areas to all bottom contact 
fishing gear (longlines, pots, trawls, etc.). As a result, these areas 
will essentially be considered ``marine reserves''. While pelagic 
fishing would be allowed in these areas, none is anticipated, so 
resource extraction will be nil in the areas.
    The North Pacific Council, through its newly constituted Ecosystem 
Committee, is actively pursuing additional avenues to further and more 
explicitly implement an ecosystem approach to management, both at a 
fisheries-specific level (EAF), and at a broader level addressing non-
fishing considerations (EAM). Given the unique environment and 
management context of the Aleutian Islands ecosystem, the Council is 
planning to use this area as a test case for development of a separate 
Fishery Ecosystem Plan (FEP), and for development of an Ecosystem-
Approach to Management (EAM) using a regional ecosystem council model 
(or other coordinating body) to discuss and exchange information on 
fishery and non-fishery activities. The Aleutian Islands FEP is in the 
developmental stages and we anticipate a draft later this year. Details 
of the FEP, including possible designation of an Aleutian Island Plan 
Team, are still being developed at this time. Council staff is also 
involved with a NOAA internal working group to draft national 
guidelines for implementing the ecosystem approach to fisheries. The 
Councils support the development of such guidelines, as a guiding 
strategic document for the FMPs, rather than explicit statutory 
requirements at this time. The Council is also in discussions with 
other State and Federal agencies regarding the larger ecosystem 
coordination issues, and is planning to hold a workshop with the State 
of Alaska and NOAA Fisheries later this year to determine how best to 
coordinate the broader ecosystem approach.
How is Science Integrated?
    The Council has an active Scientific and Statistical Committee 
(SSC) that reviews all analytical documents prepared for each 
management change. The SSC consists of biologists, economists, and 
social scientists from academia and federal and state agencies. The SSC 
meets five times per year, concurrent with and at the same location as 
the Council meetings. In addition to providing comments to analysts, 
the SSC makes recommendations to the Council on the adequacy of 
analytical documents relative to the best available scientific 
information, including biological, economic, and social impact 
analyses. The SSC also reviews development of models and other 
analytical approaches for understanding impacts of fishery measures. 
Further, the SSC provides recommendations on priority areas for 
research.
    The scientific review process used by the Council is multi-tiered 
and robust. For example, stock assessments and acceptable biological 
catch limits undergo a thorough internal review by the Alaska Fisheries 
Science Center. Each year, a couple of these assessment models are 
further reviewed by the Center for Independent Experts. Once completed 
by NOAA Fisheries scientists, the assessments are scientifically 
reviewed by the Plan Teams, consisting of federal, state, and 
university scientists. The SSC has final scientific review authority 
for the assessments. The Council then approves the Stock Assessment and 
Fishery Evaluation Report for public distribution, and adopts the SSC's 
recommendations for Acceptable Biological Catch limits (ABCs). Total 
Allowable Catch levels (TACs) are then established by the Council with 
the SSC recommended ABCs as an upper bound. Because this process has 
worked so successfully, we have not made any additional changes to the 
existing scientific review process.
    The Council also coordinates with the recently formed North Pacific 
Research Board (NPRB) and other governmental and academic research 
organizations to identify priority areas for funding of proposed 
research activities. Through direct membership and participation on the 
NPRB, and through annual reviews of funded research, the Council 
maintains a close working relationship with the scientific research 
community and is regularly apprised of pertinent scientific 
information.
Regional Issues and Challenges
    The Council's basic precautionary approach to management cuts 
across all FMPs and geographic regions under our jurisdiction. The 
comprehensive goals and objectives (recently revised in the PSEIS 
process) pertain to both the Bering Sea/Aleutian Islands and the Gulf 
of Alaska FMPs. While these basic tenants apply to all areas we manage, 
there are some regional differences and specific regional challenges 
that are currently being addressed by the Council.
    The Bering Sea fisheries can be characterized as more industrial in 
nature than fisheries in the Gulf of Alaska, and are dominated in 
volume and value by the enormous pollock resource. While the pollock 
fishery is operating under a fully rationalized system established by 
the American Fisheries Act and the Council, other groundfish fisheries 
are in need of further rationalization programs, beyond the basic 
limited entry programs currently in place. Cod fisheries are a 
significant resource for a number of user groups and the Council is in 
the process of re-evaluating the current allocations among gear types, 
and considering even more discrete allocations to more narrowly defined 
user (gear) groups. The Council is addressing bycatch and discard 
issues by imposing minimum groundfish retention standards, and in 
conjunction with that initiative is developing a program of fishery 
cooperatives for the non-AFA catcher processors (the head and gut or 
H&G fleet) which we expect to approve later this year. The Council will 
also be considering further measures with regard to essential fish 
habitat and habitat areas of particular concern in the Bering Sea, in 
addition to the measures recently approved for the Gulf of Alaska and 
Aleutian Islands areas.
    ulf of Alaska groundfish fisheries are characterized by more 
numerous, smaller vessels, lower overall resource abundance, direct 
ties to a greater number of coastal communities, and a greater number 
of user groups/constituencies (gear groups, coastal communities, sport 
fisheries, etc). Fisheries in the Southeast area of Alaska are 
primarily fixed gear (longlining for halibut and sablefish, or salmon 
troll fisheries), and state water salmon fisheries. This area, along 
with areas in the Central Gulf of Alaska, also has an important 
recreational fishery component, primarily for salmon and halibut. 
Management of the guided sport fishery for halibut (charter boat 
fishery) is under Council jurisdiction and we have approved both a 
guideline harvest level (GHL) program for that fishery, and a charter 
boat IFQ program which, if approved by the Secretary, would incorporate 
this fishery into the existing IFQ program for halibut. Halibut is also 
critical to subsistence users and the Council and NOAA have approved 
and implemented regulations recognizing and protecting subsistence use 
of the halibut resource.
    The most significant program currently under development by the 
Council, and one of the most challenging, is focused on a comprehensive 
rationalization of the Gulf of Alaska groundfish fisheries, which would 
apply primarily to Central and Western Gulf fisheries. Recognizing the 
operational and economic benefits of Bering Sea rationalization 
programs, and coupled with the logistical challenges posed by the 
numerous Steller sea lion restrictive measures in the Gulf of Alaska, 
the Council is attempting to develop some type of quota-based, 
cooperative style program for Gulf fisheries. Working closely with the 
State of Alaska and the State Board of Fisheries, this is an ambitious 
program with numerous competing constituencies and overlapping 
jurisdictions with regard to state waters inside three miles. 
Completion of the environmental impact statement (EIS) required for 
this program will not occur until sometime in 2006, with actual 
implementation not likely until at least 2008.
Lessons for Reauthorization
    The subcommittee has expressed interest in what lessons can be 
learned from the management approach in the North Pacific, and how 
those lessons might inform reauthorization of the Magnuson-Stevens Act. 
In summary, I believe our overall management program illustrates that 
the current Magnuson-Stevens Act contains the necessary tools for 
successful, sustainable fisheries management. Strengthening the 
existing tools, or imposing requirements to use the existing tools, may 
be necessary in the reauthorization process but it does not appear that 
significant new requirements are necessary at this time. Below I 
provide a brief summary related to some of the primary reauthorization 
issues.
    Ecosystem approach to management: Regarding ecosystem approaches to 
fisheries management, we believe that we have long been using an 
ecosystem approach to fisheries management, as are many of the other 
regional Councils, but that a more explicit recognition and application 
of this approach may be warranted. We believe that development of 
national guidelines is appropriate, which would then be used as 
strategic guidance (rather than as regulatory requirements) for 
implementation of specific regulatory programs through the existing 
FMPs. We believe that extreme caution should be exercised with regard 
to specific statutory requirements for fishery ecosystem plans, until 
we have some experience with voluntary, pilot projects regarding 
fishery ecosystem plans, and some experience with collaborative efforts 
on the broader EAM front. The North Pacific has long embraced this 
approach and is working hard to more explicitly incorporate that 
approach in our management programs.
    Improving science in management: Regarding the integration of 
science and management, we believe that the North Pacific model clearly 
illustrates (1) the importance of closely linking science and 
management; (2) the ability of the existing SSC structure and process 
to provide the nexus between science and management by the regional 
Councils; and, (3) the flaw in the argument to somehow separate science 
and management (allocation) decisions. We believe that the integration 
of science in management works very well in the North Pacific, and we 
are very concerned that changes could be imposed on that process, in 
order to address other regional problems. We also believe that any 
potential new requirements for ``independent peer review'' of data and 
analyses needs to be considered carefully, given the additional cost 
and time implications and given the ability of the current SSC process 
(or similar existing processes) to provide quality, objective peer 
review of the majority of information used by the Council and NOAA 
Fisheries.
    IFQs or other DAP programs: Regarding individual quota programs, or 
other dedicated access privileges (DAP) such as fishery cooperatives, 
we believe that multiple programs currently operational in the North 
Pacific (or pending such as Bering Sea crab) illustrate the benefits of 
``rationalized'' fisheries. We also believe that these programs reflect 
the differences among fisheries and regions, and underscore the need 
for maximum flexibility in designing these programs. In the halibut and 
sablefish IFQ program, in place since 1995, the Council included 
numerous provisions in the program design, such as restrictions on 
transfers across vessel categories and restrictive share caps, in order 
to maintain the important social and community fabric of those 
fisheries. The pollock fishery cooperative system, and to some degree 
the crab IFQ/IPQ program, are designed to reflect the more industrial 
nature of those fisheries, though in the case of the crab IFQ/IPQ 
program there are still, for example, regional delivery provisions 
which were designed to protect existing community involvement in those 
fisheries. Programs currently under development, such as the Gulf of 
Alaska rationalization program, will require a different set of 
provisions to address the specific regional, social, economic, and 
fishery conditions.
    Reconciling statutes: The development of fishery management 
programs, and the review and approval process, is overly complicated, 
takes way too long, and often is not user-friendly to the public and to 
the fishing industry. This is primarily due to the number of often 
redundant and overlapping statutory requirements, including the 
National Environmental Policy Act (NEPA), the Regulatory Flexibility 
Act, the National Marine Sanctuary Act, the Endangered Species Act, the 
Marine Mammal Protection Act, the Magnuson-Stevens Act, and numerous 
additional Acts and Executive Orders. In the North Pacific, our close 
working relationship with NOAA Fisheries Alaska Region and Science 
Center has been crucial to our ability to successfully implement our 
core management measures, as well as many innovative, cutting-edge 
management programs. And that close coordination has allowed us to do 
so, for the most part, while still addressing the myriad statutes and 
executive orders that apply to fisheries management actions. However, 
while the Councils and NOAA Fisheries have made substantial progress 
over the past few years in terms of ``streamlining'' this regulatory 
process, and reducing litigation, we strongly believe that there needs 
to be some Congressional action to clarify and reconcile the competing 
statutes. Our ability to design, analyze, and implement complicated DAP 
programs in particular is hindered by the redundant applications of 
several statutes.
    Particularly, the application of NEPA to fishery plan and 
regulation development, and to some degree the Regulatory Flexibility 
Act, are impeding our ability to develop realistic, practical 
management solutions in a timely manner. For example, specific 
provisions could be made to the Magnuson-Stevens Act which would 
capture the underlying intent of basic NEPA provisions, and reinstate 
the Magnuson-Stevens Act as the primary Act governing fisheries 
management, with the necessary environmental and conservation 
protections built directly into the Act. Specific recommendations in 
this regard have been developed by the eight regional councils and 
include requirements for considering a range of alternatives, 
requirements for cumulative impact assessment, and additional 
requirements for public review and input.
    Mr. Chairman, there are a number of other issues we could discuss 
today, but I believe that I have covered the basic management approach 
used in the North Pacific, and covered the primary issues we see in the 
upcoming Magnuson-Stevens Act reauthorization. I thank you again for 
the opportunity to comment on these issues, and further apprise you of 
our management approach and specific issues here in the North Pacific. 
We stand ready to help in any way we can as you are further shaping 
important changes to the Act, and to respond to those changes when they 
are finalized.
                                 ______
                                 
    Mr. Gilchrest. Dr. Woodby.

STATEMENT OF DOUG WOODBY, SCIENTIFIC AND STATISTICAL COMMITTEE, 
            NORTH PACIFIC FISHERY MANAGEMENT COUNCIL

    Dr. Woodby. Yes, thank you for the opportunity to speak 
here today. My name is Doug Woodby, and I'm the Chief Marine 
Fisheries Scientist for the State of Alaska Fish and Game, 
Commercial Fisheries Division. I also have an appointment to 
the Scientific and Statistical Committee of the North Pacific 
Fishery Management Council. And it's in relation to my 
appointment on that committee that I'm speaking here today. I 
like to focus on three questions that were presented to me in 
my invitation.
    How is science integrated into management? Why is Alaska 
fisheries management considered better or different than 
management in other parts of the country? And what lessons can 
we learn from the North Pacific reauthorization of the MSA?
    In regards to integration of science into management, I'm 
going to focus the peer review process. As you know the MSA 
requires that each Council establish an SSC. And there purpose 
is to assist in evaluating in scientific information for 
management. Now that requirements been interpreted fairly 
broadly by the North Pacific Fishery Management Council. Such 
that all information used in their decisionmaking, having 
either a biological or socioeconomic basis is passed through 
the SSC. And in that way the SSC acts as a peer review body for 
the Council. And there are two types of scientific information 
the regularly come before the SSC. First is the annual stock 
assessments for each of the managed fisheries species. And the 
other are environmental assessments, regulatory impact reviews, 
and other required analysis for regulatory actions.
    As regards to stock assessments, the purpose of these is to 
provide an estimate of the biomass that's available for 
harvest. And the best science process that invoked here is a 
three step peer review. And it begins with the stock assessment 
authors. Who are typically well regarded scientists with the 
Alaska Fisheries Science Center, or in some cases with other 
agencies, such as the Alaska Department of Fish and Game. Each 
year the authors prepare their stock assessment reports, called 
SAFE Reports. And those are first reviewed internally. That's 
step one.
    The second step is for those stock assessment reports to go 
before the plan teams. And we have four plan teams in the North 
Pacific. Two for groundfish, and one for crabs, and one for 
scallops. The plan teams review those SAFE's in public arena. 
And after modifications are made to those SAFE Reports, they're 
passed on to the SSC, for another final public review. 
    There are 15 members on the SSC and they represent diverse 
backgrounds, including the agencies and academia. And those 
members when they review these stock assessments they pay close 
attention to the quality of the data, the analytical methods, 
and the conclusions that are drawn as to what an allowable 
harvest would be. The SSC will either agree with those 
recommendations or make changes as appropriate. And forward 
those recommended acceptable biological catch levels to the 
Council for there action. The SSC will also make specific 
comments directed at the SAFE Reports that the authors can use 
in improving them the next year.
    Now why does this process work? Well I believe it works 
because it's in a public forum, and it's significant feedback 
for the scientists who prepared those reports. For all the 
authors the SAFE Reports represent their latest and best work. 
And there is significant professional pride in incorporating 
the best methods and using the best data. And have their SAFE 
Reports received without undo criticism by the SSC.
    In regards to why Alaska's fisheries management is better 
or different than in other regions of the country. I'm going to 
point out what I feel are three notable features that other 
witness here have spoken to. The first is the overall catch 
limit for groundfish. The second is the observer program. And 
the third is how the SSC integrates best science. 
    In terms of the overall catch limits for groundfish, we 
have a maximum of two million metric tons in the Bering Sea and 
the Aleutian Islands area. And in the Gulf of Alaska we have an 
800 thousand metric ton cap. And these are established as a 
precautionary measure. That incorporate ecosystem 
considerations and environmental variability. The observer 
program has already been spoken to. It's extensive and it's 
very important for providing data for management decisions. And 
most importantly it gives us a total catch. Not just a target 
catch but the non-target catch. And that, as mentioned is 
industry sponsored. In terms of SSC and best science I'm just 
going to point our four features that makes it work for us in 
the SSC. The Council relies on the SSC to act as their peer 
review body. Empowering us to do so. The members of the SSC 
cover a broad suite of expertise, including economics, ecology, 
socioeconomic, and anthropology, as well as the more usual 
expertise of fishery biology and population dynamics. We meet 
at the same time as the Council. So that public that's involved 
in the Council meeting can also be involved in our meeting. And 
there's very quick turn around for our recommendations to the 
Council. Allowing feedback between the two.
    And, finally, the Council has never exceeded an acceptable 
biological catch limit that's been recommended by the SSC. And 
in fact the total allowable catch is restricted to be less than 
our acceptable biological catch in our groundfish FMP's. 
Finally, just one lesson in regards to the reauthorization to 
of MSA. I believe the SSC provides the necessary independent 
scientific review for most of the work that comes before us. In 
some cases, very highly controversial subjects, external review 
is needed. And that's what the Council does. The SSC members 
serve in there position because of the empowerment that they're 
given by the Council. They know that there recommendations are 
take seriously. And they feel like they're having a positive 
effect on conservation fishery resources in the North Pacific. 
So, members value their positions and they work very hard to 
make the process work. The SSC has noted in it's minutes that 
if there were to be another process that diminished the peer 
review of the SSC that the impact of that peer review--that 
some of the prominent scientists would probably choose not to 
serve on the SSC. And that might be true in other Council's as 
well. Thank you, and that completes my testimony.
    Mr. Gilchrest. Thank you, Dr. Woodby.
    [The prepared statement of Dr. Woodby follows:]

                Statement of Dr. Douglas Woodby, Ph.D., 
                   Alaska Department of Fish and Game

    Thank you for the opportunity to speak before you today.
    My name is Doug Woodby and I am employed as a Fisheries Scientist 
by the Alaska Department of Fish and Game in Juneau. My 
responsibilities include oversight of the research activities for 
marine commercial fisheries managed by the State of Alaska. Those 
fisheries include crab, shrimp, groundfish, and herring. I am also a 
member of the Scientific and Statistical Committee (the SSC) of the 
North Pacific Fishery Management Council (NPFMC), and it is in relation 
to my appointment to the SSC that I am testifying here today.
    I will focus on three of the questions posed in my letter of 
invitation to this hearing:
    1)  How is science integrated into management?
    2)  Why is Alaska fisheries management considered better/different 
than management in other parts of the country?
    3)  What lessons can we learn from the North Pacific for the 
reauthorization of the Magnuson-Stevens Act?
Integration of Science into Management
    National Standard 2 of the Magnuson-Stevens Fishery Conservation 
and Management Act (MSA) requires that the best available scientific 
information be used in conservation and management decisions made by 
the councils. The MSA also requires that each council establish an SSC 
to assist in evaluating scientific information for management. This 
requirement has been interpreted broadly by the NPFMC, such that all 
information used in their decision making, having either a biological 
or socioeconomic basis, is passed through the SSC. In this way the SSC 
acts as a peer-review body for the NPFMC.
    There are two types of scientific information that regularly come 
before the SSC: 1) annual stock assessments for each of the managed 
species, and 2) Environmental Assessments or other analyses required 
for regulatory actions or changes, including allocation changes.
Stock Assessments
    The purpose of the stock assessments is to provide an estimate of 
the biomass for each managed species and to recommend an acceptable 
biological catch limit. The ``best science'' process is a three step 
peer review beginning with the stock assessment authors, who are 
typically well regarded scientists with the Alaska Fishery Science 
Center, and in a few cases with the Alaska Department of Fish and Game. 
Every year, these authors prepare Stock Assessment and Fishery 
Evaluation reports (SAFE reports) that are often based on rigorous and 
complex mathematical methods for estimating population sizes.
    SAFE reports are first reviewed internally by the management agency 
(the Alaska Fishery Science Center for groundfish SAFEs) and then 
forwarded to the plan teams. The NPFMC has four plan teams comprised of 
federal, state, and academic fishery scientists and economists: two for 
groundfish (Gulf of Alaska and Bering Sea/Aleutian Islands) and one 
each for crabs and scallops. The plan team review of SAFE documents is 
public, and after review, the revised SAFE reports are presented to the 
SSC for a final public review. The chair of the SSC apportions the 
review assignments among the 15 SSC members so that each member can 
focus their review on one or several species, usually in their area of 
expertise. The SSC pays close attention to the quality of the data, the 
analytical methods used to estimate biomass and Acceptable Biological 
Catch (ABC) limits, and the validity of the conclusions. The SSC will 
either agree with the assessments, or will recommend changes where 
appropriate, and forward the recommended ABC limits on to the Council. 
The SSC also makes specific comments directed at improving the SAFE 
reports, and this provides important feedback to the stock assessment 
authors who address each comment in the following year's SAFE report.
    Why does this process provide the best science for management? The 
review of scientific work by the plan teams and the SSC in a public 
forum is a significant feedback to the scientists and agencies that 
prepared the assessments. For most of these authors, the SAFE reports 
represent their latest and best work. There is significant professional 
pride in incorporating the best methods and using the best data 
appropriately, and having the SAFE received without undue criticism by 
the SSC.
Environmental Assessments and Other Analyses
    The SSC also reviews analyses (including EAs, RIRs, and IRFAs), of 
the effects of proposed regulatory actions. These reviews encompass the 
integrity of economic and social considerations, as well as biological 
factors that are taken into account in assessing potential impacts. 
These analyses often appear several times in front of the SSC, usually 
over the course of several Council meetings. The SSC provides comments 
for improvements, and in the end makes recommendation as to whether an 
analysis has met the ``best scientific information'' standard and is 
ready for release to the public for review.
    In a few cases, independent reviews by scientists outside of the 
SSC are sought for complex and controversial scientific issues, such as 
the relationship between fisheries and populations of endangered 
Steller Sea Lions, and the effects of fishing on essential fish 
habitat, conducted by the National Research Council and the Council of 
Independent Experts, respectively. These reviews have been expensive 
and time-consuming, but were valuable in providing perspectives and 
conclusions that would have been an inordinately consuming task for the 
SSC.
Alaska's Fisheries Management: Better or Different?
    The NPFMC has a laudable record in providing sustainable fisheries 
that have generated significant economic activity. Three of the notable 
features of management in the North Pacific are the overall catch 
limits for groundfish, the observer program, and the how the SSC is 
used to integrate best science into management.
Overall Catch Limits
    Groundfish catches in the Bering Sea and Aleutian Islands are 
capped at a maximum of 2 million metric tons (mt) each year, even 
though the sum of the annual ABC levels may be much larger. The same is 
true for the Gulf of Alaska, where the cap is 800,000 mt. These caps 
were established as a precautionary measure and include bycatch. In 
effect, the caps are simple management measures that recognize the 
importance of allowing surplus production to remain in the ecosystem 
for non-human uses, such as predation and decomposition.
Observer Program
    To ensure that catches, including bycatch, stay within Total 
Allowable Catch (TAC) limits, an extensive onboard observer program was 
put in place in 1990. The result was an industry-funded program where 
virtually all large vessels over 125 feet carry observers all the time 
when fishing, and vessels between 60 and 125 feet carry observers 30% 
of the time. Each year, there are upwards of 36 to 37 thousand observer 
days at sea monitoring weights and sampling catches. Observer data is 
important for management decisions to close fisheries as they approach 
catch limits, and is a rich source of information on catch location and 
bycatch of non-target species.
SSC and Best Science
    There are various degrees of differences among the eight regional 
councils in how they conduct their scientific review processes 
<SUP>1</SUP>. Several of the positive aspects of the SSC structure and 
process in the North Pacific are shared by other regional councils, so 
it would be unfair to say that the North Pacific process for 
integrating science is necessarily better. However; it is possible to 
list some of the positive aspects, some shared with other councils, and 
perhaps these might serve as a model for all councils:
---------------------------------------------------------------------------
    \1\ Witherell, D. 2005. Use of scientific review by the regional 
fishery management councils: the existing process and recommendations 
for improvement. A draft paper presented at the ``Managing Our Nation's 
Fisheries II'' conference, Washington, D.C., March 2005.
---------------------------------------------------------------------------
    1)  The NPFMC relies on the SSC to act as the peer review body for 
all stock assessments and required analyses based on scientific and 
economic information.
    2)  Members of the SSC in the North Pacific cover a broad suite of 
expertise, including economics, ecology, socioeconomics and 
anthropology, as well as the more usual expertise in fishery biology 
and population dynamics.
    3)  The SSC meets at the same time as the NPFMC at the same 
location. This provides the public with the opportunity to participate 
in both meetings, and to allow quick turnaround for recommendations by 
the SSC to the Council.
    4)  The NPFMC has never exceeded an ABC recommended by the SSC. In 
fact, TAC is restricted to being less than the ABC for groundfish as 
specified by amendments to the council's two groundfish fishery 
management plans.
Reauthorization of the MSA: Lessons from the North Pacific
    I will highlight just one lesson, and that is that the SSC provides 
the necessary independent scientific peer review of stock assessments 
and analyses for the NPFMC, as supplemented by occasional reviews by 
other entities. Hence, there is no clear need for developing an 
alternative peer review process, although some improvements might be 
made.
    The NPFMC's deference to the recommendations of the SSC has 
engendered a respect for the SSC process, empowering the SSC to base 
recommendations on best available science, uninfluenced by allocation 
issues. SSC members know that their recommendations have a strongly 
positive impact on the conservation of fishery resources in the North 
Pacific, and for this reason, members value their appointment to the 
committee and expend considerable intellectual energy to achieve a 
successful process. If an alternate peer review process was established 
that diminished the role of the SSC, prominent scientists might choose 
not to continue their public service on the SSC.
                                 ______
                                 
    Mr. Gilchrest. Mr. Young.
    Mr. Young. I'm somewhat pleased, I think you all did a 
great job. You all kept it within six minutes. I want to thank 
you for that. That's hard to do and it may be a short period of 
time. What I'm hearing here is most people are pretty satisfied 
with the Act as it's written. Is that correct? Mr. Bedford you 
did offer some suggestions. And I would suggest that you have 
those in writing and they're submitted to the Chairman.
    One thing, and this is outside, no one mentioned it. Maybe 
Ms. Salveson can address this. There's a great conflict going 
in Alaska over farmed fish at sea. Would you like to comment on 
it? Because I am maddeningly opposed to it. The affect upon on 
fish or anadromous fish. And the job that you've done in 
managing our other fish, other than anadromous fish is 
outstanding. And I'm concerned that if you were to implement 
what's being proposed by the Administration that it would 
interfere with not only with the natural management of our 
bottom fish. And the affect upon the market, and effect upon 
the economics of Magnuson Act would be devastating. So if you'd 
like to address that I'd be fine.
    Ms. Salveson. Congressman Young, in general, the 
Administration, NOAA Fisheries is supportive of the President's 
Bill, the Aquiculture Bill. However, we are also more than 
cognizant of the concerns that have been addressed by the State 
of Alaska, economic concerns, potential effects on fisheries, 
and we believe that if the Bill is passed that it would require 
rulemaking to actually implement. And it is through that 
rulemaking process, and outreach initiatives by NOAA Fisheries 
with the state and impacted stakeholders that we would hope to 
accommodate those concerns that have been expressed. And that 
would--that accommodation would occur through rulemaking. And 
there's not a one size fits all, with respect to how that Bill 
may be applied throughout the nation. And we would anticipate 
working with the state and impacted industry to resolve those 
issues to the extent we can through the rulemaking process.
    Mr. Young. Well I appreciate that. I have made this 
statement before, I'm a little concerned about rulemaking. I'd 
rather make it legislative law. Because I've seen how rules 
have been changed after the law's been passed. A classic 
example is my TSA law, which we passed. Which is a pretty good 
Bill if you read it. But how it was implemented through 
regulation and rules is a disaster. And so we will be looking 
at it very closely and making sure that we write something that 
the consideration of the state will be deeply considered in 
legislation. Not necessarily rulemaking. Admiral, Deepwater you 
can be rest assured that we're going to get that we're going to 
get that money restored. We cannot not continue doing what 
we've charged you to do with a system that's wore out. And as 
you know--as you're well aware of that some of the in's and 
out's of why the money was cut back in the Appropriation Bill. 
Supposedly because there wasn't a report filed on how the money 
is being spent on Deepwater. But, for those in the audience 
that don't understand it Deepwater is a larger amount of fleet, 
new fleet that will actually do what you're charged with. And I 
can assure you too, and I'm going to ask you one question. Have 
you seen any interest from higher up in Homeland Security of 
diluting the mission that you're charged with in Alaska?
    Admiral Olson. No, sir, we have not.
    Mr. Young. OK. If that was to occur the first thing you do 
is you pick up the telephone.
    Admiral Olson. Absolutely.
    Mr. Young. Because I have told the President of the United 
States, when they formed the Homeland Security Agency that the 
Coast Guard is to be left alone. As far as their mission that 
we've charged you with. Which is frankly navigation aids, 
search and rescue, fish interdiction, traffic interdiction, and 
the rest of it. As you know the mission in Alaska's probably 
the largest in the United States. And I don't want to see it 
diluted, or turned just for security purposes. Because there 
are other missions equally important. Have you seen any 
increase or is it been a decrease of foreign intrusion into our 
economic zone in the last year and a half or year?
    Admiral Olson. Congressman Young, Mr. Chairman we have seen 
a steady decline over the last several years in foreign 
incursion.
    Mr. Young. Are you working with Russia on this?
    Admiral Olson. Yes, sir.
    Mr. Young. Or how is this working?
    Admiral Olson. We work very closely with both the Russians, 
and our Canadian partners. We have--I have personally have met 
in the last year twice with Canadian counterparts and twice 
with our Russian counterparts. General Puthoff on the Russian 
side, Russian Boarder Guard. They provide us information, we 
exchange information, we get their Vessel Management System, 
their VMS data. We get information directly from them via e-
mails and daily telephone calls. We work with them all the 
time, sir.
    Mr. Young. Without causing any problems, do we have any one 
country that is a bigger offender in the economic zone, 
fisheries wise?
    Admiral Olson. Not that I'm aware, sir.
    Mr. Young. Would it be--seem like--it used to be China. 
They've sort of backed off on--Korea's backed off on it.
    Admiral Olson. Yes, sir.
    Mr. Young. OK, good. Go ahead, you got any questions? I've 
run out of time right now.
    Mr. Gilchrest. Thank you, Mr. Young. Mr. Bedford mentioned 
earlier the Magnuson process to determine a scientifically-
based, economically sound Fishery Management Plan. And then you 
also mentioned the NEPA process and a number of other Federal 
regulations that enter into the picture to come up with a 
Fisheries Management Plan. I would really like anyone on the 
panel to comment on the NEPA process, the Administrative 
Procedures Act, the Magnuson-Stevens Act. And can Magnuson with 
it's national standards and it's process replace the NEPA 
process? Or how can that be integrated together. Do this would 
stir the pot, boil some water I'm sure with volatile debate. 
NMFS recently said that they could front load the process of 
bringing everybody together. Sounds like that's what you 
already do here at the North Pacific. But if you could make a 
comment, as we go through the reauthorization how should we 
deal with the NEPA process? And is there something that we can 
do to adjust it so a Fisheries Management Plan is done in a 
more timely fashion? Who wants to start with that?
    Mr. Bedford. From my perspective the National Environmental 
Policy Act was designed to insure--to provide first off for 
public involvement in important decisions that were reached by 
Federal agencies. But also to insure that all of the potential 
impacts of those decisions were carefully evaluated prior to 
the time the decisions were reached. It is therefore largely a 
procedural mechanism, rather than being a substantive 
undertaking.
    The Council already engages in a very deep study of every 
decision that they're going to arrive AT. And a very open 
public process. And you've heard testimony here that not only 
do you have the opportunity to testify to the Council to 
suggest to ways to take actions--modify actions that are under 
consideration. But also to participate in the scientific and 
statistical teams review of things, as well. So there's plenty 
of opportunity for the public to be engaged. In looking at this 
most of what NEPA really drives at is included in the current 
process. But in the reauthorization of the Act there might be 
specific things that you could employ as a checklist to make 
sure that the process used by the Council covered all of the 
bases that you need it to. And satisfy the policies underlying 
NEPA. And what we would suggest there is that the development 
of the Fisheries Management Plan should include description and 
assessment alternatives, parallel to what NEPA does. An 
evaluation of the relationship between local short term uses of 
fishery resources, and the maintenance that it has for long 
term productivity. An assessment of significant impacts on non-
target species. An assessment of significant adverse effects on 
the marine ecosystem which is----
    Mr. Gilchrest. Is that in your testimony, Mr. Bedford what 
you're giving me right now?
    Mr. Bedford. It's in the written testimony, if you want to 
review it there.
    Mr. Gilchrest. Sure.
    Mr. Bedford. That would be fine. But in any event, so we go 
through a number of things that--in actual point of fact, these 
are for the most part already included in the Fisheries 
Management Plan process.
    Mr. Gilchrest. Thank you.
    Ms. Madsen. May I just add, as Mr. Bedford's pointed out 
NEPA is a process. And we believe, especially the Regional 
Fisheries Management Chairs have recommended in their comments 
some specific language that we believe may address some of the 
concerns. Cumulative impacts, a requirement for a cumulative 
impact assessment in our FMP's. Additionally, a range of 
reasonable alternatives. Right now, you know we could be sued 
because our breath of alternatives isn't sufficient. But 
actuality you just may be coming up with alternatives to try to 
fit that bookend. So we believe that requiring a range of 
reasonable alternatives would not be inappropriate. And the 
Council chairs have actually submitted a language that we 
believe may be incorporated in Magnuson-Stevens to accommodate 
the process of NEPA.
    Mr. Gilchrest. Thank you. Ms. Salveson.
    Ms. Salveson. Thank you, Mr. Chairman. I think Mr. Bedford 
and Ms. Stephanie articulated well that NEPA issues. I'd also 
like to highlight that the Administration is considering other 
proposals to Magnuson Act that would ameliorate some of the 
concerns regarding the Administrative Procedures Act. How do we 
make efficiencies in providing for public review and comment, 
and input, yet still allow for effective rulemaking when we 
need to. And so we're looking at a possible frame working type 
options and some efficiencies of how to enact emergency 
rulemaking when the issue arise to do so. So I think both on 
NEPA issues, APA, and even the Endangered Species Act, I think 
in this Council, the North Pacific Council, NMFS interface we 
have strived to integrate early on in the process endangered 
species issues. Somewhat a pre-consultation type process. So, 
decisionmaking at the Council level is fully informed and does 
not occur subsequent to a Council action.
    Mr. Gilchrest. Thank you very much.
    Mr. Young. And there's one thing that bother me. How many 
times on the Council, and when you recommend--how many suits 
have been filed against you?
    Ms. Madsen. Well, I know we had an EFA lawsuit, which was a 
national lawsuit that involved several of the Councils. We were 
taken to court on our mitigation measures on the biological 
opinion on stellar sea lions. And part of that resulted in our 
programmatic--the need for a programmatic--our PSEIS, which was 
a 7000 page poster child for NEPA quite frankly, Mr. Chairman. 
So I believe those are the three--those were the big ones. 
Right now we are litigation free at the moment. We've resolved 
all of our outstanding issues and hope we won't have any in 
the.....
    Mr. Young. What I'm trying to get to, is there any language 
that could be written into the Act that would include the--I 
call them suits that impede the Council's efforts to try to 
manage the fisheries? If you follow what I'm saying.
    Ms. Madsen. Yes.
    Mr. Young. There are certain groups who don't want to have 
fisheries, let's fact it. I'm mean I've said this publicly. We 
have a group now back east that says you can't catch fish with 
a hook. Because it hurts the fish, you can't hear them cry. So 
we must use a more humane way to catch fish. I'm trying to 
figure that out. Dynamite's pretty good by the way. So, I'm 
just saying that are those groups, but the Council to manage 
with the state--and by the way I think that they're working 
very close together. And with the Federal agencies. The Council 
managed--if they're doing the right thing, I think there should 
be a lawsuit that can stop the management. So have you got any 
ideas I'd like to look at?
    Ms. Madsen. Well, Congressman Young, Mr. Chairman, I think 
in the North Pacific we have been sued primarily on process. 
And they have been able to use the National Environmental 
Policy Act to get us hooked on process. It hasn't been the 
substance of our decisions that have caused the litigation in 
the North Pacific. So I think that if we can reconcile that 
kind of opportunity for litigation by making clear that if we 
follow the Magnuson-Stevens process, that that is sufficient 
for at least NEPA. And somewhat APA, although that has less 
than the string that they have been able to pull, that unravels 
a lot of our actions.
    So, we believe that if we can hopefully fix the NEPA issue 
and incorporate that, not to circumvent the process. We 
understand that there's a process and we quite frankly have 
benefited from going through some of the process. But, it's a 
burden and we can react in a timely fashion----
    Mr. Young. But, and again if you've got ideas for language 
gladly submit it to the committee. Because I think that's one 
of the reasons that I wanted you to be successful. Last, Dr. 
Woodby and Ms. Salveson both referred to science. In which I'm 
very supportive of. The one thing that bothers me is the term 
best of science available. If there's no science that's been 
upgraded, you have to use the old science. I'd prefer, and I 
will try to put into the Bill, it's going to be termed best 
science. If you follow what I'm saying, because there are 
certain individuals that say the science is not available. This 
is what we've done 25 years ago and that what you use to make 
the rules by. They may be outdated because the science is not 
up--you have not kept it up. So, I'd like to use the term best 
science. Because then it has to be the best science. Not what's 
available because if you haven't done anything, and you make 
rules on the science that 25 years old or 20 years old that's 
not fair to the management process, you know. I have no other 
questions.
    Mr. Gilchrest. Thank you, Don. I had a question on that as 
well. Each of you, I think has mentioned the term cautionary 
approach. And it sounds from all of you that using that 
concept, precautionary approach is an acceptable process when 
there is uncertainty. So that there is a sustainable fishery. 
And I don't here that in a lot of other places around the 
country. When you have that as a fundamental premise of your 
fisheries, the concept of a precautionary approach. When you 
come up with--when the scientists come up with an acceptable 
biological catch. That's given to the Council's to come up with 
total allowable catch? How difficult is that? How difficult is 
it to get good science to come up with an acceptable biological 
catch. And then how difficult is that for the scientists, and 
how difficult is it for the Council to then come up with a 
total allowable catch using the precautionary approach and 
never exceeding ABC? That just seems pretty stunning for you 
guys to be able to do that.
    Ms. Madsen. Mr. Chairman, I guess we have luxury in the 
North Pacific to have very good science. Our, the Alaska 
Science Center is well respected. We've had a great 
relationship with them. I think the open and transparent 
process that the science center--people trust the science. And 
they're willing to live by it. My experience, the little that I 
have around the other parts of the country, I'm not sure that 
they have the confidence in their science that we do here. But 
we have a strong science center, we have a strong SSC----
    Mr. Gilchrest. Is there some way--Woods Hole in New 
England?
    Ms. Madsen. Uh-huh (Affirmative).
    Mr. Gilchrest. One of the premiere oceanographic 
institutions in the world, you still have really major problems 
with New England. And the science. And I think part of your 
answer was that the science, SSC meets with the Council's. So, 
is it the structure that you have here that maybe some other 
Council's don't have? The interface, the exchange of 
information from on person to another that has evolved into 
this accepting science. Science with credibility, the 
scientists respecting the people on the Council's?
    Ms. Madsen. Mr. Chairman, I think one of the unique facets 
of the North Pacific is that we do have in the Bering Sea and 
Gulf of Alaska, but I'll focus on the Bering Sea. We have an 
absolute limit, a cap for harvest at 2 million metric tons. 
That now is in statute. I think under the 2004 Appropriations 
Act, Consolidated Appropriations Act. So, the science will come 
forward and lay out the best available--the best science on 
status of stocks. The abundance, biomass, an acceptable 
biological catch. Generally that amount will be far in excess 
of 2 million metric tons. Right now the ABC is about 3 million 
metric tons in the Bering Sea. But we are capped, in terms of 
an allowable harvest at 2 million metric tons. So, the 
science----
    Mr. Gilchrest. That's OK with the Council.
    Ms. Madsen. We did it. It was one of the first actions that 
my predecessors put in place.
    Mr. Gilchrest. Wow.
    Ms. Madsen. So, Mr. Chairman I think a lot of the challenge 
from the Council is to take the best science on status of 
stocks. And then within that 2 million metric ton cap, 
determine how to allocate the allowable harvest among the 
different user groups and different fisheries. And that is 
ongoing challenge that the Council will have. Particularly as 
long as ABC does exceed that cap.
    Mr. Gilchrest. Admiral, VMS has been fairly beneficial in a 
lot of ways, both for conservation, for fisheries enforcement 
and for safety. Is there any move afoot to have an 
international agreement for vessels to have VMS onboard? With 
the Russians or the Canadians or the Chinese? And has that ever 
been mentioned at an IMO meeting for, you know enforcement 
purposes or safety purposes.
    Admiral Olson. Mr. Chairman, not that I'm aware of. Not in 
that context. There are other international security 
initiatives. But from the VMS side for fisheries enforcement 
that's individual states that have done that. The best--as much 
as I'm aware of.
    Mr. Gilchrest. Well thank you all very much. We would like 
to continue our conversation as the months proceed to gain more 
information so that we reauthorize the Magnuson Act, it is--it 
creates a framework upon which--and I think you've set the 
example up here in Alaska. Where initiative, ingenuity, and 
intellect can all work together to come up with a good plan.
    Mr. Young. And I can tell you one thing--all of you watch 
this very closely. And now with modern computers, you can just 
about figure out what we're doing all the time. And if you see 
something that's going to be offensive or something that can be 
improved upon, you know contact the Chairman. Dave Whaley who 
is our Chief of Staff on this issue, and we'll try and 
incorporate it. Knowing full good and well that we're under the 
spot light up here and we want to use this as an example. We 
want to make sure that we are allowed to an economic fishery 
and a sustainable yield. And not only here but across the 
Nation as a whole. And I do appreciate all of your testimony 
and comment and input. Thank you very much.
    Mr. Gilchrest. Our next panel will be Ms. Cora Crome, 
Representative, United Fishermen of Alaska. Ms. Kris Norosz, 
Government Affairs, Icicle Seafoods, Incorporated. Ms. Dale 
Kelley, Executive Director, Alaska Trollers Association. And 
Ms. Linda Behnken, Executive Director, Alaska Longline 
Fishermen's Association. Ladies, welcome.
    Mr. Young. Look at this panel. There's not a man in the 
whole group.
    Mr. Gilchrest. Alaska is ahead of her time. By a long shot. 
Ladies, thank you very much for coming. We appreciate your 
effort to prepare for this hearing. And we look forward to your 
testimony. Ms. Crome, you may begin.

                   STATEMENT OF CORA CROME, 
                   UNITED FISHERMEN OF ALASKA

    Ms. Crome. Thank you very much, Mr. Chairman and 
Congressman Young. I really appreciate the opportunity. My name 
is Cora Crome. I'm here today on behalf of United Fishermen of 
Alaska, which is a statewide coalition of commercial fishermen 
and commercial fishing groups. Who participate in state and 
federally managed fisheries in Alaska. And we are a large part 
of the industry that's regulated by the North Pacific Council, 
so I really appreciate the opportunity to talk to you today 
about our involvement in that process. I also serve as 
Executive Director or Petersburg Vessel Owners Association, 
which is a commercial fishing group based here in southeast.
    First, let me say that we believe really strongly that the 
Council process is a good one. That's it's effective and that 
it's the best avenue that we have for public participation in 
the decisionmaking process. So we're strong supporters of the 
council process and we would like to see most elements of it 
stay in place when the Magnuson-Stevens Act is reauthorized. 
And especially the process that is currently laid out in the 
Act for Appointment, and service on those Council's. In Alaska 
that has been very effective. We have individuals serving on 
the Council's who are some of the most dedicated and 
knowledgeable people that you could ever hope to have. They're 
agency representatives, state representatives, community 
processors and fishermen. And it's so important to the process 
that you have those people who are directly involved in the 
industry sitting at the table when decisions are made. Because 
that is where the dedication and knowledge comes from, is from 
people who are so close to the industry. And so I just wanted 
to make that point to you because I think it's been a topic of 
considerable debate over the past couple of years as the 
council process has been examined by different groups. But from 
the perspective of the industry that's one of the keys to 
success here in the North Pacific. That we are actively 
involved in the process, both through the Council and on their 
advisory panel.
    And, as you've heard a lot about, we really have a strong 
Scientific and Statistical Committee. The Council always takes 
their advice, sets good quotas. We have a wonderful observer 
program. One of the most comprehensive, probably the most 
comprehensive in the nation. And that makes sure that all the 
catch is accounted for, and so those quotas are met, but 
they're not exceeded. And, as a result, we're fortunate we have 
health stocks and we have and industry that provides 10 of 
thousands of jobs all over the Pacific Northwest.
    And another thing that has been very important for the 
Council is the ability to implement rationalization programs in 
some of the fisheries. We have goals of conservation, of safety 
of lives at sea, of reducing by catch, of quality products, and 
value for our products, and economic stability that can only be 
met through rationalization programs. So, we would suggest that 
as the Magnuson-Stevens Act is reauthorized that specific 
language be included to allow the Council's the flexibility to 
develop rationalization programs to meet regional needs, and to 
meet the needs of the fisheries that they regulate. So that 
they can achieve the goals that are important. The 
conservation, the by catch goals. The reduction of by catch is 
one of the main benefits of rationalization programs, as well 
as safety. And we have several rationalization programs in the 
North Pacific that I believe could be good models for other 
fisheries. And we're in the process of developing additional 
ones as well. And in addition I would also make the 
recommendation an attempt be made to reconcile the statutes, 
the Magnuson-Stevens Act, NEPA, and the Administrative 
Procedures Act. We've really experienced some frustration. It's 
very difficult to respond quickly to pressing fishery 
management needs when you have--you governed by statues that 
seem to require such delays, simply by there very nature. That 
you're almost unable to respond as quickly as you would like to 
the best science that you have in front of you. And so we've 
found that to be a frustration with the council process and 
certainly would appreciate any help that you could give us with 
reconciling those statutes as this moves forward.
    Again, I really appreciate the opportunity to address you 
today. And I'd be happy to answer any questions. Thanks.
    Mr. Gilchrest. Thank you very much, Ms. Crome.
    [The prepared statement of Ms. Crome follows:]

    Statement of Cora Crome on behalf of United Fishermen of Alaska

    Good morning. My name is Cora Crome and I represent United 
Fishermen of Alaska. UFA is an umbrella organization representing 35 
commercial fishing groups and over 10,000 individual fishermen who 
participate in fisheries throughout Alaska. I am also the executive 
director of Petersburg Vessel Owners Association and sit on the 
advisory panel to the North Pacific Council. Thank you for the 
opportunity to offer comments to the Subcommittee regarding 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    First, let me say that the United Fishermen of Alaska believe 
strongly that the current system for managing fisheries and fisheries 
resources off Alaska is effective and successful. Coordination and 
cooperation between federal and state agencies, industry, and 
scientists have resulted in healthy stocks, safer fisheries, and an 
industry that provides tens of thousands of jobs in the Pacific 
Northwest. The U.S. Commission on Ocean Policy identified the North 
Pacific as a potential model for the rest of the country. As a 
representative of the industry regulated by the North Pacific Council, 
I appreciate the opportunity to provide our insight on what has made 
this process so successful, as well as our recommendations to further 
improve this outstanding process in the future.
    Council Appointments and Public Participation--The United Fishermen 
of Alaska believe that the current appointment process outlined in the 
Act should be maintained. The dedicated individuals who serve on the 
Council are an adequate and appropriate representation of the affected 
interests. In addition, we believe that all authorities that currently 
lie with the regional councils should remain with there. Members of the 
public currently have the ability to attend meetings held throughout 
the affected area and interact with those making fishery management 
decisions. We believe that the public meetings held by the Council in 
Alaska, Washington, and Oregon provide substantial opportunity for 
public involvement. In addition, the Council seriously considers the 
advice of its advisory panel, which is made up of industry, community, 
and environmental representatives. This public participation would be 
severely compromised if the current process were changed to transfer 
decision making to either Washington D.C. or to an additional body such 
as an ecosystem council.
    Scientific Advice and the Precautionary Principle--The Council's 
reliance on a strong scientific and statistical committee for review of 
all biological and socio-economic information is the single most 
important part of responsible management. Annual catches of our fish 
stocks are controlled by strict harvest limits. The Council establishes 
annual harvest limits for each stock that never exceed the biologically 
safe and precautionary harvest level recommended by the scientists on 
the Plan Teams or Scientific and Statistical Committee. Our scientists 
recommend harvest levels using a tiered approach. The less we know 
about the dynamics and condition of a stock, the more conservative the 
harvest rate. Fisheries are closely monitored and closed when the 
harvest limits are reached. The application of conservative catch 
limits has resulted in sustainable catches and healthy stocks.
    Observer Program and Inseason Catch Monitoring--Our comprehensive 
observer program and inseason monitoring program ensure that the 
conservative catch limits recommended by scientists and set by the 
Council are achieved and not exceeded. Observers are required on all 
vessels longer than 60 feet as well as at most processors. Fishery 
managers at NMFS use information provided by industry and the observer 
program to manage quotas. The combination of timely reporting and 
observer information allows managers to monitor catch levels and 
restrict fisheries so that catch limits are not exceeded. Although our 
observer program is widely recognized as one of the best and most 
comprehensive in the nation, we are currently working to restructure 
the program to provide for even better information gathering.
    Rationalization of Fisheries to Achieve Conservation and Safety--
The North Pacific Council has instituted a number of effort limitation 
and fishery rationalization programs. The Bering Sea pollock fishery, 
the Halibut and Sablefish IFQ program and the new Bering Sea/Aleutian 
Islands Crab Rationalization program are examples of fisheries that 
operate in a fully rationalized manner. The Council is currently 
working to develop rationalization programs for other fisheries in the 
Bering Sea and Gulf of Alaska. The United Fishermen of Alaska believe 
that IFQs, dedicated access privileges, or similar limited entry/
rationalization programs must be at the disposal of the Councils in 
order to achieve conservation and safety goals. Rationalization 
programs have been shown to improve safety and efficiency and reduce 
bycatch. When properly designed and implemented, they lead to increased 
product value and quality. The Magnuson-Stevens Act should provide 
flexibility to the Councils to tailor rationalization programs to 
specific fisheries. Councils should have clear authority to design 
programs that promote safety, conservation, quality, and economic 
stability.
    Reconciling Statutes--The United Fishermen of Alaska believe 
strongly that the current mix of statutes which govern the fisheries 
management process needs to be reconciled, and that the Magnuson-
Stevens Act needs to be reaffirmed as the guiding Act in this process. 
Currently, all Council actions must adhere to a number of Acts and 
Executive Orders including the Magnuson-Stevens Act, the Administrative 
Procedures Act, the Regulatory Flexibility Act, the Endangered Species 
Act, and the National Environmental Policy Act (NEPA). The requirements 
for social and economic analysis, scientific review, and public comment 
specified in the Magnuson-Stevens Act are substantially the same as 
under NEPA; however, the timeline and administrative process under the 
two Acts often conflict, and NEPA has become the defining act for 
processing and review of management actions. The process requirements 
under NEPA have led to delays and litigation, regardless of the 
validity of the underlying science or the conservation benefits of the 
proposed action. Litigation is seriously impeding the Council's ability 
to take timely management actions based on the best scientific 
information. Council staff and NMFS personnel devote thousands of hours 
to meeting litigation-driven requirements, compromising their ability 
to focus time and resources on real management and conservation issues
    United Fishermen of Alaska would like to request that Congress 
assist in resolving the conflicts between these statutes in order to 
clarify and streamline the regulatory process and reduce the exposure 
of the Councils and NMFS to litigation. We believe this can be done by 
clarifying that the Magnuson-Stevens Act is the governing statute for 
actions taken by the Council and NMFS, given that the process and 
requirements for fisheries management as outlined under MSA satisfies 
the intent of NEPA relative to analysis, public participation, and 
environmental conservation.
    Funding--The United Fishermen of Alaska further recommend that 
Congress consider the ability of both NMFS and the Councils to fulfill 
their mission at current funding levels, especially when considering 
any new mandates. While research and monitoring programs are expensive, 
they are invaluable to preserving the health or our fisheries 
resources.
    In conclusion, we would like to express our appreciation for this 
opportunity to comment on the successes of fisheries management in the 
North Pacific as well as our recommendations for ways the process could 
be improved. It is our hope that these comments will be helpful to you 
in your continued work on reauthorization of the Magnuson-Stevens Act.
                                 ______
                                 
    Mr. Gilchrest. Ms. Norosz.

                   STATEMENT OF KRIS NOROSZ, 
                 ICICLE SEAFOODS, INCORPORATED

    Ms. Norosz. Thank you, Chairman Gilchrest, Congressman 
Young. It's a pleasure to be here. I'm Kris Norosz representing 
Icicle Seafoods. We're a privately held corporation founded in 
Petersburg, Alaska. We recently celebrated our 40th anniversary 
and proud to say that we are still owned by employees, 
fishermen and families of our founders, many of whom still 
reside in Petersburg. I appreciate the opportunity to testify 
before you today. And I think it's really important for you to 
understand that what occurs in the Bering Sea and the Gulf of 
Alaska have a direct bearing on operations in inside waters of 
Southeast Alaska and vice versa. We purchase and process a 
diverse range of species caught throughout the state and 
Federal waters off the coast of Alaska. From southeast, here in 
Ketchikan all the way up to Norton Sound in the northwest part 
of the state. And integrated program is a key feature to our 
success. Therefore, any decision that adversely affects our 
business in the Bering Sea has a direct impact on our 
operations in the gulf and in southeast. These impacts will 
also affect the communities we operate in, our employees and 
the fishermen who sell to us.
    The Bering Sea, Aleutian Island crab rationalization has 
recently been adopted and is soon to be implemented. Had this 
program not included processors, this would have likely forced 
us to cease purchasing herring in some remote areas of Alaska 
and reduce our purchases of salmon. This would not only have 
affected us, but the communities we operate in, and the 
fishermen that sell to us. Instead the crab rationalization 
program recognized the historical participation and investments 
of harvesters, processors, and communities. And has provided 
protections for all three sectors. This allows for healthier 
transition, greatly reduces negative impacts, and still 
provides all the benefits for rationalized fishery. Clearly 
decisions in one area have rippling effects in others. And 
every sector of the industry needs to be heard, considered, and 
protected when possible. We're of the opinion that the 
Magnuson-Stevens Act is principally sound and can work well 
with proper implementation. And I believe the North Pacific 
Council is a shining example. The Council operates in an open 
public process with lots of opportunity for public involvement 
through working committees formed around specific issues, and 
public testimony before the advisory panel, the SSC, and the 
Council. The Advisory Panel and the SSC meet during every 
Council meeting. And start a couple of days prior to the 
Council in order to have their recommendations ready prior the 
Council taking up the issue.
    I believe the process has greatly aided the Council in it's 
decisionmaking, and resulted in better workable solutions to 
difficult and complex issues. I think the authority needs 
retained at the Council level for appointment to these 
committees.
    We have a strong atmosphere of cooperation between the 
agencies and stakeholders. I'm not sure if this is unique to 
our region or not. Recognizing that good fisheries management 
need to be science driven, closely monitored, and strictly 
enforced. We have multiple Federal and state agencies working 
closely together with the Council to insure that happens. We 
also have a high degree of cooperation on proactive actions 
that have been undertaken by industry stakeholders to address 
problems in the fishery. For instance, the American Fisheries 
Act, Catcher Vessel Cooperatives in the Bering Sea pollock 
fishery have created and adopted a voluntary industry funded 
program to reduce salmon by catch with twice daily reporting to 
a central data bank. Hot spots are noted, the information is 
decimated to the fleet, and vessels are required to move away 
from areas of high by catch.
    The Marine Conservation Alliance is a group that formed in 
the last few years. And they work diligently in the council 
process to bring diverse and often competing interests together 
to resolve resource issues in a manner that protects the marine 
environment and minimizes the impacts on fishing communities. 
Their efforts include marine debris cleanup and support of 
applied cooperative research products. Industry members over 
the past five years have contributed over five million dollars 
to dozens of marine research projects at universities and 
colleges in Alaska.
    Clearly, there are lessons to be learned in the North 
Pacific. To employ a through science-based process to insure 
that annual catch limits are set at conservative and 
sustainable levels for every target fishery. To adopt in a 
precautionary approach to deal with an uncertainty. Listen to 
the scientists, set the tax at or below ABC, monitor all catch 
and by catch whether it's retained or discarded. Utilize and 
observer program for catch and by catch accountability, close 
fisheries when caps or quotas are reached. Utilize the Advisory 
Panels and SSC's at every Council meeting. Insure the 
deliberate on the issues and advise the Council prior to action 
being taken. Promote stakeholder and public involvement, and 
foster good working relationships between scientists, agency 
staffs, industry stakeholders, coastal communities, the public, 
and the Councils.
    In conclusion, I think successful fishery management in the 
North Pacific is proof that the Magnuson-Stevens Act, when 
properly applied serves as an excellent model for regional 
decisionmaking that provides for the wise use and 
sustainability of the fishery resources. It accommodates both 
national and regional interests and provides creditable 
guidance for responsible decisionmaking. The Act clearly a 
successful partnership that provides the necessary framework 
for successful fisheries management and conscientious 
stewardship of the resource. Thank you.
    Mr. Gilchrest. Thank you very much, Ms. Norosz.
    [The prepared statement of Ms. Norosz follows:]

   Statement of Kristine M. Norosz on Behalf of Icicle Seafoods, Inc.

    Congressman Gilchrest, Young, and members of the Subcommittee,
    Thank you for the opportunity to testify today. I am Kristine 
Norosz, Government Affairs director for Icicle Seafoods, Inc. Icicle 
Seafoods is a privately held Alaska corporation founded in 1965 in 
Petersburg, Alaska. We recently celebrated our 40th anniversary and are 
proud to say that we are still owned by employees, fishermen and the 
families of our founders, many of whom still reside in Petersburg. 
Since starting with a single salmon cannery in Petersburg, we have 
considerably expanded our operations to include multiple locations in 
Alaska where we purchase and process salmon, crab, cod, halibut, 
herring, sablefish and pollock. We purchase fish from southeast Alaska 
up to Norton Sound in northwest Alaska. Our processing operations are 
located in Petersburg, Seward, Homer, Egegik, Dillingham, Dutch Harbor, 
Unalaska Island, and St. Paul. We operate four floating processing 
vessels that operate in remote areas in Alaska. Though we own a small 
number of catcher vessels, over 85% of our business is a result of 
purchases from independent fishermen in Alaska.
    With operations throughout the vast coastal regions of Alaska and 
purchases of both federally and state managed fisheries, we are very 
interested in the management and long term sustainability of the 
fisheries and the policies with which they are governed. As one of our 
founders, Gordon Jensen, said...``Icicle has a long history of working 
toward the sustainability of Alaska's exceptional resources. We see it 
as a shared responsibility, and one that we take very seriously.''
    To put things into perspective, it is helpful to realize that 
approximately half of the Nation's annual landings of fish come from 
waters off Alaska. With a value of over $1 billion per year, Alaska's 
fisheries provide the economic engine for many coastal communities. The 
seafood industry is the number one private employer in the State of 
Alaska and plays a vital role in the State's economy. Good stewardship 
of the fishery resources is of great importance to us and future 
generations.
    I appreciate your desire to hear from Alaska stakeholders and 
realize that one of the reasons I was asked to testify today was to 
bring a Southeast perspective to these discussions. It is important to 
understand that what occurs in the Bering Sea or the Gulf of Alaska has 
a direct bearing on our operations in the inside waters of Southeast 
Alaska and vice versa. Therefore, it is difficult to bring solely a 
Southeast perspective to these discussions. We purchase and process a 
diverse range of species caught throughout the state and federal waters 
off the coast of Alaska. An integrated program is a key feature to our 
success. Therefore, any decision that adversely affects our business in 
the Bering Sea has a direct impact on our operations in the Gulf and in 
Southeast. These impacts will also affect the communities we operate 
in, our employees and the fishermen who sell to us.
    When the halibut and sablefish fisheries were rationalized through 
an IFQ program, the history and investment made by processors was not 
recognized with the inclusion of any protections. The impact was felt 
throughout our operations. Rationalizing only one sector devalues the 
sector that isn't rationalized. It is disruptive to the business. Had 
the Bering Sea/Aleutian Island Crab Rationalization program not 
included processors, this would have likely forced us to cease 
purchasing herring in some remote areas of Alaska and reduce our 
purchases of salmon. This would not only have affected us but also the 
communities we operate in (through a decline in employment, taxes, and 
local purchases) and the fishermen who sell to us. Instead, the crab 
rationalization program recognizes the historical participation and 
investments of harvesters, processors and communities and provides 
protections for all three sectors of the industry. This allows for a 
healthier transition, greatly reduces negative impacts, and still 
provides all the benefits of a rationalized fishery. Clearly, decisions 
in one area have rippling effects in others and every sector of the 
industry needs to be heard, considered, and protected when possible.
    We are of the opinion the Magnuson-Steven Fishery Conservation and 
Management Act is principally sound and can work well with proper 
implementation. I believe the North Pacific Council is a shining 
example of the successes that can be achieved under the existing Act.
    The North Pacific Council operates in an open public process with 
lots of opportunity for public involvement through working committees 
formed around specific issues, and public testimony before the Advisory 
Panel (AP), the Scientific and Statistical Committee (SSC) and the 
Council. The Council's deliberations are conducted in public and 
everyone has ample opportunity to approach the members individually 
outside the meeting, or address them as a body during their meetings, 
to air their opinions prior to decisions being made.
    The Advisory Panel and the SSC meet during every Council meeting 
and start a couple of days ahead of the Council in order to have their 
recommendations ready prior to the Council taking up a specific issue. 
The Advisory Panel and the SSC members are selected by the Council and 
are a diverse group of people with knowledge and expertise that aids 
the discussion and analytical process. The AP and SSC chairs present 
the written reports from the meetings of their respective bodies, 
present oral comments and answer questions from the Council prior to 
the Council hearing public testimony and taking action on the issues. 
We believe the Council should retain the authority to make appointments 
to the AP and SSC.
    As a former member of the Advisory Panel, a member of various 
Council committees, and long time participant at Council meetings, I 
believe this reliable public process, particularly at the SSC and AP, 
has fostered good relationships between the industry, communities, 
scientists, and the agency staffs. This in turn has resulted in a 
better understanding of the issues, good discourse and an opportunity 
for collaboration between the various groups. Issues are more fully 
fleshed out and understood by everyone prior to the issue coming before 
the Council. It often presents an opportunity for folks to come to 
agreement on a solution or to create some innovative alternatives for 
the Council to consider. There is no doubt in my mind this has greatly 
aided the Council in its decision making and resulted in better 
workable solutions to difficult and complex issues.
    The North Pacific Council employs a thorough science-based process 
to ensure that annual catch limits are set at conservative and 
sustainable level for every target fishery. NOAA scientists use a 
variety of sources to aid them in their determination of stock 
abundance. This includes data collected from regular independent 
groundfish surveys along with annual fishery catch and bycatch data. 
This data is coupled with sophisticated stock assessment models to 
determine species abundance and appropriate conservative harvest rates 
for every major groundfish species. Once this is completed, the 
Council's Groundfish Plan Teams review these recommended allowable 
biological catch levels for each stock. These receive further review by 
the Council's SSC before the Council sets their annual specifications 
for the upcoming fishing year. Without fail, Total Allowable Catch 
(TAC) limits are always set at or below the Allowable Biological Catch 
(ABC) limits set by the SSC, and well below the designated overfishing 
level.
    As an additional precautionary measure, the combined Bering Sea and 
Aleutian Islands groundfish quotas are capped at a maximum of 2 million 
metric tons annually, regardless of the maximum recommended ABC levels. 
For example, in 2004 the ABCs totaled over 3.5 million metric tons, yet 
the TACs were reduced to stay within the 2 million metric ton cap. The 
catch was well under the cap. This cap has been maintained for over two 
decades as a safety measure to protect against stock assessment 
uncertainty and potential ecosystem effects. Groundfish harvest rates 
have been in the 3 to 5 billion pound range for the last three decades 
and no groundfish stocks are considered overfished.
    Catch limits alone have little meaning if the harvest of targeted 
species and bycatch are not closely monitored and enforced. In the 
North Pacific, we use a combination of strict reporting requirements, 
observer coverage, and real time in-season catch monitoring to ensure 
that annual catch and bycatch limits are not exceeded. The catch of all 
species is monitored and counted toward the limit. This includes target 
species and species taken as bycatch, whether retained or discarded. 
Fishery managers also use this data to monitor seasonal and area 
apportionments, close areas or fisheries if bycatch limits for 
prohibited species are reached, and monitor the take of any ESA listed 
mammals or seabirds.
    A critical component of the monitoring system is an industry funded 
comprehensive observer program that occurs on-board and at processing 
plants. Observers are required in many onshore processing plants, 
offshore catcher-processors and catcher vessels. With the exception of 
vessels less than 60 feet in length, all vessels fishing for groundfish 
in federal waters are required to carry observers, at their own 
expense, for at least a portion of their fishing time. Depending on 
vessel length, it may be 30% to 100% of the time. Besides collecting 
catch data for in-season quota monitoring, observers also collect data 
for stock assessment, species composition, length, and age structure.
Cooperative Efforts:
    I am not familiar enough with the other regions to know if the 
cooperative effort between agencies in the North Pacific is unique or 
not. I can tell you that it appears to be working quite well here. The 
Council shares management responsibilities for some species with the 
Alaska Dept. of Fish & Game (salmon, crab, scallops, and herring) and 
the International Pacific Halibut Commission. Recognizing that good 
fisheries management needs to be science driven, closely monitored and 
strictly enforced, we have multiple federal and state agencies working 
closely together with the Council to ensure that happens. It includes 
NOAA Fisheries along with their Alaska Fisheries Science Center and 
North Pacific Groundfish Observer Program, the International Pacific 
Halibut Commission, the Alaska Dept. of Fish & Game and the Alaska 
Board of Fisheries, the Pacific States Marine Fisheries Commission, the 
U.S. Fish & Wildlife Service, and the U.S. Coast Guard. The boards and 
commissions I have listed include industry and community stakeholders. 
You can find representatives of all these groups, along with 
stakeholders, working together on various Council committees and 
advisory groups to other international commissions like the North 
Pacific Anadromous Fish Commission. There is an incredible amount of 
interaction, information exchange, and collaboration between the 
agencies, boards, commissions, and stakeholders.
    I can't leave the subject of cooperative efforts without mentioning 
the high degree of proactive work undertaken by industry stakeholders 
to address problems in the fisheries as they arise. Here are a few 
examples I would like to share with you:
    <bullet>  The American Fisheries Act catcher vessel cooperatives in 
the Bering Sea pollock fishery have created and adopted a voluntary 
industry funded program to reduce salmon bycatch with twice daily 
reporting to a central data bank. Hot spots are noted, the information 
is disseminated to the fleet, and vessels are then required to move 
away from areas of high bycatch.
    <bullet>  The Marine Conservation Alliance (MCA) is a diverse group 
comprised of fishing associations, communities, Community Development 
Quota groups, harvesters, processors and support sector businesses 
operating in the North Pacific. They have worked diligently in the 
Council process to bring diverse interests together to resolve resource 
issues in a manner that protects the marine environment and minimizes 
the impacts on the fishing community. Their efforts include marine 
debris clean-up and support of applied cooperative research projects.
    <bullet>  The North Pacific Longline Association (NPLA) has been 
successful in their efforts to research and adopt seabird avoidance 
measures to protect endangered short-tailed albatrosses. The NPLA 
prepared draft regulations for consideration by the Council who then 
voted to implement the regulations by emergency rule.
    <bullet>  Industry members, over the past five years, have 
contributed over $5 million to sponsor dozens of marine research 
projects at the University of Alaska, Alaska Pacific University and 
Sheldon Jackson College.
Progress Toward Ecosystem-Based Approaches to Fishery Management:
    The North Pacific Council has adopted an array of measures for an 
ecosystem-based management approach. Recognizing the limited amount of 
relevant scientific information currently available to fully understand 
all the impacts of harvesting fish on the entire ecosystem, the Council 
has adopted a precautionary approach in its management decisions as a 
means to minimize unexpected impacts. This has led the Council to take 
a conservative approach in setting annual catch limits and the reason 
it has set a 2 million metric ton cap for total catch in the Bering 
Sea/Aleutian Island fisheries, regardless of how large the biomass may 
get. Fisheries are closed when limits are reached, all catch and 
bycatch (whether retained or discarded) are counted toward the TAC, an 
industry funded observer program monitors catch and bycatch, and the 
TAC is always set below ABC. Predator/prey relationships are also 
considered and a prohibition on directed fishing for important forage 
fish species is in place.
    In addition, for the last decade, the groundfish plan teams have 
authored an Ecosystem Considerations section to supplement the annual 
Stock Assessment and Fishery Evaluation (SAFE) report. This important 
section of the SAFE document includes an annual assessment of the 
ecosystem, a review of ecosystem oriented management literature, 
updates on current ecosystem research, new information on the status of 
marine mammals and seabirds as well as other components of the North 
Pacific ecosystem.
    The Council has adopted strong habitat protection measures that 
have closed productive fishing grounds on either a permanent or 
seasonal basis. Fishery closures comprise of time, area and gear type 
to protect critical life stages of various species, seafloor habitat, 
minimize bycatch, and minimize interactions with protected species. In 
excess of 330,000 square nautical miles have been closed to bottom 
trawling or otherwise restricted to protect habitat.
    There is no doubt that there is much to be learned and understood 
about marine ecosystems and the interrelationships of the many forces 
at play. However, management authority for an ecosystem-based 
management approach needs to stay in the hands of the regional 
management councils. The U.S. EEZ is extremely large with many diverse 
and unique areas. What works best in one area or fishery may not in 
another. Managers need to be cognizant of prevailing conditions and new 
information. Therefore, a regional approach, left in the hands of the 
regional fishery management councils, offers the best opportunity for 
timely adaptive management that is well suited for the circumstances at 
hand.
Lessons to be Learned from the North Pacific:
    1.  Adopt a precautionary approach to deal with uncertainty.
    2.  Set TACs at or below ABC.
    3.  Monitor all catch and bycatch, whether retained or discarded.
    4.  Utilize the advisory panels and SSCs at every meeting of the 
Council. Ensure they deliberate on the issues and advise the Council 
prior to action being taken.
    5.  Utilize observer programs for catch and bycatch accountability, 
and other data collection.
    6.  Promote industry and public involvement.
    7.  Foster good working relationships between scientists, agency 
staffs, industry stakeholders, coastal communities, the public, and the 
councils.
Conclusion:
    Successful fisheries management in the North Pacific is proof the 
national standards and goals of the Magnuson-Stevens Fishery 
Conservation and Management Act, when properly applied, serve as an 
excellent model for regional decision making that provides for the wise 
use and sustainability of the fisheries resources in the U.S. EEZ. Half 
of the Nation's annual landings of fish come from waters off Alaska and 
assessments of all the groundfish stocks conclude they are healthy and 
sustainable. The North Pacific region has shown the Act works when 
closely followed. It accommodates national and regional interests and 
provides critical guidance for responsible decision making. The 
Magnuson-Stevens Fishery Conservation and Management Act is a 
successful partnership program that provides the necessary framework 
for successful fisheries management and conscientious stewardship of 
the marine resources.
                                 ______
                                 
    Mr. Gilchrest. Ms. Kelley?

                   STATEMENT OF DALE KELLEY, 
                  ALASKA TROLLERS ASSOCIATION

    Ms. Kelley. Good morning, and welcome to Ketchikan.
    Mr. Gilchrest. Thank you.
    Ms. Kelley. My name is Dale Kelley. I am the Executive 
Director of the Alaska Trollers Association, and our office is 
located in Juneau. Since 1925, ATA has represented hook and 
line salmon fishermen who operate in both state and Federal 
waters off the coast of Southeast Alaska. Small family 
operations target premium quality Chinook and Coho. The fish 
are caught one at a time, and cleaned and iced or flash frozen 
onboard. Most of our product is distributed to white tablecloth 
restaurants and smokeries around the world. Here in southeast 
there are only 33 communities. Only three have road access. 
Ketchikan isn't one. This makes commercial fishing extremely 
important to our region. About one of every 40 people works on 
a troll boat. Fishing and support jobs span everything from 
fishermen and processing workers to fishery scientists, gear, 
and service providers. The troll fleet is the largest in the 
state, 85 percent resident and 40 percent of our permit holders 
live in rural communities. And, by the way Ketchikan may seem 
small by lower 48 standards, but it's actually our fourth 
largest community and not considered rural.
    The troll fleet is unique in any number of ways. Ours in 
the only salmon fleet in Alaska that fishes in the EEZ. For 
many years the Council jointly managed our fisheries with the 
Alaska Board of Fisheries. But recognizing the strength of 
Alaska's management program delegated it's management it's 
management authority in 1991. So ADF&G manages our fishery is 
pertinent to the council process. Now the Council steps in only 
when a Federal management body is needed to review specific 
issues like the Endangered Species Act. Trollers are the only 
Alaska salmon fishermen managed under the ESA, even though no 
Alaska salmon stocks are listed under the Act. We bear this 
unfortunate distinction because we harvest a small number of 
fall run salmon from the Snake River. The ESA mandates 
involvement of a Federal regulatory body. So we sometimes 
address the Council on this matter. While the Council's not 
directly involved in managing the troll fishery, ATA remains 
interested in the laws that govern it's activities and our 
operations. Many in the fleet are diversified into other 
Council fisheries. And we remain concerned about habitat and 
other initiatives bedded in that arena. As with any regulatory 
process there's often a wide range of opinions and positions. 
ATA doesn't always agree with the Council's decisions, but we 
greatly value it's existence. We recognize the Council is 
fulfilling a very important purpose with respect to transparent 
management of our public resource. We recognize it as a 
national leader in fisheries management.
    I would specifically ask to discuss with you our fishery 
and it's relationship to management. So how is fishery 
management in Alaska different? Well I find that Congressman 
Young maybe surprised to learn that dynamite is not official 
fishing gear in this state. Because in this state fish always 
come first. Alaska's constitution mandates sustainable 
fisheries, so Alaska was caring for habitat and managing it's 
fisheries in a cautious manner long before anyone coined the 
term precautionary approach. The regulatory process is public 
and dynamic. Our management plans are publicly reviewed and 
modified as needed to accommodate changed circumstances. 
Conservation and allocation decisions are kept separate. The 
Board of Fisheries allocates fish, but Fish and Games primary 
responsibility is conservation. The lines of authority are 
clearly drawn, and this is a very important point of our 
management system. Governors and legislatures, though they 
tried at times do not make fishery management decisions in 
Alaska. And in fact the Commissioner of Fish and Game doesn't 
actually manage the fisheries. But relies on professional front 
line biologists to manage them. Science-based management 
decisions are make using current and historical data along with 
in season observations. Fisheries managers are empowered to 
override Board of Fish Management Plans and close fisheries, 
when necessary for conservation. This data driven, responsive, 
fish friendly management is probably the most significant 
difference between ADF&G and many other management agencies 
around the country.
    ADF&G and other Alaska agencies work closely with 
fishermen. We regularly meet to coordinate on common policy 
goals. Fish and Game and fishermen work together to design 
common sense regulations that benefit both the resource and 
industry. And the prime example for our fleet is our spring 
troll fishery. Where each year we've began coordinating port 
meetings, Fish and Game and I, and we inform fishermen--we just 
give them the current information, but also work to 
reconfigure, if necessary any of the more than 30 distinct 
spring fishing areas. So it's very cooperative, open process 
between our organizations.
    ATA is in daily contact with managers to share vital 
fishing information. To help Fish and Game more quickly access 
run strength we share information from fishermen on the 
grounds. And as a volunteer I conduct aerial boat counts for 
ADF&G to help estimate effort and catch rates. ATA once ran a 
logbook program and this year we will work with NOAA to examine 
the food source data collected by trollers in hopes of helping 
scientists studying Steller sea lions. Alaska's management 
program is strong because managers work for the resource and 
with users. This situation didn't develop overnight. And while 
it's not perfect our system seems to have matured nicely into 
one of cooperation between Alaska's agencies and fishermen. 
Unfortunately our experience is not consistent with what you 
hear from fishermen and scientists across the nation.
    We have just a few points of concern within the Magnuson-
Stevens reauthorization process. The Council membership, we 
believe should be knowledgeable and reflect the affected public 
and state governments. And I couldn't say it any better than 
Cora had emphasized a few minutes ago. Fishery policy and 
management should be prescriptive and adaptive recognizing 
differences between regions, fleets, and circumstances. What 
works in North Carolina isn't going to work here in Alaska. And 
we're a little tired of fending that off during these 
reauthorization processes. Marine protected areas should not be 
legislated. We believe the Council should use them only if 
necessary to achieve specific goals and objectives, and after 
extensive public process. The Council's must recognize local 
knowledge in their decisions and strive to balance uses. 
Decentralizing management decisions to minimize political 
pressure and improve reaction time should lead to more nimble 
and responsive management programs. Key terms such as over 
fishing need to be reevaluated and/or developed. Enhanced 
research and data collection to avoid duplicity, which 
protecting confidential data is essential. Cooperative projects 
with fishermen and their organizations should be encouraged. 
Vessel Monitoring Systems should require reasonable 
justification as to the actual need for and intended use of 
data collected. Confidentially and privacy matters must be 
addressed and industry costs mitigated. Particularly in the 
smaller boat fleets.
    Dedicated access privileges must be carefully crafted and 
consider individual fishing histories and impacts on fishermen 
and small communities. Control of the public resource, 
ownership and consolidation of the seafood industry are 
important issues demanding stringent standards to safeguard 
U.S. fishermen in coastal communities. Potential impacts of 
offshore aquiculture must be scrutinized and carefully dealt 
with.
    New legislation would exempt fish farmers from Magnuson-
Stevens Act. While some provisions of the Act might not be 
applicable to aquiculture, many of the national standards seem 
appropriate and fitting. It would be unfortunate to continue 
improving fishery management in the EEZ only to see 
conservation and U.S. economics successes undermined by new 
activities that could affect not only the seafood industry, but 
coastal communities and others who utilize the oceans.
    In conclusion, not long ago I had dinner with a lively 
group of East Coast fishermen in Portuguese Fishermen's Hall in 
New Bedford, Mass. A lobsterman from Maine flopped down beside 
me and told me everything he know about Alaska fisheries in one 
statement. He said that the Alaska fleet is made up of huge 
factory trollers that ply the coastline taking copious amounts 
of fish and destroying the Pacific Ocean. So, of course I had 
to share with him my impression of East Coast fisheries. That 
their management is so dysfunctional that no one really knows 
how many boats are fishing where or when, for what species, 
with what gear. And they're very close to catching the last 
fish in the Atlantic Ocean. As we talked we quickly discovered 
how little we actually knew about each others fisheries and 
regional concerns. And I certainly felt my horizons expand as I 
listened and learned. If Americans are lucky those changed with 
reauthorization of Magnuson-Stevens and other important 
fisheries law will take time, as you are to gain a broader 
understanding of the U.S. fisheries and dependent communities. 
We should all draw on the success and failure of others as we 
work to further refine and improve our nations fish and habitat 
policies. Working together we can insure the sustainability and 
productivity of the oceans for our children and the nation.
    Mr. Young. Thank you, Dale.
    Mr. Gilchrest. Thank you very much, Ms. Kelley. We'll have 
to have you come and testify over when we go to Portland, 
Maine.
    Ms. Kelley. I'd love to.
    Mr. Gilchrest. Ms. Behnken.
    [The prepared statement of Ms. Kelley follows:]

             Statement of Dale Kelley, Executive Director, 
                      Alaska Trollers Association

    Good morning and welcome to Ketchikan! I greatly appreciate you 
taking time to personally travel to Alaska to learn about our fisheries 
and hear our concerns.
    I am Dale Kelley, executive director of the Alaska Trollers 
Association. Our office is located in Juneau.
    When invited to testify at this hearing, I was asked to discuss--
our fishery and its relationship to management--what is our unique 
management experience and why is Alaska different? To answer those 
questions, it's important to look beyond the Council process and focus 
more directly on our fisheries and communities, along with what's right 
and working with our state waters fishery--and why. Therefore, my 
comments will attempt to give you a sense of what our region is like; 
what our fleet does; how our fishery fits into the Council process; our 
perspectives on the Alaska management experience; and, a heads-up on 
some of our members' concerns.
    Since 1925, ATA has represented hook and line salmon fishermen who 
operate in both state and federal waters off Southeast Alaska. The 
typical crew size on a troll vessel is a skipper and one deckhand, 
although there are also many family-run operations. Our principal 
target species are chinook and coho and the product is premium quality. 
Fish are caught one at a time and cleaned and iced or flash-frozen 
while still onboard the vessel. Most troll-caught fish are bound for 
white table cloth restaurants and smokeries around the world.
    There are approximately 15,000 salmon producing rivers in Alaska 
with over 2,500 in this region alone. Freshwater and marine habitat in 
Alaska is largely intact and most species of fish and shellfish are 
healthy throughout the state. Alaska salmon have been highly abundant 
for the last two decades and our processors are granted use of the 
Marine Stewardship Council's sustainable label.
    Alaska is extremely fish dependent and most coastal communities 
host a diverse fishing fleet. When you consider the seafood industry, 
the guided sportfishing industry, resident anglers, and subsistence 
users, the pursuit of wild fish is clearly one of the most important 
contributors to our local economy and social well-being. The taxes and 
fees collected from the seafood sector by the state far exceed every 
industry but oil, which makes seafood production important to all 
Alaskans.
    There are 33 communities here in Southeast but only three are 
accessible by road. Commercial fishing is extremely important to our 
jobs base. Fishing and support jobs span everything from fishermen and 
processing workers to fishery scientists, gear suppliers, and service 
providers. The troll fleet is the largest in the state and about one of 
every 40 people in this region works on a troll vessel. Roughly 85% of 
the permit holders are resident and over 40% of them live in rural 
communities. Incidentally, while small by Lower 48 standards, Ketchikan 
is not considered rural--with little over 14,000 souls, this is the 4th 
largest city in Alaska. If you look outside right now you'll see three 
cruise ships in the harbor. Passengers onboard those vessels equal 
nearly half the year-round population of Ketchikan. Alaska might be 
called the Great Land, but it's made up of a lot of small towns.
    The troll fleet is unique in that ours is the only salmon fleet in 
Alaska that fishes the EEZ. As a result, a fishery management plan 
(FMP) was drafted by the North Pacific Fishery Management Council 
(Council). For many years, the Council jointly regulated our fishery 
with the Alaska Board of Fisheries (Board), but, recognizing the 
strength of Alaska's management program, delegated its authority to the 
state in 1991. Therefore, how the state manages the troll fishery is 
pertinent to the MSA.
    The Council still steps in when a federal management body is needed 
to review specific issues, such as the Endangered Species Act. Trollers 
are the only Alaska salmon fishermen managed under the ESA, even though 
none of state's salmon stocks are listed. Trollers bear this 
unfortunate distinction because they harvest a small number of fall-run 
Chinook salmon from the Snake River. Beyond the current program to 
conserve salmon stocks, there is nothing our fleet can directly do to 
rebuild Snake River Fall Chinook. This fact has been recognized by both 
the Council and the Pacific Salmon Commission (PSC), the body that 
implements the US/Canada Salmon Treaty (Treaty). In 1999, a ten year 
Treaty agreement was struck and Alaska was able to secure a Section 7 
permit to fish under the ESA for the life of that agreement. Before 
that, the state applied for a permit to fish under the ESA, NOAA 
reviewed and ruled on our management plan, and the Council put the 
matter in front of the public. There was often considerable acrimony 
between NOAA, the state, and fishermen during this process, but the 
long term Treaty agreement and associated ESA permit put an end to 
that. Hopefully, a similar arrangement will be possible in the future, 
as it would streamline the ESA process for all.
    While the Council is no longer directly involved in managing the 
troll fishery, ATA remains interested in laws and policies that govern 
its activities or could affect operations. Our members are concerned 
about habitat and other initiatives vetted in that arena, and many in 
the fleet participate in other Council fisheries.
    As with any regulatory process, there is often a wide range of 
opinions and positions. ATA does not always agree with the Council's 
decisions, but we greatly value its existence. We recognize the Council 
as fulfilling a very important purpose with respect to transparent 
management of a public resource. As you know, Alaska's Council has an 
outstanding reputation as a national leader in federal fisheries 
management, and is typically on the forefront of designing systems 
intended to protect and sustain marine resources.
    So, why does fisheries management in Alaska work--how is it 
different?
    Well, given his earlier comments, Congressman Young might be 
surprised to learn that dynamite is not legal fishing gear around 
here...
    In this state, fish have always come first.
    <bullet>  Following a couple of failed ballot attempts, Alaska 
joined the union when federally permitted fish traps threatened to kill 
off salmon.
    <bullet>  Alaska's Constitution bans fish traps and mandates 
sustainable fisheries.
    <bullet>  Alaska was caring for habitat and managing its fisheries 
in a cautious manner long before anyone coined the term ``precautionary 
approach''.
    The state and its people are affected and engaged.
    <bullet>  Fishing is the number one employer and, in some way, 
every town in Alaska relies on commercial fishing.
    The regulatory process is public and dynamic.
    <bullet>  Alaska Board of Fisheries (Board) is a lay board that 
conducts lengthy public meetings in each region no less than once every 
three years. Special meetings are held for unanticipated needs, but it 
is extremely rare to secure such a meeting for anything but 
conservation.
    <bullet>  Anyone can submit a proposal and participate in the 
meetings. It is not unusual to see a thousand proposals submitted to 
the Board in any given year.
    <bullet>  The Board is supported by local Advisory Committees who 
actively seek out the opinions and concerns of their communities, and 
pass those recommendations on to the Board.
    <bullet>  Management plans are publicly reviewed and modified as 
needed to accommodate changed circumstances.
    <bullet>  The Alaska Department of Fish and Game (ADFG) can alter 
these plans in-season, if conservation warrants.
    Conservation and allocation decisions are kept separate.
    <bullet>  Alaska Board of Fisheries is responsible for allocation.
    <bullet>  ADFG's primary responsibility is conservation.
    Lines of authority are clearly drawn
    <bullet>  Though some have tried, Governors and Legislators do not 
make fishery management decisions.
    <bullet>  The Commissioner of Fish and Game relies on professional 
front-line biologists to manage fisheries on a day-to-day basis.
          Science-based management decisions are made using current and 
        historical data and in-season observations. Fishery managers 
        are empowered to override Board of Fish management plans and 
        close fisheries when necessary for conservation.
          This data-driven, responsive, fish friendly management 
        process is probably the most significant difference between 
        ADFG and many other management agencies around the country.
    ADFG and other Alaska agencies work with fishermen to better manage 
resources
    <bullet>  We regularly meet with ADFG commissioners and staff to 
coordinate on common goals for state, federal, and international 
fishery policy.
    <bullet>  ADFG and fishermen work together to design common sense 
regulations that benefit the resource and industry.
          A prime example is the spring troll fishery. ADFG and ATA 
        host joint meetings in many ports, to share information with 
        the fleet and seek input for shaping over 30 distinct 
        management areas.
    <bullet>  ATA is in daily contact with managers to share vital 
fishery information.
          To help ADFG more quickly assess run strength, ATA shares 
        real-time information from fishermen on the grounds. As a 
        volunteer, I conduct aerial boat counts for ADFG to help 
        estimate effort and catch rates.
          For many years ATA ran a fleet logbook program with oversight 
        from ADFG and NOAA. This year we will work with NOAA to examine 
        food source data collected by trollers, in hopes of helping 
        scientists studying stellar sea lions.
    <bullet>  ATA works with the agencies to improve habitat for fish 
and wildlife
          ATA is a contractor working with USFWS, Ducks Unlimited, and 
        AK Department of Transportation to improve fish passage on 
        Prince of Wales Island.
    In sum, Alaska's management program is strong and effective because 
managers work FOR the resource, and WITH the users. This situation 
didn't develop overnight. And, while it's not perfect, the current 
system seems to have matured nicely into one of cooperation between 
Alaska's agencies and fishermen.
    Unfortunately, our experience is inconsistent with what I hear from 
many fishermen and scientists around the nation. In my opinion, the 
federal system overall could be well served by following the example 
set by Alaska when it comes to partnering with industry and securing 
science based, responsive management programs.
Industry Challenges
    The committee also requested information about what challenges we 
anticipate in the foreseeable future. Like any industry, we have a few.
    <bullet>  Conserving and maintaining access to the resource
    <bullet>  Securing adequate funds for research, management, and 
enforcement.
    <bullet>  Habitat protection
    <bullet>  Integrating and/or fending off new approaches to 
conservation and management (e.g. what's already working versus which 
trendy concept or term has true meaning and application?).
    <bullet>  Ensuring business friendly regulation: Safeguards the 
resource/Practical and orderly
    <bullet>  Food safety and product quality
    <bullet>  New product form development
    <bullet>  Marketing
    <bullet>  Transportation
    <bullet>  Environmental and Trade Policy
    <bullet>  Fish farming and its impacts
Select MSA Issues of Concern to ATA
    The following will highlight a few of ATA's MSA concerns. It's 
early in the reauthorization process and we will no doubt share more 
detailed comments with you and other congressional committees as the 
issues emerge and narrow.
    Fishery policy and management should be prescriptive, adaptive and 
recognize the differences between regions, fleets, and circumstances.
    Marine Protected Areas should not be legislated. The Councils 
should use them only if necessary to achieve specific goals and 
objectives, and only after extensive public review. As a practical 
matter, Alaska already uses various forms of MPA by way of fisheries 
closures, and time/area restrictions. If more formal MPA's are deemed 
appropriate, basic policies and structural sideboards should be 
developed by those who best know the resources and use pattern of the 
areas in question. The Councils must recognize local knowledge and 
strive to balance uses. Development of Local Area Management Plans 
(LAMPS) is creating some good process for protecting areas, while still 
providing for harvest.
    Decentralizing management decisions, to minimize political pressure 
and improve reaction time, should lead to more nimble and responsive 
management programs. When Congress and the agencies make decisions from 
afar, significant lag times occur which can harm both the resource and 
harvesters.
    Key terms such as ``overfishing'', ``sport fishing'', and ``fishing 
community'' should be re-evaluated and/or developed. For instance, the 
way the term ``overfishing'' is applied sometimes unfairly punishes 
fishermen by failing to consider all sources of mortality. Fishing 
isn't always the only, or the biggest, culprit behind stock declines. 
Reduced abundance can stem from habitat destruction, pollution, or 
natural causes like water temperature and current, or the cyclical 
nature of a species (e.g. halibut or pink salmon).
    There is a need to enhance research and data collection, while 
avoiding duplicity and protecting confidential data. Cooperative 
projects with fishermen and their organizations should be encouraged 
and may provide cost savings.
    Vessel Monitoring Systems (VMS) should require reasonable 
justification as to the actual need for, and intended use of, 
information collected and also consider the appropriateness of 
utilizing these systems on various fleets. Small boat operators should 
not be held to same requirements as large. Many of our fishermen live 
aboard their boats all or part of the year and every boat day isn't 
necessarily spent fishing. Confidentiality and privacy matters must be 
addressed and fishermen engaged to help find appropriate and practical 
solutions to these issues when VMS is warranted. If VMS is required, 
the cost to industry should be mitigated with financial assistance or 
providing equipment at no cost. Other means of securing this 
information should also be explored.
    Dedicated Access Privileges must be carefully crafted, grounded in 
common sense, and consider individual fishing histories and impacts on 
fishermen and communities. Creative programs that contemplate an 
affordable means for future generations to enter the fishery will be 
especially important for mitigating the social cost of such programs, 
particularly in small communities. If IFQ programs are implemented, 
then all commercial and guided operators harvesting the quota species 
should be included, so as to not unfairly restrict one group while the 
other continues to increase its harvest share. This is a live issue in 
Alaska, where some in the guided sportfishing community are attempting 
to resist implementation of an IFQ system for their fishery, at the 
expense of existing commercial IFQ holders.
    Control of the public resource, ownership and consolidation of the 
seafood industry are important issues demanding stringent standards to 
safeguard U.S. fishermen and coastal communities.
    Potential impacts of offshore aquaculture must be scrutinized and 
carefully dealt with. Recently introduced legislation would exempt fish 
farmers from the MSA. While some provisions of the MSA might not be 
well-suited to aquaculture, many of the national standards seem fitting 
and appropriate. It would be unfortunate to continue improving fishery 
management in the EEZ, only to see conservation and U.S. economic 
successes undermined by new activities that could affect not only the 
seafood industry, but coastal communities and others who utilize the 
oceans.
In Conclusion...
    Not long ago I had dinner with a lively group of East Coast 
fishermen at a Portuguese fishermen's hall in New Bedford, Mass. A 
lobsterman from Maine plopped down beside me and told me everything he 
knew about Alaska fisheries in one statement...the Alaska fleet is made 
up of huge factory trawlers that ply the coastline taking copious 
amounts of fish and destroying the Pacific Ocean. So, of course, I 
shared with him my impression of East Coast fisheries...that their 
management is so dysfunctional that no one really knows how many boats 
are fishing where or when, for which species, with what gear--and that 
they are very close to catching the last fish in the Atlantic Ocean. As 
we talked, we discovered how little we actually knew about each other's 
fisheries and regional concerns. I certainly felt my horizons expand as 
I listened and learned.
    If Americans are lucky, those charged with reauthorization of 
Magnuson-Stevens and other important fisheries law will take the time, 
as you are today, to gain a broader understanding of U.S. fisheries and 
dependent communities. We should all draw on the successes and failures 
of others as we work to further refine and improve our nation's fish 
and habitat policies. Working together, we can ensure the 
sustainability and productivity of the oceans for our children and the 
nation.
    Thank you.
                                 ______
                                 

                  STATEMENT OF LINDA BEHNKEN, 
            ALASKA LONGLINE FISHERMEN'S ASSOCIATION

    Ms. Behnken. Thank you.
    Mr. Gilchrest. Did I pronounce that right?
    Ms. Behnken. You did actually. Which is rare, people don't 
usually get that. Thank you.
    My name is Linda Behnken. I am Director of the Alaska 
Longline Fishermen's Association, testifying today on behalf of 
ALFA's membership. Thank you for this opportunity to testify 
and for traveling to Alaska to hear our concerns. By way of 
introduction, I have fished commercially since 1982, I've owned 
and operated a 34 foot combination troll/longline vessel since 
1991. I served on the North Pacific Fishery Management Council 
from 1992 to 2001, and have been ALFA's Director since 1991.
    With my testimony, I would like to provide you with some 
background on ALFA's membership. The fisheries in which ALFA 
members participate, and the strengths and weaknesses of the 
IFQ program under which those fisheries are managed. I will end 
by offering some recommendation on the establishment of 
Magnuson-Stevens Act standards for future dedicated access 
programs. And the importance of designing such programs to 
enhance opportunities for independent community-based 
fishermen. ALFA's membership is comprised of deckhands and 
vessel owners who work and operate longline vessels in the 
North Pacific. Most ALFA members reside in the coastal 
communities of Southeast Alaska. Our membership includes owners 
of vessels ranging in size for open skiffs to 80 foot halibut 
schooners. But the majority operate vessels under 60 feet. 
Members primarily target sablefish and halibut, but many also 
troll, seine, gillnet, or tender salmon during the summer 
months. Alaska's sablefish, halibut fleet has now fished under 
an IFQ program for 10 years. The program has achieved 
conservation, safety, and market objectives. Gear loss, by 
catch, and dead loss have all been reduced, as have accidents 
at sea. The fleet has enjoyed excellent ex-vessel prices, and 
sold more fish on the fresh market than anyone predicted. 
Thanks to competition and innovation in the processing sector. 
Let me remind you that there are no processing who share in 
these fisheries--processing shares in these fisheries. Which 
has allowed new and creative buyers to enter the business. For 
most perspectives the IFQ program has been unqualified success. 
With the advantage of hindsight I can now see how the program 
design could have been improved to insure the stability of the 
IFQ fisheries. And to achieve long term socioeconomic 
objectives. In my written testimony I addressed both of these 
issues. Today I would like to focus on the latter. Achieving 
long term socioeconomic objection under dedicated access 
programs. In establishing the sablefish, halibut IFQ program 
the North Pacific Council stated their intent to maintain the 
existing characteristics of the fleet. Including fleet 
diversity, primarily owner operated vessels, and an entry level 
affordable and assessable to coastal community-based residents. 
Although fleet diversity has been largely maintained through 
vessel size classes and the fleet is still primarily owner 
operated. Concessions made to first generation quota share 
recipients has provided a loop hole for de facto leasing. And 
issuance of quota share in perpetuity has had unforeseen 
affects on second generation access. The price of quota has 
risen above what can be considered an affordable entry level. 
Particularly to those needing financing to purchase shares. By 
way of example halibut shares currently sell for $18 to $22 
dollars per pound. Although the ex-vessel price averages 
approximately $3 dollars per pounds. Out of which a person has 
to pay crew expenses, maintain their vessel.
    As a result, coastal community residents that did not 
receive an initial allocation or buy shares soon after 
implementation of the IFQ program are finding it difficult to 
find access to these fisheries. Over time program changes may 
further raise the cost of entry by allowing additional 
consolidation and absentee ownership. In sum the socioeconomic 
objectives defined for the program prior to implementation are 
eroding. A process that is jeopardizing second generation 
participation in the IFQ fisheries by coastal community-based 
fishermen.
    These effects clearly underline the importance of initially 
establishing clear and measurable objectives, and scheduling 
periodic reviews that allow program modifications or allocation 
adjustments to insure the program objectives are being 
achieved. All future dedicated access programs should include 
these three elements. Had the North Pacific Council been 
required to take these steps the Council would have a clear 
blueprint for the program. And could now provide incentives or 
disincentives to trends to insure those goals were met. 
Modifications to the program could be made to lower the cost of 
entry to the halibut/sablefish program, actively discourage 
absentee ownership, and safeguard fleet diversity. For example 
the Council could limit the duration of shares or establish 
partial auctions to lower the entry level. Or provide 
allocation-based disincentives to absentee ownership of shares. 
To hasten the transition to the owner operated fleet initially 
envisioned by the Council. Without these clear objectives and 
the opportunity for modifications, pressure from well vested 
IFQ holders will likely shift programs over time toward 
absentee ownership, fleet consolidation, and high capital 
costs. It may preclude the involvement of coastal community-
based residents.
    With few alternative employment opportunities, coastal 
communities simply cannot afford to loose access to local 
resources. Across the nation, and indeed around the world 
coastal communities are in trouble. Largely due to the loss of 
access to marine resources. Immediate action is needed to 
maintain an affordable entry level and to halt the trend toward 
absentee ownership that reduces fishermen to the status of 
share croppers. Standards for future dedicated access programs 
must be added to the Magnuson-Stevens Act to maintain access 
opportunities for independent community-based fishermen. These 
should include specific and measurable objectives defining the 
biological, social, and economic goals of the program. Schedule 
periodic review to insure consistency with biological, social, 
and economic goals of the program, with the opportunity to 
modify programs and allocations in order to achieve objectives. 
Maintaining active participation in harvesting operations by 
those holding dedicated access privileges. Provide an entry 
level affordable to the coastal community fishermen. Maintain 
competitive markets, encourage innovation in the processing 
sector, and establish effective limits on consolidation. 
    In conclusion, when designing the halibut/sablefish IFQ 
program, the North Pacific Council articulated a vision for the 
fisheries that included biological and socioeconomic 
objectives. However the Council was not required to establish 
measurable objectives against which the program would be 
periodically evaluated. Nor did the Council have the 
opportunity to modify those allocations to insure that the 
objectives were met. With the sablefish, halibut program has 
been highly successful for a biological and marketing 
perspective, the combination of unseen affects and program 
amendments threaten to erode socioeconomic objectives. In the 
absence of Magnuson-Stevens Act standards for dedicated access 
programs, the socioeconomic affects will be difficult to 
address. The North Pacific Council, as well as Council's for 
other parts of the Nation paid far less attention to second 
generation access, and socioeconomic affects with other 
dedicated access programs. Then were considered when drafting 
the sablefish, halibut program.
    As more and more fisheries move toward dedicated access 
programs, access opportunities for coastal communities must be 
safeguarded or many coastal fishing communities will disappear. 
Experience indicates that national guidelines are needed to 
guide regional council's in the development of these programs. 
ALTA recommends the establishment of Magnuson-Stevens Act 
standards that include the items outlined above. Only then will 
the vitality of our nations fishing in coastal communities be 
restored. Thank you for the opportunity to comment.
    [The prepared statement of Ms. Behnken follows:]

            Statement of Linda Behnken, Executive Director, 
                Alaska Longline Fishermen's Association

    My name is Linda Behnken. I am the of the Alaska Longline 
Fishermen's Association (ALFA) and am testifying today on behalf of 
ALFA's membership. Let me start by thanking you for this opportunity to 
address the subcommittee, and for the time you have taken to travel to 
Alaska and listen to our comments.
Introduction
    By way of introduction: I have fished commercially since 1982, and 
have owned and operated a 34 foot combination troll/longline vessel 
since 1991. I served on the North Pacific Fishery Management Council 
from 1992-2001. I have been the director of the Alaska Longline 
Fishermen's Association (ALFA) since 1991. I hold a Master's degree in 
resource management from Yale University.
    With my testimony, I would like to provide you with some background 
on ALFA's membership, the fisheries in which ALFA members participate, 
and the strengths and weaknesses of the IFQ management program that 
governs those fisheries. I will end by offering some recommendations on 
the establishment of Magnuson-Stevens Act standards for future 
dedicated access programs, and the importance of designing such 
programs to enhance opportunities for independent, community-based 
fishermen.
ALFA's membership
    ALFA's membership is comprised of deckhands and vessel owners who 
work and operate longline vessels in the North Pacific. Most ALFA 
members reside in the coastal communities of Southeast Alaska, although 
the membership also includes some residents of Washington and Oregon. 
Our membership includes owners of vessels ranging in size from open 
skiffs to 80 foot halibut schooners, but the majority operate vessels 
under 60 feet. Members primarily target sablefish and halibut, and many 
also troll, seine or tender salmon during the summer months.
The halibut/sablefish IFQ program
    As you are aware, the sablefish and halibut fisheries off Alaska 
are managed under an IFQ program. ALFA actively participated in 
development of the sablefish/halibut IFQ program, repeatedly reminding 
the Council that the program must address conservation and safety 
issues while maintaining the existing characteristics of the fleet, 
preventing excessive consolidation, providing an affordable entry level 
and ensuring competitive markets. ALFA joined with other Alaska-based 
groups to demand the fleet remain primarily owner-operated, with quota 
shares held by vessel operators. We made clear that our support for an 
IFQ program was contingent upon provisions precluding absentee-
ownership and corporate control of the fisheries or the longline 
markets. We successfully championed an amendment called the Block 
Proposal that further limited consolidation and enhanced entry level 
opportunities. In the end, the IFQ program contained the key elements 
needed to earn ALFA's support and we worked hard to promote adoption 
and, finally, implementation of the program in 1995.
Evaluating the IFQ program
    Alaska's sablefish/halibut fleet has now fished under the IFQ 
program for 10 years. Without reservation, I will tell you the program 
has achieved conservation, safety and market objectives. Gear loss, 
bycatch, and deadloss have all been reduced, as have accidents at sea. 
The fleet has enjoyed excellent ex-vessel prices and sold more fish on 
the fresh market than anyone predicted, thanks to competition and 
innovation in the processing sector. Let me remind you there are no 
processor shares in these fisheries, which has allowed new and creative 
buyers to enter the business. (To diverge for just a moment: ALFA 
recognizes the absolute importance of competitive markets and limits on 
vertical integration and firmly opposes processor shares in any form.) 
From most perspectives, the IFQ program has been an unqualified 
success.
    With the advantage of hindsight, I can now see how the program 
design could have been improved to ensure the stability of the IFQ 
fisheries and to better achieve socioeconomic objectives. I would like 
to focus on two design improvements. These are: preventing the growth 
in a related sector from undermining the stability of an IFQ program--
in our case this translates to including the halibut charter fleet in 
the IFQ program; and, establishing clear program objectives against 
which the program will be evaluated and allocations can be adjusted on 
a regular basis.
    Maintaining the stability of an IFQ program- Early in the process 
of designing the commercial halibut IFQ program, the North Pacific 
Fishery Management Council considered including the halibut charter 
sector in the initial IFQ allocation. The Council did not pursue this 
option. While initially including the charter fleet in the commercial 
IFQ program may not have been optimal, preventing the charter sector 
from eroding the stability of the commercial IFQ program has definitely 
proved to be essential.
    Growth in the charter halibut harvest results in a direct 
reallocation of quota from the commercial to the charter sector; hence 
the unchecked halibut charter harvest is currently threatening to de-
stabilize the commercial IFQ program. Commercial fishermen working to 
pay off loans on quota shares cannot afford the deduction associated 
with the reallocation, especially during years of declining halibut 
abundance as is currently predicted for Alaska. Growth in the charter 
sector is also causing localized depletion near towns, which in turn 
disadvantages subsistence and non-guided sport fishermen. In sum, 
placing most, but not all halibut businesses under the market-based IFQ 
system has allowed one sector to grow unchecked while IFQ holders pay 
the cost of conservation and face an unjust reallocation of shares, and 
non-guided sport and subsistence harvesters face dwindling 
opportunities.
    In response to these and other problems associated with growth in 
the halibut charter sector, the North Pacific Council adopted an IFQ 
program for the halibut charter fleet in 2001. The Proposed Rule to 
implement the program is scheduled for review this summer. The Council 
spent eight years reviewing options and 8,000 public comments before 
selecting the charter IFQ program as the best solution to identified 
problems associated with growth in the halibut charter harvest. Had the 
charter fleet been included in the initial allocation or included soon 
after implementation of the commercial IFQ program, the current crisis 
of uncompensated reallocation from commercial to charter fishermen and 
localized depletion near many coastal communities could have been 
avoided. Clearly allowing one sector to grow unchecked at the expense 
of those investing in an IFQ program creates an untenable situation and 
should be considered when designing future IFQ programs.
    Establishing specific measurable program objectives and scheduling 
regular evaluation to ensure program objectives are achieved: In 
establishing the sablefish/halibut IFQ program, the North Pacific 
Council stated their intent to maintain the existing characteristics of 
the fleet, including fleet diversity, primarily owner-operated 
community-based vessels, and an affordable entry level accessible to 
coastal community residents. Although fleet diversity has been largely 
maintained through vessel size classes and the fleet is still primarily 
owner-operated, concessions made to first generation quota holders have 
provided a loop-hole for de facto leasing, and issuance of QS in 
perpetuity has had unforeseen effects on 2nd generation access. The 
price of quota has risen above what is currently considered a 
reasonable investment or an affordable entry level for those needing 
financing to purchase shares. (By way of example: halibut shares 
currently sell for $18-22 per pound, yet the ex-vessel price for 
halibut averages $3 per pound). As a result, coastal community 
residents that did not receive an initial allocation or buy shares soon 
after implementation of the IFQ program cannot currently afford access 
to the fisheries. Over time, program changes may further raise the cost 
of entry by allowing additional consolidation and absentee-ownership. 
In sum, the objectives defined for the program prior to implementation 
are eroding, a process that is jeopardizing second generation 
participation in the IFQ fisheries by coastal community-based 
independent fishermen.
    These effects clearly underline the importance of initially 
establishing clear and measurable management objectives and scheduling 
periodic reviews that allow program modifications or allocation 
adjustments to ensure that program objectives are being achieved. All 
future dedicated access programs should include these three elements. 
Had the North Pacific Council taken these steps, the Council would have 
a clear blue-print for the program and would have the opportunity to 
provide disincentives to trends inconsistent with program goals. 
Modification to the program could now be made to lower the cost of 
entry to the halibut/sablefish program, actively discourage absentee 
ownership, and safeguard fleet diversity. For example, the Council 
could limit the duration of shares or establish partial auctions to 
lower the entry-level, or provide allocation-based disincentives to 
absentee ownership of shares to hasten the transition to the owner-
operated fleet initially envisioned by the Council. Without these clear 
objectives and the opportunity for modifications, pressure from well-
vested IFQ holders will likely shift programs over time toward absentee 
ownership, fleet consolidation and high capital costs that may preclude 
the involvement of coastal community-based fishermen, deepening the gap 
between the ``have'' and the ``have nots.'' With few alternative 
employment opportunities, coastal communities simply cannot afford to 
lose access to local marine resources.
Magnuson-Stevens standards for future dedicated access programs
    Across the Nation, and indeed around the world, coastal communities 
are in trouble, largely due to the loss of access to local marine 
resources. While the halibut/sablefish program is rightly identified as 
the program designed with the most careful eye toward safeguarding 
community involvement, some critical components are missing--namely, 
including all related sectors under an effective management program and 
the establishment of specific management objectives against which the 
program can be regularly evaluated and allocations modified to ensure 
objectives are being met. The absence of these components could 
jeopardize the stability of the program and the access of future 
coastal community-based residents to the halibut/sablefish resource off 
Alaska. Given the limited employment options in coastal communities, 
access to coastal resources is of paramount importance to coastal 
residents. Immediate action is needed to maintain an affordable entry 
level and halt the trend toward absentee ownership that reduces 
fishermen to the status of share-croppers. Standards for future 
dedicated access programs must be added to the Magnuson Stevens Act to 
maintain access opportunities for independent, community-based 
fishermen. These should include:
    <bullet>  Specific and measurable objectives defining the 
biological, social and economic goals of the program;
    <bullet>  Scheduled periodic review to ensure consistency with 
biological, social, and economic goals of the program with the 
opportunity to modify programs and allocations in order to achieve 
objectives;
    <bullet>  Maintain active participation in harvesting operations by 
those holding dedicated access privileges (i.e., prevent absentee 
ownership)
    <bullet>  Provide entry level opportunities affordable to 
independent, coastal community-based fishermen;
    <bullet>  Maintain competitive markets that encourage innovation in 
the processing sector;
    <bullet>  Establish effective limits on consolidation.
Conclusion
    In designing the halibut/sablefish IFQ program, the North Pacific 
Fishery Management Council articulated a vision for the fisheries that 
included biological and socioeconomic objectives. However, the Council 
did not establish measurable objectives against which the program would 
be periodically evaluated and modified to ensure those objectives were 
being met. The Council also failed to recognize the threat to the 
stability of the IFQ program posed by the halibut charter sector. While 
the sablefish/halibut IFQ program has been an unqualified success from 
a biological and economic perspective, growth in the halibut charter 
sector threatens to undermine program stability and the combination of 
unforeseen effects and program amendments threatens to erode 
socioeconomic objectives. The halibut charter IFQ program currently 
under legal review will re-establish program stability, preventing the 
current reallocation of shares from commercial to charter fishermen. In 
the absence of Magnuson-Stevens Act standards for dedicated access 
programs, the socioeconomic effects will be difficult to address.
    The North Pacific Council, as well as Councils from other parts of 
the Nation, paid far less attention to second generation access and 
socioeconomic effects with other dedicated access programs then were 
considered in crafting the sablefish/halibut program. As more and more 
fisheries move toward dedicated access programs, access opportunities 
for coastal communities must be safeguarded or many coastal communities 
will disappear. Experience indicates that national guidelines are 
needed to guide regional councils in the development of future 
dedicated access programs. ALFA recommends the establishment of 
Magnuson-Stevens Act standards for future dedicated access programs 
that include the items outlined above. Only then will the vitality of 
the Nation's coastal fishing communities be restored.
    Thank you for the opportunity to comment.
    Attachments: Need for halibut charter IFQ in Alaska
    A call to action for sustainable and diverse coastal fishing 
communities
    [NOTE: Attachments to Ms. Behnken's statement have been retained in 
the Committee's official files.]
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Mr. Young. Good job. Are you suggesting like--that the 
standards be written into law that directs the Council and 
doesn't give them the flexibility.
    Ms. Behnken. Mr. Chairman, Congressman Young, no I believe 
the Council's need flexibility in how they design the programs. 
And most programs need to be designed to meet specifics of the 
region and the fisheries that they're addressing. But I do 
think every program needs to have--be directed by standards. 
That require the establishment of specific objectives and that 
the programs then be reviewed on a periodic basis to insure 
that those objectives are being met. And if they're not being 
met that there be an opportunity to modify the programs to 
insure that those objectives are met.
    Mr. Young. You're asking us to put this in the Magnuson 
Act--the standards.
    Ms. Behnken. The requirement for specific objectives. And 
measures to safeguard access opportunities for coastal 
communities.
    Mr. Young. Now you keep talking about the second generation 
and the afford ability of entering the fishery. Are you talking 
about increasing the amount of boats in that area.
    Ms. Behnken. No, no. What I would be referring to there is 
people who buy shares as other people sell those shares. So the 
people who are buying in. So anybody other than initial 
recipients.
    Mr. Young. If I have a quota share of halibut or sablefish 
and I sell that, there's a chance of what we call a 
consolidation or monopoly being created. Can that happen if one 
sells, another sells, another sells, and that precludes the 
community from being--participating in the fishery?
    Ms. Behnken. That could happen under IFQ program. The 
halibut/sablefish program was written in such a why to limit 
the consolidation that can occur.
    Mr. Young. Right now, it can or cannot occur?
    Ms. Behnken. It cannot occur under the sablefish, halibut 
program.
    Mr. Young. That's good.
    Ms. Behnken. That is good.
    Mr. Young. I understand.
    Ms. Behnken. And I guess what I'm saying is there were a 
lot of objectives that were clearly stated by the Council when 
the program was initially written. Some of those objectives are 
being jeopardized at this point, and some amendments are being 
made. Our concern is that over time, changes to the program, 
some of the unseen affects may make it difficult for people who 
live in the communities to afford access to those resources. 
And that we're not alone, in fact I would say Alaska and the 
sablefish, halibut program is the one that did it best. Looking 
at dedicated access programs in other parts of the nation, in 
Canada the effects on communities have been far more profound. 
And the communities need to be considered and that access 
opportunities need to be up front and center in peoples 
consideration in forming any future dedicated access programs.
    Mr. Young. Ms Kelley, how is the Canadian Treaty with 
salmon, you mentioned the Snake River. How is that working out 
as far as the quota on troll caught kings.
    Ms. Kelley. I'm happy to report we're enjoying the biggest 
quota year ever. The fish are very abundant and it's being 
reflected in our current Treaty Agreement that's now abundance 
based. So, our quota in Alaska now relies on just a certain set 
of stocks and goes up and down based on the health of those 
stocks.
    Mr. Young. Now you mentioned that the Department of Fish 
and Game in the state, and you fish in the economic zone down 
here. So, that cooperation between the state and the Council's 
is working out well.
    Ms. Kelley. I believe so. Usually--I think the Council 
still has a Management Plan. And they take a look at it every 
so often and update the information in it. But, since the early 
'90's they have delegated their management authority to the 
state. And there are a couple of terms that if the state does 
not comply with the U.S., Canada Salmon Treaty, if there's no 
a--if we violate the provisions of that Act then the Council 
will step in. Or if we are--our fisheries are being managed in 
such a way as to not be sustainable then they could step in.
    Mr. Young. And that has not happened.
    Ms. Kelley. No. Not at all.
    Mr. Young. Now what about the Snake River fish? What do we 
do about them.
    Ms. Kelley. Well Snake River fish are a problem for a 
number of reasons. They really have very little habitat. And 
until you restore the Snake River habitat, there's really not 
going to be a Snake River run of fish. So, that's--dams have 
obstructed the majority of the Snake River.
    Mr. Young. But I was saying though how--why should you be 
penalized if you're managing fish here in a proper fashion. 
Because one Snake River fish gets into our deal that's sort of 
like, you know a rotten apple in a whole barrel.
    Ms. Kelley. Well it's been very frustrating. And I think 
it's hard for our association--it's been quite a struggle. 
Because we feel like that ESA has been dealt in a very punitive 
matter through NOAA Fisheries, quite honestly. Obviously a 
different process than what you're dealing with here with 
Council's that.....
    Mr. Young. Do you have suggested language that can relieve 
that problem.
    Ms. Kelley. Simplistically, the language would be just to 
hold those accountable--most accountable that are having the 
greatest impact on the resource. You know everything gets--the 
burden of salmon issues in the Columbia River typically gets 
thrown over to the harvesting sector. And quite honestly about 
95 percent of the mortality occurring on Snake River fall 
Chinook is occurring at the dams. So, it's not really for us--
we hear that money--that the hydro-operators ply money at the 
problem. But, there's some real issues there. And actually we 
can get into FERC re-licensing and how that might help with 
fish passage if you like, but it's a----
    Mr. Young. I can tell you don't get into the idea of 
tearing those dams up. Because that would shut down the entire 
northwest.
    Ms. Kelley. That's--I think depending on which dams--
there's a variety of opinions about dams. But I can tell you in 
your--in DC as FERC re-licensing comes up, shorter term 
licensing on some of those fish passage structures might 
actually make it an incentive for people to do the R&D to 
develop structures. I mean right now it's all lumped into the 
big 40 or 50 year plan. And, you know who wants to develop 
something that may never be even tested. So, there may be other 
options, but really salmon tend to need wild and natural 
rivers.
    Mr. Gilchrest. That might be an issue in the conference, I 
guess with the Energy Bill for the hydro dams.
    Ms. Kelley. Well those dams are all up for re-licensing 
now, as I'm sure you're aware.
    Mr. Gilchrest. Right. We can----
    Ms. Kelley. So the whole process is on the table, so----
    Mr. Gilchrest. Well we'll take this input back with us. See 
what we can do. I wanted to come back to Ms. Behnken and your 
comment about the standards. Your recommendation is to put 
standards into the Magnuson Act so that standards that would 
set about goals for people involved in these IFQ's. And I just 
want to get a couple of things in my mind straight. One of your 
goals is that IFQ's should only be sold to an owner operator.
    Ms. Behnken. Mr. Chairman, no. I'm sorry that I must not 
have been very clear. What we would like to see is that there 
be standards in Magnuson Act to guide Council's in developing 
dedicated access programs. And that those standards insure that 
second generation--people how buy into quota share programs 
over time, that those are people--people who can afford to buy 
in are people who live in our coastal communities. So, in other 
words we don't loose that access over time.
    Mr. Gilchrest. I see. So, there would be some--so the 
second generation would be able to afford----
    Ms. Behnken. Right.
    Mr. Gilchrest.--the purchase--and IFQ. Now as everybody's 
seen--it seems that the rationalization programs work pretty 
well up here. And you're continuing to pursue those. Does 
anybody else want to make a comment on those potential 
rationalization programs, owner operators having access to it. 
Local coastal communities having access to it. And there being, 
you know affordable entry into these programs.
    Ms. Norosz. Yes. Thank you, Mr. Chairman. I guess I'd like 
to comment that I think Alaska's had a long history in trying 
to rationalize it's fisheries. Whether you're talking about 
limited entry for the state managed fisheries. Or whether 
you're talking about dedicated access privilege programs in the 
Federal fisheries. And since we've been talking about halibut 
and sablefish programs here, I guess I was very much involved 
in the development of that program. But I would like to say 
that there--that there were stakeholders in that fishery that 
who's contributions and investments weren't recognized. And 
that was of processors and of communities. And there are no 
protections in that program for those two sectors. Since then 
we've developed other programs through the American Fisheries 
Act, and with the Bering Sea, Aleutian Island Crab 
Rationalization Program that we've built upon past programs. 
We've learned from our mistakes. We've learned from seeing how 
these other programs have panned out. We've have the advantage 
of some history passing, and seeing what some to the unforeseen 
consequences are. And I think we've built upon those mistakes. 
And as I mentioned previously, I think with the Crab 
Rationalization Program that we have recognized the 
contributions of all three sectors. We've built in protective 
measures for the communities and processors. And set up a 
situation where we can have cooperative fisheries. And think 
that everyone is going to benefit as a result.
    Mr. Gilchrest. Good. Thank you. Ms. Kelley.
    Ms. Kelley. Yeah. Thank you. I kind of feel stuck in the 
middle on this particular thing. Because I can definitely 
appreciate the points that both Kris and Linda have made. There 
are a lot of issues with respect to who loses with any type of 
rationalization program. Because with any kind of change 
there's always going to be somebody that was effected. Our 
fleet has an historical--has historically harvested halibut. 
Very common for trollers to be both trollers and longliners. 
And when the IFQ program came down. Our organization actually 
stood down and allowed these other groups that were longline 
specific groups to deal with the terms. Because it really 
divided our fleet. And I think--what Linda's saying I just 
wanted to echo that. And it is in my written comments as well. 
Is these affordable programs are really important, but not only 
to the second generation who wants to feel like there's some 
hope in the industry and you can afford to buy in--your stake 
into the commercial fishing industry. But also to the first 
generation owners who are hoping to sell, at some point there 
IFQ shares. I mean if you've got a boat and a bunch of Q's that 
you cannot sell to anybody, it's not very helpful to your 
business operation either.
    So, I've watched this for quite some time as the cost has 
grown many people who are engaged in the fishery that are 
trollers right now had to buy into the program. They either 
didn't get enough share or hadn't fished the base period years. 
We saw a lot of people that took some time to pencil out their 
investment. But I think--I do worry as we head into the next 
generation about whether or not these fishing communities will 
sustain. Just whether or not there will be enough interest if 
young people can't afford to buy in.
    Mr. Young. How do you equalize that out though and afford 
to buy in? If I own some IFQ's, it's like a limited permit for 
anadromous fish or salmon. I don't own enough--much IFQ's and 
Cora decided she wanted to pay me $25 dollars for a IFQ for one 
unit. And that precluded Dale from getting them, because she 
had more money than you did. How do you adjust that. I mean I'm 
naturally going to be selfish and take the $25 dollars, you 
know.
    Ms. Kelley. I think Linda's put a lot of time and effort 
into that so she probably--her group is probably put a great 
deal of though into, you know the next generation and how you 
might accomplish that. Which actually, if you dealt with 
communities and local--you could probably deal with the whole 
community structure with the right format. I'm not the expert 
on that. But, yeah it is very--it's market driven. And it's 
very confounding because typically there's going to be somebody 
that's going to be able to afford to pay and somebody who's 
not. So----
    Mr. Young. I agree with what you're trying to do. I want 
the community to survive. I want the fish to be able to get 
into the next generation. But, I mean human nature, you know I 
would rather see the IFQ's not be sellable. And I'm really get 
in trouble. And have them returned back to the community, and 
let the community, you know distribute the IFQ's to somebody in 
the community. That won't sell. I'm going to tell you that 
every fisherman in the room, their ears went up when I said 
that. But I just don't know how you can do it without some way 
of not compensating the owner of the IFQ. Linda, go ahead.
    Ms. Behnken. If I could answer that. We have given a lot of 
thought to this. And one is in the very structure of how you 
write the IFQ program. With the sablefish, halibut program we 
did the block proposal. Which gives people small increments of 
shares that can't be consolidate into bigger amounts. To keep 
that affordable we did vessel size classes, that the shares can 
only be fished on small boats, sell for less per pound. Those 
things have all helped. And there were all very important. And 
definitely get at the entry level.
    I think the last piece of that that we didn't consider, and 
is not part of our program was the opportunity to modify 
programs on a five to ten year basis. And this is been 
addressed in sharing the fish, the NRC study that was 
commissioned on IFQ's. It's been used in other parts of the 
world as a way to be able to modify programs so that objectives 
are achieved. Also as a way to keep down costs. If you go to a 
bank and you say I have these shares. And I have them in 
perpetuity. The amount--the value of those shares is much 
higher than if you say I have these shares. They may be 
modified some degree--maybe 15, 20 percent of what I hold. In 
seven, five, seven, ten years, when they are reviewed. The 
value then comes down. And they're valuable enough for people 
to use that investment, you know as a, you know justification 
for improvements to their vessel, safety, whatever.
    But they don't, but they bring down the value somewhat. 
They control the value somewhat. That we think it would 
function, and has functioned in other places to keep those 
shares somewhat accessible. No one wants to talk about sum 
setting an IFQ program. No one wants to put in that much work 
on a program and think about in seven years it ends. And that's 
not what I'm talking about. What I'm talking about is an 
opportunity in a five to ten year timeframe to modify a 
program.
    So, you may say at some point that we haven't quite 
achieved this objective of facilitating--say a gear type has 
come along. And it can harvest the fish with less impact to the 
resource. And you say we're going to offer this incentive. If 
you will switch to this other gear type you will get 100 
percent of your quota for--after five years. If you don't 
switch, you'll get 90 percent. And that 10 percent's going to 
be reallocated.
    Mr. Young. OK. Just go back. This is going to be difficult, 
as you know. Because in the New England states they hate IFQ's. 
So, we're writing a national bill. That's something--we may 
have to have some exemptions for Alaska. I mean, what precludes 
the Council from doing what you're suggesting right now? Why 
does it have to be in the law?
    Ms. Behnken. Nothing precludes them, but I can say at this 
point, and in any dedicated access program. Overtime the 
pressure on the Council will be from people who are well vested 
in the program. And my members are well vested in the program. 
But they continue to have concern about what the fishery will 
look like in 15 years.
    The people who are second generation, potentially second 
generation, the new people coming along, the deckhands coming 
along. They aren't going to be at the Council meetings 
testifying saying, what about me? You know, in 20 years I'd 
like to buy shares. Or in 10 years I'd like to be able to 
afford to buy shares. The people who are at Council meetings 
and pushing for changes, and pushing for amendments are the 
people who are well vested. Who would like to be able to have 
more flexibility, maximize the value of their shares. So over 
time, and this has been seen around the world also. The trend 
is always for programs to go more toward absentee ownership and 
more toward flexibility for the quota share holders, more 
toward consolidation.
    And that's why I feel like if you leave it to the regional 
Councils, you know what we call the little people, the people 
in coastal communities, their concerns are not going to be 
safeguarded. And that's why I would ask that Congress take that 
step to safeguard second generation and to safeguard coastal 
communities.
    Mr. Young. Well I appreciate that, and appreciate the 
input. I have one last thing on the rationalization and the--we 
have an instance on the crab rationalization, just been 
implemented.
    What happens when a person fishes on a ship for--or boats--
four boats in 24 years as a captain? But he doesn't own the 
boat. Now the owner of the boat, although absentee may 
sometimes be, maybe in Seattle. He gets the full crab 
rationalization. But the skipper gets very little, percentage 
is very small. He is precluded from ever getting into the 
fleet----
    Ms. Behnken. Exactly.
    Mr. Young.--because the rationalization went to the owner 
of the vessel. Was there any thought--I don't know, I should 
have asked the Council this. But any thought about maybe making 
a fair deal? Although the guy has the record of the amount of 
fish--of crab that was caught over those 24 years. He's now--he 
still has to work as a deckhand really, as a captain maybe. But 
he can't get into the fisheries, he gets a very small 
percentage of the crab.
    There's got to be some fairness in this as far as the crew 
and the captains where they can in fact invest into a vessel--
purchase a vessel or something like that. I don't know how to 
solve that problem. But that's been brought to my attention in 
the last day really. How do--anybody got any suggestions on 
that, or can it be done?
    Ms. Behnken. I think you solve it, Mr. Chairman and 
Congressman Young, in the same way. By addressing the 
opportunity for keeping an affordable entry level for second 
generation. If you allow those shares to go up in value to the 
extent that it's--you're buying a processing plant, or you're 
buying a multi-million operation. No, it's not going to be 
someone who lives in Ketchikan, Alaska. Or someone who lives in 
a small community. I mean especially our native communities.
    If you look at the trend of limited access in Alaska, it's 
been out of the communities for the ownership of the shares. 
Particularly for those that go up to a level--Bristol Bay, 
where I see IFQ's going now for sablefish halibut.
    So, I think you address the concerns of skippers, you 
address the concerns of deckhands, you address the concerns of 
coastal communities all by focusing on how do we keep this 
program affordable to second generation people. And I believe 
holding on to that opportunity to modify programs is really 
critical to that.
    Mr. Young. Cora, you had something to say.
    Ms. Norosz. Thank you, Mr. Chair, Congressman Young. Just 
speaking from experience in the halibut and sablefish IFQ 
program, one of the ways that we made it accessible to skippers 
and crew is that on every landing you make there's an 
assessment. And a portion of that, a percentage of money that 
we derive from these fish goes into a pot that is a long term, 
low interest loan program for people who have time at sea and 
want to buy into the fishery. So the people who have the quota 
shares are paying into a pot to finance opportunities for the 
next generation. That's what we do in the IFQ halibut and 
sablefish program.
    We also made an amendment a few years ago now to allow 
coastal communities to purchase shares. That they can 
distribute to their local fishermen. To insure that communities 
remain involved in the IFQ program.
    Mr. Young. Now Cora, when you say ``we,'' who did that?
    Ms. Norosz. Excuse me, I'm sorry. It wasn't we, it was the 
North Pacific Fishery Management Council.
    Mr. Young. So they've been involved in it.
    Ms. Norosz. Yes, absolutely. The Council did exactly what 
Ms. Behnken is suggesting. They looked at the program, they 
decided that one of the goals that they wanted, which was to 
keep the participation in the coastal communities of Alaska, 
was perhaps not being met as well as they would like. And so 
they developed an amendment to the program that allowed 
communities to purchase shares to be fished by local residents.
    I guess that I would submit that in the halibut and 
sablefish IFQ program we do go back every few years. We take a 
call for proposals from the industry, we look at what 
modifications might be made to the program. And we--or excuse 
me they, the North Pacific Council acts on those if they feel 
that they're appropriate, and that they would meet the policy 
goals of that Council.
    Another program that I'm sure you're familiar with that 
has--that addresses your question about the Bering Sea and 
Aleutian Islands crab fishery is the CDQ program. A portion of 
that quota is allocated to coastal communities and to the 
people that live in those communities.
    Mr. Young. And that brings up--I noticed no one ever 
mentioned the CDQ. Because you don't have any CDQ's south of 
the Aleutian chain. It is successful up there. I'm going to 
tell you one of the best success stories we have. People get 
confused, IFQ's and CDQ's and CDQ's affect the community. IFQ's 
affect the individual. That's why it's ``I'' and one is ``C.''
    But it has been a very successful program. Although there's 
some people complaining about it right now. Because they say, 
you know the shares are being accumulated and assimilated by 
large corporations. I don't believe that necessarily true. But 
that's the accusation that's been in the paper, et cetera, et 
cetera. But it has helped those communities out tremendously to 
keep them alive. We've got people now into the fisheries which 
were not in the fisheries before.
    We have a small halibut fleet. We have a great one in Nome, 
and one in Unakleet, we have one, you know one--Bethel, it's 
been a great success in Bethel. And we have really a community 
activity where people can get in it instead of being--looking--
sitting on shore and looking at the water. And seeing someone 
out of Seattle fishing the fleet. You know that's what a 
reality is. Go ahead, ma'am.
    Ms. Norosz. If I could just add one thing. I guess, you 
know that we're talking a lot about the fisheries and the 
communities. But we have to remember that a fishery isn't made 
up of just harvesters. The industry has other sectors, 
including the processing sector and the communities, who've 
invested a lot of money in infrastructure to allow these 
fisheries to occur. And we all have to have our investments and 
our historical participation considered when moving into any 
kind of rationalization program.
    If you don't allow for some community protections and for 
the business that occur in those communities, then you're going 
to end up having a lot fewer communities. And it think we've 
witnessed that in some instances in Alaska. Where communities 
are really hurting because they haven't had access to the 
product, and the business in those communities have felt the 
hurt. With the halibut and IFQ--halibut and sablefish IFQ 
program a lot of that was dictated on who had access to air 
transportation, to get fresh fish to market. Or who was on a 
road system.
    Like I said earlier, I think that we've learned from our 
mistakes. I think we have built upon our successes. And I think 
that the recently adopted Crab Rationalization is taking in all 
the consideration of all those sectors. And that's the path we 
need to continue on. I don't think we need national standards 
to allow that to happen. And I think that the decisions need to 
stay with the regional Councils.
    Mr. Young. I see we have a little bit of difference on the 
panel. That's exciting. But we'll take--Mr. Chairman, with your 
discretion we will take a lot of this in to our process as we 
write this legislation. I will say on my behalf, that I'm very 
proud of what Alaska's done. And I will tell you one of the 
reasons I said--impressed--one of the reasons it has been 
successful is you've never seen my fingerprints on anything the 
Council does.
    Because one of the problems we have, I know, back east is 
that the Congressmen and the Senators get involved in Council 
decisions. That doesn't work. Because I do have requests all 
the time, you got to have them change this. I'm not going to do 
that. The Council is functioning, they're using science, 
they're using public input, they're using the exposure, very 
transparent in everything they do.
    And I think that's the way it should be done. And I'm not 
going to mess around with what they're doing. Because once you 
get the politics into it, from my level then your system falls 
apart.
    I want to thank you ladies, and Mr. Chairman. I don't have 
any other comments, you got anything else?
    Mr. Gilchrest. Thank you, Mr. Young. I want to thank the 
witnesses. We will use your oral and written testimonies to 
adjust, fine tune, calibrate the reauthorization of the 
Magnuson Act. And you have been a significant contributor to 
that effort.
    I want to thank Mr. Young for inviting me up here, another 
trip to Alaska is always nice.
    I'd also want to make a comment about the timing of this 
hearing. And a number of fishermen who are out on the high 
seas. If we didn't do it now, it probably wouldn't have 
happened until next November. And it's possible to do it again 
next November. But we needed to get early input into this 
process.
    Ladies, thank you very much for your testimony. Thank you, 
Mr. Young.
    Mr. Young. Thank you, Mr. Gilchrest.
    Mr. Gilchrest. Hearing adjourned.
    [Whereupon, the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Dr. Clarence 
Pautzke, Executive Director, North Pacific Research Board, 
follows:]

        Statement of Dr. Clarence Pautzke, Executive Director, 
                      North Pacific Research Board

    Good morning. My name is Clarence Pautzke. I am the Executive 
Director of the North Pacific Research Board based in Anchorage, 
Alaska. Thank you for this opportunity to comment on the Magnuson-
Stevens Act, focusing on science-related issues and the challenges that 
lay ahead.
Momentum is building for ecosystem-based management
    There has been much talk lately of the need to make ecosystem-based 
management the standard for the regional fishery management councils. 
Momentum to pursue this new paradigm is coming from several different 
directions:
    <bullet>  The U.S. Commission on Ocean Policy in 2004 adopted a 
guiding principle (#4 of 13) and a recommendation (4-3) calling for 
ecosystem-based management.
    <bullet>  The Pew Oceans Commission in 2003 promoted ecosystem-
based management.
    <bullet>  A major advisory panel at the Managing Our Nation's 
Fisheries Conference this March urged fishery managers to account for 
ecosystem interactions to the best of their ability.
    <bullet>  NOAA has adopted a set of ecosystem principles to 
integrate its internal science activities and provide consistent goals 
in its marine and coastal management activities.
    <bullet>  Most legislative initiatives offered to date have a 
provision for ecosystem-based management.
    <bullet>  There have been numerous other reports, conferences, and 
colloquia on ecosystem-based management, all pointing to the need for 
it.
North Pacific Council already is implementing ecosystem-based 
        management
    We are very fortunate that the North Pacific Fishery Management 
Council (Council) already has been very proactive in protecting 
individual fish species and complexes from overfishing, and has enacted 
significant measures to limit impacts of fisheries on bycatch species, 
marine mammals, seabirds, and habitat, all of which have been 
documented in publications and testimony, and lauded by the U.S. 
Commission on Ocean Policy in its 2004 report. The Council's 
precautionary approach rests on four main goals: maintaining 
biodiversity, protecting essential fish habitat, managing fish stocks 
for long-term sustainability, and recognizing humans as part of the 
ecosystem. The Council requires considerable ecosystems information in 
its annual stock assessment documents, has an ecosystems committee, and 
is pursuing development of a fishery ecosystem plan for the Aleutian 
Islands. These initiatives demonstrate that the North Pacific Council 
is now following the path of ecosystem-based management and most likely 
will meet the challenge for such management regardless of how it may be 
clarified in future guidelines written into the MSA or developed by 
NMFS.
Marine ecosystems information is relatively poor and additional 
        research is needed
    In the rush to embrace this new management directive, we must keep 
clearly in mind the cautionary notes sounded by the U.S. Ocean 
Commission and many others: we are relatively information-poor when it 
comes to knowledge of marine ecosystems. Yes, we can pass legislation 
requiring ecosystems consideration; develop guidelines on how to go 
about it; establish ecosystems councils and committees; and even draft 
fishery ecosystems plans. But if there is no concerted effort to 
provide sustained funding for research on ecosystem structure and 
functions, then we may be setting the bar so high that regional 
fisheries councils may not be able to clear it. This could leave the 
councils and NMFS exposed to a serious rash of lawsuits and prolonged 
litigation, regardless of how sincere and laudable their intentions are 
to move toward ecosystem-based management.
    Consider that over the past 5-6 years, there has been over $120 
million spent on Steller sea lion research and impacts of fisheries, 
and yet we still cannot clearly discern what caused their decline. 
Consider that even for the well-managed Alaska fisheries, of 196 fish 
stocks identified by NMFS in their annual stock status report to 
Congress (for 2003), the status of overfishing or being overfished is 
unknown for 60% and 83% of the stocks, respectively. Nationally, there 
is insufficient information to determine status for 500-600 stocks of 
over 900 fish stocks.
    The need to provide accurate stock assessments will not be reduced 
in any way by the move toward ecosystem management. In fact, more 
research will be needed to continue to assess the status of fished 
species and improve their accuracy. Ecosystems information needs will 
compound that burden and require long-term funding commitments by 
Congress and the Administration.
North Pacific Research Board is responding to pressing information 
        needs
    We are very fortunate in Alaska to have a leg up in addressing new 
ecosystems mandates. Significant funding has been provided over the 
past decade to conduct ecosystems research on the Bering Sea, Aleutians 
and Gulf of Alaska and the Council works closely with NOAA and State of 
Alaska scientists to provide stock status information. There is 
confidence in that advice, due to the strength of the scientists 
involved. The Council annually defines its research priorities based on 
recommendations of its Scientific and Statistical Committee and in the 
past, has sent them to the NOAA-Alaska Fisheries Science Center and 
other federal entities that support research off Alaska.
    The North Pacific Research Board (Board) now is available to 
address fishery and ecosystems research needs. It was created by 
Congress in 1997 to recommend marine research to the U.S. Secretary of 
Commerce, who makes final funding decisions. Research is funded by 20 
percent of the interest earned by the Environmental Improvement and 
Restoration Fund (EIRF) also created in the enabling legislation. Funds 
are to be used to conduct research activities on or relating to the 
fisheries or marine ecosystems in the north Pacific Ocean, Bering Sea, 
and Arctic Ocean (including any lesser related bodies of water) with 
priority on cooperative research efforts designed to address pressing 
fishery management issues or marine ecosystem information needs. The 
Board's mission is to build a clear understanding of the marine 
ecosystems off Alaska that enables effective management and sustainable 
use of marine resources.
    Since being organized in 2001, the Board has funded 94 projects for 
over $17 million as shown in the attachment. The projects span all 
aspects of marine research including projects related to salmon and 
other fish species, habitat, marine mammals, seabirds, general ocean 
and ecosystems studies and six projects targeted on enhancing education 
and outreach as well as synthesis of knowledge on various topics such 
as the Arctic Ocean and Gulf of Alaska marine ecosystems.
    The Board's science plan will be published next month. It was 
drafted with guidance from the National Research Council and will 
provide meritorious research to shed light on causes of variability in 
fish stocks and other ecosystem components, and the influence of human 
activities. The dichotomous themes of addressing more immediate 
pressing fishery management issues and longer-term marine ecosystem 
information needs are threaded through the science plan and each one of 
its sections on research needs by ecosystem component.
    The science plan will be implemented through annual requests for 
proposals, drafted with valuable scientific advice provided by a high 
level science panel of top researchers from across the nation and 
Canada. Stakeholder insight is provided by an advisory panel 
representing Alaska and the Pacific Northwest. All proposals are given 
thorough anonymous review by technical experts as well as the science 
panel. All proposals are competitively chosen. Competition is intense 
with only about 1 in 4 proposals being funded.
    The Council and Board have strongly linkages. Many members 
participate in both bodies and share a mutual interest in ecosystem-
based management. The Board is establishing an annual cycle of 
partnering with the Council to identify research priorities and intends 
that its research results flow directly into SAFE documents, especially 
the ecosystems considerations chapter. It is moving to shore up our 
understanding of the rich ecosystems off Alaska by developing 
integrated research programs for each of Alaska's large marine 
ecosystems, starting this year with the Bering Sea and Aleutians where 
most of the fish landings occur. This integrated program involves 
experts from the Board and all federal, state and academic institutions 
with a significant role in research on the broader marine ecosystem. It 
will serve as a template for the other marine regions off Alaska and 
generate new information which should be very useful to resource 
managers as they pursue ecosystem-based management.
Conclusion
    In conclusion, we have a rather unique situation up here in Alaska. 
We have been blessed with considerable funding for stock assessments 
and ecosystems research. The North Pacific Council, using the best 
scientific information available over the years, has done an exemplary 
job of sustainable management, which the U.S. Ocean Commission fully 
recognized. The Council also is pursuing ecosystem-based management. 
Full implementation of this new directive will require continued 
leadership, commitment, and knowledge generated through sound science.
    Ecosystem-based management is a laudable goal and should be pursued 
vigorously. There is, however, a risk that the bar will be set so high 
that fishery managers will be exposed to considerable litigation. We 
must strive to provide the best science available to support true 
ecosystem-based management and there must be a commitment from Congress 
and the Administration to support such research.
    The North Pacific Research Board stands ready to help meet that 
challenge and do all it can to shed light on the structure and 
processes occurring within the marine ecosystems off Alaska, with the 
goal of providing a clear understanding of their variability that 
enables sustainable fisheries management.
    Thank you for this opportunity to comment.

                                 * * *


OVERSIGHT FIELD HEARING ON FISHERIES MANAGEMENT SUCCESSES IN ALASKA AND 
   REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

                              ----------                              


                          Friday, July 8, 2005

                     U.S. House of Representatives

                  Subcommittee on Fisheries and Oceans

                         Committee on Resources

                             Kodiak, Alaska

                              ----------                              

    The Subcommittee met, pursuant to call, at 11 a.m., at the 
Kodiak High School, Commons Room, 917 Rezanof Drive, Kodiak, 
Alaska, Hon. Wayne T. Gilchrest [Chairman of the Subcommittee] 
presiding.
    Present: Representative Gilchrest.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The hearing will come to order. This is the 
Subcommittee on Fisheries and Oceans of the Committee on 
Resources in the House of Representatives. I am the Chair of 
the Subcommittee. Richard Pombo is the Chairman of the full 
Resources Committee. Don Young sits on both committees. And as 
you probably all know very well, Congressman Young is the 
Chairman of the Transportation Committee.
    We are here in Kodiak, and we've recently had a hearing in 
Ketchikan, to glean information in the process of reauthorizing 
the Magnuson-Stevens Act. There are a number of provisions that 
we are taking a look at. Many of them will be discussed here 
this morning, and we will receive testimony for those areas of 
the Magnuson Act that we think need to be looked at, need to be 
tweaked, or need to be changed.
    The fundamentals from our perspective on the Act are 
safety, economic viability, and fairness to those who directly 
participate in the industry and conservation and an 
understanding of the ecology of the oceans. We want to deal 
with as many facts as we can, but when we go back to Washington 
to reauthorize this Act, I'm confident that we will reauthorize 
the Act in this session of Congress and work well with Senator 
Stevens and the other Senators.
    So it is our objective and goal to reauthorize the Magnuson 
Act in this Congress. We keep in mind though that all of the 
various differences, not only between New England, the Mid-
Atlantic, the South Atlantic, the Gulf, the Pacific, the North 
Pacific, but the differences between the different areas of the 
North Pacific and how they deal with Ketchikan or the Bering 
Sea or the Gulf of Alaska, these are all very different 
fisheries.
    So we in Washington will not be directly involved in some 
of those decisions in those fisheries, but what we want to do 
is to create standards and objectives and goals for Magnuson 
that the individual councils can take and apply. We also feel 
that the council system works very well. We also feel that the 
kind of changes that need to be taking place in management over 
what might happen in a few months or over what might happen in 
a few years, the councils are in a position to evolve and know 
best for a lot of those kinds of decisions.
    So we will be creating a framework that will do what we can 
to ensure safety, economic viability, fairness to the fisheries 
and those who participate in them, and the ecological integrity 
of the oceans that we have jurisdiction over.
    We would like to have been here when all the boats were in 
the city, but we were in session last week. We will be in 
session next week. We will likely be in session--there's a 
potential that we'll be in session through November. So we had 
a window of opportunity. Congressman Young asked that we would 
come up here, and so we are here. But the record for this 
hearing will be left open for 60 days. We will have a number of 
hearings throughout the country and in Washington, and we will 
continue to want to have access to the kind of information that 
each of you in this room and those out on boats or other places 
can continue to provide.
    We look forward to the testimony today. We want to thank 
all of the witnesses for their effort in developing that 
testimony and for coming here this morning, and for the 
participation of everybody in the room. And once again, I 
understand that the food table is open throughout the course of 
the hearing, and so please help yourself.
    [The prepared statement of Mr. Gilchrest follows:]

         Statement of The Honorable Wayne Gilchrest, Chairman, 
                  Subcommittee on Fisheries and Oceans

    I'd like to thank Chairman Young for his invitation to come to 
Alaska to hear from his constituents about the fisheries management 
successes and how we can take the lessons that have been learned here 
to other parts of the country.
    This Subcommittee has been working on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act for a number 
of years and I hope we will reauthorize the Act within the next year. I 
plan on working very closely with Chairman Young and with my Senate 
counterparts, including Senators Stevens and Murkowski.
    As we have heard testimony on the Magnuson-Stevens Act, we have 
heard a lot about how well managed the Alaskan fisheries are. We have 
met with all the Councils and have heard from a number of constituent 
groups that we should look at how the fisheries are managed in Alaska. 
While I realize no fishery management system is perfect, I would like 
to see what lessons we can learn here and I appreciate all of you being 
here today.
    We held a hearing two days ago in Ketchikan and heard a lot about 
fisheries management in Alaska and especially about fisheries 
management in Southeast Alaska. Today, we will hear about management in 
the Gulf of Alaska and in the Bering Sea. These are three very 
different ecosystems that require different management styles. I am 
interested to hear more about these different management styles and how 
the flexibility in the Magnuson-Stevens Act has allowed this to occur.
    While I have already met some of you and heard about the North 
Pacific Council's activities, I am here to learn more about how we can 
improve the Magnuson-Stevens Act to make it work even better.
    I want to thank Chairman Young for his invitation to come to Alaska 
and hope this will not be the last time this Subcommittee comes here 
for hearings.
                                 ______
                                 
    Mr. Gilchrest.Our first panel is The Honorable Carolyn 
Floyd, Mayor, City of Kodiak, thank you very much; The 
Honorable Jerome Selby, Mayor, Kodiak Island Borough, welcome; 
Ms. Sue Salveson, National Marine Fisheries Service, welcome; 
and, Ms. Stephanie Madsen, North Pacific Fishery Management 
Council Chair. Thank you all very much for coming this morning.
    Ms. Floyd, you may begin.

              STATEMENT OF CAROLYN FLOYD, MAYOR, 
                         CITY OF KODIAK

    Ms. Floyd. Good morning, Mr. Chairman, and members of the 
Subcommittee who are here or not here. And I have with me, Joe 
Sullivan, who is our fisheries consultant for the City of 
Kodiak, sitting beside me.
    I am Carolyn Floyd, the Mayor of the City of Kodiak, and I 
appreciate the opportunity to testify before the Subcommittee 
on Fisheries and Oceans concerning North Pacific Federal 
fishery management issues affecting the City of Kodiak, 
understanding that you are considering reauthorization of the 
Magnuson-Stevens Act.
    As an initial matter, I would like to officially welcome 
you to our city. We are justifiably proud of its character as 
one of the leading fishery communities in Alaska and the United 
States.
    As background for my comments, I believe it is important 
for the Subcommittee to appreciate the character of Kodiak's 
fishing community. Kodiak has a long heritage of active 
engagement in every aspect of the fishing industry, from 
harvesting, processing and marketing through management and 
research. In Alaska, we are one of the very few communities 
with a large resident workforce that is actively employed in 
every one of these areas.
    Kodiak fishermen are engaged in a wide array of fisheries, 
from the local jig cod fishery through Bering Sea pollock and 
crab. Our processors produce a wide array of products for both 
domestic and foreign markets. We cherish that diversity, and 
are convinced that it is an essential part of who we are as a 
community, as well as being essential for our long-term 
survival.
    Also, one of Kodiak's important values, in fisheries as 
well as many other walks of life, is competition. Our community 
promotes competition among fishermen, processors, seafood 
marketers, and product developers, as we believe competition 
leads to innovation that preserves our ability to compete in 
world seafood markets, and, frankly, because it works.
    We appreciate the potential benefits that can flow from 
fishery rationalization. We understand that rationalization can 
improve product recovery rates, facilitate production of higher 
quality and higher value products, improve bycatch management, 
and reduce pressure on sensitive fish habitat.
    However, we are concerned that rationalization can have 
adverse effects on fishing communities. By its very nature, 
rationalization restrains competition. Defining the pool of 
participants that receives fishing privileges creates winners 
and losers as a consequence of fishery policy choices and 
management procedures rather than fishing success. That step 
alone can fundamentally alter the health and stability of a 
fishing community.
    Rationalization can fundamentally change landing patterns, 
shifting deliveries from communities close to fishing grounds 
with higher transportation and utility costs to communities 
further from the grounds with infrastructure advantages. While 
this may benefit harvesters and consumers, it can have a 
serious impact on the community losing processor employment 
opportunities. The City of Kodiak has spent millions of dollars 
on infrastructure that supports our fishing industry; from 
doubling the capacity of the public water system to investment 
in the largest working harbors in the State of Alaska.
    If rationalization awards fishing privileges to the initial 
qualifying generation without making provisions for subsequent 
generations, it can gentrify a fishery, and impair the vitality 
and diversity of the community that depends on it.
    If rationalization creates fishing privileges that the 
holder can use to produce income without being actively engaged 
in the fishery, it can facilitate the migration of both people 
and capital from fishing communities, and can seriously 
disadvantage non-owner skippers and crew members.
    Much has been said about the need for rationalization 
systems to take into account the interests of not only 
harvesters, but also processors. Kodiak, more than many other 
Alaskan fishing communities, recognizes the important place a 
healthy processing sector holds in our community as our 
processing work force is largely composed of year-round 
residents who are an important part of our culture and our 
economy.
    However, it is also important to note that processor 
protection is not synonymous with community protection. 
Processor protection restrains competition, which depresses ex-
vessel prices, and thus can adversely affect all those who 
depend directly or indirectly on the harvesting sector for 
their livelihoods. Processor protections also raise issues 
related to those raised by fishing privileges, i.e., processor 
protections create winners and losers as a matter of fishery 
policy and management procedure rather than through innovation 
and efficiency, and they can gentrify the processing sector by 
creating barriers to new processor entry.
    As the Bering Sea crab rationalization program so amply 
illustrates, processor shares also raise a host of complicated 
market economic and antitrust issues. We question whether the 
Federal fishery management system has the resources to 
adequately comprehend these issues or the capability to 
successfully address them. We note that Congress responded to 
the controversy associated with the halibut and sablefish IFQ 
program by imposing a moratorium on further IFQ programs until 
the National Academy of the Sciences had completed a program 
review and Congress had an opportunity to evaluate the results.
    The legislation that mandated implementation of the Bering 
Sea crab rationalization program includes a prohibition on 
processor shares in any other fishery. We believe that 
prohibition should remain in place at least until the Bering 
Sea crab rationalization program has been fully reviewed and 
evaluated.
    We ask that the Subcommittee take these considerations into 
account during the Magnuson-Stevens Act reauthorization 
process. While we believe rationalization has substantial 
benefits to offer, we also believe rationalization systems 
should be designed to counteract their negative effects. We 
encourage the Subcommittee to develop and promote 
rationalization program standards that preserve opportunities 
for new entry into rationalized fisheries for fishermen who do 
not have substantial capital to invest, promote active 
engagement rather than passive rent collection, and preserve 
healthy competition among the processors.
    We also encourage the Subcommittee to review the community 
protection measures being considered by fishery management 
councils for their effectiveness and compliance with National 
Standard 8. We believe that measures that provide community 
protection while preserving a reasonable level of competition, 
such as regional landing restrictions, should be explicitly 
authorized under National Standard 8. We support regional 
fishery management councils, created by the Magnuson-Stevens 
Act as a much better decisionmaking process for Federal 
fisheries than centralized Federal agency decisionmaking.
    We also believe further discussion of methods under which 
communities could directly hold and use fishing privileges to 
mitigate rationalization impacts is warranted. While we are 
somewhat skeptical regarding the appropriateness of communities 
being directly engaged in the fishing business, we also 
understand that community fishing quotas may, under some 
circumstances, be the best means for mitigating rationalization 
impacts.
    However, we firmly believe that in any community fishing 
quota allocation or purchase component of a rationalization 
program, sustaining the participation of communities that have 
been substantially engaged in and dependent upon a fishery, 
should have priority over enhancing the participation of 
communities that have a more attenuated relationship to the 
fishery.
    In closing, I would like to thank the Subcommittee for 
traveling to Kodiak, and for providing an opportunity for me 
and others in our community to testify before you. We encourage 
you to spend a little of your time here exploring our 
community, which I understand you have done, and hope your trip 
here is a pleasure as well as informative. Thank you.
    Mr. Gilchrest. Thank you very much, Mayor Floyd. And if the 
fog stays, we'll stay.
    Ms. Floyd. We will--sometimes we arrange that.
    [The prepared statement of Ms. Floyd follows:]

           Statement of Carolyn Floyd, Mayor, City of Kodiak

    Good morning Mr. Chairman and members of the Subcommittee. I am 
Carolyn Floyd, the Mayor of the City of Kodiak. I appreciate the 
opportunity to testify before the Subcommittee on Fisheries and Oceans 
concerning North Pacific federal fishery management issues affecting 
the City of Kodiak, understanding that you are considering 
reauthorization of the Magnuson-Stevens Act.
    As an initial matter, I would like to officially welcome you to our 
city. We are justifiably proud of its character as one of the leading 
fishery communities in Alaska and the United States.
    As background to my comments, I believe it is important for the 
Subcommittee to appreciate the character of Kodiak's fishing community.
    Kodiak has a long heritage of active engagement in every aspect of 
the fishing industry, from harvesting, processing and marketing through 
management and research. In Alaska, we are one of the few communities 
with a large resident workforce that is actively employed in every one 
of these areas. Kodiak's fishermen are engaged in a wide array of 
fisheries, from the local jig cod fishery through Bering Sea pollock 
and crab. Our processors produce a wide array of products for both 
domestic and foreign markets. We cherish that diversity, and are 
convinced that it is an essential part of who we are as a community, as 
well as being essential for our long-term survival.
    Also, one of Kodiak's important values, in fisheries as well as 
many other walks of life, is competition. Our community promotes 
competition among fishermen, processors, seafood marketers and product 
developers, as we believe competition leads to innovation that 
preserves our ability to compete in world seafood markets, and, 
frankly, because it works.
    We appreciate the potential benefits that can flow from fishery 
rationalization. We understand that rationalization can improve product 
recovery rates, facilitate production of higher quality and higher 
value products, improve bycatch management, and reduce pressure on 
sensitive fish habitat.
    However, we are concerned that rationalization can have adverse 
effects on fishing communities. By its very nature, rationalization 
restrains competition. Defining the pool of participants that receives 
fishing privileges creates winners and losers as a consequence of 
fishery policy choices and management procedures, rather than fishing 
success. That step alone can fundamentally alter the health and 
stability of a fishing community.
    Rationalization can fundamentally change landing patterns, shifting 
deliveries from communities close to fishing grounds with higher 
transportation and utility costs to communities further from the 
grounds with infrastructure advantages. While this may benefit 
harvesters and consumers, it can have a serious impact on the community 
losing processor employment opportunities. The City of Kodiak has spent 
millions of dollars on infrastructure that supports our fishing 
industry; from doubling the capacity of the public water system to 
investment in the largest, working harbors in the State of Alaska.
    If rationalization awards fishing privileges to the initial 
qualifying generation without making provisions for subsequent 
generations, it can gentrify a fishery, and impair the vitality and 
diversity of the community that depends on it.
    If rationalization creates fishing privileges that the holder can 
use to produce income without being actively engaged in the fishery, it 
can facilitate the migration of both people and capital from fishing 
communities, and can seriously disadvantage non-owner skippers and 
crewmembers.
    Much has been said about the need for rationalization systems to 
take into account the interests of not only harvesters, but also 
processors. Kodiak, more than many other Alaskan fishing communities, 
recognizes the important place a healthy processing sector holds in our 
community, as our processing work force is largely composed of year 
round residents who are an important part of our culture and our 
economy.
    However, it is also important to note that processor protection is 
not synonymous with community protection. Processor protection 
restrains competition, which depresses ex-vessel prices, and thus can 
adversely affect all those who depend directly or indirectly on the 
harvesting sector for their livelihoods. Processor protections also 
raise issues related to those raised by fishing privileges, i.e., 
processor protections create winners and losers as a matter of fishery 
policy and management procedure, rather than through innovation and 
efficiency, and they can gentrify the processing sector by creating 
barriers to new processor entry.
    As the Bering Sea crab rationalization program so amply 
illustrates, processor shares also raise a host of complicated market 
economics and antitrust issues. We question whether the federal fishery 
management system has the resources to adequately comprehend these 
issues, or the capability to successfully address them. We note that 
Congress responded to the controversy associated with the halibut and 
sablefish IFQ program by imposing a moratorium on further IFQ programs 
until the National Academy of the Sciences had completed a program 
review, and Congress had an opportunity to evaluate the results. The 
legislation that mandated implementation of the Bering Sea crab 
rationalization program includes a prohibition on processor shares in 
any other fishery. We believe that prohibition should remain in place 
at least until the Bering Sea crab rationalization program has been 
fully reviewed and evaluated.
    We ask that the Subcommittee take these considerations into account 
during the Magnuson-Stevens Act reauthorization process. While we 
believe rationalization has substantial benefits to offer, we also 
believe rationalization systems should be designed to counteract their 
negative effects. We encourage the Subcommittee to develop and promote 
rationalization program standards that preserve opportunities for new 
entry into rationalized fisheries for fishermen who do not have 
substantial capital to invest, promote active engagement rather than 
passive rent collection, and preserve healthy competition among 
processors.
    We also encourage the Subcommittee to review the community 
protection measures being considered by fishery management councils for 
their effectiveness and compliance with National Standard 8. We believe 
that measures that provide community protection while preserving a 
reasonable level of competition, such as regional landing restrictions, 
should be explicitly authorized under National Standard 8. We support 
regional fishery management councils, created by the Magnuson-Stevens 
Act, as a much better decision-making process for federal fisheries, 
than centralized federal agency decision-making.
    We also believe further discussion of methods under which 
communities could directly hold and use fishing privileges to mitigate 
rationalization impacts is warranted. While we are somewhat skeptical 
regarding the appropriateness of communities being directly engaged in 
the fishing business, we also understand that community fishing quotas 
may, under some circumstances, be the best means for mitigating 
rationalization impacts. However, we firmly believe that in any 
community fishing quota allocation or purchase component of a 
rationalization program, sustaining the participation of communities 
that have been substantially engaged in and dependent upon a fishery 
should have priority over enhancing the participation of communities 
that have a more attenuated relationship to the fishery.
    In closing, I would like to thank the Subcommittee for traveling to 
Kodiak, and for providing an opportunity for me and others in our 
community to testify before you. We encourage you to spend a little of 
your time here exploring our community, and hope your trip here is a 
pleasure as well as informative. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Mayor Selby.

               STATEMENT OF JEROME SELBY, MAYOR, 
                     KODIAK ISLAND BOROUGH

    Mr. Selby. Thank you, Mr. Chairman, and members of the 
Subcommittee. My name is Jerome Selby. I'm mayor of the Kodiak 
Island Borough. Again, first, I'd like to thank you folks for 
coming here to have this hearing. It's really special for us as 
a community to know that you folks would take and make the 
effort to come here and actually hear from people on the 
grounds, if you will. Because we feel like that's really key to 
understanding and making good decisions, is to really see 
what's going on first hand. So we really do appreciate you 
coming here today.
    You had asked for us to provide information on fisheries 
management successes in Alaska and the reauthorization of the 
Magnuson-Stevens Fisheries Conservation and Management Act.
    Fisheries management is a success story in Alaska. And this 
Act is one of the greatest economic successes in the history of 
Alaska. Twenty-five years ago most of the bottomfish around 
Kodiak Island were harvested in Alaska waters by foreign 
vessels which could be seen fishing just offshore out here. You 
could actually see them from Cape Chiniak. There was no 
economic benefit to Alaska or the U.S. From this resource. It 
was caught offshore and taken away, never touched the U.S. Now, 
25 years later, this resource is all caught and processed by 
American fishermen and represents a substantial part of 
Alaska's economy.
    Fisheries are second only to oil in the Alaskan economy, so 
that's how important it is to the State of Alaska. And it's 
even more substantial for us here in Kodiak. About 65 percent 
of the human consumed fish products in the United States comes 
from Alaska, so it's also important to the U.S. Economy and 
food for Americans.
    For Kodiak Island, the impact of this Act is even more 
significant. The seafood industry provides over 60 percent of 
the Kodiak base industry employment and nearly 70 percent of 
the base industry payroll. When you add the U.S. Coast Guard, 
which is primarily here because of the fisheries, these numbers 
go to over 80 percent, actually more like 85 and almost to 90 
percent of our base economy.
    Fishing is our economic base. It's very clear when you take 
a look at Kodiak in total. It provides over 1700 annual jobs, 
and Kodiak is one of the top three ports of the United States 
processing an average of 300 million pounds of seafood worth an 
ex-vessel value of $90 million a year, and that's between 1997 
and the year 2000. Groundfish, which are managed under the 
Magnuson-Stevens Act, accounted for 70 percent of the volume 
and 44 percent of the value. So it's a big piece of what we're 
talking about.
    It's obvious that this Act determines the economic health 
of Kodiak Island more than any other single State of Alaska or 
Federal law. So it's big for our community. Our schools, 
businesses, and entire social structure are heavily dependent 
upon this reauthorization.
    The North Pacific Fisheries Management Council does an 
outstanding job of applying the Magnuson-Stevens Act. Council 
in our view is an outstanding fisheries management success 
story in Alaska. The Council has managed the resource in a 
conservative way that has assured healthy fish stocks while 
providing a strong sustainable catch for the fishing industry. 
This has happened as a result of the use of good scientific 
information, good input from the industry, input from the 
coastal communities, and good management decisions that were 
intentionally applied on the conservative side. And by that I 
mean if a scientific information was sketchy or missing, the 
Council didn't guess or hope for the best, but reduced the 
allowable catch to assure healthy sustained fishery would be in 
place.
    The one area that can improve the management of this vital 
resource of bottomfish in Alaska waters is increased research 
that provides the needed scientific information to base the 
management decisions upon. This is critical because improved 
research allows better management decisions which allows then 
for the maximal catch for the fishing industry, which is our 
economic base. So good scientific research and good science 
results in the fishing industry being able to catch as many 
fish as possible while still assured that we have a good 
healthy fish stock.
    So that's why science is a critical piece of this whole 
picture and is probably the most underfunded part of the whole 
effort. And so that's why we would urge you folks to, in the 
process of reauthorization, to take a look at beefing up the 
research side of things which helps the Council then make good 
decisions and results in more catch for the industry.
    One thing that we would ask is that these researchers need 
to be based in Kodiak where they can interact with the industry 
which is a valuable source of information for the research as 
well. So it's very valuable when the scientific effort is here 
and they can interact. A lot of times, the fishing industry 
sees things going on out there in the ocean and they bring it 
back and interact with the researchers; that's critical.
    The Kodiak Island Borough has urged cooperative research 
efforts to be conducted for many years. I personally have urged 
the Fish & Game Department of Alaska and NOAA personnel to fund 
and conduct joint complementary research efforts while mayor 
from 1983 to 1998, and now again beginning in 2004. I have 
witnessed and been involved in both the research and the 
council process for many years; both are success stories.
    In order to facilitate the cooperative research efforts, 
the Kodiak Island Borough built the Kodiak Fisheries Research 
Center over on Near Island, and, hopefully, while you're here, 
you have a chance to go over and take a look at that facility 
if you haven't already. It was built in 1997. It's about a $22-
million facility. Space is leased to the National Marine 
Fisheries Service research staff, the Alaska Department of Fish 
& Game, and the University of Alaska School of Ocean Fisheries.
    This circulating sea water research facility has a sea 
water research lab shared by these three agencies as well as a 
dry lab and necropsy area where marine mammals can be examined. 
This facility working in conjunction with the new research 
vessel, the OSCAR DYSON, which is home-ported in Kodiak, 
provides the capacity to coordinate and conduct the very best 
possible research in the North Pacific. Fisheries and marine 
mammals both can be studied. But we need more scientists and 
increased effort to really understand what's going on in the 
ocean around us.
    Kodiak Island Borough is now starting the design to 
construct another building next to the research facility that 
will house the Alaska Department of Fish & Game research and 
management staff. We feel the proximity will foster more 
cooperation in the research and management between state and 
Federal fisheries personnel.
    Kodiak Island waters are the estuary for 12 species of 
bottomfish, 4 species of salmon, 3 species of crab, and 
numerous other marine resources including marine mammals. These 
are some of the richest waters in the world and an ideal area 
to conduct research. We need to increase that effort. This is 
the one change again that I would urge you to include in the 
reauthorization process.
    In terms of the management processes in the North Pacific, 
they are outstanding and should be encouraged to continue. 
Regional councils are the strength of the management system. By 
having the meetings in Anchorage, all of the interest groups in 
Alaska can participate and be included in the process. This 
assures that important information is brought forward from the 
scientists, the State of Alaska, communities, the fishing 
industry, and the others for the Council to consider.
    This process includes everyone and the Council meetings are 
a convention of all fishing interests in Alaska, if you will. 
And as a result, no other process would be as effective and 
decisions would not be as good. The regional council process 
assures healthy fish stocks and support from the industry. 
Without the regional council, there would be little opportunity 
for industry and local government to participate. We'd be 
excluded.
    If we had to fly to Washington, D.C., very little 
opportunity for input. Decisions without local input we feel 
would be unacceptable decisions, and decisions made in that 
sort of a vacuum would probably not be as good decisions. So 
please keep the regional council process pretty much intact, 
and it works well here in Alaska.
    The current major issues, this was the final item that you 
requested a little bit of information in your letter of current 
issues for the North Pacific region, for us particularly here 
are the rationalization of the Gulf of Alaska fishery, and I'm 
going to harp again on the need for increased research.
    We have confidence that the council process currently 
underway will result in a good rationalization program. Kodiak 
Island Borough is on record with some concerns identified in 
the attached Resolution, which I've provided, and I'm not going 
to go into that, but just so that you folks can see that we're 
actively involved and very thoughtfully involved in how to help 
structure the rationalization program so that it works for the 
community, the industry, and for the management side of the 
fishery as well. So there's been a lot of thought put into 
what's contained in that resolution.
    With regard to research, we would urge you to make 
provision for increased research efforts in Alaska. With 
increased research, the council process will only get better 
and see fisheries management in the North Pacific result in a 
healthy ecosystem that continues to feed our nation for many 
years to come. And that's obviously also in our best interest 
because it means the Kodiak Island Borough will be a robust 
community with a healthy economy, good school system, and a 
thriving U.S. Coast Guard Base for many years to come.
    Thank you again for the opportunity to testify and for 
coming to Kodiak.
    Mr. Gilchrest. Thank you, Mayor Selby.
    [The prepared statement of Mr. Selby follows:]

        Statement of Jerome Selby, Mayor, Kodiak Island Borough

    Mr. Chairman and members of the Subcommittee, my name is Jerome 
Selby and I am the Mayor of the Kodiak Island Borough. I am testifying 
on behalf of the Kodiak Island Borough.
    First, I want to thank you for coming to Kodiak to hold this 
hearing on Fisheries Management successes in Alaska and the 
Reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. Fisheries management is a success story in Alaska and 
this Act is one of the greatest economic successes in the history of 
Alaska. Twenty-five years ago, most of the bottom fish were harvested 
in Alaskan waters by foreign vessels which could be seen fishing just 
offshore. There was no economic benefit to Alaska from this resource. 
Now this resource is all caught and processed by American fishermen and 
represents a substantial part of Alaska's economy. Fisheries are second 
only to oil in the Alaska economy. About 65 percent of the human 
consumed fish products in the U.S. come from Alaska.
    For Kodiak Island, the impact of this Act is even more significant. 
The seafood industry provides over 60% of Kodiak's base industry 
employment and nearly 70 percent of base industry payroll. When you add 
the U.S. Coast Guard, which is primarily here because of the fisheries, 
these numbers go over 80 percent. Fishing is our economic base. It 
provides over 1700 annual jobs. Kodiak is one of the top three ports in 
the U.S., processing an average of 300 million pounds of seafood worth 
an ex-vessel value of $90 million a year between 1997 and 2000. Ground 
fish, which are managed under the Magnuson-Stevens Act, accounted for 
70 percent of the volume and 44 percent of the value. It is obvious 
that this Act determines the economic health of Kodiak Island more than 
any other State of Alaska or Federal law. Our schools, businesses, and 
entire social structure are heavily dependent upon this 
reauthorization.
    The North Pacific Fisheries Management Council does an outstanding 
job of applying the Magnuson-Stevens Act. The Council is an outstanding 
fisheries management success story in Alaska. The Council has managed 
the resource in a conservative way that has assured healthy fish stocks 
while providing a strong sustainable catch for the fishing industry. 
This has happened as a result of the use of scientific information, 
good input from the industry, input from the coastal communities, and 
good management decisions that were intentionally applied on the 
conservative side. If scientific information is sketchy or missing, the 
Council didn't ``guess'' and ``hope for the best'' but reduced the 
allowable catch. The one area that can improve the management of this 
vital resource of bottom fish in Alaskan waters is increased research 
that provides the needed scientific information to base the management 
decisions upon. These researchers need to be based in Kodiak where they 
can interact with the fishing industry which is a valuable source of 
information.
    The Kodiak Island Borough has urged cooperative research efforts be 
conducted for many years. I personally have urged the ADF&G and the 
NOAA personnel to fund and conduct joint and complementary research 
efforts while mayor from 1983 to 1998 and now again beginning in 2004. 
I have witnessed and been involved in both the research and the Council 
process for many years and both are success stories. In order to 
facilitate the cooperative research effort, the Kodiak Island Borough 
built the Kodiak Fisheries Research Center in 1997 and leases space to 
the National Marine Fisheries Service research staff, the Alaska 
Department of Fish and Game, and the University of Alaska School of 
Ocean Fisheries. This circulating seawater research facility has a 
seawater research lab shared by these agencies as well as the dry lab 
and necropsy areas. This facility, working in conjunction with the new 
research vessel, the Oscar Dyson, home ported in Kodiak provides the 
capacity to coordinate and conduct the very best possible research in 
North Pacific fisheries and marine mammal resources. But we need more 
scientists and increased effort to really understand what is going on 
in the ocean around us. The Kodiak Island Borough is now starting the 
design to construct another building next to the research facility that 
will house Alaska Department of Fish and Game research and management 
staff. We feel the proximity will foster more cooperation in research 
and management between state and federal fisheries personnel. Kodiak 
Island waters are the estuary for twelve species of bottom fish, four 
species of salmon, three species of crab, and numerous other marine 
resources including marine mammals. These are some of the richest 
waters in the world and an ideal area to conduct research. We need to 
increase the research effort. This is the one change I would urge you 
to include in the reauthorization process.
    The management processes in the North Pacific are outstanding and 
should be encouraged to continue. Regional councils are the strength of 
the management system. By having the meetings in Anchorage, all of the 
interest groups in Alaska can participate and be included in the 
process. This assures that important information is brought forward 
from the scientists, State of Alaska, communities, the fishing 
industry, and others for the council to consider. This process includes 
everyone and the Council meetings are a convention of all fishing 
interests in Alaska. No other process would be as effective and the 
decisions would not be as good. The regional Council process assures 
healthy fish stocks and support of the industry. Without the regional 
council, there would be little opportunity for industry and local 
government to participate. Decisions without local input would be 
unacceptable decisions. Decisions made in a vacuum are generally not 
good decisions. Please keep the regional council process.
    The current major issues for the North Pacific Region are the 
rationalization of the Gulf of Alaska fishery and the need for 
increased research. We have confidence that the Council process 
currently underway will result in a good rationalization program. The 
Kodiak Island Borough is on record with some concerns identified in the 
attached resolution and we will continue to participate in the process. 
With regard to the research, we would urge you to make provision for 
increased research effort in Alaska. With increased research, the 
council process will only get better and see fisheries management in 
the North Pacific result in a healthy ecosystem that continues to feed 
our nation for many years to come. This also means that the Kodiak 
Island Borough will be a robust community with a healthy economy, a 
good school system, and a thriving U.S. Coast Guard base for many years 
to come.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Gilchrest. Ms. Salveson.

STATEMENT OF SUE SALVESON, ASSISTANT REGIONAL ADMINISTRATOR FOR 
    SUSTAINABLE FISHERIES, NATIONAL MARINE FISHERIES SERVICE

    Ms. Salveson. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for the opportunity again to testify before you on 
our fishery management program here in Alaska and 
reauthorization of the Magnuson-Stevens Act. I am Sue Salveson, 
assistant regional administrator for sustainable fisheries in 
the Alaska region of the National Marine Fisheries Service.
    The waters off Alaska support a variety of fisheries. These 
fisheries are one of the most important industries in Alaska 
and provide nearly half of all private sector jobs as well as 
support gross revenues in processed product value alone that 
exceed $1.5 billion annually. The management of these fisheries 
is undertaken in partnership with the North Pacific Fishery 
Management Council and other state and Federal management 
agencies.
    The North Pacific Council conducts a transparent public 
process during the development of fishery management policy by 
incorporating diverse views into its decisionmaking and 
ensuring open public debate regarding the best path to follow 
when making difficult decisions. The North Pacific Council 
accepts public comment at all meetings on all issues addressed, 
and its plan teams, advisory panel, and science and statistical 
committee also receive issue-specific public testimony. An 
additional level of stakeholder input is provided by the 
Council's working committees with representation from industry 
sectors, environmental groups, and other constituents.
    We have achieved management successes in Alaska that we can 
learn from as we move forward with reauthorizing the Magnuson-
Stevens Act. I again would like to focus on the following key 
areas: Ecosystem approaches to fisheries management, market-
based management systems, and use of peer-reviewed science as a 
basis for natural resource management decisions.
    The U.S. Ocean Action Plan endorses an ecosystem approach 
to management. The 1996 amendments to the Magnuson-Stevens Act 
laid the groundwork for ecosystem approaches to fisheries. The 
North Pacific management program currently includes extensive 
restrictions to protect habitat and protected species stocks. 
Habitat protection will be expanded significantly in the North 
Pacific once NOAA Fisheries completes the rulemaking process 
within the next year to implement new closed areas that 
recently were endorsed by the North Pacific Council to further 
protect essential fish habitat.
    NOAA Fisheries has identified three large marine ecosystems 
off Alaska: The Arctic, the Bering Sea and Aleutian Islands, 
and the Gulf of Alaska. But because we still have much to 
learn, an ecosystem approach must be implemented incrementally. 
Scientists have developed and currently are testing whole 
ecosystem models to assess fishing impacts on patterns of 
energy flow in large marine ecosystems.
    Collaborative efforts by our scientists, the North Pacific 
Council, the State, and other stakeholders to identify the 
scientific, social, economic, and policy issues associated with 
an adaptive incremental approach to ecosystem management will 
also enhance our ability to manage fisheries.
    The U.S. Ocean Action Plan also promotes a partnership 
under which we will work with regional fishery management 
councils to promote greater use of market-based systems for 
fisheries management.
    The Alaska Dedicated Access Privilege programs implemented 
for Alaska groundfish, Pacific halibut, sablefish, and crab 
fisheries are examples of DAP programs that can be used to 
develop these approaches nationwide. The direct allocations of 
groundfish, halibut and crab to the Western Alaska CDQ program 
has proven very successful in generating revenue for coastal 
communities and providing for a sustainable fishery-based 
economy.
    The Alaska Crab Rationalization program is the most recent 
and sophisticated DAP program and includes harvester and 
processor quota shares, community quotas, and fishing 
cooperatives. Any national guidelines promoting these programs 
should provide flexibility to regional fishery management 
councils and to NMFS to tailor these programs to the specific 
needs of regional fisheries.
    Ongoing success of the North Pacific management programs 
will continue to rely on the science-based and precautionary 
policy directions historically embraced by the North Pacific 
Council. This precautionary strategy is a risk-averse approach 
for management of North Pacific resources in light of 
uncertainty or incomplete scientific information.
    This responsiveness is reflected in four fundamental 
components of our decisionmaking process. First, promotion of a 
strong research program. Second, acceptance of the best 
available science as a foundation for establishing conservative 
fishery harvest quotas and for conservation measures to protect 
listed species. Third, an extensive in-season catch monitoring 
program, and, fourth, a transparent public process.
    As I mentioned to you in Ketchikan, the North Pacific 
Council's reliance on its scientific and statistical committee 
is an important consideration in the successful management of 
North Pacific resources and serves as a good example in how to 
use science-based decisionmaking to manage our nation's natural 
resources. The North Pacific groundfish observer program 
provides an additional source of important information. This 
program is by far the largest and most expensive in the Nation 
with costs predominantly borne by the industry. We are studying 
ways to improve the observer coverage and effectiveness of our 
fisheries observers in this and other observer programs 
nationwide.
    Mr. Chairman, thank you again for the opportunity to 
discuss the North Pacific Fishery Management programs as we 
undertake reauthorization of the Magnuson-Stevens Act.
    Mr. Gilchrest. Thank you very much, Ms. Salveson.
    [The prepared statement of Ms. Salveson follows:]

    Statement of Sue Salveson, Assistant Regional Administrator for 
  Sustainable Fisheries, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to testify before you on our fishery management program 
here in Alaska and the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act). I am Sue 
Salveson, Assistant Regional Administrator for Sustainable Fisheries, 
Alaska Region, National Marine Fisheries Service (NMFS), National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce. My testimony today will focus on how we work with our 
partners in Alaska to successfully manage our fisheries and how this 
experience may serve as a model for managing our nation's fisheries and 
other ocean resources into the future.
    The current process for managing our nation's marine fishery 
resources has been in place since 1977, when the Fishery Conservation 
and Management Act of 1976 was first implemented. The Sustainable 
Fisheries Act of 1996 implemented several new provisions specific to 
the North Pacific and underscored many of the management measures 
already in place or under development there. The Fishery Management 
Council process results in transparent, deliberative decision making 
based on best available science.
    The North Pacific is a highly productive ecosystem with no depleted 
or overfished groundfish stocks. Our area exemplifies how the 
management process can accommodate both national and regional interests 
in responsible stewardship of marine resources. Our success is driven 
by the North Pacific Fishery Management Council's tenet to adhere to 
the underlying science provided by NMFS, the State of Alaska, 
universities, and other independent scientists. Our success is also due 
in part to relatively focused interjurisdictional issues involving only 
a single state (Alaska), which reduces complexity in the decision-
making process.
Background on Alaskan Fisheries
    With over 47,000 miles of coastline and 336,000 square miles of 
fishable continental shelf area, the waters off Alaska support a 
variety of fisheries. Fisheries are one of the most important 
industries in Alaska and provide nearly half of all private-sector 
jobs. Over 10,000 people are involved in groundfish fishing and 
processing alone; thousands more work in salmon, crab, scallop, 
halibut, and other fisheries. Vessels range from skiffs used for 
halibut fishing with hook-and-line or jig gear, to 600-foot motherships 
and 400-foot catcher processors involved in the midwater trawl fishing 
for pollock.
    The Magnuson-Stevens Act authorizes federal management of fisheries 
in the Exclusive Economic Zone (EEZ). Off Alaska, this management is 
undertaken in partnership with the North Pacific Fishery Management 
Council and other state and federal management agencies. The North 
Pacific Council has developed five fishery management plans to manage 
the groundfish (Bering Sea and Aleutian Islands; Gulf of Alaska), crab, 
scallop and salmon fisheries off Alaska. Much of the management of the 
crab, scallop, and salmon fisheries is deferred to the State of Alaska 
with federal oversight, including the authority to set and enforce 
harvest limits to avoid overfished stocks. Development and 
implementation of allocation programs or dedicated access privilege 
programs are retained as a federal function in partnership with the 
North Pacific Council. The Council also develops allocation programs 
for the Pacific halibut fishery in partnership with NMFS and the 
International Pacific Halibut Commission.
    The primary target groundfish species off Alaska are pollock, 
Pacific cod, flatfish, Atka mackerel, sablefish, and rockfish. In the 
Bering Sea and Aleutian Islands, the maximum annual removals limit has 
been capped at 2 million metric tons, or 4.4 billion pounds, since 
1984. This cap is an example of the North Pacific's precautionary 
approach to management. Although this cap could be set higher--given 
the existing groundfish abundance of over 3 million metric tons--the 
annual harvest limits are capped at this lower level to account for 
species interactions within the ecosystem and to provide a buffer for 
scientific uncertainty in setting catch quota levels.
    Fishery management decisions originate with recommendations 
provided by the North Pacific Fishery Management Council. The Council's 
11 voting members represent state and federal fisheries agencies, 
industry, fishing communities, and four nonvoting members represent the 
U.S. Coast Guard, U.S. Fish and Wildlife Service, U.S. Department of 
State, and the Pacific States Marine Fisheries Commission. The Council 
receives advice at each meeting from a 20-member Advisory Panel, 
representing user groups, environmentalists, recreational fishermen, 
and consumer groups. A 15-member Scientific and Statistical Committee 
composed of highly respected scientists reviews all information and 
analyses and provides advice to the Council.
    The North Pacific Council conducts a transparent public process by 
incorporating diverse views into its decision making, and ensuring open 
public debate regarding the best paths to follow when making difficult 
decisions. The North Pacific Council accepts public comment at all 
meetings on all issues addressed, and the Plan Teams, Advisory Panel, 
and Scientific and Statistical Committee also receive issue-specific 
public testimony. In addition, the Council appoints working committees 
with representation from industry sectors, environmental organizations, 
and other constituents to provide recommendations on specific issues. 
These committees often rely on management expertise and scientific 
input from NMFS and other management agency staff and scientists. This 
committee process is critical to the Council's development of fishery 
management measures and provides an additional level of stakeholder 
input on all decisions.
    NMFS maintains effective partnerships with the North Pacific 
Council, Alaska Department of Fish and Game, International Pacific 
Halibut Commission, Pacific States Marine Fisheries Commission, U.S. 
Fish and Wildlife Service, and U.S. Coast Guard. These partnerships 
help us ensure that management decisions are based on sound science and 
can be effectively monitored and enforced.
    NMFS is considering a wide range of potential amendments to the 
Magnuson-Stevens Act, and plans to prepare a formal package of 
Amendments. We have learned many things from our experiences here in 
Alaska that can help us achieve similar management successes in other 
areas of the country as we move forward with reauthorizing the 
Magnuson-Stevens Act. I would like to focus on a few key areas today--
ecosystem approaches to fisheries management; market-based management 
systems (specifically, dedicated access privilege (DAP) programs); and 
use of the best available scientific information.
Ecosystem Approaches to Fisheries Management
    The U.S. Ocean Action Plan endorses an ecosystem approach to 
management. The plan states that ``the Administration will continue to 
work toward an ecosystem-based approach in making decisions relating to 
water, land, and resource management in ways that do not erode local 
and State authorities and are flexible to address local conditions.'' 
The 1996 amendments to the Magnuson-Stevens Act--particularly the 
provisions relating to bycatch and essential fish habitat--laid the 
groundwork for Ecosystem Approaches to Fisheries (EAF). NOAA has 
identified three large marine ecosystems off Alaska: the Arctic, the 
Bering Sea and Aleutian Islands, and the Gulf of Alaska. The North 
Pacific Fishery Management Council is advancing fishery management to 
address principles of EAF, which focus on ecosystem considerations in 
fishery management decisions as well as in the broad context of entire 
ecosystems and the relative role of all activities occurring within 
them.
    Because not all necessary scientific information is ever available, 
an ecosystem approach must be implemented incrementally. Our approach 
in the North Pacific includes single species management and 
exploitation models used to establish target and nontarget species 
harvest quotas that conserve the stocks. For example, quotas currently 
are managed through an extensive in-season catch monitoring program 
that documents total catch relative to established quotas; when quotas 
are reached, fisheries are closed. But scientists have developed and 
currently are testing whole ecosystem models to assess fishing impacts 
on patterns of energy flow in large marine ecosystems. These models 
provide descriptions of the food web and may be useful in evaluating 
ecosystem-level harvest limits.
    The North Pacific management program includes gear and season-
specific closures totaling approximately 150,000 nm2 to protect habitat 
and protected species stocks. These areas have been closed to fishing 
to minimize fishery interactions with Steller sea lions, reduce impacts 
on sensitive habitat important to crab, or to eliminate fishing gear 
impacts in areas with deep-water coral concentrations. The North 
Pacific Council, in consultation with NMFS scientists and managers, 
closed certain areas to the pollock, Pacific cod, and Atka mackerel 
fisheries to minimize impacts on Steller sea lions; refinements to 
Steller sea lion protection measures are ongoing. A comprehensive 
seabird bycatch reduction program has been implemented that includes 
education, outreach, and mandatory seabird avoidance measures.
    Bycatch controls always have been a facet of the fishery management 
plans for the Alaska fisheries. They originally focused on fully 
utilized species taken incidentally in the groundfish fisheries, such 
as halibut, salmon, crab, and herring. However, the Council is now 
expanding its focus to address management of non-target species taken 
incidentally in the groundfish fisheries (e.g., sculpins and other 
species taken in fisheries but not retained for sale). Since the mid-
1990s, measures to address overall discard amounts and increase 
utilization of catch in the groundfish fisheries resulted in a dramatic 
reduction in discard rates, from 17 percent in 1993 to less than 7 
percent by 2002.
    Habitat protection will be expanded significantly when NMFS 
completes the rulemaking process within the next year to implement 
extensive new closed areas in the Aleutian Islands and Gulf of Alaska 
recently endorsed by the Council to protect Essential Fish Habitat 
(EFH). The Council's EFH action is noteworthy for several reasons.
    <bullet>  The scale is unprecedented. The new EFH measures include 
nearly 300,000 square nautical miles of areas closed to bottom 
trawling, some of which will be closed to other bottom-tending mobile 
gear and fixed gear.
    <bullet>  The Council adopted these new closures as a precaution. 
The best available information indicates that fishing in Alaska has no 
more than minimal adverse effects on EFH, but NMFS' analysis noted 
considerable scientific uncertainty. The Council chose to protect 
relatively undisturbed habitats to guard against potential problems for 
sustainable fisheries in the future.
    <bullet>  These closures have broad support from both the fishing 
industry and environmental groups, demonstrating again that compromise 
and consensus can be achieved through the Council process.
    <bullet>  The Council adopted a site-specific approach for 
identifying Habitat Areas of Particular Concern (HAPCs) within EFH. Our 
experience in Alaska suggests that HAPCs are a useful tool for 
prioritizing especially valuable and/or vulnerable portions of EFH for 
conservation and management.
    Although progress has been made toward an integrated ecosystem 
approach to management in the North Pacific, much work remains to fully 
understand biological, climate, and habitat interactions. New studies 
are required to move forward with ecosystem approaches. NMFS scientists 
are poised to pursue research that would provide new information to 
better enable managers to integrate ecosystem approaches to fishery 
management. This work will focus on developing spatially explicit 
resource assessment models for predicting recruitment, abundance, and 
species interactions by region and by season. These expanded programs 
will help us evaluate resource responses to harvest at local scales, 
assess the impact of fishing on the foraging success of seabirds and 
marine mammals, and improve the information upon which management 
decisions are based. Efforts to identify the scientific, social, 
economic, and policy issues associated with an adaptive, incremental 
approach to ecosystem management will also greatly enhance our ability 
to manage fisheries.
    Pilot programs may help assess information needs for EAF and the 
associated costs. The North Pacific Fishery Management Council is 
considering a pilot program in the Aleutian Islands area that would 
test the use of a Fishery Ecosystem Plan to inform Council decision 
making under the existing fishery management plans. NMFS, the Council, 
and the State of Alaska are also discussing the possibility of an 
ecosystem council or other form of regional collaboration to integrate 
considerations from various ocean uses (e.g., fisheries, marine 
transportation, and oil and gas development).
Market-Based Management Systems
    The U.S. Ocean Action Plan also promotes a partnership under which 
we will ``work with regional fishery management councils to promote 
greater use of market-based systems for fisheries management.'' The DAP 
programs can mitigate overfishing and overcapacity, as well as 
contribute to the economic well-being of the marine fishery sector. The 
Alaska programs--specifically those developed for Alaskan groundfish, 
Pacific halibut, sablefish, and crab fisheries--are examples of DAP 
programs that can be used to develop these approaches nationwide.
    NOAA has committed to develop, in consultation with the regional 
fishery management councils and interested parties, national standards 
and guidelines for the implementation of individual fishing quota (IFQ) 
programs. These guidelines will draw on the 1999 congressionally 
mandated report by the National Research Council, Sharing the Fish: 
Toward a National Policy on Individual Fishing Quotas, as well as the 
ongoing discussions on standards and requirements for DAPs.
    In partnership with the North Pacific Council, we implemented the 
IFQ program for Pacific halibut and sablefish in 1995. Recently, we 
provided coastal communities the opportunity to purchase quota share or 
IFQ to enhance fishery-based revenues generated by local residents. 
Fishing cooperatives have successfully rationalized the Bering Sea 
pollock fishery under the American Fisheries Act. We are in the midst 
of implementing a sophisticated Alaska crab rationalization program 
that includes harvester and processor quota shares, community quotas, 
and fishing cooperatives. The North Pacific Council is considering a 
Gulf of Alaska groundfish rationalization plan that would also include 
a number of distinct DAP programs. The direct allocations of groundfish 
and crab to the Western Alaska Community Development Program has proven 
very successful in generating revenue for western Alaska coastal 
communities and providing for a sustainable fishery-based economy.
    During the past several years, we have worked closely with the U.S. 
General Accountability Office in its studies of various IFQ-related 
issues. This collaboration, as well as experience here in Alaska and 
elsewhere, has helped us refine our views on how to develop and 
administer these programs. Any national guidelines promoting DAP 
programs should provide flexibility to regional fishery management 
councils and to NMFS to tailor these programs to the specific needs of 
the regional fisheries. While the Alaskan programs have been 
successful, and provide important lessons for the rest of the nation, 
they may not be applicable to specific regional, social, economic, and 
fishery conditions in other parts of the country. These programs must 
balance the program's complexity and cost with its overall objectives. 
Existing Magnuson-Stevens Act authority for cost-recovery programs can 
result in insufficient revenue for sustained management and enforcement 
of complex DAP programs. We are considering ways to ensure that 
sufficient revenue is available to manage the DAP programs 
appropriately.
Best Available Scientific Information and Other Data
    The U.S. Ocean Action Plan also commits NOAA to ``establish 
guidelines and procedures for the development and application of 
scientific advice for fisheries management decisions.'' The 
Administration supports the use of independent peer-reviewed science in 
resource management decisions. We are considering several Magnuson-
Stevens Act amendment proposals relating to the collection and use of 
best available scientific information. Scientific information and 
advice is integral to the resource management decisions undertaken by 
NMFS in partnership with the regional fishery management councils.
    Ongoing success of the North Pacific management programs will 
continue to rely on the science-based and precautionary policy 
directions historically embraced by the North Pacific Fishery 
Management Council. This responsiveness is reflected in four 
fundamental components of our decision making process:
    1.  Promotion of a strong research program;
    2.  Acceptance of the best available science as a foundation for 
establishing conservative fishery harvest quotas and for conservation 
measures necessary to protect listed species or their critical habitat 
under the Endangered Species Act;
    3.  An extensive in-season catch monitoring program that relies on 
timely observer data, accurate catch weight measurements for at-sea and 
shoreside processors, and an electronic catch reporting system that 
ensures we will not exceed established quotas; and
    4.  A transparent public process.
    NMFS also is working to improve our marine resource survey 
capability and our capacity to develop stock assessments. In 2001, the 
National Task Force for Improving Fish Stock Assessments, composed of 
senior stock assessment scientists from each NMFS science center, 
issued the Marine Fisheries Stock Assessment Improvement Plan. This 
report continues to serve as NMFS' principal roadmap for enhancing and 
modernizing programs for data collection, data management, stock 
assessments, and supporting scientific research. The stock assessments 
on which annual quotas for North Pacific groundfish, crab, and halibut 
are based rely on extensive stock assessment surveys and sophisticated 
stock assessment models used by NMFS, the State of Alaska, academia, 
and International Halibut Commission scientists.
    Observers deployed on-board fishing or processing vessels and at 
shoreside processing facilities are an additional source of important 
information. For NMFS and the public to have confidence in this 
information, it must be of high quality and free from bias. The North 
Pacific groundfish observer program is the largest in the nation with 
over 36,000 observer days per year. Costs of observer deployment for 
the North Pacific fisheries are borne by the industry and currently 
total about $13 million annually; an additional $3 million in federal 
funding is required each year to support the costs of administering the 
observer program and the data collected by observers. Although coverage 
is extensive, we are studying ways to improve the coverage and 
effectiveness of our on-board and shoreside fisheries observers in this 
and other observer programs.
    We are considering proposals that would give the regional 
management councils and NMFS broader authority to collect social and 
economic data, including cost and revenue data. Collecting this 
information from shoreside fish processors, under appropriate 
confidentiality standards, would allow us to conduct more meaningful 
social and economic analyses of the potential impacts of fishery 
regulations. This information will enable NMFS and the regional fishery 
management councils to conduct better regulatory assessments, in 
particular those concerning the impacts of proposed measures on fishing 
communities, small business enterprises, and processors. This 
information also will allow NMFS and the councils to assess the effects 
of programs that have been implemented and determine whether 
refinements or adjustments should be made to address unintended impacts 
on various sectors or constituencies. The North Pacific Fishery 
Management Council used this approach to develop an economic data 
collection program for Bering Sea/Aleutian Island crab harvesters and 
processors as part of its comprehensive rationalization program for 
this fishery. Implementation of this program required special 
legislation.
    To properly incorporate the best available science into our 
management process, the Councils need to rely on our Scientific and 
Statistical Committees (SSC) to review all biological and socioeconomic 
information used in decision making. We believe the structure and 
breadth of expertise on the North Pacific Fishery Management Council's 
SSC allows science-based decision making to govern the management of 
our nation's natural resources. NMFS will continue to play a key role 
in providing the best possible scientific information, and supports the 
use of peer-reviewed science in resource management decisions.
Enforcement Issues
    At-sea and shoreside catch monitoring programs are in place to 
ensure that fishery restrictions are honored. These programs include 
timely reporting of total catch by species, and vessel monitoring 
system (VMS) requirements in some fisheries to monitor closed or 
restricted areas. VMS is an excellent enforcement tool because it 
provides remote monitoring of vessel positions in relation to 
regulatory areas and maritime boundary lines. We rely on the 
complementary enforcement efforts of NOAA, state enforcement agencies, 
and the U.S. Coast Guard, both in the fishing grounds and dockside.
    We are considering a number of amendments to the Magnuson-Stevens 
Act to enhance the effectiveness of fisheries law enforcement. In 
Alaska, tools such as broader application of VMS and cooperative state-
federal enforcement programs are used to achieve enforcement, 
management, and safety objectives. Incorporating existing technology 
and leveraging strong enforcement partnerships are becoming more and 
more important to mitigate the greater number of resources needed to 
enforce new fisheries regulations.
Conclusion
    Mr. Chairman, thank you for the opportunity to discuss the North 
Pacific fishery management programs as we undertake reauthorization of 
the Magnuson-Stevens Act. Alaska is fortunate to have large areas of 
relatively pristine habitat that support bountiful and sustainable fish 
harvests. That said, management of the North Pacific has benefited from 
adherence to the best available science in developing prudent and 
precautionary approaches to the management of marine resources. Our 
emerging focus on ecosystem approaches to fisheries management and 
dedicated access privilege programs will rely on research and sound 
science to support increasingly complex conservation and management 
programs. In addition, we want to continue our work with all 
stakeholder groups to achieve a collaborative consensus-building forum. 
Such partnerships will become increasingly important as new interests, 
perspectives, and knowledge are incorporated into an ecosystem approach 
to management.
                                 ______
                                 
    Mr. Gilchrest. Ms. Madsen.

             STATEMENT OF STEPHANIE MADSEN, CHAIR, 
            NORTH PACIFIC FISHERY MANAGEMENT COUNCIL

    Ms. Madsen. Good morning, Mr. Chairman. Welcome to the 
Emerald Island.
    Mr. Gilchrest. Thank you.
    Ms. Madsen. And I have to say that it's--I'm glad to be 
back. It holds a special place in my heart. Both my husband and 
both my children were born here, and it's good to come back and 
see old friends. So it's a special spot, and I'm sure you've 
picked that up.
    For the record, Mr. Chairman, my name is Stephanie Madsen, 
and I'm the Chair of the North Pacific Fishery Management 
Council. I had the pleasure to address you in Ketchikan, and we 
talked mostly in Ketchikan about the process that we use. Today 
I'd like to talk a little bit about the programs that we've 
been using, and then also address your request for lessons 
learned in the North Pacific in a more specific way.
    The Council's basic precautionary approach to management 
that we discussed in Ketchikan cuts across all FMPs, the 
fishery management plans, and geographic regions under our 
jurisdiction. The comprehensive goals and objectives that I 
spoke to in our programmatic SEIS pertain both to the Bering 
Sea Aleutian Islands and the Gulf of Alaska FMPs. But while 
these basic tenets apply to all the areas that we manage, there 
are some regional differences and specific regional challenges 
that are currently being addressed by the Council.
    The Bering Sea fisheries, which you'll hear more about this 
morning can be characterized as more industrial in nature than 
in the Gulf of Alaska and are dominated in volume and value by 
the enormous pollock resource. While the pollock fishery is 
operating under a fully rationalized system established by the 
American Fisheries Act and the Council, the other groundfish 
fisheries are in need of further rationalization programs.
    The Council is also addressing bycatch and discards issues 
in the Bering Sea by imposing minimum groundfish retention 
standards in conjunction with an initiative in developing a 
program of fishery cooperatives for the non-AFA catcher-
processors that we expect to and hope to approve later this 
year.
    The Council will also be considering further measures with 
regard to essential fish habitat in areas of particular concern 
in the Bering Sea in addition to the measures that we've 
recently approved for the Gulf of Alaska and Aleutian Islands 
areas. In the Gulf of Alaska groundfish fisheries could be 
characterized as more numerous smaller vessels, lower overall 
resource abundance, direct ties to greater number of coastal 
communities than in the Bering Sea, and a greater number of 
user groups and constituents which you are going to hear from 
this morning.
    The most significant program currently under development by 
the Council as you have heard, Mr. Chairman, and one of the 
most challenging is focused on a comprehensive rationalization 
of the Gulf of Alaska groundfish fisheries, which would apply 
primarily to the central and western Gulf fisheries. 
Recognizing the operational economic benefits of the Bering Sea 
rationalization programs and coupled with the logistical 
challenges that we have that are posed by the numerous Steller 
sea lion restrictive measures in the Gulf of Alaska, the 
Council is attempting to develop some type of quota-based 
cooperative style program for the Gulf fisheries.
    Working closely with the State of Alaska and the State 
Board of Fisheries, this is an ambitious program with numerous 
competing constituencies and overlapping jurisdictions with 
regard to state waters inside three miles. In my written 
testimony we have time lines that I'm not going to repeat on 
the record because I hope that we can stay with them.
    Mr. Chairman, you are going to hear, I think, this morning 
and as you tour Alaska and experience first hand the challenges 
that the North Pacific Council faces when trying to balance the 
need to protect the resource, the need to address the 
consolidation that is currently happening without a 
rationalization program, and how we address the constituencies 
of the coastal communities, of the skippers and crew, 
processors, harvesters, providing for entry-level fisheries so 
that we can look forward in years ahead and make sure that we 
have a vision of what we would like those fisheries to look 
like in 10, 15 years.
    Those are all challenges, Mr. Chairman, that you are going 
to hear this morning, that the Council has to face on a regular 
basis. And as with your job, it's not easy. We listen and we 
hope and rely heavily on our transparent public process for 
people to come forward with creative ideas. And I think that's 
why the North Pacific sometimes is in the seats of controversy 
because we have pushed the envelope and looked at creative ways 
to address our differences.
    I think also, Mr. Chairman, in your tours around Alaska you 
are going to see that even within our region we need a maximum 
flexibility to design programs that are specific to those 
fisheries, to those dependent communities and to the different 
participants that exist in the different fisheries. So even 
within our region, we need maximum flexibility, and I think 
you'll hear that nationwide.
    Mr. Chairman, I would move on to some of the lessons that 
we've learned. But before, I'm going to repeat something that 
you've heard me say and I believe that our overall management 
program illustrates that the current Magnuson-Stevens Act 
contains the necessary tools for successful, sustainable 
fisheries management. Strengthening the existing tools, or 
imposing requirements to use those tools may be necessary in 
the reauthorization process, but it does not appear from our 
perspective that significant new requirements are necessary at 
this time.
    In my written comments, there is much more detail, Mr. 
Chairman. I see my red light is on, but just to highlight some 
of the lessons that we have--would like to pass along.
    Ecosystem approach to management. We believe that extreme 
caution should be exercised with regard to specific statutory 
requirements for a fishery ecosystem plans. Until we have some 
experience with voluntary pilot projects regarding fishery 
ecosystem plans and some experience with collaborative efforts 
on the broader ecosystem approach to management front, the 
North Pacific as you have heard over and over has long embraced 
this approach and is working hard to more explicitly 
incorporate that approach into our management programs.
    Improving science and management. We believe that the 
integration of science and management works very well in the 
North Pacific, and we are very concerned that changes could be 
imposed on that process in order to address other regional 
problems. IFQs or other DAP programs, I think you'll hear a lot 
about that. I think the message from the North Pacific is that 
we need all the tools in the toolbox to address the uniqueness 
and the differences in our fisheries and regions.
    Reconciling statutes. We believe that our development of 
fishery management programs and the review and approval process 
is overly complicated. It takes way too long, as you might hear 
today, and often it's not user-friendly to the public or to the 
fishing industry. This is primarily due to a number of often 
redundant and overlapping statutory requirements.
    It is our partnerships and our close working relationship 
with NOAA and the Science Center that has been crucial to our 
ability to successfully implement our core management measures.
    Mr. Chairman, I'd like to close there and thank you again 
for the opportunity to comment on these issues. Again, I'll 
remind you that we stand ready to help you in further shaping 
any amendments that you see that are important to the Act and 
respond to those changes when they are finalized. Thank you, 
Mr. Chairman.
    Mr. Gilchrest. Thank you very much, Ms. Madsen.
    [The prepared statement of Ms. Madsen follows:]

                 Statement of Stephanie Madsen, Chair, 
                North Pacific Fishery Management Council

    Good morning. My name is Stephanie Madsen, and I am the Chair of 
the North Pacific Fishery Management Council based in Anchorage, 
Alaska. Thank you for the opportunity to offer comments to the 
Subcommittee on fisheries management successes in Alaska and 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act. We believe we have a very successful model in the North 
Pacific, and we believe that the basic tools for successful and 
sustainable management exist within the current Magnuson-Stevens Act. 
However, we recognize that a number of changes are being contemplated 
and we hope that our input, and our examples, will be informative to 
development of appropriate amendments to that Act.
Fisheries Management in the North Pacific
    The successful management program for Alaska's offshore fisheries 
has been developed by the North Pacific Council, through its 
partnership with NOAA Fisheries and close working relationship with 
other state and federal agencies, including the Alaska Department of 
Fish and Game (ADF&G), the International Pacific Halibut Commission, 
the Pacific States Marine Fisheries Commission, and the United States 
Coast Guard.
    The North Pacific Fishery Management primarily manages groundfish 
in the Gulf of Alaska, Bering Sea, and Aleutian Islands. Groundfish 
include cod, pollock, flatfish, Atka mackerel, sablefish, and rockfish 
species harvested by trawl, longline, jig, and pot gear. The Council 
also makes allocation decisions for halibut, in concert with the 
International Pacific Halibut Commission which manages biological 
aspects of the resource for U.S.-Canada waters. Other large Alaska 
fisheries such as salmon, crab, scallops and herring are managed 
jointly with the State of Alaska.
    The Council has eleven voting members representing state and 
federal fisheries agencies, and fishery participants. Six are from 
Alaska, three are from Washington, one from Oregon, and one 
representative from NOAA Fisheries. The Council's four non-voting 
members represent the U.S. Coast Guard, U.S. Fish and Wildlife Service, 
Department of State, and the Pacific States Marine Fisheries 
Commission. The Council receives advice at each meeting from a 20 
member Advisory Panel (representing commercial fishing and processing 
industry sectors, environmentalists, recreational fishermen, and 
consumer groups), and from a 15 member Scientific and Statistical 
Committee (SSC) of highly respected scientists who review all 
information and analyses considered by the Council.
    Decisions must conform with the Magnuson-Stevens Act, the National 
Environmental Policy Act, Endangered Species Act, Marine Mammal 
Protection Act, Regulatory Flexibility Act, and other applicable law 
including several executive orders. Regulatory changes may take a year 
or longer to develop, analyze, and implement, particularly if complex 
or contentious. All Council decisions are forwarded as recommendations 
to the Secretary of Commerce, for review and approval.
    One of the keys to successful fishery management is incorporating 
diverse views into decision making through a transparent public 
process. Council meetings are open, and public testimony--both written 
and oral--is taken on each and every issue prior to deliberations and 
final decisions. Public comments are also taken at all Advisory Panel 
and Scientific and Statistical Committee meetings.
Importance of Alaska Fisheries
    Fisheries are one of the most important industries in Alaska, 
culturally and economically, providing nearly half of all private 
sector jobs, and second only to the oil industry in providing revenue 
to the state. Over 10,000 people are involved in groundfish fishing and 
processing alone; thousands more work in the salmon, crab, scallop, and 
other fisheries. In addition, thousands of people work in other 
fisheries and fishing support industries, such as sport fishing guides, 
gear and fuel suppliers, restaurants, hotels, airlines, and others. 
With over 47,000 miles of coastline, and 336,000 square miles of 
fishable continental shelf area, the waters off Alaska support a 
variety of fisheries. Approximately 1,400 vessels participate in the 
groundfish and crab fisheries directly managed by the Council, ranging 
from small 20 foot skiffs fishing for near-shore halibut, to a 200+ 
foot catcher/processors prosecuting midwater pollock fisheries in the 
open waters of the Bering Sea. The majority of the fleet, however, 
consists of mid-size vessels, anywhere from 40 to 150 feet in length. 
These vessels are engaged in longline fisheries for halibut, sablefish, 
and cod; trawl fisheries for cod, pollock, and flatfish species; and 
pot fisheries for cod and crab. Recreational fisheries for halibut and 
salmon are an important part of the fisheries off Alaska.
    These fisheries are worth nearly $1 billion ex-vessel annually 
(amount paid to fishermen at delivery, prior to value-added 
processing). The groundfish fisheries account for a majority of the 
overall value, but the halibut, salmon, and shellfish (crab) fisheries 
also contribute substantially. Additionally, the Council's community 
development quota (CDQ) program allocates from 7.5% to 10% of all 
groundfish and crab quotas to six CDQ groups consisting of 66 western 
Alaska coastal communities. Through partnerships with other industry 
groups, and through direct involvement in fisheries and development of 
fisheries related infrastructures, this program allows these remote 
coastal communities to continue and enhance their participation in 
Alaska fisheries.
Major Turning Points in Alaska Fisheries
    Passage of the Magnuson-Stevens Act in 1976 marked a new era in 
U.S. fisheries management. Foreign fisheries in the EEZ off Alaska were 
rapidly phased out through joint-ventures, with the fisheries fully 
prosecuted by domestic fisheries (``Americanized'') by 1990. Management 
efforts in the early 1990's focused on limiting effort of the 
burgeoning domestic groundfish fleet. By 1992, the fleet had grown to 
over 2,200 vessels, including about 110 trawl catcher processors 
(factory trawlers). The symptoms of overcapacity intensified; the 
``race for fish'' resulted in shorter fishing seasons and allocation 
disputes among various fishing and processing interests.
    To address the overcapacity problem, the Council, working together 
with the NOAA Fisheries Alaska Regional office, aggressively pursued 
capacity limitations in all managed fisheries. An Individual Fishing 
Quota program for halibut and sablefish fisheries was adopted in 1992, 
and fully implemented in 1995. A moratorium on new vessel entry for 
groundfish and crab fisheries was implemented in 1996, with a more 
restrictive license limitation program in place by 2000. In 1998, the 
American Fisheries Act was passed by Congress and implemented by the 
Council and NOAA Fisheries the following year. The Act limited access 
to the Bering Sea pollock fisheries only to qualifying vessels and 
processors, eliminated a number of large catcher processor vessels from 
the fleet, and established a system of fishery cooperatives that allows 
for individual catch and bycatch accountability. Lower bycatch and 
significantly higher product recovery rates have resulted under the 
pollock cooperative system. In 1999, the Council adopted a very 
restrictive limited entry program for the scallop fishery. In 2003, the 
Council completed its work on an individual fishing and processing 
quota system for the Bering Sea crab fisheries (crab rationalization), 
consistent with Congressional legislation. Current Council initiatives 
include development of further rationalization programs for Bering Sea 
non-pollock groundfish fisheries, and development of some form of 
rationalization program for Gulf of Alaska groundfish fisheries.
    Measures implemented in the 1990's also were designed to limit 
impacts on target and bycatch species, marine mammals and seabirds, and 
habitat, and provide opportunities for disadvantaged coastal 
communities along the Bering Sea. A comprehensive domestic groundfish 
observer program, funded by participating vessels, was instituted in 
1990 to provide the basis for controlling catch within allowable levels 
and monitoring removals of both target and bycatch species. Closure 
areas and bycatch limits were established for chinook and chum salmon 
taken in Bering Sea trawl fisheries. Additional year-round trawl 
closure areas were established to reduce bycatch and protect habitat 
for Bering Sea crab stocks. To reduce bycatch and discards of Alaska 
groundfish, mandatory retention of all pollock and cod was required 
beginning in 1998. Retention requirements are soon to be implemented 
for Bering Sea flatfish fisheries, and further reductions in bycatch 
and discard amounts (currently about 7%) are expected.
    In 1990, Steller sea lions were listed as threatened under the 
Endangered Species Act, and numerous measures were implemented over the 
following decade to minimize potential interactions with fisheries and 
potential competition for prey. These measures included incidental take 
limits, 3 nm no entry buffer zones, 10 nm no trawl zones around 
rookeries, 20 nm no pollock fishing zones, seasonal and spatial 
dispersal of pollock and mackerel fisheries, and a prohibition on the 
harvest of forage fish. In 2001, a comprehensive suite of protection 
measures was implemented through Council recommendation which closed 
over 58,000 square miles of ocean to fishing for certain species, or in 
some cases to all fishing activities, to reduce fish removals and 
fishing activities in Steller sea lion critical habitat areas 
throughout the Gulf of Alaska, Bering Sea, and Aleutian Islands.
What Makes Alaska Different?
    Management of fisheries off Alaska is, by all accounts, a success 
story of biological and economic sustainability. The foundation for 
success has been the long-standing, precautionary approach embraced in 
the North Pacific, supported by an underpinning of sound science and a 
reliance on that science, and by a fishing industry supporting a 
priority toward long-term sustainability. Strict catch quotas for all 
managed species, coupled with an effective monitoring program, 
represent the forefront of the conservative management approach in the 
North Pacific. Since 1976, groundfish harvests have been maintained in 
the range of 3 to 5 billion pounds annually, and no groundfish stocks 
are overfished. Vast areas of the Bering Sea and Gulf of Alaska are 
closed to trawling, or in some cases to all fishing, to protect 
habitat, minimize bycatch, or minimize interactions with protected 
species such as Steller sea lions.
    The Council's precautionary management approach is to apply 
judicious and responsible fisheries management practices, based on 
sound scientific research and analysis, proactively rather than 
reactively, to ensure the sustainability of fishery resources and 
associated ecosystems for the benefit of future, as well as current 
generations. The basic tenets of this approach include public 
participation, reliance on scientific research and advice, conservative 
catch quotas, comprehensive monitoring and enforcement, limits on 
bycatch of non-target species, marine protected areas, measures to 
protect marine mammals and seabirds, and other measures.
    Strict annual catch limits for every groundfish fishery are the 
foundation of the sustainable fisheries management approach in the 
North Pacific. A rigorous process in place for almost 30 years ensures 
that annual quotas are set at conservative, sustainable levels. 
Beginning with scientific data from regular groundfish abundance 
surveys, stock assessment scientists recommend acceptable biological 
catch (ABC) levels for each species. These are reviewed by the 
Council's Groundfish Plan Teams, then further reviewed by the Council's 
Scientific and Statistical Committee, prior to the Council's setting of 
the Total Allowable Catch (TAC), which is always set at or below the 
ABC, and far below the designated overfishing level.
    As an additional precautionary measure, the Bering Sea and Aleutian 
Islands quotas, for all groundfish combined, are capped at a maximum of 
2 million metric tons (mt) annually, regardless of the maximum 
recommended ABC levels. For example, ABCs for the past several years 
have ranged from 3 to 4 million mt, yet TACs were reduced to stay 
within the 2 million mt cap. The Gulf of Alaska has a similar overall 
TAC cap. Catch of all species, whether targeted or taken as bycatch, 
whether retained or discarded, count toward the annual catch limits, 
and fisheries are closed when these limits are reached. This is one of 
the fundamental aspects of responsible management in the North Pacific 
groundfish fisheries.
    These catch quotas are closely monitored to ensure accurate 
accounting on a real-time basis. At the core of the monitoring system 
is a comprehensive, industry-funded, on-board observer program, coupled 
with requirements for total weight measurement of most fish harvested. 
Except for small vessels less than 60 feet, all vessels fishing for 
groundfish in federal waters are required to carry observers, at their 
own expense, for at least a portion of their fishing time. The largest 
vessels, those over 125 feet, are generally required to carry observers 
100% of the time, with multiple observers required on catcher/
processors and in certain fisheries. Scales to weigh catch are also 
required on many of the larger vessels. Most shoreside processing 
plants are also required to have observers at all times, and to weigh 
all fish landed at each processing location. Observers estimate total 
catch weight, catch composition, and discards, and collect biological 
information critical to stock assessment. In excess of 36,000 observer 
days, by over 500 observers, are logged in these fisheries each year. 
In the North Pacific's largest fishery, for walleye pollock, nearly 85% 
of the total catch is measured and sampled by observers, with 99% of 
the catcher/processor (factory trawler) harvest sampled by observers. 
Used in conjunction with reporting and weighing requirements, the 
information collected by observers provides the foundation for in-
season management and for tracking species-specific catch and bycatch 
amounts.
    The Council and NOAA Fisheries are currently developing amendments 
to the fishery management plans that are designed to better ensure 
ongoing collection and quality observer data. These amendments will 
examine alternative funding mechanisms (for example, a fee-based 
program instead of direct payment by vessels required to carry 
observers), and alternative service delivery models, all designed to 
allow fisheries managers to more effectively determine specific 
observer deployments by fishery and by vessel. Technological 
innovations, such as digital (video) observer applications, are also 
being evaluated by the Council and NOAA to potentially supplement 
onboard observers.
    Enforcement of fishery regulations is accomplished by complementary 
efforts of NOAA and State enforcement agencies, and the U.S. Coast 
Guard, both on the grounds and dockside. As part of their patrol 
activities, the Coast Guard enforces a complex array of domestic 
regulations and international treaties, including enforcement of the 
maritime boundary and high seas driftnet violations. The Coast Guard 
also maintains its priority mission of search and rescue, a critical 
mission in all U.S. waters, particular in the volatile Bering Sea. NOAA 
Enforcement also conducts patrols and investigations throughout coastal 
Alaska to enforce fisheries regulations and total catch limits.
    The North Pacific region also enjoys one of the strongest science 
support structures of any region. The Alaska Fisheries Science Center 
conducts annual stock assessments in the North Pacific, and provides 
the information upon which annual catch quotas are set. The 
comprehensive North Pacific groundfish observer program also is managed 
through the Science Center, and biological and economic analyses of 
proposed actions often involve Science Center personnel. The Alaska 
Department of Fish and Game also administers an observer program for 
the crab fisheries, and provides stock assessment information and in-
season management for the crab fisheries, as well as the scallop 
fisheries and some rockfish species.
    Notwithstanding this success, the Council and NOAA Fisheries 
continue to develop new and innovative approaches to address issues 
such as bycatch, protecting habitat, overcapacity, and further 
development of ecosystem-oriented management approaches. In 2004 the 
Council and NOAA Fisheries completed a comprehensive assessment of its 
overall management programs through approval of a programmatic 
supplemental environmental impact statement (PSEIS). This process 
included adoption of revised goals and objectives for the groundfish 
FMPs, which further strengthen the precautionary, ecosystem-based 
approach to management.
Progress Towards Ecosystem-Based Management
    The North Pacific Fishery Management Council has a long track 
record of making precautionary fishery management decisions, and has 
continued developing its ecosystem-based approach. The approach is 
built upon four goals: 1) maintain biodiversity consistent with natural 
evolutionary and ecological processes, including dynamic change and 
variability; 2) maintain and restore habitats essential for fish and 
prey; 3) maintain system sustainability and sustainable yields for 
human consumption and non-extractive uses; and 4) maintain the concept 
that humans are part of the ecosystem.
    The existing Alaska Groundfish FMPs contain many components of 
fishery ecosystem plans, or an ecosystem approach to management. 
Specific measures have been taken to minimize potential impacts to 
marine mammals, seabirds, and other components of the Alaska marine 
ecosystem. Major measures include limits on total removals from the 
system, a prohibition on directed fishing for forage fish species, 
seabird deterrent devices to minimize incidental bycatch of seabirds, a 
variety of measures to protect Steller sea lions from disturbance and 
potential competition with prey, and quasi marine reserves to conserve 
benthic biodiversity. However, recent recommendations from the U.S. 
Commission on Ocean Policy, and NOAA's own internal initiatives, 
underscore the need to even more explicitly incorporate ecosystem 
considerations in management of all U.S. fisheries.
    In February 2005, the Council took significant action to identify 
and conserve essential fish habitat (EFH) from potential adverse 
effects of fishing. A 2,500+ page scientific analysis was prepared to 
evaluate the total impacts of fishing on EFH, and evaluate alternatives 
to describe and conserve EFH from fishing impacts. Although the 
analysis concluded that fisheries do have long term effects on habitat, 
these impacts were considered minimal and would not have detrimental 
effects on fish populations or their habitats. Nevertheless, continuing 
with its long history of precautionary, ecosystem-based management 
policy, the Council adopted several new and significant measures to 
conserve EFH. Specifically, to protect deep-water corals, the Council 
took action to prohibit all bottom trawling in the Aleutian Islands, 
except in small discrete ``open'' areas. Over 95% of the Aleutian 
Islands management area will be closed to bottom trawling (277,100 nm2) 
and about 4% (12,423 nm2) will remain open. Additional bottom trawl 
closures were created in the Gulf of Alaska. Further, on the Alaska 
seamounts, and in areas with especially high density coral and sponge 
habitat, the Council voted to close these areas to all bottom contact 
fishing gear (longlines, pots, trawls, etc.). As a result, these areas 
will essentially be considered ``marine reserves''. While pelagic 
fishing would be allowed in these areas, none is anticipated, so 
resource extraction will be nil in the areas.
    The North Pacific Council, through its newly constituted Ecosystem 
Committee, is actively pursuing additional avenues to further and more 
explicitly implement an ecosystem approach to management, both at a 
fisheries-specific level (EAF), and at a broader level addressing non-
fishing considerations (EAM). Given the unique environment and 
management context of the Aleutian Islands ecosystem, the Council is 
planning to use this area as a test case for development of a separate 
Fishery Ecosystem Plan (FEP), and for development of an Ecosystem-
Approach to Management (EAM) using a regional ecosystem council model 
(or other coordinating body) to discuss and exchange information on 
fishery and non-fishery activities. The Aleutian Islands FEP is in the 
developmental stages and we anticipate a draft later this year. Details 
of the FEP, including possible designation of an Aleutian Island Plan 
Team, are still being developed at this time. Council staff is also 
involved with a NOAA internal working group to draft national 
guidelines for implementing the ecosystem approach to fisheries. The 
Councils support the development of such guidelines, as a guiding 
strategic document for the FMPs, rather than explicit statutory 
requirements at this time. The Council is also in discussions with 
other State and Federal agencies regarding the larger ecosystem 
coordination issues, and is planning to hold a workshop with the State 
of Alaska and NOAA Fisheries later this year to determine how best to 
coordinate the broader ecosystem approach.
How is Science Integrated?
    The Council has an active Scientific and Statistical Committee 
(SSC) that reviews all analytical documents prepared for each 
management change. The SSC consists of biologists, economists, and 
social scientists from academia and federal and state agencies. The SSC 
meets five times per year, concurrent with and at the same location as 
the Council meetings. In addition to providing comments to analysts, 
the SSC makes recommendations to the Council on the adequacy of 
analytical documents relative to the best available scientific 
information, including biological, economic, and social impact 
analyses. The SSC also reviews development of models and other 
analytical approaches for understanding impacts of fishery measures. 
Further, the SSC provides recommendations on priority areas for 
research.
    The scientific review process used by the Council is multi-tiered 
and robust. For example, stock assessments and acceptable biological 
catch limits undergo a thorough internal review by the Alaska Fisheries 
Science Center. Each year, a couple of these assessment models are 
further reviewed by the Center for Independent Experts. Once completed 
by NOAA Fisheries scientists, the assessments are scientifically 
reviewed by the Plan Teams, consisting of federal, state, and 
university scientists. The SSC has final scientific review authority 
for the assessments. The Council then approves the Stock Assessment and 
Fishery Evaluation Report for public distribution, and adopts the SSC's 
recommendations for Acceptable Biological Catch limits (ABCs). Total 
Allowable Catch levels (TACs) are then established by the Council with 
the SSC recommended ABCs as an upper bound. Because this process has 
worked so successfully, we have not made any additional changes to the 
existing scientific review process.
    The Council also coordinates with the recently formed North Pacific 
Research Board (NPRB) and other governmental and academic research 
organizations to identify priority areas for funding of proposed 
research activities. Through direct membership and participation on the 
NPRB, and through annual reviews of funded research, the Council 
maintains a close working relationship with the scientific research 
community and is regularly apprised of pertinent scientific 
information.
Regional Issues and Challenges
    The Council's basic precautionary approach to management cuts 
across all FMPs and geographic regions under our jurisdiction. The 
comprehensive goals and objectives (recently revised in the PSEIS 
process) pertain to both the Bering Sea/Aleutian Islands and the Gulf 
of Alaska FMPs. While these basic tenants apply to all areas we manage, 
there are some regional differences and specific regional challenges 
that are currently being addressed by the Council.
    The Bering Sea fisheries can be characterized as more industrial in 
nature than fisheries in the Gulf of Alaska, and are dominated in 
volume and value by the enormous pollock resource. While the pollock 
fishery is operating under a fully rationalized system established by 
the American Fisheries Act and the Council, other groundfish fisheries 
are in need of further rationalization programs, beyond the basic 
limited entry programs currently in place. Cod fisheries are a 
significant resource for a number of user groups and the Council is in 
the process of re-evaluating the current allocations among gear types, 
and considering even more discrete allocations to more narrowly defined 
user (gear) groups. The Council is addressing bycatch and discard 
issues by imposing minimum groundfish retention standards, and in 
conjunction with that initiative is developing a program of fishery 
cooperatives for the non-AFA catcher processors (the head and gut or 
H&G fleet) which we expect to approve later this year. The Council will 
also be considering further measures with regard to essential fish 
habitat and habitat areas of particular concern in the Bering Sea, in 
addition to the measures recently approved for the Gulf of Alaska and 
Aleutian Islands areas.
    Gulf of Alaska groundfish fisheries are characterized by more 
numerous, smaller vessels, lower overall resource abundance, direct 
ties to a greater number of coastal communities, and a greater number 
of user groups/constituencies (gear groups, coastal communities, sport 
fisheries, etc). Fisheries in the Southeast area of Alaska are 
primarily fixed gear (longlining for halibut and sablefish, or salmon 
troll fisheries), and state water salmon fisheries. This area, along 
with areas in the Central Gulf of Alaska, also has an important 
recreational fishery component, primarily for salmon and halibut. 
Management of the guided sport fishery for halibut (charter boat 
fishery) is under Council jurisdiction and we have approved both a 
guideline harvest level (GHL) program for that fishery, and a charter 
boat IFQ program which, if approved by the Secretary, would incorporate 
this fishery into the existing IFQ program for halibut. Halibut is also 
critical to subsistence users and the Council and NOAA have approved 
and implemented regulations recognizing and protecting subsistence use 
of the halibut resource.
    The most significant program currently under development by the 
Council, and one of the most challenging, is focused on a comprehensive 
rationalization of the Gulf of Alaska groundfish fisheries, which would 
apply primarily to Central and Western Gulf fisheries. Recognizing the 
operational and economic benefits of Bering Sea rationalization 
programs, and coupled with the logistical challenges posed by the 
numerous Steller sea lion restrictive measures in the Gulf of Alaska, 
the Council is attempting to develop some type of quota-based, 
cooperative style program for Gulf fisheries. Working closely with the 
State of Alaska and the State Board of Fisheries, this is an ambitious 
program with numerous competing constituencies and overlapping 
jurisdictions with regard to state waters inside three miles. 
Completion of the environmental impact statement (EIS) required for 
this program will not occur until sometime in 2006, with actual 
implementation not likely until at least 2008.
Lessons for Reauthorization
    The subcommittee has expressed interest in what lessons can be 
learned from the management approach in the North Pacific, and how 
those lessons might inform reauthorization of the Magnuson-Stevens Act. 
In summary, I believe our overall management program illustrates that 
the current Magnuson-Stevens Act contains the necessary tools for 
successful, sustainable fisheries management. Strengthening the 
existing tools, or imposing requirements to use the existing tools, may 
be necessary in the reauthorization process but it does not appear that 
significant new requirements are necessary at this time. Below I 
provide a brief summary related to some of the primary reauthorization 
issues.
    Ecosystem approach to management: Regarding ecosystem approaches to 
fisheries management, we believe that we have long been using an 
ecosystem approach to fisheries management, as are many of the other 
regional Councils, but that a more explicit recognition and application 
of this approach may be warranted. We believe that development of 
national guidelines is appropriate, which would then be used as 
strategic guidance (rather than as regulatory requirements) for 
implementation of specific regulatory programs through the existing 
FMPs. We believe that extreme caution should be exercised with regard 
to specific statutory requirements for fishery ecosystem plans, until 
we have some experience with voluntary, pilot projects regarding 
fishery ecosystem plans, and some experience with collaborative efforts 
on the broader EAM front. The North Pacific has long embraced this 
approach and is working hard to more explicitly incorporate that 
approach in our management programs.
    Improving science in management: Regarding the integration of 
science and management, we believe that the North Pacific model clearly 
illustrates (1) the importance of closely linking science and 
management; (2) the ability of the existing SSC structure and process 
to provide the nexus between science and management by the regional 
Councils; and, (3) the flaw in the argument to somehow separate science 
and management (allocation) decisions. We believe that the integration 
of science in management works very well in the North Pacific, and we 
are very concerned that changes could be imposed on that process, in 
order to address other regional problems. We also believe that any 
potential new requirements for ``independent peer review'' of data and 
analyses needs to be considered carefully, given the additional cost 
and time implications and given the ability of the current SSC process 
(or similar existing processes) to provide quality, objective peer 
review of the majority of information used by the Council and NOAA 
Fisheries.
    IFQs or other DAP programs: Regarding individual quota programs, or 
other dedicated access privileges (DAP) such as fishery cooperatives, 
we believe that multiple programs currently operational in the North 
Pacific (or pending such as Bering Sea crab) illustrate the benefits of 
``rationalized'' fisheries. We also believe that these programs reflect 
the differences among fisheries and regions, and underscore the need 
for maximum flexibility in designing these programs. In the halibut and 
sablefish IFQ program, in place since 1995, the Council included 
numerous provisions in the program design, such as restrictions on 
transfers across vessel categories and restrictive share caps, in order 
to maintain the important social and community fabric of those 
fisheries. The pollock fishery cooperative system, and to some degree 
the crab IFQ/IPQ program, are designed to reflect the more industrial 
nature of those fisheries, though in the case of the crab IFQ/IPQ 
program there are still, for example, regional delivery provisions 
which were designed to protect existing community involvement in those 
fisheries. Programs currently under development, such as the Gulf of 
Alaska rationalization program, will require a different set of 
provisions to address the specific regional, social, economic, and 
fishery conditions.
    Reconciling statutes: The development of fishery management 
programs, and the review and approval process, is overly complicated, 
takes way too long, and often is not user-friendly to the public and to 
the fishing industry. This is primarily due to the number of often 
redundant and overlapping statutory requirements, including the 
National Environmental Policy Act (NEPA), the Regulatory Flexibility 
Act, the National Marine Sanctuary Act, the Endangered Species Act, the 
Marine Mammal Protection Act, the Magnuson-Stevens Act, and numerous 
additional Acts and Executive Orders. In the North Pacific, our close 
working relationship with NOAA Fisheries Alaska Region and Science 
Center has been crucial to our ability to successfully implement our 
core management measures, as well as many innovative, cutting-edge 
management programs. And that close coordination has allowed us to do 
so, for the most part, while still addressing the myriad statutes and 
executive orders that apply to fisheries management actions. However, 
while the Councils and NOAA Fisheries have made substantial progress 
over the past few years in terms of ``streamlining'' this regulatory 
process, and reducing litigation, we strongly believe that there needs 
to be some Congressional action to clarify and reconcile the competing 
statutes. Our ability to design, analyze, and implement complicated DAP 
programs in particular is hindered by the redundant applications of 
several statutes.
    Particularly, the application of NEPA to fishery plan and 
regulation development, and to some degree the Regulatory Flexibility 
Act, are impeding our ability to develop realistic, practical 
management solutions in a timely manner. For example, specific 
provisions could be made to the Magnuson-Stevens Act which would 
capture the underlying intent of basic NEPA provisions, and reinstate 
the Magnuson-Stevens Act as the primary Act governing fisheries 
management, with the necessary environmental and conservation 
protections built directly into the Act. Specific recommendations in 
this regard have been developed by the eight regional councils and 
include requirements for considering a range of alternatives, 
requirements for cumulative impact assessment, and additional 
requirements for public review and input.
    Mr. Chairman, there are a number of other issues we could discuss 
today, but I believe that I have covered the basic management approach 
used in the North Pacific, and covered the primary issues we see in the 
upcoming Magnuson-Stevens Act reauthorization. I thank you again for 
the opportunity to comment on these issues, and further apprise you of 
our management approach and specific issues here in the North Pacific. 
We stand ready to help in any way we can as you are further shaping 
important changes to the Act, and to respond to those changes when they 
are finalized.
                                 ______
                                 
    Mr. Gilchrest. I think we'll start with one of the common 
themes that I've heard from our four witnesses this morning is 
the rationalization program. And when we develop the 
reauthorization of Magnuson in Washington, we want to be 
cognizant of all the various aspects of whether it's a 
harvester or a processor or skippers, crews, new entries into 
the program. But like you said, Ms. Madsen, we want to provide 
the flexibility for the councils to deal with all of these 
issues. We in Washington create a standard that will provide, 
to the degree it is possible, fairness, economic viability, and 
conservation.
    And I guess the general question I have, and I would like 
each of you to respond to it if you would like, is can you 
create a rationalization program that includes harvesters, 
processors, skippers, crews, entry-level, all of those things 
and not gentrify the fishery, as Mayor Floyd described?
    I don't know if we need come up with a term gentry, who's 
the gentry out there, but we're looking at the big ships, the 
little ships, the crews, the skippers, entry-level, second 
generation who wants to become involved in this 10 years from 
now, 20 years from now. It is a public resource. Can we do this 
without gentrifying the fishery?
    Ms. Madsen. Mr. Chairman, I guess I'll start. I certainly 
hope we can. And I think that we've learned from--we get better 
every time we look at a process, that we learn from our 
mistakes. I think that every program that we have moved forward 
with since halibut IFQ to IFQ programs has included a periodic 
review requirement, an increased collection of data, both 
social and economic, a clear requirement on our Council's 
behalf of stating a clear problem and goals and objectives for 
that program that can be used during the periodic review of 
that program.
    And if we don't get it right the first time, I hope that 
future council members will look back and look at those 
objectives and make a determination whether they need to amend 
that program to address some of the deficiencies in meeting 
those goals and objectives.
    It is a balancing act, and I think that we struggle with 
it. As you know, Mr. Chairman, our crab plan did provide 
provisions for both harvesters, processors, increased to the 
community development quota. We have a skipper set-aside in 
that program that we hope would be available to crew members on 
the transfer of that initial allocation. We have regional 
landing requirements that we hope would to some extent provide 
some protection to those landing requirements and the way that 
those landing requirements are distributed amongst Alaska 
coastal communities.
    Did we get it exactly right? I'm not sure. Did we set up a 
situation where we can go back and look at that? Yes. I think 
we're very clear. We've already established a time line for 
looking at those reviews. Could we have done it better, 
possibly. And I think that as we move forward and we learn from 
our mistakes and people put their thinking caps on, I think we 
will.
    Mr. Gilchrest. Thank you very much.
    I think maybe the question should have been should we move 
forward with rationalization programs, but I don't mean to----
    Ms. Floyd. You keep looking at me.
    Mr. Gilchrest. You used the word gentry, so I thought that 
was----
    Ms. Floyd. Yeah, right, you liked that. I do think that it 
can happen, but I think it's going to take time and study and 
research and stopping periodically to see how we have 
accomplished our goals so far. But it's not going to happen 
overnight. But I think it can happen with adequate study and 
time to do our homework.
    Mr. Gilchrest. Ms. Salveson, could you--now, you spoke 
about the rationalization program, which I don't want to put--
this is a paraphrase of what I understood you said. Seems to be 
a vehicle to ensure the sustainability of the fishery in its 
management regime. So I guess, do you see any other system now 
that would be preferable to rationalization? Given the 
evolution of this process, the rationalization process, do you 
think we're moving in the right direction with that?
    Ms. Salveson. Mr. Chairman, yes, I do. I think the 
experience that we've gained through the different 
rationalization programs here in Alaska have had benefits in 
terms of conservation, managing the fisheries, and safety. And 
I also believe that in order to do a hindsight, 20/20 
assessment of these programs, we need to collect the right 
information.
    And right now, we are limited in the information that we 
can collect in terms of socioeconomic information primarily 
from processors. And the Administration is considering proposed 
amendments to the Magnuson Act that would authorize the 
collection of this information so that we do have the tools to 
go back and assess the effects of these programs that can 
create some very significant social and cultural changes. And 
to collect that information in a way that maintains the 
confidentiality of it.
    I think also in considering all the different interests and 
concerns going into rationalization programs and to accommodate 
those concerns, potentially creates complexity to these 
programs. And I think the crab rationalization program is an 
example. It was an attempt to balance all these different 
inputs and concerns and interests in the fisheries with the 
results that was the best attempt to do that. We will see in 
the future how well we were able to do that because under 
statute, we have been given the authority to collect that 
socio-economic information from the harvesters and processor 
sector and set ourselves up to refine those programs as we see 
fit.
    Mr. Gilchrest. Thank you.
    Mayor Selby.
    Mr. Selby. Thank you, Mr. Chairman. As you have astutely 
figured out, this rationalization business is pretty tricky 
about how to make this happen so that it works well for 
everybody who is involved. But the question you're asking, 
strikes right at the heart of a couple of the issues that we 
raise in the resolution that I referenced.
    The first one being that we requested that whatever happens 
with the rationalization program that it result and maintain an 
independent harvester fleet. We want these fishermen to be 
independent, not owned by somebody else. And if the quota 
shares all end up being owned 20 years from now by a bunch of 
New York attorneys, that's a tragedy. Not only for this 
community, but, you know, for us as a country to allow that to 
happen, it should not happen.
    We understand that there's going to be some reduction of 
excess capacity because that's partly what rationalization is 
about. And that's going to happen. But we suggested that they 
institute reasonable quota share ownership caps which would 
control excessive consolidation of quota shares. So that's one 
of the things that can be done, to do that.
    We also suggested that access rights should be structured 
to encourage that ownership of the rights remain within the 
communities. And now that's the trickiest part, about how do 
you do that.
    But consideration by the Council right now of some 
different options, and folks have talked about different things 
like required owner on board would be one way of assuring that 
the fisherman who owns the share is a fisherman, not an 
attorney off someplace else. So we feel that there are ways to 
assure that fishermen continue to own these quota shares. And 
that's what is most desirable here. To have it owned by outside 
interests someplace else, is not a good result, we don't feel, 
for either the fishery, and certainly not for our communities.
    So we've suggested these things in the Resolution that 
we've sent forward and asked the Council to consider. And they 
are considering that, that's why, you know, we feel that if the 
process works well here, which we're confident it will, that 
you can accomplish a way of accomplishing this.
    And the other thing we have in here is to put it in 
conjunction with some community fishing quotas and some 
community purchase programs that will allow particularly our 
villages here on the Island because we've got six other 
communities besides Kodiak here on Kodiak Island. A lot of 
those tend to be fairly heavily Native communities. And what 
we'd like to assure is that there is access, which is then a 
third item that we have in our Resolution, is to establish 
entry-level fishing opportunity so that somehow some of this 
quota keeps coming back and is available for new fishermen, new 
entries into the fishery from the local area.
    And so what we're asking exactly goes to heart of what 
you've asked about here, is how do you keep from gentrifying 
this, to use Mayor Floyd's word, and leave it so that fishermen 
are the ones who own this quota and are fishing and catching 
these fish. That's the model that's going to give us the best 
fishery in our view, particularly from an economic impact for 
the community basis. But we also feel it's going to work well 
also in terms of the management side, for the National Marine 
Fisheries Service folks for managing this fishery working with 
North Pacific Council.
    So that's the kind of structure exactly that we've asked to 
somehow figure how it's going to--it's hard work because 
figuring out how to do this and with all the legal 
ramifications and, yeah, you can't require somebody to live in 
Kodiak if they have quota share. We know that. Now, that's 
unconstitutional. So, you know, to figure out how to send this 
thing in the direction where it's favorable for local fishermen 
to own this share is going to take a lot of work, but we feel 
that it's going to be worth the effort, and would certainly 
hope that that's where this effort goes.
    Mr. Gilchrest. Thank you very much, Mayor Selby.
    Ms. Madsen. Mr. Chairman, can I add one other comment on 
that.
    Mr. Gilchrest. Yes. Ms. Madsen, yes.
    Ms. Madsen. Your last question about whether we should move 
forward with rationalization, and I think some of the comments 
that you may hear over time is some of the--we didn't choose to 
move forward with rationalization because we didn't have 
anything to do. There was consolidation occurring. There were 
people that were going bankrupt. We were concerned about 
safety. The Steller sea lion restrictions were prohibiting or 
burdening the industry with different management regimes they 
weren't able to adapt to.
    Some of the things that people are concerned about today, 
consolidation, a loss of jobs, are occurring today without 
rationalization. And the challenge is how can we address those 
concerns in a way, kind of a controlled rationalization versus 
an uncontrolled rationalization? Because there's an 
uncontrolled rationalization, Mr. Chairman, that is occurring 
today.
    With no controls on consolidation, it goes to the highest 
buyer or who is going to buy who out and what people that are 
going to go bankrupt and those vessels are going to come back 
pennies on the dollar. Rationalization is occurring today 
without any governmental interference, and I think people are 
concerned about how that looks and maybe we could do a better 
job if we sat down and put some constraints on some of the 
things that are occurring and how do we best do that.
    Mr. Gilchrest. Very good, thank you.
    I'm going to shift gears just a little bit to a more 
scientific question. In the Sustainable Fisheries Act of 1996, 
there was a provision dealing with essential fish habitat. And 
so I would like to hear your perspective on how that has been--
how have you been able to manage with that concept, essential 
fish habit, in your areas of expertise. And there's another 
provision that's being considered now along with essential fish 
habitat called habitat areas particularly concerned, and, Ms. 
Salveson, you mentioned that in your testimony.
    I guess the question is how do you amend the Magnuson-
Stevens Act by including habitat areas of particular concern 
and how can that be compatible with essential fish habitat with 
a management regime?
    Ms. Salveson. Mr. Chairman, I'll take a stab at that. I 
think, first off, habitat areas of particular concern are a 
subset of essential fish habitat. So they are not separate, but 
they are actually complementary. And HAPCs are identified based 
on areas being especially vulnerable or of special ecological 
significance. And they're typically off Alaska in some fairly 
small areas. And the process that was engaged in most recently 
within the Council forum I think was fairly successful in that 
it engendered a great deal of stakeholder input. And we 
encouraged and actually solicited separate outside peer reviews 
of both the EFH analysis and designation as well as HAPCs.
    So I think it is very important to have widespread and 
early opportunity for stakeholder input, and I think at this 
point in time, I am not aware with respect to the existing EFH 
construct of any significant problem with respect to EFH 
consultations, that any Federal action that occurs within the 
EFH area is subject to, if a Federal action potentially could 
have an adverse effect on essential fish habitat.
    That process has gone fairly well. It has not required any 
delay in permitting processes. And it provides an opportunity 
for Federal agencies to consider our recommendations on how to 
mitigate any potential effects on essential fish habitat for 
fisheries that are federally managed in Federal waters.
    So, Mr. Chairman, I think the EFH process is going well 
right now. I think integrating the HAPC concept in the Magnuson 
Act as an option and to provide guidance on how to identify 
special areas of ecological importance or vulnerability is 
helpful.
    Mr. Gilchrest. So we should, as we reauthorize the Act, we 
should specifically mention habitat area of particular concern? 
That's something that's necessary in the Act and it can't be 
done through the regulatory process of NMFS.
    Ms. Salveson. Mr. Chairman, I think it can be done through 
the regulatory process because the North Pacific Council has 
done that. I believe that the Administration may be considering 
proposals to the Magnuson Act that might highlight that as an 
option.
    Mr. Gilchrest. I see.
    Ms. Salveson. To other councils.
    Mr. Gilchrest. OK.
    Ms. Salveson. But at this point in time, Mr. Chairman, the 
North Pacific Council has done that and we have implemented 
those sorts of provisions so far.
    Mr. Gilchrest. All right. Thank you. I don't know if Joe 
wanted to comment on that question or not, essential fish 
habitat.
    (Mr. Sullivan declines comment).
    Mr. Gilchrest. Another question too, I think all of you 
have mentioned this whole concept of ecosystem approach to 
fisheries and how difficult and how layered the complexity is 
and that sounds like much of what you are doing is moving in 
that direction. But, Ms. Salveson, you mentioned a pilot 
project possibly in the Aleutian Islands for an ecosystem 
approach. And also included in that ecosystem approach in the 
Aleutians, marine transportation, oil and gas development, and 
so on. Could you tell us where that pilot project is right now. 
Is it likely to move ahead? And do you need any help from us on 
that?
    Ms. Salveson. Mr. Chairman, I would like to defer to Ms. 
Madsen given that she is the chairman of that group who's 
actually developing that concept.
    Mr. Gilchrest. Ms. Madsen.
    Ms. Madsen. Mr. Chairman. And it is under development. I 
mean, I don't want to people to think that we've decided we're 
moving forward but--and I think we're adding new acronyms.
    Mr. Gilchrest. I'm just getting used to the old acronyms.
    Ms. Madsen. I know. The first one that you talked about, an 
ecosystem approach to fisheries management, and we call that 
EAF. And that's the concept that you've identified that was in 
our written comments that we're looking at. And that's relative 
to fishery ecosystem plans. That would be fishery-specific, and 
what does that mean, and how would we move forward. And we have 
chosen the Aleutian Island because it's a smaller, unique area 
to look at how would that fishery ecosystem plan work, what 
would it entail.
    We generally, Mr. Chairman, see the fishery ecosystem plan 
as a broad strategic guidance document that our fishery 
management plans would continue to stay under. The regulatory 
aspect would still stay in the FMPs, but the fishery ecosystem 
plan would be some goals and objectives that would require when 
you're doing your management actions to consider marine 
mammals, seabirds, a habitat. It's more of a strategic guidance 
document is the way that we have been looking at it in North 
Pacific.
    And we have generally gotten the impression from the Agency 
that they're interested in fishery ecosystem plans. We do know 
that in other councils, they talk about having fishery 
ecosystem plans, but it's a little unclear what we're all 
talking about when we talk about that.
    Your reference to marine transportation is what we now are 
calling EAM, ecosystem approach to management, which is broader 
than ecosystem approach to fisheries because we do believe 
that--and it goes to some of the recommendations on a regional 
ecosystem council concept. You know, is there a need for 
increased communication and coordination among authorities, 
agencies that have authority over the oceans?
    For example, we are looking at the Aleutian Islands again 
as a subset for kind of a model pilot project, but specifically 
in the Aleutian Islands, you have huge fisheries out there. We 
have great important critical habitats out there. We have an 
international shipping lane that goes through there. We have 
military activities out there. So we believe that--we have the 
marine refuge out there that the Department of Interior 
manages. Are we all talking? Are we coordinating? Do we 
understand what impacts our different agency actions have on 
one another. Could we do a better job at making sure that we're 
not duplicating, we're not causing concern or problems in 
overlapping authorities. But we're also very concerned and 
cautious about moving forward with a duplication or another 
layer of your bureaucracy, and how does that affect their goal.
    Mr. Gilchrest. Hence you would be, you have some interest 
if we put into the reauthorization some mention of an ecosystem 
approach, it would be--you're moving forward with an ecosystem 
approach, so you don't want any statutes that would disrupt 
that.
    Ms. Madsen. Well, Mr. Chairman, we are concerned about any 
statutory direction at this time because we are not actually 
positive about what everyone means. We believe that we are 
doing ecosystem approach to fisheries management in Alaska. We 
are concerned that until some of our science catches up with 
where we want to go, statutory requirements are going to hinder 
our ability to continue to move forward, potentially because if 
there is not accurate or correct statutory authority, we could 
find ourselves being litigated. If there are time lines in the 
Act that we are unable to comply with due to our science or our 
process, then I think we are concerned that we are setting 
ourselves up for another round of litigation. And as I 
mentioned in Ketchikan, we are finally seeing the light at the 
end of the tunnel in the North Pacific on some of our 
litigation and court cases here.
    Mr. Gilchrest. Thank you very much.
    Any other comment or point one would like to make?
    I had just one last quick question, something you said, Ms. 
Salveson, I didn't quite--let me see if I can--whole ecosystem 
models that assess fishing impacts on patterns of energy flow 
in the marine ecosystem. Could you just explain what that 
means.
    Ms. Salveson. Mr. Chairman, I'll try to give a brief 
overview, and then I can provide you more in-depth information 
after these hearings. But the attempt is to assess one 
component of ecosystem influence and that's the harvest of fish 
by the fisheries, and ideally other uses and harvests by other 
users as well. And what is the effect of that harvest on the 
flow of energy in an ecosystem in terms of predator-prey 
relationships, competition, fisheries for prey for other 
species, or discharge of fisheries products into the ocean.
    So it's an attempt to look at the human element of removing 
fisheries by species, species-specific harvests, from the 
ecosystem relative to other uses, that species by marine 
mammals, birds, and the overall food web perspective of the 
give and take within the ecosystem from that influence of 
removals by human beings. And I'm not being very articulate or 
scientific or----
    Mr. Gilchrest. Sounds fascinating. You're more articulate 
than I could have been.
    Ms. Salveson. But we can certainly get back to you with 
some more in-depth perspective on what we mean by the modeling 
initiative.
    Mr. Gilchrest. So that's in some--that would be one aspect 
of the potential pilot project in the Aleutians, I would guess.
    Ms. Salveson. Mr. Chairman, I believe so to the extent that 
we're able to feed into that. And again this pilot project in 
the Aleutian Islands is intended to be just that. What 
information is out there, what information can we garner, put 
into that process in a timely manner, what research, additional 
research, would be needed to make it a more complete 
information. And certainly a lot of stakeholder input as well 
in identifying the social, the economic issues.
    Mr. Gilchrest. Thank you very much.
    Yes, sir. Mayor Selby.
    Mr. Selby. Mr. Chairman, if I could just refer briefly back 
to your earlier question, a couple of the issues that you just 
touched on with some of your questions, I would point out once 
again that more research would help with both essential fish 
habitat and this pilot program. So I wanted to point that out.
    But the other thing I would encourage you folks to do in 
the reauthorization is I don't think you need to get a lot more 
specific on some of these areas that you've asked about, but I 
think if you would encourage cooperative effort both for 
research as well as some of these management things where Ms. 
Madsen indicated there was overlapping jurisdictions and 
whatnot, because one of the things that we've learned over the 
years is that originally that word never showed up and so there 
was a question about whether legally a National Marine 
Fisheries Service person could work cooperatively with someone 
from the Department of Interior or with the State of Alaska.
    Now, we've moved past that, but I think that if the Act 
makes it clear that that's not only encouraged but kind of 
expected that folks will make those sorts of efforts, that that 
would help move us ahead here so that the cooperation continues 
to grow and mature because it is happening and I'm really 
pleased to report that I see a lot more of it now than I did 20 
years ago, but I think it can get much better. And so if you 
folks would just encourage that, I think that would go a long 
way toward helping get this thing moving ahead.
    Mr. Gilchrest. Excellent point, Mayor Selby, and we'll make 
that one of our priorities. The question about more research 
and more funding for science is one that we've taken very 
seriously in Washington. We all know that the budget is very 
tight up there, and we don't want to keep using that as an 
excuse because we really need to prioritize how to spend the 
taxpayers' dollars.
    We will be creating, we hope that this can move in that 
direction, within the next few weeks, a task force within the 
House of Representatives whose sole responsibility will be 
ocean issues. And as part of that, we'll look into Ocean 
Commission Report and the President's Ocean Action Plan, and 
within about a year make specific recommendations that are now 
in the Ocean Commission Report and the Ocean Action Plan by the 
President.
    But the Administration and certainly the House and the 
Senate is looking I think much better in the last year or two 
at the importance of the world's oceans. And that the only way 
the U.S. Will come up with a premier policy is to take a close 
look at it and certainly make much more money available for 
research.
    Well, thank you very much, Ms. Madsen, Ms. Salveson, Mayor 
Selby, Mayor Floyd, and our friend Joe, for your testimony.
    Ms. Madsen. Thank you.
    Mr. Gilchrest. Thank you very much.
    Our second panel will be Mr. Dave Benton, Executive 
Director Marine Conservation Alliance; Ms. Julie Bonney, 
Director, Alaska Groundfish Data Bank; Mr. Jay Stinson, Alaska 
Draggers Association; Mr. Duncan Fields, Gulf of Alaska Coastal 
Communities Coalition; and, Ms. Dorothy Childers, Alaska Marine 
Conservation Council.
    (Off record).
    (On record).
    Mr. Gilchrest. We will hear from Mr. Dave Benton, Ms. Julie 
Bonney, Mr. Jay Stinson, Mr. Duncan Fields, and Ms. Dorothy 
Childers. Thank you for coming and we look forward to your 
testimony, and we also want to thank you for the effort that 
I'm sure you went through to write your testimony.
    Mr. Benton, you may begin, sir.

        STATEMENT OF DAVID BENTON, EXECUTIVE DIRECTOR, 
                  MARINE CONSERVATION ALLIANCE

    Mr. Benton. Thank you, Mr. Chairman. For the record, my 
name is David Benton. I'm the executive director of the Marine 
Conservation Alliance. The Marine Conservation Alliance is a 
coalition of harvesters, processors, coastal communities, and 
support industry companies involved in the groundfish and 
shellfish fisheries off of Alaska. Collectively, we probably 
represent about 80 percent of the production from those 
fisheries off of Alaska.
    Mr. Chairman, I want to pick up on some themes that I heard 
from your opening remarks and the questions you were asking the 
previous panel in my oral comments. You have our written 
comments that can go into the record.
    First, I want to touch on just briefly as others have, and 
I think you have become aware of by coming up here, about the 
importance of fisheries to Alaska. Fisheries account for about 
35,000 jobs in our state. Groundfish alone is worth about $1.5 
billion in 2003, and overall fisheries are worth about $4 
billion to the national economy from Alaska, fisheries from 
Alaska.
    Mr. Chairman, in your opening remarks, I heard some very 
encouraging words and something that Alaskans I believe find 
perhaps reassuring and certainly very important. And that is 
that you in your opening remarks stated that you thought that 
the councils generally were doing pretty well and were poised 
to evolve and do even better as we move into the next century 
and look at new ways to manage our fisheries and our ocean 
resources to meet new challenges. And that was very 
encouraging.
    And I know that you come from the East Coast and have had 
the opportunity to learn about some of the challenges that are 
facing other parts of the country, and that's why it's 
important to us that you've come to Alaska. It's a long way. 
It's not an easy trip. And I know you and other members on this 
committee have a lot to do, and the thoughtfulness of taking 
the time to come to Alaska is greatly appreciated by the 
residents of Kodiak and by folks throughout the state.
    The second thing I want to touch on briefly is ecosystems. 
And I know that you were personally very interested in how 
ecosystem considerations can be further taken into 
consideration in fisheries management. And then I'd like to 
touch on research funding and the role of science in 
management.
    So I'm going to start off, Mr. Chairman, with the councils. 
As you've heard here from the previous panel and I think as 
you've heard from conversations around Kodiak here and in 
Ketchikan, the council process in Alaska has in our view been 
very successful. And it is a fundamental component to fisheries 
management for Alaska that we have decisionmaking close to 
home, where people that are affected by those decisions have 
the opportunity to be present to affect those decisions and to 
see how those decisions are made. And as you know there've been 
in the past calls for either dismantling the council process 
all together or greatly diluting its ability to do that job. So 
it's very encouraging to hear the remarks that you made in your 
opening statement.
    The Council here in our state is very diverse in its 
composition and very unified in its approach. That doesn't mean 
that everybody agrees on every particular issue. And there are 
some real knock-down, drag-outs, especially on allocation 
issues. But the overall approach that our council has had has 
been very consistent for a long period of time, and that's the 
reason you don't see any overfished groundfish stocks in 
Alaska. And that is a very simple, fundamental thing. You have 
scientists that tell you how many fish you can catch on a 
sustainable basis for a long period of time to have sustainable 
fisheries and healthy coastal communities. And the Council just 
doesn't vote to raise the catch levels above that amount that's 
recommended by our scientists.
    Our organization believes that that simple change, simple 
in concept, simple in wording, and fundamental as a principle. 
If that simple change was made in the Magnuson Act, that the 
kinds of problems that you see in other parts of the country 
would be, if not solved, certainly addressed in a very 
substantial way.
    You and I had a chance to talk yesterday a bit about the 
role of science in management. And the way that it's done in 
this region is that the science process, if you envision a 
pyramid with the fundamental sort of foundation of that science 
process being the stock assessment that's done out in the 
field, the plan team process where the scientists get together 
amongst themselves and review that, analyze it in an open 
public arena. And then an SSC that advise--meets with the 
council concurrently and advises that council in again a very 
open process. That gives confidence in the science with folks 
that participate in the fisheries. And that breeds a culture 
that then allows for conservation to come first and allows our 
council to do the job that they've done so very well over the 
last 25 some odd years.
    Mr. Chairman, I see that red light. I'm going to forego the 
rest of my comments and----
    Mr. Gilchrest. I'll give you another 60 seconds, Mr. 
Benton.
    Mr. Benton. Oh, OK. Having chaired meetings, I understand 
that time is of the essence.
    Mr. Chairman, I want to touch just very briefly on 
ecosystem management and then perhaps research funding. 
Ecosystem management I know is something that is very near and 
dear to your heart and something you would like to see evolve 
in fisheries. And you heard previously about the actions that 
our North Pacific Council has taken and the pilot program that 
is in its very infancy in the Aleutian Islands.
    And I recall a bill, I believe that you authored a couple 
of years ago, that would have pilot programs on the West Coast 
and on the East Coast, and then some research planning and some 
dedicated funding for research to sort of move that process 
along. And I would I think like to point out that the North 
Pacific Council is doing what you had in that bill. It's doing 
it voluntarily. It's doing it with the existing tools in the 
Magnuson-Stevens Act. And it's feeling its way along so that as 
that program evolves, the right kinds of questions are being 
asked and the right kinds of scientific information is being 
developed. I would encourage you to look at that.
    I don't believe and our organization does not believe that 
you need to put standards in the Magnuson Act for ecosystem 
approaches to fisheries management at this time. We believe 
that a better way of handling this is to allow the councils and 
the council process to develop in an evolutionary manner how 
they're going to deal with ecosystem considerations.
    As Chair Madsen pointed out, the way that the North Pacific 
is looking at it, the ecosystem fisheries plan would be a 
guidance document. The actual implementation and regulations 
would still be developed through the FMP. Other councils may 
take a slightly different tact because of the way they have 
structured their fishery management planning process. But I 
think that what you're seeing is that throughout the council 
system around the country, that ecosystem planning is taking 
place and that, at least up here, it's being taken very 
seriously as tied closely with research planning that's done 
both through National Marine Fisheries Service and the Science 
Center and the North Pacific Research Board. Our council has 
input into both the research plan that the Science Center 
develops and has input into the North Pacific Research Board 
which has a dedicated source of funding for marine research. 
All of those components are very much in line with the kinds of 
things that you were talking about in that bill that you had a 
couple of years ago. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Benton.
    [The prepared statement of Mr. Benton follows:]

            Statement of David Benton, Executive Director, 
                      Marine Conservation Alliance

Introduction
    Thank you Mr. Chairman, for this opportunity to testify before you 
today with regards to the importance of fisheries to Alaska and to 
touch on some of the important fishery conservation issues facing 
Alaska and the nation.
    My name is David Benton. I am the Executive Director for the Marine 
Conservation Alliance. The MCA is a coalition consisting of seafood 
harvesters, processors, coastal communities, Community Development 
Quota organizations, and others interested in and dependent upon the 
groundfish and shellfish fisheries off Alaska. Taken together, the 
membership of the MCA represents about 80% of the harvesting and 
processing of groundfish and shellfish off Alaska.
    Alaska produces roughly half of the nation's commercial fisheries 
landings by volume. Fisheries account for about 35,000 jobs in Alaska, 
and are valued at over $1 billion dollars in value, hi 2003, the ex-
vessel value of groundfish alone was $608.4M with $127.1M from the Gulf 
of Alaska and $481.3M from the Bering Sea and Aleutian Islands. The 
gross value of the 2003 groundfish catch, after primary processing, was 
approximately $1.5B (F.O.B. Alaska). In addition to groundfish, halibut 
and shellfish generated $165.9M and $175.4M ex-vessel values 
respectively, hi 2003, 1037 vessels caught Alaska groundfish.
    Most importantly, the majority of our coastal communities are built 
around a fisheries based economy, and without a stable fishery resource 
base many of these communities would not exist. It is because of this 
dependence upon the sea and its resources that Alaskans work hard to 
ensure that conservation comes first, and that fishery resources are 
managed for their long term sustainability.
    The record speaks for itself. There are no overfished stocks of 
groundfish in Alaska. Fisheries are managed under hard caps and close 
when harvest limits are reached. Federal observers and Vessel 
Monitoring Systems (VMS) monitor the catch ensure compliance with 
closures. Over 380,000 square nautical miles are closed to bottom 
trawling to protect marine habitat. Ecosystem considerations are taken 
into account in fishery management plans. For example, fishing on 
forage fish species is prohibited. And, for the two Bering Sea crab 
stocks rated as ``overfished'' aggressive rebuilding plans have been in 
place for many years. Most scientists believe that these stocks are 
depressed because of oceanographic changes that happened in the late 
1970's, and that these stocks will not rebound until oceanographic 
conditions become more favorable for these species.
    It is this record that caused the U.S. Commission on Ocean Policy 
to cite Alaska as a potential model for the rest of the nation. MCA 
concurs with that view.
The Council Process works for conservation
    Alaska is remarkably fortunate, in that we have robust fish stocks 
and a long and successful record of producing healthy seafood on a 
long-term sustainable basis. For fisheries conducted in federal waters, 
this success story hinges on the regional fishery management council 
system embodied in the Magnuson Stevens Act (MSA). We believe that this 
system has all the characteristics that are required for developing and 
implementing science driven, conservation oriented management regimes 
while at the same time providing the public, affected user groups, 
communities, academics, scientists, and other interested parties with 
unprecedented access to the decision making process.
    The MCA strongly supports the regional council system because it 
recognizes the remarkable diversity of issues facing the different 
regions of the country, and because it provides the public access to a 
transparent and science-driven fishery management process. We support 
the broad inclusion of state and federal fishery managers as well as 
expert stakeholders as council members. The MCA supports the current 
MSA appointments process whereby each Governor consults with the 
public, ensures that each nominee is experienced and knowledgeable on 
the region's fisheries, and nominates at least three individuals. In 
order to ensure that top quality individuals continue to serve on the 
councils, the appointments should continue to be made by the Secretary 
of Commerce, not another official in the Department of Commerce.
    The MCA supports a requirement that each new council member receive 
training before taking a seat on the council. Such training should 
include instruction in meeting the requirements of the Magnuson Stevens 
Act, the regulatory process (e.g. NEPA, Regulatory Impact Review, etc), 
and the rules for recusal and financial disclosure. The MCA supports 
continuation of the current requirements to disclose all financial 
interests relating to fishing and for recusal from voting in instances 
as defined in regulations.
    Some argue that council members with any financial interests in a 
fishery be barred from sitting on a council or from voting on 
management decisions related to that fishery. Congress decided in 1976 
to take a new approach to a regulatory system--establishing a regional 
council system that meets close to where the fisheries occur, opening 
all meetings to public scrutiny, and inviting those with hands-on 
experience to be part of the process that seeks to protect the 
sustainability of the resources they depend on. In 1996, as part of the 
Sustainable Fisheries Act, Congress reaffirmed this approach while at 
the same time strengthening the MSA recusal provisions to be 
functionally equivalent to those applied in other federal advisory 
boards. These provisions, coupled with the advisory role of the 
councils whereby the Secretary makes the final decision is a robust 
system of checks and balances that successfully prevents misuse of 
authority by council members.
    The transparency of the MSA fisheries management process is unique 
in the federal government and ensures fair decision-making. It is a 
rare instance where the public has the level of access to the decision 
making process that is present in the regional fishery management 
council system. Council members sit through hundreds of hours of public 
testimony, receive voluminous reports and analyses, have the 
opportunity to receive scientific advice from experts through 
presentations, and in the end have to state their rationale for a 
decision on the record and vote. All of this takes place in the public 
eye. The complexity of fisheries management requires council members 
with deep knowledge and experience in a region's federal fisheries. 
Training can build a common knowledge base among council members to 
encourage understanding of the issues and efficient communication with 
each other and with the public.
    Arguments have been made to require appointment of council members 
from particular interest groups, rather than building councils with 
important fisheries expertise. Designating specific seats for 
particular interest groups will lead to continuing battles for 
representation of narrow interest groups such as recreational fishers, 
a longline seat, a trawl seat, a tangle net seat, etc. This would 
seriously undermine one of the strengths of the council system, 
inclusion of knowledgeable persons from a broad spectrum of interests. 
Although many current council members have interests in either 
commercial or recreational fisheries, the largest group of seats goes 
to professional fisheries managers from NMFS and the states. 
Supplementing their broad expertise with private citizens with specific 
expertise in the fisheries being managed is the best method for 
promoting rational fisheries management. In the North Pacific, this 
discretionary process has led to the appointment in recent years of a 
wide variety of members from diverse backgrounds.
Strengthening the Role of Science in Management
    The MCA strongly supports strengthening the institutional role of 
science in the regional council decision-making process. MCA believes 
that the policy of the North Pacific Fishery Management Council to set 
harvest levels at or below those recommended by their science advisors 
should be applied by all regions. In the case of the North Pacific, the 
Council does not set Total Allowable Catch for any species or stock 
offish higher than the Allowable Biological Catch set by the Council's 
Science and Statistical Committee (SSC).
    In addition, MCA strongly supports increased funding for science 
programs. The U.S. Commission on Ocean Policy Report makes a strong 
case for the doubling of funding for fisheries and oceans research. The 
MCA supports that recommendation.
    The North Pacific Fishery Management Council has consistently 
followed a policy of accepting SSC-recommended ABCs as a ceiling, 
setting annual TACs at or below those recommendations. The result is 
that no stocks of groundfish are overfished in the Bering Sea, Aleutian 
Islands, or Gulf of Alaska. That high degree of success is achieved 
within the existing Magnuson Stevens Act (MSA) structure and 
procedures. This policy can be replicated in all regions of the 
country.
    A similar position was endorsed recently by the Chairs of the eight 
regional fishery management councils. The Chairs document states: 
``Councils shall adopt acceptable biological catches (ABCs) within 
limits determined by their Scientific and Statistical Committees (SSCs) 
(or appropriate scientific body) and shall set total allowable catches 
(TACs) and or management measures, such that catch would be at or below 
ABC.''
    The MCA supports amending the MSA along the lines recommended by 
the Chairs to clarify that this policy applies to all regions of the 
country.
    MCA does not support proposals to split the science process and the 
SSCs from the Regional Fishery Management Councils. Such an arrangement 
would serve to politicize the scientific process, and further remove 
the science from the overall decisionmaking. MCA believes that it will 
be more effective to forge stronger ties through closer working 
relationships between the science advisors and the councils, instead of 
creating additional institutional barriers.
    The excellent conservation record in the North Pacific demonstrates 
the benefits of maintaining and strengthening this important 
partnership. The MSA currently provides that each Council appoints the 
members of its SSC, a process which should continue. The regional 
nature of the Council's work is key to a regulatory process that is 
transparent, available to all stakeholders, and that provides 
opportunities to participate and understand the scientific basis for 
decisions. A strong Council-SSC relationship is central to that 
process.
    The MCA supports additional regulation of the conflict of interest 
rules for SSC members and more detailed qualifications requirements. 
There should be no question of the objectivity of the SSC and no doubts 
about their work. Standards for SSC membership, including restrictions 
on conflict of interests (e.g., no current contracts on issues before 
the SSC), and academic qualification criteria should apply.
    The stock assessment process is the foundation of a successful 
science-based fishery management system. In the North Pacific, NMFS 
assembles top scientists for each Plan Team, with input and appointment 
by the SSC. The Plan Team assessment process is tied closely to the 
SSC-Council schedule for setting TACs, ensuring that the most recent 
scientific data is available and used. Plan Team meetings are open to 
the public and occur in the region.
    Increased peer review would ensure that the methods used for stock 
assessment in each region are up-to-date and can withstand tough 
scrutiny, providing confidence in the stakeholder community. Each 
Council and its SSC should cooperate in selecting methods, models, etc. 
for outside peer review and, in consultation with NMFS, select the 
reviewers. The MCA recommends that time-sensitive work, such as annual 
stock assessments, be reviewed either on a periodic basis or after 
implementation with the objective of improved methods for future work.
Building an Ecosystem-Based Approach to Fisheries Management
    Ecosystem-based management is an approach that seeks to balance the 
uncertainties of our knowledge regarding the workings of the marine 
environment with the better known science of single-species management. 
The goal on an ecosystem-based approach to management is to protect the 
long term sustainability of marine resources while providing a source 
of healthy food, jobs, economically viable communities, and recreation. 
The MCA supports ecosystem-based management as an important goal for 
the nation's federal fisheries management system. We agree with others, 
including the Chairs of the regional fisheries management councils, 
that the MSA currently allows for an ecosystem-based approach to 
fisheries management and that incorporating ecosystem considerations 
into management can be strengthened with increased research funding and 
enhanced collaborative efforts among fishing and non-fishing regulatory 
bodies.
    However, we are not in favor of establishing statutory requirements 
for ecosystem-based management in the Magnuson Stevens Act or other 
law. Our knowledge base regarding the structure and functions of marine 
ecosystems is in its infancy. Marine ecosystems are dynamic and driven 
by climate, biological abundance and human-induced factors. Climate and 
ocean currents and biological conditions such as plankton production 
and predator/ prey dynamics change from year to year. Human-induced 
factors such as pollution, coastal development, shipping traffic, 
recreational uses and fishing do also influence marine ecosystems. 
While the United States Commission on Ocean Policy (USCOP) recommended 
moving towards an ecosystem-based approach to management, the 
Commission also recognized that our knowledge of these forces and their 
interrelationships is limited. The Commission recommended moving 
towards an ecosystem-based approach to management in a careful and 
deliberate manner, using voluntary programs, and taking into account 
these uncertainties. The Commission did not support mandating an 
ecosystem-based management regime.
    The National Research Council (NRC) also recognized these limits. 
The challenge, according to the NRC, is to ``rebuild and sustain 
populations, species, and biological diversity, so as not to jeopardize 
a wide range of goods and services from marine ecosystems, while 
providing food, revenue and recreation for humans.'' The NRC proposed 
eight specific criteria to be used in development of an ecosystem-based 
approach to management.
    1.  Conservative harvest levels for single species fisheries.
    2.  Ecosystem considerations incorporated into fishery management 
decisions.
    3.  A precautionary approach to deal with uncertainty.
    4.  Reduced excess fishing capacity and assignment of fishing 
rights.
    5.  Marine protected areas as a buffer for uncertainty.
    6.  Inclusion of bycatch mortality in catch accounting.
    7.  Institutionalization of scientific advice and stakeholder 
participation in a transparent decision-making process.
    8.  Research on the structure and function of marine ecosystems.
    In the North Pacific, the Fishery Management Council's 
precautionary approach to fisheries management incorporates measures 
consistent with these eight recommended guidelines. Extensive habitat 
protection, prohibition of fishing on forage fish, controls on bycatch, 
protections for seabirds and marine mammals, strict catch accounting 
and hard caps on harvest levels are all part of the program. This 
strategy has sustained the nation's richest marine resources, producing 
more than half of all seafood harvested in U.S. waters. The record is 
25-plus years without a single groundfish species classified as 
overfished. This success has come about within the existing framework 
of the MSA.
    Some have proposed to empower the Secretary of Commerce, in 
consultation with the councils, to develop national guidelines to 
``standardize'' the criteria used to develop an ecosystem-based 
approach to fisheries management. MCA does not support statutory 
language charging the Secretary with development of national criteria 
for ecosystem-based management. In the past, such mandates, though 
appealing on the surface, have led to lengthy administrative processes 
and unnecessary litigation to interpret the intent of Congress with 
regards to such language. Instead, MCA believes that we must recognize 
that one-size may not fit all, and that national criteria are not 
appropriate. The other regions of the country, as part of the 
established council-driven process under MSA, should consider and adopt 
their own sets of management policies to balance the uncertainties of 
marine ecology with the better known science of single species 
management as they incorporate ecosystem considerations into regional 
fishery management plans.
    In order for any ecosystem-based approach to management to be 
successful, it has to be founded on solid scientific information. This 
fundamental principle was recognized by the USCOP in recommending 
significant increases in marine scientific research. Congress has also 
considered the need for better planning for marine research programs 
and increased funding to better understand the marine environment. MCA 
strongly supports development of comprehensive marine research plans 
that address important management needs, and increase funding for 
programs to implement such plans. MCA believes that a solid commitment 
to long term funding for expanded research focusing on the structure 
and function of marine ecosystems is paramount to the success of 
ecosystem-based approaches to management.
    Some proposals would establish ecosystem management councils, 
separate from the regional fishery management councils. While MCA 
supports coordination of fishing and non-fishing activities as they 
pertain to the marine ecosystem and as recommended by the USCOP, it 
does not support creation of a national ecosystem management authority 
or regional ecosystem management councils. Ecosystems are varied as are 
existing regional fishing and non-fishing activities. Creating another 
layer of management will create confusion, duplication, and be 
expensive. MCA supports a simpler approach through the creation of 
regional coordinating bodies that rely on existing regulatory 
authorities. MCA recommends that the regional fishery management 
councils play a pivotal role in establishment of these advisory bodies. 
The purpose of these regional ecosystem coordinating councils would be 
to exchange information and coordinate research and management efforts. 
But they would not have any overarching management authority. MCA 
believes this collaborative approach is consistent with the 
recommendations of the USCOP, and should encourage an evolutionary and 
scientifically sound ecosystem-based approach to marine resource 
management.
Reducing Excess Capacity and Using Dedicated Access Privileges to 
        Support Conservation
    The MCA is supportive of quota-based and/or cooperative rights-
based management systems, now being referred to as Designated Access 
Privileges (DAP). We support the availability of this important 
management tool to all regional management councils. Any such systems 
should be developed consistent with the National Standards and other 
provisions of the Magnuson Stevens Act.
    The MCA believes that continued movement toward the equitable 
rationalization of fisheries represents the best available strategy to 
accomplish the management goals and objectives set out in the Magnuson 
Stevens Act. Eliminating the ``race for fish'' through rationalization 
provides opportunities to improve safety, reduce bycatch, protect and 
enhance the economies of coastal communities, and results in delivery 
of higher quality products. Management systems that have been 
implemented in the North Pacific have achieved these results while 
reducing overcapitalization. This has allowed for better management of 
fishery impacts on important species and habitats by distributing 
fishing effort more evenly in time and space. This temporal and spatial 
management has benefits ranging from positive impacts on endangered 
species to the introduction of seafood product forms that are more 
responsive to markets demands.
    Authorization of these programs was recently endorsed by the Chairs 
of the eight regional fishery management councils. The MCA is 
supportive of the position adopted by the Chairs calling for 
authorization of quota-based and/or cooperative rights-based management 
systems.
    However, MCA has taken no position on who should be included in 
such programs, or on any criteria for such programs. In fact, MCA does 
not support the development of standardized national criteria or 
guidelines for DAP programs. Each Council should be afforded the 
opportunity to shape fishery rationalization programs to fit the unique 
characteristics of their respective regions and fisheries. Any such 
systems should be developed consistent with the MSA National Standards 
and other provisions of the Magnuson Stevens Act.
Conclusion
    MCA wishes to conclude by emphasizing that the regional council 
process currently established under the Magnuson Stevens Act plays a 
vital role in the health of our communities, our fisheries, and in the 
conservation of the rich marine resources off Alaska's shores. We urge 
you to carefully consider the successes we have had in Alaska when 
others ask you to change this system. Adding new statutory requirements 
or new layers of bureaucracy to this system would, in our view, 
undermine what is widely regarded as one of the worlds more successful 
management systems.
    Mr. Chairman, MCA again thanks you for taking the time to hold 
these hearings. We have included additional information on a number of 
other issues as attachments to this testimony.
    Enclosure:
    (1)  Positions of MCA, the Council Chairs and the State of Alaska 
regarding MSA reauthorization (July 8, 2005)
    (2)  Marine Research in the North Pacific http://
www.marineconservationalliance.org/issues/research.htm
    (3)  Sustainable Fisheries, Healthy Communities http://
www.marineconservationalliance.org/issues/sustainable.htm
                                 ______
                                 
    Mr. Gilchrest. Ms. Bonney.

        STATEMENT OF JULIE BONNEY, EXECUTIVE DIRECTOR, 
                  ALASKA GROUNDFISH DATA BANK

    Ms. Bonney. Good morning, Chairman Gilchrest, and I guess 
we'll also say hello to Congressman Young even though he isn't 
here right now.
    My name is Julie Bonney, and I represent the members of 
Alaska Groundfish Data Bank, both shore-based trawl catcher 
vessels and shore-based processors. My members participate in 
fisheries across the North Pacific. However, most are 
economically dependent on the Gulf of Alaska groundfish 
fisheries fishing out of Kodiak.
    Kodiak is a hub fishing community with harvesters of all 
gear types and vessel classes, plus a diverse and robust 
processing sector. Kodiak consistently ranks among America's 
top three seafood ports in ex-vessel value, and is a unique 
community to have a year-round processing labor force.
    Our strength is the diversity of the harvesters and 
processors and the health of the fisheries that surround our 
island home. Given the success of the North Pacific Management 
Council, the members of Alaska Groundfish Data Bank strongly 
support the regional management council process, authority, and 
structure.
    The Council is in the process of developing a comprehensive 
Gulf rationalization plan, which you've heard a lot about, for 
all groundfish. The formation of the plan has been highly 
participatory and transparent and has been in the council 
process for more than five years.
    The Gulf trawl and processing sectors have been working 
toward many of the challenges that will face them once the 
rationalization plan is implemented. Thanks to Federal grants, 
to the Alaska Fisheries Development Foundation, and NOAA 
cooperative research funds, the trawl fleet has been able to 
experiment with voluntary hot spot bycatch avoidance and gear 
modifications that will help reduce and avoid bycatch once the 
race for fish ends. So we hope that you will continue to fund 
both cooperative resource and AFDF.
    Additionally, the Kodiak trawl fleet and processors are 
involved in an experimental catch monitoring program with NMFS. 
This program showcases the cooperative relationship between the 
fishing industry and the management agency that highlights the 
North Pacific's willingness to be forward thinking to meet 
future fishery management needs. This summer's observer project 
has some video monitoring equipment and a change in the service 
delivery models where NMFS assigns observers to vessels and 
plants instead of industry contracting for their own observers.
    Since the Gulf fisheries are small, independent, family 
owned vessels with significantly less annual ex-vessel revenue, 
it is imperative to develop monitoring programs that are 
innovative and cost effective that meet monitoring needs. If 
these goals cannot be met, it means excessive fleet 
consolidation where smaller entities with lower daily 
production will be squeezed out of the fishery in favor of 
larger more capital intensive operations.
    For the fleet to embrace additional monitoring and move 
toward video monitoring, the MSA needs to provide better shield 
proprietary data from FOIA. Assurance that observer data will 
not be disclosed in an unaggregated form is essential if 
fishermen are going to embrace the kind of monitoring coverage 
that is necessary for responsible management. The 
confidentiality policy should apply whether the data is 
collected by human observers or technological means.
    Under the present observer plan, the fishing industry 
arranges for and pays for its vessels and processing plant 
observers. Observer requirements are determined by vessel 
length. In the Gulf, vessels less than 60 feet constitute 92 
percent of the groundfish fleet and harvest 58 percent of the 
total groundfish catch by value, yet are not required to carry 
or pay for observers. Vessels greater than 60 feet carry the 
entire financial burden paying for fishery catch data used to 
manage the Gulf groundfish fisheries. For this fleet, observer 
costs are much higher on a per-vessel basis due to lower 
revenues plus logistics of deploying observers to remote ports 
for short periods at a time.
    The Council is moving forward to address data quality 
concerns of the Gulf and also considering monitoring needs for 
future comprehensive Gulf rationalization. It is clear that an 
expanded observer program would be prohibitively expensive. 
Since the Federal government pays for observer programs in all 
other parts of the country, some level of Federal funding ought 
to be available for the Gulf.
    Several modifications are needed in the MSA so that the 
North Pacific Management Council can meet future challenges of 
catch monitoring. 1) Amend the MSA that defines North Pacific 
groundfish observers as professionals under the Fair Labor 
Standards Act. 2) Amend the MSA to provide for mechanisms to 
better shied proprietary data from FOIA. 3) Provide for 
supplemental Federal funding to pay for observers for those 
fleets that are similar to other fleets in the Nation that 
receive full Federal funding.
    The members of Alaska Groundfish Data Bank look forward to 
working closely with the members of the Subcommittee on 
Fisheries and Oceans as we approach reauthorization of the 
Magnuson-Stevens Act. Thank you for the opportunity to comment, 
and thank you for being in Kodiak.
    Mr. Gilchrest. Thank you, Ms. Bonney.
    [The prepared statement of Ms. Bonney follows:]

            Statement of Julie Bonney, Executive Director, 
                      Alaska Groundfish Data Bank

    Mr. Chairman and members of the House subcommittee on Fisheries and 
Oceans:
    My name is Julie Bonney and I represent the members of Alaska 
Groundfish Data Bank, both shorebased trawl catcher vessels and 
shorebased processors. My members participate in fisheries across the 
North Pacific however most are economically dependent on the Gulf of 
Alaska (GOA) groundfish fisheries fishing out of the port of Kodiak.
    The groundfish fishery in the North Pacific is one of the largest 
volume and revenue producing fisheries in the world. Alaska's economy 
relies heavily on its fisheries, and long-term fisheries sustainability 
is the key to Alaska fishery's economic future. Sustainable, productive 
fisheries translate into jobs for Alaskans, revenues for coastal 
communities, and a healthy statewide economy.
    Kodiak is a hub fishery community with harvesters of all gear types 
and vessel classes plus a diverse and robust processing sector. Kodiak 
consistently ranks among America's top three seafood ports in ex-vessel 
value. The seafood industry is the largest industry in Kodiak, 
providing over 2,800 annual average jobs and approximately 64 percent 
of Kodiak's basic economic employment. Kodiak is a unique community 
having a year round processing labor force instead of the more typical 
transient labor force. Our strength is the diversity of the harvesters 
and processors and the health of the fisheries that surround our island 
home.
    Given the success of the NPFMC's sustainable fisheries management, 
the members of Alaska Groundfish Data Bank strongly support the 
Regional Management Council process, authority and structure. We 
believe that the strengths of the NPFMC process are:
    <bullet>  The highly transparent and participatory public process
    <bullet>  Regional management authority that allows participants to 
design fishery management structures for their independent region
    <bullet>  A clear separation between science-based stock assessment 
and allocation
    <bullet>  A commitment by regulators never to set harvest levels 
above the Allowable Biological Catch (ABC) established by the SSC
    <bullet>  A gubernatorial appointments process for Council 
representation
    <bullet>  A maximum biomass extraction limit for the Bering Sea and 
GOA ecosystems that is never exceeded, leaving fish for other 
ecological processes
    The North Pacific Regional Management Council is progressive with 
forward thinking management processes, both in terms of conservation 
and allocation. Allowing the North Pacific to be progressive at the 
regional level yet address more general and global national standards 
is imperative to the North Pacific Council future success. The MSA 
should not be amended to create nebulous standards that will end us up 
in court.
    The North Pacific Fisheries Management Council has developed 
several rationalization plans that have shown the benefits of 
individual catch allocations. Our experience has shown that once the 
race for fish has ended it gives harvester the tools to deal with 
conservation mandates, reduces bycatch, increases vessels safety and 
increases fish retention levels. It changes the focus from catching the 
most amounts of fish in the shortest amount of time to capturing the 
most economic value for each fish caught. The North Pacific Fishery 
Management Council has developed several distinct rationalization 
plans: the one-pie IFQ Sablefish and Halibut plan, the Bering Sea 
Pollock America Fisheries Act, the 3-pie BS crab rationalization plan, 
and finally the CGOA rockfish rationalization plan. The Council has 
learned lessons from implementation of each dedicated access program. 
With each program additional stakeholders are incorporated within the 
initial allocation, with the goal of creating a healthy fishing 
industry as a whole. Most notably the Council understands that 
processors are stakeholders and must be included. Including processors 
accomplishes several goals:
    <bullet>  Compensation to processors for their capital investment 
in the fishery and awards processing privileges based on historical 
participation
    <bullet>  Prevention of excessive processor consolidation once the 
management structure is changed and fisheries are lengthened
    <bullet>  Creation of an appropriate balance for price leveraging 
that maintains rent sharing between harvesters and processors
    <bullet>  Prevention of redistribution of deliveries amongst 
processors--from primary processors to fish buyers with lower overhead 
and infrastructure costs that produce minimally processed products 
decreasing processing labor within the State of Alaska
    <bullet>  Incentives for processors, to reinvest in infrastructure, 
product innovation and processing labor since they have a stake in the 
new fishery structure
    <bullet>  Encourages fleet relationships with historical processors 
magnetizing harvesters to historically depend fishery communities
    With rights based fishery structures Councils should focus on 
sharing the rents of the fish resource appropriately between fishery 
dependent communities, processors and harvesters.
    The North Pacific Fishery Council is in the process of developing a 
comprehensive GOA rationalization plan. The formation of the plan has 
been highly participatory and transparent and has been in the Council 
process for more than five years. The GOA trawl sector has been working 
towards many of the challenges that will face the fleet once a 
rationalization plan is implemented. Thanks to federal grants to the 
Alaska Fisheries Development Foundation and NOAA cooperative research 
funds, the trawl fleet has been able to experiment with voluntary 
hotspot bycatch avoidance and gear modifications that will help reduce 
and avoid bycatch once the race for fish ends.
    Additionally, the Kodiak trawl fleet and processors are involved in 
an experimental catch monitoring program this summer with National 
Marine Fisheries Service (NMFS). This program showcases the 
progressiveness and cooperative relationship between the fishing 
industry and the management agency. It also highlights the North 
Pacific's willingness to be forward thinking to meet future fishery 
management needs.
    This summer's observer project tests video monitoring equipment and 
a change in the service deliver model where NMFS assigns observers to 
vessels and plants instead of industry contracting for their own 
observers. Since the GOA fisheries are small independent family owned 
vessels, with significantly less annual ex-vessel revenue, it is 
imperative to develop monitoring programs that are innovative and cost 
effective but meet monitoring needs, if these goals cannot be meet if 
means excessive fleet consolidation where smaller entities with lower 
daily production will be squeezed out of the fishery in favor of 
larger, more capital-intensive operations.
    For the fleet to embrace additional monitoring and move towards 
video monitoring, the MSA needs to provide a better shield of 
proprietary data from FOIA. The need for clarification that 
unaggregated observer data is confidential and exempt from disclosure 
was underscored earlier this year when the North Pacific fishing 
industry was forced to file suit to prevent the release of vessel by 
vessel catch and bycatch data in response to Oceana's FOIA request. 
Assurance that observer data will not be disclosed in an unaggregated 
form is essential if fishermen are going to embrace the kind of 
observer/monitoring coverage that is necessary for responsible 
management. The confidentiality policy should apply whether the data is 
collected by a human observer, video cameras or vessel monitoring 
systems. This was one of the recommendations of the Managing our 
Nation's fisheries conference II.
    Under the present observer plan authorized in 1990, the fishing 
industry arranges for and pays for its vessels and processing plant 
observers. Observer requirements are determined by vessel length where 
vessels less than 60' are not required to carry observers, vessels 
greater than 60' but less than 125' are required to carry observers 30 
percent of the time while vessels greater than 125' are required to 
carry observers 100 percent of the time. In the GOA vessels less than 
60' constitute 92% of the groundfish fleet and harvest 58% of the total 
groundfish catch by value. Because of the vessels size classes present 
in the GOA much less of the catch is observed, the low range of 
observed catch in the GOA is 3% compared to a high range of 86% in the 
BSAI (see enclosure 1--Observed catch in the BSAI and GOA). Since 
vessels decide when they take observers, coverage does not occur over 
the entire time frame of the fishery or in all locations of fishing. 
Finally, the 60' to 125' vessels carry virtually the entire financial 
burden paying for fishery catch data used to manage all the GOA 
groundfish fisheries. Observer costs are much higher on a per-vessel 
basis due to far lower revenues on a per-vessel basis plus the daily 
observer costs are often higher due to logistics of deploying observers 
to remote ports for short periods of time.
    The North Pacific Fishery Management Council is moving forward to 
address data quality concerns in the GOA and also considering 
monitoring needs for future comprehensive GOA rationalization. The 
recent analysis that was prepared in connection with the proposed 
overhaul of the North Pacific Fisheries Observer Program made it clear 
that the cost of an expanded observer program in the GOA would be 
prohibitively expensive for the small boat fleet that operates. Since 
the federal government pays for observer programs in other parts of the 
country, some level of federal funding ought to be available to help 
pay for expanded coverage in the GOA. Costs of an expanded observer 
program in the GOA could be as much as five or six million dollars a 
year (see enclosure 2--Proposal for Halibut and GOA Groundfish Observer 
Program Design). For comparison purposes, other observer programs in 
the U.S. that are fully federally funded are as follows: For the West 
Coast Observer Program that monitors groundfish vessels fishing off the 
coast of Washington, Oregon, and California the annual budget is $4 
million. The Northeast Observer Program, which provides coverage on 
vessels operating from Maine to North Carolina, has an annual budget of 
$12.2 million.
    The GOA fishing industry is equivalent to other areas of the 
national whose programs are fully federally funded and thus deserve 
federal funding as well. The fishing communities in the GOA such as 
Sitka, Yakutat, Cordova, Homer, Kodiak, Sand Point, King Cove, Chignik, 
and others have traditional roots in commercial fishing and most have 
had fleets of local commercial fishermen for over a century. These 
fishing towns are very similar to traditional fishing communities 
outside of Alaska such as Astoria and Newport, Oregon: Gloucester and 
New Bedford, Massachusetts: Reedsville, Virginia: Empire, Louisiana: 
and Pascagoula, Mississippi, in terms of the scale and composition of 
their fishing fleets and processing industries. Alaska's coastal 
fishing communities tend to be even more dependent on commercial 
fishing than these lower 48 communities due to their isolation and lack 
of alternative economic opportunities. As is the case outside of 
Alaska, the coastal fishing fleets in Alaska are almost exclusively 
family owned small businesses.
    Additionally, for the Council to move forward with restructuring 
the observer program and change the service delivery model, where the 
agency contracts for observers and deploys them as they chose, the 
determination that North Pacific Groundfish Observers are professionals 
under the Fair Labor Standards Act (FLSA) must be made. Incorporating 
accurate estimates of observer labor rates is important for 
restructuring alternatives for consideration by the Council. This 
cannot be achieved while the FLSA status of North Pacific Groundfish 
Observers remains uncertain.
    While working through the observer issue several modifications need 
to occur within the MSA so that the North Pacific Fisheries Management 
Council can continue to move forward to address observer program needs:
    (1)  Amend the MSA that defines North Pacific groundfish observers 
as professionals under the Fair Labor Standards Act. (Enclosure 3--Memo 
from NMFS/ASC to Dr. William Hogarth--Status of North Pacific 
Groundfish Observers under the Fair Labor Standards Act (FLSA)).
    (2)  Amend the MSA to provide for mechanisms to better shield 
proprietary data from FOIA.
    (3)  Provide for supplemental federal funding to pay for observers 
for those fleets that are similar to other fleets in the national that 
receive full federal funding. (Enclosure 4--Draft section for 
incorporation in the EA/RIR/IRFA to establish a new program for 
observer procurement and deployment in the North Pacific Groundfish 
Observer Program).
    The members of AGDB look forward to working closely with the 
members of the subcommittee of fisheries and oceans as we approach 
reauthorization of the Magnuson-Stevens Act. Thank you for the 
opportunity to comment.
                                 ______
                                 
    Mr. Gilchrest. Mr. Stinson.

             STATEMENT OF JAY STINSON, PRESIDENT, 
                  ALASKA DRAGGERS ASSOCIATION

    Mr. Stinson. Well, thank you, Mr. Chairman, for the 
invitation to testify today concerning the reauthorization of 
the Magnuson-Stevens Act, and welcome to Kodiak.
    Mr. Gilchrest. Thank you.
    Mr. Stinson. The weather is getting nicer by the minute 
here.
    I'm Jay Stinson, President of Alaska Draggers Association. 
I'm also the owner-operator of a 73-foot multi-purpose boat 
that is engaged in trawling, longlining, research. And I also 
own another tender vessel that's currently operating in Bristol 
Bay right now.
    ADA supports the testimony given by both Mr. David Benton 
and Ms. Julie Bonney. I think they expressed their perspectives 
quite saliently. The fishing community of Kodiak enjoys the 
benefit of many well managed and healthy fish stocks. For this 
success, we can thank the efforts of the North Pacific 
Fisheries Management Council, NOAA, National Marine Fisheries 
Services, the Alaska Board of Fish, the Alaska Department of 
Fish & Game, and certainly we can thank the efforts of this 
Subcommittee for their commitment to the living resources of 
this nation's marine ecosystems.
    The social and economic importance of Alaska fisheries 
cannot be overemphasized. The Alaska fisheries harvest would 
rank 12th in the world if Alaska were an independent country. 
Commercial fishing is the life blood of the coastal communities 
of Alaska. Tax revenues from fisheries resources fund schools, 
local government, and essential services for most of our 
coastal communities.
    Alaska's challenges and issues regarding fisheries 
management are different than those regarding most of the rest 
of the nation. Certainly, we need to maintain the current 
health, viability and sustainability of our marine resources. 
We also need to conserve habitat and nurture the economic 
vitality of our communities that rely on those resources. We 
need to develop and refine a better and more comprehensive 
understanding of the natural environment and ecological systems 
of the North Pacific. The North Pacific Fisheries Management 
Council process has proven to be a successful and instrumental 
tool to facilitate those objectives.
    One of the critical issues important to this region is 
ending the race for fish by creating equitable rights-based 
management systems for all of the federally managed fisheries 
in the North Pacific. This is going to be a very contentious 
statement, but I'm willing to defend that idea. Rights-based 
fisheries management allows harvesters and managers additional 
tools to meet increasing regulatory mandates.
    Non-rationalized fisheries in the Gulf of Alaska are being 
economically marginalized by entities with more efficient 
market structure combined with the cumulative effects of severe 
environmental regulation that constrains our abilities to 
operate. We've seen this under Steller sea lions, essential 
fish habitat, and other things. IFQs, co-ops, and other forms 
of rights-based management will encourage harvesters, 
processors, and fishing dependent coastal communities to invest 
in the long-term vision of sustainable fisheries in Alaska.
    While ecosystem-based management is a preferable 
methodology and mind-set for prudent fishery management 
policies, the concept is still in the early stages and large 
challenges need to be addressed before it can be a viable 
management system. As of yet, we do not have adequate data for 
refined methodologies to integrate the various disciplines and 
bodies of scientific knowledge into a single comprehensive 
management model.
    Regional oceanographic biological socioeconomic concerns 
need to be considered in developing a prudent, conservative, 
and sustainable approach to fisheries management. However, our 
current ability to use this as a discrete management tool is 
less than sufficient to meet legal and regulatory standards. 
Response to litigation is currently driving the management 
concept for many of the fisheries in the North Pacific. 
Management by litigation compromises credible science. The 
science needed to manage the resource that comes beholden to 
the legal process instead of the scientific and management 
priorities. Legal exposure over rights, biological and 
scientific process, this broad untested concept of ecosystem-
based management begs for legal challenge.
    ADA supports the development of a credible and cost-
effective national fisheries observer program. Our current 
Federal fisheries observer program in the North Pacific, while 
viewed by some as a success in collecting data, is certainly 
less than equitable in practice.
    Observer information requirements based on management 
concerns, fleet logistics, biological considerations and data 
collection protocols need to be considered on a regional basis. 
An observer program should not be designed as an unfair tax to 
disproportionately impact certain segments of the industry, nor 
should it be unduly burdensome to certain harvesters or 
processors.
    One piece of information I picked up yesterday is that we 
have approximately 36,000 man days of observer coverage in the 
North Pacific that's paid for by the fishing industry. That 
equates to probably close to $13 million that this industry is 
financing our own observer data collection with. Compared to 
the East Coast, the Pacific Coast, for me that's a large 
inequitability. We need good observer data. We need good 
science. We need good management. We also need equitability. 
Thank you.
    Mr. Gilchrest. Thank you, Mr. Stinson.
    [The prepared statement of Mr. Stinson follows:]

                Statement of Jay E. Stinson, President, 
                      Alaska Draggers Association

    Thank you, Mr. Chairman and members of the Subcommittee, for the 
invitation to testify today on the Reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act.
    I am Jay Stinson, President of Alaska Draggers Association (ADA), a 
trade association representing vessel owners, captains and crew members 
of the Central Gulf of Alaska shore based trawl industry. Last year's 
membership included 32 of the approximately 40 vessels that make up 
this regional fleet.
    Because of the Magnuson-Stevens Act and the management policies 
developed by the North Pacific Fisheries Management Council and the 
Alaska Board of Fish, Kodiak enjoys the benefit of many well managed 
and healthy fisheries. Our fish stocks are conservatively managed and 
allowing for normal environmental fluctuations and cyclic population 
dynamics are some of the healthiest and most viable native fish stocks 
in the world. Of the 63 species of Groundfish managed under federal 
Fisheries Management Plans in Alaska, none are listed as over fished 
and none of their populations are threatened. Only three species of 
crab have been listed as ``overfished'' although most scientists 
attribute unfavorable environmental conditions as the likely cause of 
low stock levels for crab species in the Bering Sea and Gulf of Alaska. 
Our state managed salmon stocks are regarded as the most viable and 
healthy natural populations in the world.
    According to the 2004 Coast Pilot, Alaska has an ocean coastline of 
5,770 nautical miles, slightly less than the combined total of the 
other 49 states. The surprising figure though, is the 29,500 miles of 
tidal shoreline that surround the state. Paradoxically, Alaska's 
resident population of less than 600,000 is approximately only 2 tenths 
of one percent of the total U.S. population. More than one half of 
Alaska's population lives in the greater Anchorage area.
    The social and economic importance of fisheries to Alaska cannot be 
over-emphasized. The commercial fishing industry is the largest private 
employment sector in the state with an ex-vessel value in excess of one 
billion dollars. Alaska fisheries harvest would rank 12th in the world 
if Alaska were an independent country. Commercial fishing is the life-
blood of the coastal communities of Alaska. Tax revenues from fisheries 
resources fund schools, local government and essential services for 
most of our coastal communities.
    Alaska's challenges and issues regarding fisheries management are 
different than those regarding much of the rest of the nation. Urban 
sprawl, pollution and contaminants, habitat degradation, depleted and 
overfished of stocks, and just plain too many people impacting marine 
habitat is epidemic in many coastal regions of the United States. Those 
issues are not as immediately critical to Alaska. What is important for 
this region is ending the race for fish by creating equitable right-
based management systems for North Pacific fisheries that have not been 
rationalized, maintaining the current health, viability and 
sustainability of our marine resources, conserving habitat and 
nurturing the economic vitality of our communities that rely on those 
resources. We need to develop and refine a better and more 
comprehensive understanding of the natural environmental and ecological 
systems of the North Pacific. Policy that allows access to the 
resource, maintains social, economic and cultural stability is vital to 
the people that have historically relied on the bounty of Alaska's 
marine environment.
Ecosystem Based Management:
    Over the course of the last four years, my vessel has been under 
contract with the University of Alaska School of Fisheries and Ocean 
Science. Working under the direction of Dr. Robert Foy, we have logged 
over 6,000 miles of hydroacoustic transects around Kodiak Island. Using 
hydroacoustic equipment, plankton nets, tucker trawls, a midwater 
trawl, surface temperature and salinity recorders, and CTD recorders, 
we assessed a significant portion of the near shore and inner bay 
habitat areas of Kodiak Island.
    This type of work is fundamental to the actual development of 
``ecosystem based'' management concepts. While everyone agrees that 
ecosystem-base management is a preferable methodology and mindset for 
fisheries management, the concept is still in the early stages and 
large challenges need to be addressed before it can be a viable 
management system. As of yet, we do not have the data or methodologies 
to integrate physical oceanography, meteorology, habitat concerns, 
energetics, trophic efficiencies, relative survivalship of competing 
species, essential fish habitat, life history bottlenecks, and, socio-
economic management concerns into a single comprehensive management 
model. The complexity and breadth of these ecological relationships is 
overwhelming. The range of variables is daunting. While all of these 
concerns need to be considered in a prudent, conservative and 
sustainable approach to fisheries management, our current ability to 
use this as a discrete management tool is less than sufficient to meet 
legal and regulatory standards.
    Whether we choose to promote a ``bottom-up'', ``top-down'' or a 
``middle-out'' approach to multi-species or ecosystem based management 
plans, the information base and associated expertise will need to be 
increased substantially. In addition to the provision of funding for 
and carrying out basic data collection for ecosystem-based management, 
inter-disciplinary and inter-agency research collaboration will be 
required. These are needed to effectively integrate fisheries 
management, oceanography, fisheries ecology, marine habitat, 
meteorology, environmental toxicology, as well as initiating long term 
regional monitoring plans. Significant increases in funding and program 
development would need to occur far in advance of any policy 
implementation. And all of this process would beg for legal assault 
from the environmental industry--a major vulnerability if requirements 
for ecosystem-based management are added to the Act ahead of the basic 
data collection and development of scientific methodologies.
    ADA does not support the creation of an independent ecosystem 
council. Regional councils are best suited to manage fisheries concerns 
unique to the ecological conditions in their respective areas.
Management by Litigation:
    Response to litigation is currently one of the predominant 
management concepts in use today to manage the fisheries off the coast 
of Alaska. The Environmental Industry's legal challenges under the 
Endangered Species Act, National Environmental Policies Act and 
Essential Fish Habitat are creating an extremely unstable regulatory 
and fiscal environment for harvesters, processors and Alaska's fishing 
dependent coastal communities. ADA is concerned that if a legal and 
philosophical paradigm shift mandates ``ecosystem based'' management 
approaches without sufficient data and scientific foundation that a 
whole new round of legal challenges will arise from the law offices of 
the environment industry.
    Management by litigation is detrimental to both the resource and 
communities that depend on those resources for several reasons. First, 
the science needed to manage the resource becomes beholden to the legal 
process instead of the scientific and management priorities. The 
process of legal discovery replaces open, transparent, peer reviewed 
research. Defensive or strategic research is pursued with a 
predetermined conclusion in mind. Legal exposure overrides biological 
process. Under current legal and regulatory process, the burden of 
proof lies with the stakeholders; not the litigants or the agencies. 
Closed litigious negotiations also disenfranchise the communities and 
stakeholders from the policy decision process.
    One of the examples of this process lies in the enforcement of the 
Endangered Species Act inconsistent with the principles and national 
standards of the Magnuson-Stevens Act. Following the finding of 
jeopardy contained in the Nov 2000 Biological Opinion on Steller Sea 
Lions, the Office of Protected Resources, based on speculation and 
indirect correlations, instituted new fishery management measures that 
increased bycatch, disenfranchised certain sectors of the historic 
fishing community, disregarded concerns for human safety, while 
creating direct economic cost to affected communities, industry, and 
taxpayers that to date have exceeded several hundreds of millions of 
dollars with no discernible impact on any observed recovery of the 
Western Stock of Stellar Sea Lions.
    EFH: The Sustainable Fisheries Act mandate for protecting fish 
habitat to the extent practicable and particularly NMFS' guidelines for 
protecting essential fish habitat also spawned vulnerability for those 
dependent on fishing for the livelihoods. One problem was the all 
inclusive definition of ``essential'' fish habitat built into NMFS 
implementation guidelines. Resource-based industries cannot reasonably 
be held to the standard of having no detectable effect on the 
environment. Yet that is how many NGOs sought to interpret the EFH 
mandate- i.e. to minimize the effects of fishing wherever those effects 
were discernable and with no regard as to whether a measurable effect 
truly affected the long-term productivity of the habitat for the fish 
resources of Alaska upon which the nation depends. In addition to the 
rancor between resource users and advocates of protectionism created by 
the open-ended EFH guidelines created, in many ways the lack of clearly 
definable scientific goals and once again allowed litigation to 
paralyze the management system. This probably added at least two years 
to the North Pacific Council's consideration of reasonable and 
practicable protections for deep-water corals in the Aleutian Islands.
    The success of the federally managed fisheries in the North Pacific 
is directly linked to the high regard and confidence that the 
harvesting and processing sectors have for the science based process of 
the North Pacific Fisheries Management Council. Open and transparent 
dialogue between scientists, industry and the management council is the 
foundation of successful management. Litigation has, at times, 
compromised that process.
    ADA supports a precautionary and prudent approach in crafting 
amendments to the Magnuson-Stevens Act; anything less will likely lead 
to another round of legal challenges from outside interests.
Rationalization and Rights Based Fisheries Management:
    For fisheries to remain viable and sustainable in the Gulf of 
Alaska, they need to be attractive to long-term investment. The Bering 
Sea AFA co-ops and the Halibut/Sablefish IFQ program have been very 
successful in creating a stable market based business and regulatory 
environment. Both management programs have reduced waste, increased the 
value of the resource, ended the ``race for fish'' and created safer 
working conditions for the harvesters. It appears that the Bering Sea 
Crab rationalization plan will produce comparable results.
    Federal fisheries management has undergone substantial evolution 
over the course of the last decade in much of North Pacific. However, 
the federal fisheries in the Gulf of Alaska are still transitioning. 
Traditional management tools have not been able to address issues of 
over-capitalization, by-catch reduction or community stability. The 
general objective of fisheries management is to conserve marine 
resources and maximize sustainable benefits to the nation. While quota 
based management systems may effectively limit fisheries harvest, they 
promote a ``Race for Fish'' and encourage ``over capitalization''. This 
situation is becoming increasingly problematic in the Gulf of Alaska 
where several of our groundfish fisheries are now measured in hours or 
days.
    With rationalization comes responsibility. Alaska Draggers 
Association is looking forward to the opportunity to assist in creating 
constructive tools that will better allow harvesters and managers the 
ability to effectively deal with:
    <bullet>  Minimizing discards and bycatch
    <bullet>  Understanding the true impacts of fishing practices on 
benthic habitat
    <bullet>  The identification of mitigation strategies to ameliorate 
fishing impacts
    <bullet>  Minimizing disproportionate impacts of Protected Species 
Management
    <bullet>  Improving safety at sea
    <bullet>  Ensuring the socio-economic and cultural stability of 
coastal communities
    <bullet>  Developing cost effective harvest auditing methodologies
    <bullet>  Assisting agencies with fisheries research and reliable 
data collection
    ADA supports rights based fisheries management utilizing such 
concepts as Dedicated Access Privileges (DAPs) or Individual Fishing 
Quotas (IFQs) that would allow industry and managers a broader suite of 
tools to reconcile these issues. Co-operative management structures add 
additional flexibility to manage bycatch and quota distribution while 
maintaining historic processing and community relationships
    DAPs should be a fisheries management tool suited to the particular 
needs of a specific fishery in a given region. Admittedly, Alaska may 
be somewhat unique in that we have already implemented several 
fisheries rationalization programs, including Halibut and Sablefish 
IFQ's, the American Fisheries Act, the Bering Sea Crab Rationalization 
Program. The Gulf of Alaska Rockfish Pilot Program and Gulf of Alaska 
comprehensive rationalization plan are working their way through the 
North Pacific Council Process. Each rights based management program has 
emphasized different management objectives. Each new program has 
evolved to meet new issues and complexities.
    The challenge in developing National Standards for Rights-Based 
fisheries lies in the fact that ``one size does not fit all''. Alaska 
is different geographically, culturally, and ecologically from New 
England, the Mid-Atlantic, or the Western Pacific. Management concerns 
and industry needs for the Central and Western Gulf of Alaska are 
different than those of the Bering Sea or South-East Alaska. We need 
regional programs that best fit local needs. Regional councils 
operating as a component of the Magnuson-Stevens Act are best suited to 
develop and tailor these programs.
    ADA does not support the requirement of a referendum vote by all 
licensed harvesters with-in a region to validate a rationalization 
program. Allocative arguments between individual harvesters of various 
gear sectors have the potential slowing efforts for improving the 
management process of the North Pacific.
Creation of a National Fisheries Observer Program:
    Alaska has a functional and in most regards successful fisheries 
observer program. This program monitors most segments of our federally 
managed fisheries for directed harvest and bycatch rates. Observers 
also monitor compliance with fisheries regulations, gear types, fishing 
areas, and well as Marine Pollution regulations and vessel safety 
requirements. There are currently several gaps in the Alaska observer 
program's ability to gather reliable data and to provide consistent 
coverage of all the harvesters. Our observer program is funded on a 
pay-as-you-go basis by the vessels and plants that are required to 
carry observer coverage. Vessels less than 60 feet are not required to 
have observer coverage. Vessels greater than 60 feet and less than 125 
feet in length are required to maintain a minimum of 30% coverage. 
Vessels over 125 ft are required to maintain 100% coverage, and at 
times 200% coverage.
    This situation is both inequitable and ineffective in design. 
Vessels less than 60 feet get a free ride. And other vessels that can 
pack 500,000 pounds of product pay the same as vessels that can only 
carry one-quarter of that amount. While some vessels incur observer 
costs of less than one half of one percent of their gross fishing 
revenues, smaller vessels that are just over the 60 foot criterion may 
have observer costs that exceed 10 percent of their revenues, while 
other vessels incur no cost at all. There is a significant lack of 
observer data from vessels less than 60 feet.
    ADA is currently joining with NMFS to test the effectiveness of an 
automated video monitoring program to audit the upcoming GOA rockfish 
fishery. As the industry moves toward a more rationalized approach to 
fisheries management, tools that allow harvesting co-operatives to 
monitor and self regulate harvest quota's and bycatch rates will be 
necessary to meet the regulatory mandates of the future.
    ADA supports developing an equitable and cost effective national 
fisheries auditing program. Management concerns, fleet logistics, and 
data collection requirements need to be considered on a regional basis. 
An observer program should not be designed as an unfair tax to 
disproportionately impact certain segments of the industry, nor should 
it be unduly burdensome on the harvesters or processors.
    Mr. Chairman, I'll end by summarizing five import points:
    <bullet>  Sustainable Fisheries are vital to Alaskan communities. 
Alaska's issues and needs are different than those in other areas of 
the nation. Access to well managed resources is paramount to the 
vitality of Alaska's coastal communities.
    <bullet>  Management by litigation does not encourage credible 
science. The level of science required for ESA is not consistent with 
traditional academic research which encourages transparency and peer 
review. Intra-agency consultation and review creates a bias 
perspective. Policy developed for ESA and the MMPA mandates are not 
consistent with the National standards of the Magnuson-Stevens Act.
    <bullet>  Ecosystem Based Management approaches is not sufficiently 
defined to effectively manage federal fisheries. Given our current 
information base and technological capabilities, comprehensive 
ecosystem based management structures would currently be too complex to 
be effectively implemented and administered.
    <bullet>  Rights Based Fisheries Management would allow harvester 
and managers additional tools to meet increasing regulatory mandates. 
Non-rationalized fisheries in the Gulf of Alaska are being economically 
marginalized by entities with a more efficient market structure 
combined with the cumulative effects of severe environmental regulation 
that constrains our ability to operate. IFQs, co-ops or other forms of 
rights based management will encourage harvesters, processors, and 
fishing dependant coastal communities to invest in the long term vision 
of sustainable fisheries in Alaska to the overall benefit of the 
nation.
    <bullet>  A national fishery observer program should be instituted, 
based on an equitable cost structure, regional needs and the 
information requirements of specific fisheries.
    Thank you for your consideration.
                                 ______
                                 
    Mr. Gilchrest. Mr. Fields.

 STATEMENT OF DUNCAN FIELDS, TECHNICAL ADVISOR TO THE GULF OF 
              ALASKA COASTAL COMMUNITIES COALITION

    Mr. Fields. Thank you, Mr. Chair. Thank you for coming to 
Kodiak. My name is Duncan Fields. I'm speaking today as a 
technical advisor to the Gulf of Alaska Coastal Communities 
Coalition. I have behind me Freddy Christiansen who is the 
chairman of our Board. In the audience are numerous community 
leaders here who are interested in these issues. I trust after 
the hearing, you'll have an opportunity to meet with some of 
those and talk further on the issues.
    Our coalition was established in 1998 because Gulf of 
Alaska coastal communities were becoming increasingly alarmed 
about loss of fishing opportunities and loss of access to 
marine resource in proximity to these communities. The 
coalition is working with approximately 42 communities across 
the Gulf of Alaska to provide some sort of dependable 
fisheries-based economic base to these communities. For many of 
these communities, fisheries is the only substantial economic 
opportunity they have. All of these communities are not 
connected by roads. They are isolated communities along the 
Gulf of Alaska.
    I've fished for the past 45 years on the West side of 
Kodiak Island between two communities, the communities of 
Larsen Bay and Karluk. These communities like many of your 
communities on the East Coast have long and significant fishing 
histories. Karluk is where the salmon fishery in Alaska got its 
start some 20 or 30 years ago. Nevertheless, today both 
communities are dying. This is true for communities across the 
Gulf of Alaska.
    Chignik, on the Alaska Peninsula for example, Seldovia in 
Cook Inlet, Chenega Bay in Prince William Sound, Yakutat in 
northern Southeast, Craig and Klawock in southern Southeast. 
All of these communities have lost fishing opportunities. 
Family fishing operations have gone out of business. Numerous 
fishing-related jobs have been lost, particularly crew jobs 
that provided infrastructure in these communities. Populations 
are declining. Basic community services have been lost. Schools 
are being closed. Many of these communities have had reliance 
on fisheries calculated in terms of centuries rather than 
generations, Mr. Chairman.
    It's the belief of the Coalition that the next Magnuson-
Stevens reauthorization will decide the fate of many Gulf of 
Alaska coastal communities. The initial Magnuson-Stevens 
Fishery Conservation and Management Act and the subsequent 
reauthorization address many significant fisheries issues. 
However, now is the time to look at the critical needs of 
fishery-dependent coastal communities.
    We had a wholesale fisheries economic crisis that's tearing 
apart smaller Gulf of Alaska communities. It's a well 
documented fact. For many years, it's been a major concern to 
the State of Alaska as well as the North Pacific Fisheries 
Management Council. In addition, Alaska's congressional 
delegation, including Congressman Young, have been concerned 
about and supportive of initiatives to keep these communities 
viable.
    In light of what's happening here in the Gulf of Alaska to 
these communities, Mr. Chairman, we would make the following 
recommendations in the reauthorization of the Magnuson-Stevens 
Act. Our first recommendation is the community protection 
provisions in the Magnuson-Stevens be strengthened. National 
Standard 8, that's a broad national policy of community 
protection, but this is generally speaking not sufficient to 
ensure that regional management councils apply significant 
community protections as part of the rationalization program.
    Our second recommendation, Mr. Chair, is that provisions 
for community quota share programs, CFQs, should be included as 
part of the Magnuson-Stevens reauthorization. You'll remember 
that the inclusion of these types of provisions were 
recommended both by the February 2004 General Accounting Office 
report to Congress as well as the National Research Council 
report to Congress in 1998. They're both called Sharing the 
Fish.
    Our third recommendation and closer to home, Mr. Chairman, 
Congress to provide for community fisheries quota program for 
smaller Gulf of Alaska communities. The essence of community 
protection is long-term access to and ownership of a modest 
portion of the resource.
    Finally, Mr. Chairman, we would recommend that you provide 
funding mechanisms for community quota share purchase programs. 
These would be our four recommendations.
    In conclusion, if the current trends continue, most smaller 
Gulf of Alaska communities will have few if any commercial 
fishermen in a few years. Some of these communities will no 
longer exist. Access to fisheries resources is critical for the 
economic survival of these communities. Significant steps must 
be taken immediately to provide these communities with fishing 
opportunities. These communities, Mr. Chairman, are seeking a 
hand up, not a hand out. This is not hyperbole.
    These communities are at an historical crossroads and 
therefore Congress is also at that crossroads. Help, which 
could occur through Magnuson reauthorization, would capture a 
unique opportunity to ensure that Gulf of Alaska fishing 
communities will not be relegated to the dust bin of history 
and will continue to be economically viable participants in 
both Alaska's economy and the economy of the nation.
    We're all on notice as to the precariousness of the 
situation. If you as a congressional decisionmaker could 
provide meaningful community protections, then you will 
preserve something here in Alaska that is absolutely unique and 
irreplaceable. We implore you to help save Alaska's smaller 
Gulf communities.
    Thank you for your consideration of my comments today. We 
are eager to work with you and members of the Alaska delegation 
as well as other affected parties to craft legislative language 
that is fair and equitable to help address some of challenges 
Alaska's small communities face. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Fields.
    [The prepared statement of Mr. Fields follows:]

  Statement of Duncan Fields, Technical Advisor to the Gulf of Alaska 
                 Coastal Communities Coalition (GOAC3)

    Mr. Chairman and Members of the Subcommittee.
    Thank you for your invitation to the Gulf of Alaska Coastal 
Communities Coalition to present views on reauthorization of the 
Magnuson-Stevens Act (MSA).
    My name is Duncan Fields and I am speaking today as a Technical 
Advisor to the Gulf of Alaska Coastal Communities Coalition (GOAC3), an 
organization formally established in 1999 to help ensure that GOA 
Coastal Communities have fishing opportunities that are essential to 
their viability today and long-term survival into the future.
    Thank you for holding this field hearing regarding fisheries 
management successes in Alaska and the reauthorization of MAS, an Act 
that affects the economies of the over 45 small coastal fishing 
communities within the Gulf of Alaska most of whom have representation 
within this coalition.
    The GOAC3 is dedicated to securing fishing opportunities within the 
traditionally fisheries-dependent communities of the Gulf of Alaska 
sufficiently adequate to help sustain them as viable coastal 
communities. This organization has sought to assist the member 
communities with a combination of private and federal funding to help 
fisheries dependent communities work with regulatory agencies to 
develop substantive ways to retain, and regain lost fishing effort and 
opportunity which will help these communities survive.
    By way of background, I am a long-time commercial fisherman in the 
Gulf of Alaska. I have fished for salmon for 45 years at our family's 
fish camp, about 80 miles from Kodiak between the fishing communities 
of Larsen Bay and Karluk. Over that time I have witnessed many changes. 
The most striking change is the decline of commercial fishermen living 
in these and other rural fishing communities of the Gulf of Alaska and 
the subsequent loss of their fisheries-based economies. A number of the 
Gulf coastal communities are clearly struggling to stay alive and not 
seeing an improvement in their struggle. While the GOAC3 certainly 
recognizes that there are many factors other than access to the 
fisheries involved in the increasingly hard times in these coastal 
communities, reduced access to fishing is the salient factor in their 
diminished capacity to remain viable.
    What has happened around the entire Gulf, from Sand Point to 
Chenega Bay and Yakutak to Craig is similar to what has occurred here 
on Kodiak Island. Family fishing, the number of jobs supported through 
crew and infrastructure, a way of life that was healthy and 
sustainable, is disappearing in favor of consolidation of boats, 
fishing effort and ownership that frequently does not favor fishing 
communities of the Gulf of Alaska.
    To help inform you about the impacts of the shift in fisheries on 
coastal communities and the importance of the inter-reliance of multi-
species fishing, we would like to offer the following background.
First Major Commercial Fishing in Alaska
    Many of the Communities refer to the ``historic period'' of their 
reliance on fishing in centuries, not decades or less. Their ancestors 
were there long before commercial fishing came into its own. The salmon 
industry was the first major commercial fishing in Alaska and in the 
late 1800's got its start in Klawock, Old Sitka and Karluk. At one time 
there were six processing plants operating on the Karluk spit from the 
resources of a single river. The processing plant in Larsen Bay was 
built in 1912 and still operates today. For decades, Karluk and Larsen 
Bay remained vibrant fishing towns by moving focus from one species to 
another depending on supply and markets. Salmon was a constant but when 
salmon runs were down, rural fishermen would switch to codfish or 
halibut or herring and, after World War II, crab.
Alaska Statehood--1959
    When Alaska became a state in 1959, it took control of its 
fisheries. The new state immediately banned the hated cannery-owned 
fish traps, along with other initiatives that helped to create greater 
economic benefit to area harvesters.
1973 Salmon Limited Entry Program
    The first rationalization program, instituted by the State of 
Alaska in 1973 for salmon, issued salmon permits with an intent to 
protect the small boat fleet as much as possible. Although the number 
of permits issued to Alaska coastal community fishermen was often less 
than the number of residents that had previously participated in the 
fisheries, these permits maintained the small boat fisheries based 
infrastructure. Most vessels from smaller communities were less than 58 
feet and many less than 32 feet.
    The shrimp fishery in the early 70's brought larger (trawl) vessels 
to Kodiak and the Gulf of Alaska. Most rural residents were not 
interested in trawling because of the large by-catch of crab and the 
adverse impact on the habitat of their fishing grounds. Consequently, 
few moved up to the larger vessels that became the mainstay of the 
emerging groundfish fisheries.
Implementation of MSA
    The 1976 implementation of the Magnuson Fisheries Conservation and 
Management Act coincided with the increase of pollock and codfish in 
the Gulf of Alaska. The opportunities to have American catcher boats 
joint venture with foreign processors went entirely to larger vessels, 
not the small boat fishermen from rural communities. Capital that 
accumulated from the joint ventures enabled participants to enlarge 
their vessels, expand their fisheries and, eventually, obtain all of 
the quota for American fishermen.
    Although this was a good thing for Alaska and for American 
fishermen, small boat fishermen from Alaska coastal communities were 
almost entirely excluded from the economic benefits of this 
capitalization and simply have not been able to catch up. They were not 
equipped by experience or history to compete in this capital intensive 
arena. To offset these types of systemic impediments to access to 
fisheries by coastal communities with respect to the Bering Sea 
fisheries, the Community Development Quota (CDQ) program was created 
for communities of that region with the 1991 reauthorization of the 
MSA, but no similar program was created at that time for small, rural 
communities of the Gulf of Alaska.
    Throughout the 1980's, small boat fishermen in the Gulf of Alaska 
survived on salmon and herring with some winter crab fishing. However, 
salmon prices and then herring markets began to decline in the 1990s. 
At the same time, the North Pacific Fisheries Management Council was in 
the process of rationalizing halibut and sablefish. Groundfish were 
being caught by a large trawl fleet in shorter and shorter seasons. 
Just when rural small boat fishermen would have switched to catching 
other marine resources, they were excluded from the fisheries.
Combination Fishing
    Combination fishing had been kept fishing families alive as market 
values and allowable catch fluctuated. With increased rationalization, 
the ability to adjust has been dramatically reduced. The inability of 
our community fishermen to sustain their ``combination fishing'' 
livelihoods is a direct result of fisheries regulatory changes.
    Fishermen understand that there will be a fluctuation in stocks 
based on the annual stock assessments or in-season management. 
Fishermen understand that markets will also rise and fall. What is 
difficult for fishermen, especially in small remote communities, is the 
increasing restrictions on who is allowed to fish and that a resource 
once readily available to them is now suddenly reduced to an 
expensive--and unaffordable--commodity. Small coastal community 
fishermen simply do not have the capital or access to capital to 
leverage the cost of buying into new rationalization systems.
Number of Small Boat Fishermen in Precipitous Decline
    The halibut and sablefish quota program created immense wealth for 
many initial recipients but in the past ten years, lacking any or 
sufficient initial issuance of halibut quota, and unable to sustain 
themselves on remaining fisheries, most small boat fishermen have been 
forced out of business.
    For example, in the Kodiak Management Area alone, active salmon 
purse seine fishermen have dropped from about 300 to less than 120 in 
the past ten years. This scenario has repeated itself around the Gulf 
over and over again. The community of Old Harbor went from 61 permits 
fished in 1995 to 17 fished in 2004. In that same time period, the 
community of Sand Point went from 226 permits fished to 148, the 
community of King Cove went from 142 to 68, the combined Chigniks from 
67 to 43, Seldovia from 67 to 38, Port Graham from 10 to 3, Ouzinkie 
from 35 to 13, Perryville from 142 to 65. In Southeast Alaska, Yakutat 
went from 194 permits fished in 1995 to 162 in 2004, Kake from 83 to 
33, Hoonah from 148 to 70, Craig from 300 to 204, Klawock from 54 to 
35, Hyderburg from 64 to 30, Pelican from 98 to 39, Angoon from 77 to 
7. The list goes on and on.
    While some of this shift was absorbed by increased fishing effort 
through consolidation, the majority of the fishing effort has migrated 
out of these communities. These numbers mean a huge loss to these 
communities in terms of dollars and infrastructure. In a ten-year 
period many of these communities have had their fishing effort reduced 
by as much as 90%.
    As IFQs came on the scene, many in the small communities no longer 
had access to halibut and sablefish which were needed to diversify the 
income producing capability in the communities. Adding to this 
situation was the previous collapse of the crab fishery--both Tanner 
Crab and King Crab- in the Gulf. This ``deadly combination'' of events 
was like the ``Perfect Storm'' for many villages and communities...it 
took away their ability to diversify.
Amendment #66 to the Halibut and Sablefish Fishery Management Plan
    At the encouragement of the GOAC3, the NPFMC researched and 
recognized the negative impacts of the halibut and sablefish 
rationalization program on smaller Gulf coastal communities and, in 
April 2002, passed Amendment #66 to the Halibut and Sablefish Fishery 
Management Plan creating the Community Quota Entity (CQE) program to 
allow smaller Gulf of Alaska coastal communities to purchase halibut 
and sablefish. Again, timing was not good. Quota shares that had sold 
for $10.00 per pound in 2002 when the CQE program was introduced at the 
Council sell for more than $20.00 per pound in 2005. Despite a 
subsequent State of Alaska statutory change that allows community quota 
groups to be eligible for low-interest State loans, unless a fisherman 
has a base of quota from initial issuance or from available capital 
when the price was much lower, prospective fishermen simply cannot 
afford to enter the fisheries, economically justify or pay debt service 
on quota that is this expensive. The CQE program is a good program but, 
it needs funding if it is to actually assist communities.
    The way to provide community fishing flexibility is through a 
combination of both purchase ability and initial issuance of quota 
share, or the equivalent.
    Amendment 66 for (CQE program) was designed to help provide the 
opportunity to get halibut and sablefish back into the communities. 
This is a purchase only program and requires funding. A community 
fishing quota combined with a purchase capability program, however, 
will provide the appropriate combination to help communities leverage 
their assets to keep fishing effort in their communities. With some 
basic infrastructure improvements, and access to fisheries, young 
people may once again be able to look forward to living in the small 
communities and making at least part of their livelihoods from 
commercial fishing.
Conference on Managing Fisheries/Empowering Communities
    In April of 2005, the North Pacific Council co-hosted with the 
National Marine Fisheries Service Restricted Access Management Division 
and the Alaska Department of Fish and Game a conference entitled 
``Managing Fisheries/Empowering Communities.'' The questions raised and 
the subsequent discussions at this conference only reinforce the sense 
of frustration and urgency that our coastal communities are feeling. 
The recommendations of that group include--
    (a)  Communities need to be able to hold and own fishing permits 
for fisheries in their respective areas;
    (b)  Residents do not want to be forever precluded from fishing 
resources near them simply because they did not happen to fish for that 
species during a short set of ``qualifying years'';
    (c)  Communities need reliable fishing employment to allow young 
people to remain. Currently, communities are ``training kids out of the 
fishery'' due to lack of opportunity;
    (d)  Participation in (community fishing quota allows a community 
to leverage its existing level of fisheries utilization;
    (e)  Instead of creating IFQs, make geographical CFQs that would 
tie residents to the resource;
    (f)  Make sure that a provision exists in all quota or other 
limitation systems to provide an opportunity for an entry level 
component;
    (g)  Strengthen National Standard #8.
    We strongly concur with these conclusions.
Recommendations
    To help address major impediments to the programs for fisheries and 
dependent small coastal communities, the GOAC3 recommends to the 
Subcommittee the following:
    (1)  That community protections provisions in the MSA be 
strengthened. National Standard 8 sets a broad national policy of 
community protections, but this is generally not sufficient to 
encourage the regional management Councils to apply significant 
community protections as part of a rationalization program. This means 
a community quota share program at a sufficient level, as recommended 
both by the February 2004 GAO (General Accounting Office--now 
Government Accountability Office) report to Congress on Individual 
Fishing Quotas: Methods for Community Protections and New Entry Require 
Periodic Evaluation'', <SUP>1</SUP> and the 1998 National Research 
Council report ``Sharing the Fish.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ ``Several methods are available for protecting the economic 
viability of fishing communities and facilitating new entry into IFQ 
fisheries. The easiest and most direct way to help protect communities 
under an IFQ program is to allow the communities themselves to hold 
quota--. fishery managers can give each community control over how to 
use the quota in ways that protect the community's economic viability, 
such as selling or leasing quota to fishermen who reside in the 
community.'' GAO Report # 04-277, February 2004, pages 2 and 12.
    \2\ ``Sharing the Fish: Toward a National Policy on Individual 
Fishing Quotas'', National Research Council, December 1998, 
recommendations to Congress and/or regional management councils 
regarding guidelines for IFQ programs, include (a) allow the public to 
capture some of the windfall gain sometimes generated from the initial 
allocation of quotas in new IFQ programs, (b) Councils should avoid 
some of the allocation controversies encountered in the past by giving 
more consideration to who should receive initial allocation, including 
crew members, skippers, communities and other stakeholders, (c) 
councils should avoid taking for granted the `gifting'' of quota shares 
to the present participants in a fishery, just as they should avoid 
taking for granted that vessel owners should be the only recipients of 
quota and historical participation should be the only measure for 
determining initial allocations, (d) when designing IFQ programs, 
councils should be allowed to allocate quota shares to communities or 
other groups, as distinct from vessel owners or fishermen.'' P.9
---------------------------------------------------------------------------
    (2)  Give the regional management councils sufficient options for 
them to make management decisions that are meaningful and beneficial to 
their respective communities;
    (3)  Create national standards for any Dedicated Access Privilege 
(DAP) program which include requirements for community protections;
    (4)  Congress should provide for a Community Fishing Quota program 
for Gulf of Alaska communities. The essence of community protection is 
long-term access to and control of the resource. Without dedicated 
quota shares in the rationalized fisheries, the communities and their 
economies are in serious jeopardy. (The GOAC3 will submit a proposal in 
the near future to deal with the acute and chronic impediments to 
community fisheries access that we have described);
    (5)  Institute methods for biannual reviews of rationalization 
programs on impacted coastal communities;
    (6)  Provide funding for community quota share purchase programs, 
such as Amendment 66;
    (7)  Strengthen the assessment of ``cumulative social impacts'' as 
discussed in the National Marine Fisheries Service Social Impact 
Assessment (SIA) Guidelines so that these impacts are actually factored 
into the decision-making process.
    The Gulf of Alaska Coastal Communities Coalition is supportive of 
the existing fisheries management system in general. However, the GOAC3 
strongly urges increased community protections and increased 
opportunities for stakeholder participation, through dedicated 
community seats on the Councils, increased community participation 
within subcommittees, or other means.
    On a related issue, the GOAC3 is on record opposing the permitting 
of finfish aquaculture within the EEZ. The Coalition does this based on 
research that strongly indicates that wherever there are near-shore or 
off-shore aquaculture programs, the local communities ultimately pay a 
heavy price rather than see a benefit. The dangers of aquaculture to 
viable wild finfish stocks are well known. This Coalition is not 
opposed, however, to shellfish aquaculture within State waters. It 
currently seems the benefit ratio, as long as it is not impacting wild 
stocks, is relatively good for shellfish.
Conclusion
    Thank you again for the opportunity to testify today on behalf of 
the fishermen, residents, and organizations that comprise the Gulf of 
Alaska Coastal Communities Coalition in trying to keep small Gulf of 
Alaska fishing communities alive. If current trends continue, it seems 
improbable that most of the small coastal communities of the Gulf of 
Alaska will have any commercial fishing in a few years. Unless real 
steps are taken soon, this period will be known as the death knell for 
many of these communities. Fishing is what has sustained them for 
countless centuries, their fishing families and their social, cultural 
and economic fabric. Fishing is what has kept these communities 
economically viable. They are seeking a hand up, not a hand out.
    This is not hyperbole...this is reality. These communities are at 
an historical crossroads...the Congress therefore is at such a 
crossroads. If the Congress does not provide strong guidance and 
assistance to fisheries-dependent communities through the MSA 
reauthorization, it will see further out-migration of fisheries 
opportunities and capital to residents and businesses of states other 
than Alaska.
    Importantly, if this occurs, Congress will have missed a unique 
opportunity to help ensure that rural communities in the Gulf of Alaska 
will not become relegated to the dustbin of history, and will be able 
to participate in Alaska's, as well as the Nation's, economy into the 
future. If a substantial portion of these communities do not survive 
because modest, common sense and equitable steps are not taken today, 
when all are on notice of the precariousness of the situation, then 
decision makers will have allowed this to happen. If that should occur, 
something absolutely unique and irreplaceable will have been 
squandered. Mr. Chairman and Members of the Subcommittee, we implore 
you not to allow this to happen.
    Thank you for your courtesy and consideration in affording the 
GOAC3 with this opportunity to present these views today. We are eager 
to work with you, members of the Alaska Delegation and other affected 
parties to craft legislative language that is fair and effective in 
addressing the issues we have raised with you today.
                                 ______
                                 
    Mr. Gilchrest. Ms. Childers.

      STATEMENT OF DOROTHY CHILDERS, EXECUTIVE DIRECTOR, 
               ALASKA MARINE CONSERVATION COUNCIL

    Ms. Childers. Thank you, Chair Gilchrest. My name is 
Dorothy Childers. I'm the executive director of the Alaska 
Marine Conservation Council. We are a community-based 
organization made up of fishermen, traditional subsistence 
harvesters, small business owners, biologists, and families 
throughout coastal communities in Alaska. Our mission is to 
protect the health and diversity of our marine ecosystem. And 
we do that by working to improve fisheries management to 
minimize bycatch, prevent overfishing, protect habitat, and 
promote community-based fishing opportunities, all existing 
objectives in the Magnuson-Stevens Act. We believe that 
enabling communities to have access to our fishery resources 
combined with strong conservation management preserves and 
promotes both healthy economies and the ecosystems that our 
fisheries depend on.
    First, I would like to concur with the accolades made by 
others that the North Pacific is the best managed fishery in 
the United States because the North Pacific Council has 
instituted certain positive practices. Some of these include, 
as has been said by others before me, the allowable catches set 
below the biological limit, sensitive areas have been protected 
from bottom trawling, seabird interactions have been reduced in 
longline fisheries, local fleet allocations. The Council 
allocated a portion of the Bering Sea cod fishery to local 
boats in the Aleutians Islands and this has enabled low impact 
local fisheries to take hold in an otherwise industrialized 
Bering Sea.
    Beneath these and other positive aspects of our fisheries, 
however, lies a more subtle critique which we believe is 
important to recognize and address if we are to be really true 
to the goal of long-term sustainable fisheries, healthy 
ecosystems, and vibrant communities. And there are a number of 
aspects of our management that need to be improved in the North 
Pacific, both to address conservation needs identifiable today 
as well as to prepare for problems that are likely to arise in 
the future. And these are outlined in my written testimony.
    I won't go into it here, all of them here, except to 
mention that in terms of ecosystem-based management, we feel 
very strongly that habitat research should be a feature of what 
is encouraged to move us in that direction of ecosystem-based 
management. And I would concur with other speakers that the 
research component is important and without understanding the 
habitats that our fisheries rely on, we will never have 
ecosystem-based management. So we would like for Congress to 
encourage and facilitate that happening.
    Today I want to focus on a very significant change in 
fisheries that is happening with the development of dedicated 
access privileges. Individual fishing quotas or other kinds of 
dedicated access privileges are often promoted as management 
tools that have conservation and economic benefits as a natural 
consequence of slowing down the race for fish and making 
fisheries more efficient.
    Our look at the case studies from around the world show 
that the natural trend is toward increasing consolidation of 
participants in a fishery, absentee ownership, and leasing 
fishing access to sharecropper harvesters and communities 
bereft of vibrant working waterfronts. At times conservation 
benefits are hard to measure. The promise that dedicated access 
programs will be a panacea for solving a wide array of problems 
just by slowing down the race for fish is in our view a myth.
    The lesson then is that particular outcomes for 
conservation or fishing communities are not achieved unless 
they are an explicit part of the program design. Having said 
that, we also support well-designed rationalization programs. 
So in order to get to well-designed programs, we are 
recommending that Congress adopt guidelines for dedicated 
access privileges to guide regional councils in the development 
of specific programs.
    Dedicated access is going to change the face of our 
fisheries forever. And whether that's good or bad, the 
consequences will be large and long-lasting. So it's critically 
important to design them properly for intended outcomes. 
Guidelines in the Magnuson-Stevens Act would ensure that new 
dedicated access plans serve conservation effectively and 
promote the working waterfront of our fishery-dependent 
communities.
    We recommend the following standards or guidelines be 
included in the Magnuson Act.
    Objectives. We feel that the programs must contain specific 
and measurable objectives defining the biological, social, and 
economic goals of each program. Programs should be designed 
with incentives to reward clean fishing. That is, such as 
promoting low bycatch, preventing high-grading, and minimizing 
habitat impact.
    Programs should be of limited duration. Before the end of 
each term of duration, programs should be subject to a 
scheduled review. If programs are meeting their objectives, 
they should be continued for another term. And if not, they 
should be modified to better achieve the objectives as a 
condition of their continuation.
    New entrants. Programs should create reasonable opportunity 
for future generations of independent fishermen to enter the 
fisheries, and that means reducing barriers that will arise if 
these programs aren't designed properly.
    Maintaining active participation in fishing. Programs 
should preserve existing characteristics of diverse independent 
fishing fleet by retaining the percentage of the catch that is 
harvested as owner-on-board. That ensures that the owners of 
the opportunity to fish are the people catching the fish. And 
also to prevent excessive consolidation.
    Our last point is the question of data collection and 
disclosure. We feel that programs that dedicate access for a 
public resource to private individuals should require 
transparency of ownership of the fishing quotas, transparency 
in quota transfers and leasing, and agreements that govern the 
use of quota. This kind of information is needed for managers 
to understand who actually controls quota as a prerequisite to 
enforcing caps on consolidation.
    And, finally, we urge Congress to promote competitive 
markets. We don't think that Congress should authorize controls 
on markets through processing quota or limiting what processors 
are eligible to buy fish. These are barriers to competition and 
they ultimately affect individual fishermen and their 
opportunities to participate and enter the fishery.
    We don't think that it's in Alaska's or the nation's 
interest to limit entrepreneurial activity in the seafood 
business. And so we would recommend Congress look to other non-
permanent means to assist processors in adapting to the 
transition from open access race for fish fisheries to slower 
paced fisheries. We think that that transition could occur 
without permanent rights to buy and sell fish.
    So, in summary, AMCC appreciates the work that Congress did 
in the 1996 reauthorization. We urge the Committee to maintain 
these existing provisions to minimize bycatch, prevent and end 
overfishing, protect habitat, and promote our communities. And 
to build on these positive steps, AMCC recommends establishing 
standards for dedicated access privileges as guidance to the 
regional councils.
    And thank you again for the opportunity to be here. I hope 
that you'll have an opportunity to look at our written 
testimony and the more specific conservation recommendations 
that we make there.
    Mr. Gilchrest. Thank you very much, Ms. Childers. We will 
look at that on our long journey home.
    [The prepared statement of Ms. Childers follows:]

          Statement of Dorothy Childers, Executive Director, 
                   Alaska Marine Conservation Council

    Members of the Subcommittee:
    Thank you for the opportunity to testify on the important issues 
associated with the Magnuson-Stevens Fishery Conservation and 
Management Act reauthorization.
    The Alaska Marine Conservation Council (AMCC) is a community-based 
organization made up of fishermen, traditional subsistence harvesters, 
small business owners, biologists and families. Our mission is to 
protect the health and diversity of our marine ecosystem. We do that by 
working to improve fisheries management to minimize bycatch, prevent 
overfishing, protect habitat and promote clean, community-based fishing 
opportunities--all existing objectives in the Magnuson-Stevens Act. We 
believe that enabling communities to have access to our fishery 
resources, combined with strong conservation management, preserves and 
promotes healthy economies and ecosystems on which our fisheries 
depend.
North Pacific as a Model for Fisheries Management
    The North Pacific is often promoted as a model for fishery 
management in other regions. The implication is that if other regional 
councils were raised to the standards employed here in the North 
Pacific, overfishing and a myriad other problems would be solved. The 
North Pacific has achieved the accolade of being the best managed 
fishery because there are no declared overfished groundfish species in 
Alaska and because the North Pacific Fishery Management Council has 
instituted certain positive practices including the following:
    <bullet>  Optimum Yield Cap--The Council established a 2 million 
metric ton cap on the total amount of groundfish that can be harvested 
annually from the Bering Sea and Aleutian Islands. In the Bering Sea, 
the amount of fish that could be taken based on maximum sustainable 
yield would be higher than the 2 million metric ton cap. So the cap has 
put the brakes on even larger landings that would have been permitted 
if the total allowable catch were based only on biomass estimates.
    <bullet>  Total Allowable Catch is Set Below Biological Limit--The 
Scientific and Statistical Committee (SSC) sets the Acceptable 
Biological Catch (ABC) and the Council sets the total allowable catch 
(TAC) at or below this limit for each groundfish species. Setting the 
TAC below the biological level serves as a buffer, which helps to 
account for uncertainty in stock assessment models. This practice has 
prevented political influence from persuading the Council to exceed 
scientifically established fishing limits.
    <bullet>  Bottom Trawl Closures--The Council has closed several 
large areas to bottom trawling (Southeast Alaska, Bristol Bay, a zone 
around the Pribilof Islands and, most recently, 60% of the fishable 
grounds in the Aleutian Islands). Some of these actions were crisis 
driven to protect collapsed crab populations while others prevent 
destructive fishing practices in sensitive areas containing coral and 
other living habitat features.
    <bullet>  Observer Program--The Council established an observer 
program to monitor catch and bycatch in groundfish fisheries. The 
program has provided important data for evaluating fisheries 
performance and controlling trawl fishery bycatch of certain species 
including halibut, crab, salmon and herring.
    <bullet>  Bycatch Reduction--Estimated total bycatch in the North 
Pacific has reduced by 50% since the last reauthorization.
    <bullet>  Seabird Protection--Through an industry/agency/Council 
partnership, the longline fleet has adopted creative technology to 
reduce fatal interactions with seabirds including the endangered short-
tail albatross.
    <bullet>  Small Boat Allocation--The Council allocated 2% of the 
Bering Sea cod fishery to jig boats. This, along with allocations to 
other small fixed gear fleets, has enabled low-impact local fisheries 
to take hold in the otherwise industrialized Bering Sea. Similarly, the 
State of Alaska allocated 25% of the federal cod TAC in the Gulf of 
Alaska to jig and pot vessels only, which revived opportunities for 
clean, community-based fleets.
    These attributes deserve recognition and a note that they are 
measures that help implement legal requirements in the Magnuson-Stevens 
Act. Beneath these positive aspects of our fisheries, however, lies a 
more subtle critique, which we believe is important to recognize and 
address if we are to be true to the goal of long-term sustainable 
fisheries intended by the Magnuson-Stevens Act and healthy ecosystems:
    <bullet>  While it's important to set the TAC below biological 
limits, the question then is how biological limits are set. Some 
aspects of setting biological limits are worthy of conservation 
improvements. For example, some of the most vulnerable species, such as 
rougheye rockfish that live to be over 200 years old, are managed as 
one large population across the vast Bering Sea and Aleutian Islands 
region, without regard to localized populations or their fidelity to 
specific locales or habitat features. Overfishing appears to be 
occurring in some areas though the problem is not represented in catch 
statistics for the region as a whole. Continuing to manage this way is 
likely to mask an overfishing situation, which would be especially 
serious for long-lived, slow recovering species like rockfish.
    As a second example, the tragic legacy of crab fisheries in Alaska 
is that almost every crab fishery in the central Gulf and Bering Sea is 
either significantly reduced or closed due to population declines. 
Policy makers are content to accept the hypothesis that these declines 
were caused only by changing oceanographic conditions even though there 
is evidence that exploitation rates were too high in some cases and 
continued impacts are occurring from the use of bottom trawl gear in 
sensitive areas.
    Finally, for other species, such as pollock, it may be important to 
take into account other food web dynamics. The depleted fur seal 
population of the Pribilof Islands feeds in the same area that large-
scale fisheries occur. While the islands and surrounding waters are 
critically important for breeding and raising pups and the fur seal is 
culturally important to the Aleut people who live there, such ecosystem 
factors are not taken into account when setting overall fishery catch 
limits.
    <bullet>  The Council and NOAA Fisheries Alaska Region have 
recognized that bottom trawling is the most damaging fishing practice 
and has closed some large areas as a result. The problem is that, as 
fishery managers acknowledge, we don't know the habitat requirements 
for virtually any groundfish species in the North Pacific. Furthermore, 
there is a significant dearth of information about where sensitive 
habitats are located, such as the distribution of coral and sponge 
habitats or other sensitive living seafloor structures. Very little 
mapping has been done to evaluate the condition of these habitats, 
assess habitat degradation or enable habitat conservation to be pursued 
in a more systematic fashion.
    <bullet>  The observer program allows for data collection on only 
about 15% of the groundfish catch in the Gulf of Alaska. This problem 
has persisted since 1995 when improvements designed to fix this and 
other problems were rescinded. More and higher quality data are needed 
to track these fisheries and understand fishing practices and their 
effects more clearly.
    <bullet>  Bycatch has been reduced from over 600 million pounds in 
1997 to an average of 300 million pounds since 1998. This is a 
gratifying improvement generated primarily by the requirement that all 
trawl vessels must avoid or retain the catch of juvenile pollock and 
cod. However, measures to reduce bycatch in some of the most 
indiscriminate fisheries (for Bering Sea flatfish) have been postponed 
three times and are not likely to be implemented before 2007, a full 11 
years after Congress passed the Sustainable Fisheries Act. In 2003 
these bottom trawl fisheries collectively wasted 30% of their catch; 
some vessels throw away at least half of their catch of certain 
species. Finally, measures to minimize salmon bycatch in Bering Sea 
trawl fisheries have not succeeded but the bycatch has dramatically 
increased in recent years to about 500,000 salmon taken in 2004 in the 
pollock fishery.
    We appreciate that the Council is committed to working on some of 
these outstanding issues, including rockfish conservation, salmon 
bycatch and the observer program. However, these glass-half-full and 
glass-half-empty views of our fisheries provide a snapshot of the 
strengths and weaknesses of the North Pacific system today and a basis 
for how Congress can amend the Magnuson-Stevens Act so as to capture 
the positive features of the North Pacific and further build on the 
Alaska experience to take all the Nation's fisheries to a higher level.
Applying Lessons from the North Pacific to Magnuson-Stevens Act 
        Reauthorization
    We recommend that the Magnuson-Stevens Act be amended to strengthen 
the role of science in decision-making, a strong recommendation by the 
U.S. Commission on Ocean Policy. Specifically, we recommend 1) 
institutionalizing the North Pacific practice of setting TACs at or 
below biological limits established by the SSC, and 2) increasing the 
role of the SSC in determining other biological needs that regional 
councils would then need to act on. These needs might include, for 
example, establishing habitat priorities, ecosystem parameters, or 
refinements to setting ABCs to take into account special life history 
characteristics, predator/prey interactions or other ecosystem 
considerations.
    My experience as a participant in the Council process is that the 
SSCs advice on catch limits is always heeded. On other matters, 
however, the council's response is inconsistent. With a clearer and 
more substantive role, as recommended by the U.S. Commission on Ocean 
Policy, this irregularity could be remedied without changing the 
regional decision-making system.
    In addition, AMCC supports maintaining the conservation provisions 
added to the Magnuson-Stevens Act in the 1996 reauthorization. We 
advise against rolling back any of the provisions (including the 
overfishing guidelines for rebuilding overfished species) and believe 
all councils can and should come to terms with those basic requirements 
to minimize bycatch, end overfishing, protect habitat and promote 
communities.
New Challenges that the Magnuson-Stevens Act Should Address
1. Ecosystem-Based Management
    The U.S. Commission on Ocean Policy was clear in its report that 
the primary new challenge to the federal government is to build an 
ecosystem-based approach to ocean management including fisheries. 
Substantial discussion is underway about how to achieve this goal 
ranging from changing the ocean governance system to technical changes 
that build ecosystem parameters into fishery stock assessment models. 
From our standpoint, the ecosystem challenge needs to be met at many 
levels of decision-making.
    Our particular interest is building better mechanisms for 
considering habitat in fishery management decisions. As described by 
the U.S. Commission on Ocean Policy <SUP>1</SUP>, good information on 
the distribution of habitats, ecological functions and sensitivity of 
habitats to fishing impacts is a cornerstone of ecosystem-based 
fisheries management.
---------------------------------------------------------------------------
    \1\ USCOP, 2004. Final Report, p. 297. ``...maintaining healthy, 
functioning habitats is an essential element of an ecosystem-based 
approach.''
---------------------------------------------------------------------------
    The Council has made some positive decisions that protect sensitive 
areas but well-informed ecosystem-based management needs better 
information on what habitat is where. The Alaska Fisheries Science 
Center has accomplished some impressive habitat mapping work using 
sophisticated technology; we urge Congress to authorize funds to be 
spent on continuing this kind of research and giving priority to 
habitat mapping in research funding authorizations. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ This recommendation is supported by the USCOP and North Pacific 
Research Board:
    USCOP, 2004. Final Report, p. 298. The USCOP recommended ``...an 
extensive research and development program to...identify habitats 
critical to sustainability and biodiversity goals.''
    NPRB, 2004. Draft Science Plan, p. 78. ``...basic research is 
needed to characterize habitat and its relationship to fish, to assess 
direct and indirect effects of fishing gears...and to determine the 
overall ecosystem function of specific types of habitat.''
---------------------------------------------------------------------------
    Habitat conservation can be a very controversial matter sparking 
heated debate but that is most often driven by a lack of information 
about what habitats are at risk, where they are located and the level 
of impact occurring. Despite the heated debates, I've never heard a 
fisherman say he didn't think habitat was important. Ultimately 
progressive solutions lie in effective research yielding practical maps 
and data to inform scientists, stakeholders and decision-makers and 
enable creative ways to protect habitat while maintaining economically 
viable fisheries.
2. Dedicated Access Privileges
    Individual Fishing Quotas (IFQs) or other kinds of dedicated access 
privileges are often discussed as fishery management models that are 
expected to have conservation and economic benefits as a natural 
consequence of slowing down the ``race for fish'' and making fisheries 
more efficient. However, IFQ case studies from around the world show 
that their natural trend is toward increasing consolidation of 
participants in a fishery, absentee owners leasing fishing access to 
sharecropper harvesters, ill-defined conservation benefits and 
communities bereft of a vibrant working waterfront. The promise that 
dedicated access programs will be a panacea for solving a wide array of 
problems just by slowing down the race for fish is a myth. The lesson 
is that particular outcomes for conservation or the preservation of 
fishing communities are not achieved unless they are an explicit part 
of the program design. The National Research Council emphasized the 
importance of program design in its report to Congress:
        Confusion, conflict, and ambiguity about the relative 
        importance and value of the objectives of an IFQ program can 
        result in contradictions and inconsistencies in its design and 
        implementation, making the program more vulnerable to 
        unintended consequences and less likely to succeed. 
        <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ National Research Council, 1999. Sharing the Fish, Toward a 
National Policy on Individual Fishing Quotas. P. 197.
---------------------------------------------------------------------------
    Dedicated access programs are going to change the face of our 
fisheries forever. Whether good or bad, the consequences will be large 
and long lasting so it's critically important to design them properly 
for intended outcomes. Standards in the Magnuson-Stevens Act would 
ensure that new dedicated access plans serve conservation effectively 
and promote the working waterfront of our fishery-dependent 
communities. AMCC recommends that Congress adopt the following 
standards to guide regional councils in the development of specific 
programs:
    <bullet>  Objectives--Programs must contain specific and measurable 
objectives defining the biological, social and economic goals of the 
program.
    <bullet>  Conservation Benefits--Programs should be designed to 
reward clean fishing (e.g. promote low bycatch, prevent high-grading, 
minimize habitat impacts).
    <bullet>  Limited Duration--Programs should be of limited duration 
(7-10 years). Before the end of each term of duration, programs should 
be subject to review. If programs are meeting their objectives, they 
should be continued for another term. If not, they should be modified 
to better achieve the objectives as a condition of their continuation. 
Regional councils should also be able to make minor course corrections 
as needed within a term of duration.
    <bullet>  New Entrants--Programs should create reasonable 
opportunity for future generations of independent fishermen to enter 
the fishery.
    <bullet>  Maintain Active Participation in Fishing--
      <all>  Preserve existing characteristics of today's diverse 
independent fishing fleets by retaining the percentage of the catch 
that is harvested as owner-on-board.
      <all>  Prevent ownership of fishing privileges by individuals or 
entities not otherwise associated with the fishery.
      <all>  Prevent excessive consolidation.
    <bullet>  Data Collection & Disclosure--Programs that dedicate 
access to a public resource to private individuals should require 
transparency of 1) ownership of fishing quotas, 2) quota transfers and 
leasing, and 3) agreements that govern the use of quota. Such 
information is needed for managers to understand who controls quota as 
a prerequisite to enforcing caps on consolidation. This may be 
especially important as it applies to cooperatives.
    <bullet>  Competitive Markets--Congress should not authorize 
controls on markets through processing quota, limiting what processors 
are eligible to buy fish or requiring independent fishermen to deliver 
the catch to specific markets. All of these restraints are barriers to 
competition. It is not in Alaska or the Nation's interest to limit 
entrepreneurial activity in the seafood business. We recommend Congress 
look to other non-permanent means to assist processors in adapting to 
the transition from the open access ``race for fish'' to slower-paced 
fisheries.
Summary
    AMCC appreciates the work Congress did in the 1996 reauthorization 
and we urge the committee to maintain these existing provisions to 
minimize bycatch, end overfishing, protect habitat and promote 
communities. To build on those positive steps, AMCC's specific 
recommendations are:
    <bullet>  Improve fisheries management in all the regions including 
the North Pacific by strengthening the use of science in management 
through greater adherence to recommendations by the Scientific and 
Statistical Committees on the setting of total allowable catch and 
other aspects of management such as establishing habitat priorities, 
ecosystem parameters, or refinements to setting ABCs to take into 
account special life history characteristics, predator/prey 
interactions or other ecosystem considerations.
    <bullet>  Enable habitat research by authorizing funds and giving 
priority to mapping living seafloor habitats and determining their 
ecological functions as a critical tool to move our fisheries to an 
ecosystem-based approach.
    <bullet>  Establish standards for dedicated access privileges as 
guidance to ensure fishery managers achieve community and conservation 
goals as they develop programs at the regional level.
    Thank you again for this opportunity to provide AMCC's perspective 
to the committee.
                                 ______
                                 
    Mr. Gilchrest. I want to thank all of you for your 
testimony. And a quick comment before some questions. I live in 
a tiny little place called the eastern shore of Maryland which 
is a tiny little spot on the Chesapeake Bay, which is one of 
the few places on the East Coast that can still be considered 
dark at night. It's agriculture and it's fishing. It was 
described one time in a local newspaper as a landscape that's 
carpeted with farms and dotted with fishing villages. And we 
feel passionate about the small farmers and the small waterman, 
as we call them there, because they've been economically viable 
for 300 years or more.
    So when you talk about change to us, everybody's ears perk 
up. And we look at economic growth as a bad thing, because we 
have economic--we have a dynamic economy that is fine the way 
it is. And economic growth to us means change that disrupts 
this economy that we've had for 300 years.
    And as we pursue this reauthorization, we get a sense, 
having been here for just about less than 24 hours now in 
Kodiak, that each of you has a passion for this beautiful spot. 
And any change I am cognizant of your testimonies in Magnuson 
really will have a direct impact on your livelihood. So we want 
to be very careful as we pursue this.
    So a couple of questions. The question will be to each of 
you that wants to answer it. That word again raised by the 
Mayor of Kodiak, gentrification, we would like to pursue a 
rationalization program that does not have as its primary 
result a gentrification of the fishing industry up here. Now, 
how do we do that from Washington?
    I think the Council is pursuing, as Ms. Madsen described, a 
controlled gentrification process that's fair rather than an 
uncontrolled gentrification process that is not fair. Do we 
need, from each of your perspectives, to change National 
Standard 8 to deal with standards or guidelines for the North 
Pacific Council to pursue this rationalization, or do we not 
need to mention standards or guidelines other than what is 
already in the Magnuson Act right now?
    So your recommendation to us, I know, Ms. Childers, you 
described how you would like to see us put in standards and 
guidelines in the Magnuson Act specific to deal with certain 
aspect of the fisheries. So I guess I would just like a general 
comment about standards and guidelines in the Magnuson Act 
directly related to the rationalization of the various 
fisheries.
    Just one other short comment. Ms. Madsen seemed, and please 
keep her comments here in mind because she described to us a 
process that seemed to be transparent, open, and fair, in the 
rationalization process, but I would like to hear your specific 
comments. Since we're going back to Washington and we're not 
going to be back up here for quite some time, your comments are 
pretty important.
    I don't know who we want to start with. Mr. Fields.
    Mr. Fields. Mr. Chairman, I'll attempt to take the complex 
series of questions. It's hard to address all of those.
    Mr. Gilchrest. I apologize.
    Mr. Fields. With regard to the gentrification aspect of the 
fisheries, our advocacy and interest for community fisheries 
quota, that becomes one of the priorities within each of these 
rural communities that could provide fishing opportunities for 
the young people trying to get started. And so implicit in our 
request for community fishing quota is an attempt to address 
the so-called gentrification of the fisheries or to provide 
fishing opportunities for young people in these communities.
    I think a number of the things that Mayor Selby pointed out 
are tools that should be looked at. In reference to those 
general tools, I think guidelines in this regard would be 
helpful in terms of the national policy that over time these 
fisheries need to pass on to subsequent generations and that we 
don't pass a public resource into a limited number of players 
in perpetuity, Mr. Chairman.
    So, yes, I would think guidelines or standards would be 
helpful. And I don't know that there's one solution for all 
fisheries and certainly not for a national policy. You know, 
owner on board is something that should be looked at. Limited 
leasing, very important. A proportional transfer of quota when 
quota is either leased or changed hands that would go into a 
pool that then would be reissued, that's an option. Something 
that Ms. Childers referenced, the so-called Australian drop-
through system where in every so many years you have a review 
and you create a new system and the old shares move on. All 
those are tools that could be used or looked at within a set of 
national guidelines, Mr. Chairman. Thank you.
    Mr. Gilchrest. Thank you very much, Mr. Fields.
    Mr. Stinson.
    Mr. Stinson. Well, Mr. Chairman, I'll give this a shot. As 
we move through this concept of rationalization, I think we 
might move back to actually the definition of rationalization. 
Rationalization is to create rations from a limited resource. 
It refers to soldiers, sailors with a limited amount of 
critical resource. How do you allocate that resource amongst 
user groups or sectors of the users with a certain degree of 
equitability, understanding impacts on socio-economic aspects, 
things like that.
    In the North Pacific we're moving through an evolutionary 
process. Certainly one of the first types of rationalization 
occurred in the salmon fishery where we created limited entry. 
We defined which people could participate in that resource, in 
that fishery. Later on we moved into halibut and sablefish. We 
made individual fishing quotas. And I think that's where a lot 
of the problem comes from or the concerns about the problem 
because certainly there were negative impacts to small coastal 
communities, the out-migration of history or IFQs to non-
traditional users, or to those folks that had a better business 
model that could buy this IFQ.
    There was a tremendous amount of consolidation that went 
on. I think we went from something like 3500 vessels pre-IFQ 
down to 1400 vessels post-IFQ. There was a tremendous amount of 
consolidation.
    Certainly, as we went through AFA there was more, that was 
a different program. And now as we're going through crab 
rationalization, that's a different program. Each one of those 
is going to have positive and negative impacts on the 
associated users with it. As we move through rationalization 
say in the Gulf of Alaska, it's a very complex set of 
circumstances here. Certainly, it's more of a small boat 
community-oriented process.
    At the same time, my sector, my group, Alaska Draggers, 
we're actually competing on an economic market with the folks 
that have gone through AFA. So if we're directed to operate 
under a different economic model than say what the fleet in the 
Bering Sea is, there's going to be inequitabilities within that 
relationship.
    We need to have the tools that are going to allow us to 
compete in a market-driven process, moving from a production-
driven process as we're now in this race for fish. So I think 
that developing a set of guidelines that are fairly general in 
nature, would assist the councils in this process. But as we 
move through each fishery and each region, I don't think we 
want to be constrained so much that we're disenfranchising 
those folks that are already in the industry.
    Industry folks have made the commitment, the financial 
commitment in the vessels and gear and the related business 
overheads that they're already engaged with. And they're 
concerned that their playing field may be radically changed in 
order to allocate to new--a different sector of folks. How do 
we address that balance is going to be critical, so I don't 
think we want to be too restrictive in the development of these 
guidelines.
    Mr. Gilchrest. Thank you, Mr. Stinson.
    Ms. Bonney.
    Ms. Bonney. Yes, Mr. Chairman. I guess when I look at the 
history of the dedicated access privileges in the North 
Pacific, every one of the programs that's been developed has 
been unique and different. And to try to develop guidelines 
that are going to allow the different programs to evolve over 
time, I think is going to very difficult. And I'm also 
concerned that when you look at a national guideline, the 
lessons that have been learned in the North Pacific, we're 
farther ahead than a lot of the other regions in the United 
States.
    And so I personally like the regional approach. And I 
think, you know, if you look at what you see in Ketchikan 
versus what you see in Kodiak, if you went to Dutch Harbor, 
each one of those communities, those fleets, the processors, 
they're all unique. And I have trouble believing that we can 
come up with standards that are going to fit all the tools. And 
I tend to agree with Ms. Madsen that we're better off having 
the full suite available so that when we're all done with the 
design and we built the best program for whatever the fishery 
group that we're moving forward is, and, you know, in terms of 
I live in Kodiak. I've been here since 1983, 22 years.
    And really the goal should be when you move toward 
rationalization, there are two mind-sets in this community. One 
is we don't want to go to rationalization. We're going to stand 
in front of the train. And I tell people on a regular basis, 
the train has left the station. And the goal should be to put 
all the luggage on the train so that when you get to the 
station, everything is there to build the appropriate program.
    Mr. Gilchrest. Good.
    Ms. Bonney. And I went through and read some articles about 
when we did salmon limited entry. And Kodiak was adamantly 
opposed to salmon limited entry in the early 70s. And all the 
arguments that we hear about Gulf rationalization were the same 
under salmon limited entry. So I would suggest that people get 
their baggage together and get it on the train so that when we 
get to the station, we as a community as a whole will be better 
off. Thank you.
    Mr. Gilchrest. Thank you very much, Ms. Bonney.
    Mr. Benton.
    Mr. Benton. Thank you, Mr. Chairman. Listening to the other 
folks on the panel, what you hear about is the diversity of 
fisheries and circumstances in Alaska; that's one region, one 
state, and it is very diverse. If you think about that on a 
national scale, it becomes even more problematic. The kinds of 
criteria or standards that might be put in the Magnuson Act 
that could accommodate the unique circumstances in the Bering 
Sea and the unique circumstances in the Gulf of Alaska and the 
unique circumstances in the Gulf of Mexico versus the unique 
circumstances off Guam, that's going to be a very difficult 
task. I think that's why, for example, the council chairs have 
asked that they be given the latitude to do the job and address 
it on a regional basis with the unique circumstances they are 
facing.
    Our organization supports rationalization programs. We've 
taken no position on who should be in, who should be out. We 
believe very strongly that councils are the best venue to sort 
that stuff out. I know in Alaska that for each of these 
programs that has been developed, there have been hundreds and 
hundreds of hours of testimony, thousands of pages of analysis, 
many, many iterations and opportunities for affected parties to 
become involved as you pointed out and as Ms. Madsen pointed 
out.
    And just, you know, to put it in somewhat of a perspective, 
if you look at the programs here in Alaska, most people think 
about dedicated access programs, the new terminology, but the 
first one of those programs that was put into place or adopted 
was halibut/sablefish IFQ program, but that's not correct. The 
first program was the community development quota program. That 
was a community-based program. The IFQ program came along very 
quickly on the heels, but that was, you know, that was a 
community-based kind of program that was put together.
    And the Council here has been able to address a number of 
different kinds of circumstances. They included skippers in the 
crab program. They've done halibut IFQ purchase programs for 
the Gulf coastal communities; Mr. Fields' organization 
represents a lot of those communities. In the charter boat IFQ 
program, there's provisions in there for community quotas in 
that program. And then the current Gulf of Alaska 
rationalization program, there's a whole slew of community 
protection provisions that are being looked at including 
community quotas. So the councils generally have the tools. 
There may need to be some refinement in that, but the point 
being to try to put something together on a national level is 
going to be difficult. And I wouldn't envy somebody the task of 
trying to figure that out. It's quite a Chinese puzzle.
    Mr. Gilchrest. I wouldn't either envy somebody.
    Ms. Childers.
    Ms. Childers. Mr. Chairman, may I add one thing.
    Mr. Gilchrest. Yes, ma'am.
    Ms. Childers. Well, obviously, I do think that there needs 
to be more in the Act besides National Standard 8, and the 
reason is that dedicated access programs are sweeping in their 
effects. And I think that National Standard 8 by itself doesn't 
address it sufficiently. And it doesn't speak to the 
conservation expectations that we should have for IFQ or 
dedicated access programs.
    And I really, with all due respect to Mr. Benton, I do 
think that Congress can design standards or guidelines that are 
appropriate nationally. The ones that I listed, and I will 
challenge myself to go through them again and see if I think 
there's some place where they don't make sense, but they're 
very basic concepts where, for example, every program has 
objectives that you can have a review that measures against 
those objectives and make course corrections to better achieve 
those objectives.
    I mean, these things are basic. They're not meant to be at 
all micromanaging any council and any particular fishery. And I 
think that because of the sweeping nature of dedicated access 
and because Congress by allowing it, is allowing, you know, 
private access to the public's resource, that it's really 
Congress's responsibility to make sure that in doing so that 
certain things are met and certain expectations are achieved.
    Mr. Gilchrest. Ms. Childers, we will take a very close look 
at this particular aspect of the dedicated access programs 
rationalization. We want to create a framework that doesn't 
inhibit the Council but is certainly fair to all the people who 
have been participating in this fishery for such a great deal 
of time. We will deal with this in a very dedicated, 
comprehensive, competent fashion.
    What you deserve here in Kodiak or Dutch Harbor or 
Ketchikan or anywhere else in the country from us is for us to 
be competent and informed and be influenced by the best 
available information. And as we go through this, that's 
exactly what we're going to do. And we want to create a 
framework for the councils so that initiative, ingenuity, and 
intellect will be the ingredients that create the various 
evolving aspects of the fisheries. So we will spend a lot of 
time on this issue.
    I wanted to ask just a couple other questions dealing with 
some other areas. If each of you would like to comment on the 
evolution into rationalization. The pursuit of good information 
has brought us to observers, either human or cameras, and data 
collection from both, every aspect of the fishery. And many of 
you this morning have mentioned the Freedom of Information Act 
and proprietary information.
    And as we move forward with trying to collect data, and 
that does come up against whether or not there will be 
firewalls to proprietary information. There has been some 
recommendations to include in Magnuson some provision to create 
firewalls for information purposes. So if you could make some 
comments about how you would like us to proceed in that area, 
it would be helpful. Don't know where we want to start or who 
would like to make a comment on that.
    Ms. Bonney.
    Ms. Bonney. Mr. Chairman, actually there is a 
recommendation in the Council's chair document that deals 
explicitly with this issue in terms of firewall protection. It 
deals with the concept of agencies being able to share the 
information for management purposes, but only the aggregated 
data could be released.
    We see that regularly in the council process where if you 
have three vessels' worth of information, then that's 
releasable, but anything less than that is withheld due to 
confidentiality issues. I also believe that the Agency is 
working on a draft, and I would look to that draft to see how 
they're thinking to protect that firewall.
    There are other things that--issues that need to be 
considered such as if you have video cameras and there's 
someone gets injured on the vessel, that there needs to be some 
way to, you know, protect the vessel for that kind of 
information as well. So really, there's several pieces, the 
FOIA-bility in terms of releasing information where it's 
glassed on the front of a newspaper, and then also the issues 
of safety issues and liability issues on the vessel.
    Mr. Gilchrest. Thank you.
    Mr. Stinson.
    Mr. Stinson. Mr. Chairman, I concur with what Ms. Bonney 
has said. I've spent probably 20 years out on the water with 
sea time. And your boat becomes your home, and certainly we're 
engaged in a commonwealth or a public industry with a public 
resource. But at the same time, to invite intrusion into your 
home, your living area, your place of business on a 24-hour, 7-
day-a-week basis, that information needs to be treated with 
discretion. And I think that's kind of a philosophical approach 
to this. There's certainly legal aspects that go beyond that. 
But as far as skipper, owner, and speaking for my crew members, 
we need to have certain limits on the intrusion into our 
privacy.
    We need good data. We need to have the Agency have access 
to that. We need to look at species data, bycatch rates, a lot 
of other things, but as Ms. Bonney said, we don't need this 
information splashed across the front page of the newspaper. 
That's not necessarily what good science is, so thank you.
    Mr. Gilchrest. Thank you very much.
    Mr. Fields.
    Mr. Fields. Thank you, Mr. Chairman. I'll be brief. This is 
a complex area, but I think it's real important to appreciate 
that you're talking about numerous different kinds of 
information and different qualitative information. For example, 
information that provides competitive economic advantage or 
conversely would provide disadvantage, certainly that needs to 
be protected. But information that is perhaps embarrassing on 
an individual basis, let's say bycatch data for example, that's 
information about how a public resource is being exploited. And 
perhaps bycatch data is of a qualitatively different nature and 
should be treated differently.
    For example, it's my understanding that in Canada when they 
went to individual bycatch reporting, they substantially 
improved their bycatch rates in Canada because the 
accountability that comes with individual reporting.
    So in answer to your question, complex area, many types of 
data, some should obviously be protected, others perhaps as a 
matter of public policy should be made available.
    Mr. Gilchrest. Thank you very much.
    Ms. Childers. I just have a short comment, Mr. Chairman.
    Mr. Gilchrest. Sure.
    Ms. Childers. From the conservation standpoint, I think 
what's important is not individual vessel information in terms 
of the name of the vessel. I don't think anyone's interested in 
knowing the name of the vessel and how they're behaving, but 
rather having clearer information, more exact information, 
about where fishing occurs, and not who is there, but, you 
know, where fishing--how the fishing patterns really occur 
spatially is one example.
    And the reason I say that is during our essential fish 
habitat deliberations, everyone was trying to build a solution 
that would freeze the footprints of the bottom trawl fishery in 
the Aleutian Islands. But there was great discrepancy about 
where the footprint really is, and the reason there was 
discrepancy is because the public is not allowed to actually 
know where the fishery occurs very exactly.
    And the information that was finally used to define that 
footprint was confidential. And so it doesn't seem correct for 
the public to not be able to understand these kind of basic 
things about where fishing is occurring. And, again, we're not 
interested in who was there or, you know, that kind of personal 
information and business sensitive information, but rather to 
just be able to access the same information that the industry 
has in, you know, helping to come up with solutions and being a 
more constructive part of the process.
    Mr. Gilchrest. Thank you very much.
    Mr. Benton.
    Mr. Benton. Thank you, Mr. Chairman. As Mr. Fields pointed 
out, this is a very complicated and complex issue or can be. I 
don't believe anybody in the North Pacific wants to deny the 
Agency information it needs to manage fishery resources and 
other resources that need to be managed and to control the 
fisheries and know where fishing is occurring and what kind of 
fishing and what the effects of that fishing are. All that 
information is appropriate I think generally and widely 
supported that the managers and the enforcement agencies would 
have access to that information on as fine a scale as is, you 
know, cost effectively available. I mean, there's some cost 
issues involved and those have to be factored in.
    One of the tools that is emerging, of course, is video 
remote monitoring of fishing operations which promises to 
provide a much more comprehensive data base at a much more cost 
effective manner on a broader fleet because just by the nature 
of how it can operate. And that information, in order for that 
program to be effective, that information is going to need to 
be protected in some manner and right now there's a lot of 
ambiguity about that. That needs to be clarified.
    The kind of issue raised by Ms. Childers had much less to 
do with confidentiality than it had to do with the nature of 
the information that had been collected over the years by the 
observer program. The observer program was not necessarily 
intended originally to document very specifically where fishing 
occurred for what species and specific toe tracks. What it was 
really designed to do was to collect biological information on 
removals from general areas on a fleet-wide basis in 
statistically reliable cassettes of information to control the 
fisheries. That data was then used or attempted to be used to 
develop the essential fish habitat footprint that the Council 
eventually identified.
    The problem was less that the public had access to it than 
that the Agency itself had difficulties in interpreting some of 
what that data meant. And when they got down to a fine enough 
scale to start looking at it, they found out that their toe 
tracks, some of them were inland and some of them were on top 
of rocks and some of them were in places that nobody had ever 
gone. And it was just an artifact of how data was entered into 
the system several years ago. That needed to get clarified and 
cleaned up. And it did, but it highlighted some problems that 
need to be reconciled in the observer program in a data 
collection system. But it had less to do with the 
confidentiality issue than it did with the structure of how 
data is collected.
    Confidentially, what I think concerns the fleet, which 
you're hearing about, isn't whether or not bycatch information 
is embarrassing because that information is recorded. It's 
recorded on a fleet-wide basis or a subset of the fleet. The 
Agency, if it's a violation, the Agency has access to that 
information right now, and they can take appropriate 
enforcement action.
    The kinds of information that I think people are the most 
concerned about is information that then gets misused and 
mischaracterized by people that either have an agenda or are 
unfamiliar with the data and how it's collected. And that's the 
kind of protection would need to be put in place in order for 
there to be good solid cooperation from the fleet.
    You want to have the best information about where fishing 
is occurring, how it's occurring, what species are being taken, 
what effects that might have on other components of the marine 
ecosystem. The best program is going to have to have solid 
cooperation from the fleet, from the skippers, the people that 
participate. If they feel threatened that that's going to be 
misused against them in some in appropriate way, then you're 
not going to have that cooperation. That's really the 
fundamental issue that needs to be solved.
    Mr. Gilchrest. Thank you very much.
    Just one last question. We, if I haven't said this earlier, 
I think I may have, but we're going to leave the record open 
for 60 days. So the people that want to give us more 
information or participate will be able to do so. But I would 
like to continue this dialog certainly in the months ahead with 
all of you. And we can respond to this just very briefly for 
those of you who want to respond.
    Do you see or would you recommend any change in the makeup 
of the councils? Do you see any need for any kind of council 
reform? You don't have to respond to that if don't want to. If 
you want to, you can say, no, yes, or----
    Mr. Benton.
    Mr. Benton. I've always let these guys go first, and I'll 
go first this time. They can make potshots at me, Mr. Chairman.
    You know, I served on the North Pacific Council for nine 
years and have 20-some odd years experience on the North 
Pacific Council. Through that time, I've also had experience 
with most of the other councils around the country. And in the 
course of my experience, at least in the North Pacific, when it 
comes down to a clear issue of conservation versus the 
pocketbook, I'm not talking about allocation issues where, you 
know, there's a, you know, people are butting heads over an 
allocation matter. That's different. But I'm talking about when 
it comes down to very clearly conservation versus the 
pocketbook.
    Time and time again, I've seen industry participants, both 
the conservation side of the equation against what logic would 
tell you is not necessarily in the interest of their 
pocketbook. And the easiest example of that of course is the 
catch level issue I mentioned in my statement, which is there 
have been many times when it would have been easy to vote to 
raise catch levels higher than what was recommended by the 
scientific advisors.
    Sometimes it would be easy to raise catch levels higher 
than what was adopted by the Council and still stay within the 
level that the scientists provided. The industry 
representatives and the state representatives and the Federal 
representative on the Council consistently have supported going 
for the conservation side of the equation. That's a pretty 
strong statement about participation on fishery management 
councils.
    When I served on our council, we had a lot of industry 
participants. I served both as a private citizen and as a 
representative of the State of Alaska. We had scientists. We've 
had environmental representatives or people that, you know, 
were considered to be environmental representatives, most of 
which, by the way, were involved in commercial fishing as well. 
And throughout the process, to me, there was never really a 
consistent pattern of people voting against conservation for 
the pocketbook.
    That to me has been the chief criticism of the council 
process. That, you know, for some odd reason because we've got 
fishermen and others involved that have a stake in the 
fisheries, there's an automatic conflict of interest. And when 
I looked at the different reports that have come out the last 
two years, not one of those reports actually went and looked at 
the voting records. They did do a lot of interviews with people 
who raised concerns that that may be an issue, but they didn't 
actually go down and look at the voting record.
    My experience has been that that conflict of interest issue 
really is to me a red herring. I think there are other things 
that need to be done. And the simplest way of dealing with that 
is to just tell the councils, you live within the amounts your 
scientists tell you is sustainable, you don't exceed it. And 
that goes a long way to just get that problem right off the 
table.
    Mr. Gilchrest. You want me to put that into the Act as a 
direct line in the statute.
    Mr. Benton. I'm feeling the slings and arrows as I sit 
here, Mr. Chairman, but our organization does support that as a 
matter of fact.
    Mr. Gilchrest. Yes, sir.
    Mr. Benton. Yes.
    Mr. Gilchrest. Thank you. Anybody else on that.
    Mr. Fields.
    Mr. Fields. Mr. Chairman, from my perspective representing 
small boat fishermen in rural communities, I think access to 
the Council has been difficult in the past. Although I've been 
actually involved now about six years in the council process.
    I'm reminded of an analogy, when you asked the question of 
the Council, with my five boys who tend to fight from time to 
time.
    Mr. Gilchrest. You have five sons.
    Mr. Fields. Five sons.
    Mr. Gilchrest. Any daughters.
    Mr. Fields. And one daughter.
    Mr. Gilchrest. And one daughter. I'm one of six sons. My 
mother tried and tried, but gave up after six of trying.
    Mr. Fields. Well, we tried as well, I guess.
    Mr. Gilchrest. You were successful.
    Mr. Fields. But, you know, it's sort of, you can fight, but 
you keep it in the family and the issues are internal to the 
family, you don't take it out of the family. And I think that's 
a lot about how my constituency feels about the North Pacific 
Council. There's things we'd like to get changed. There's 
things that we think could be improved with the Council, but 
they're not national policy things. They're not things that 
need to be embedded in Magnuson. They're things for me to talk 
to Chairman Madsen about and maybe the state representatives 
and, you know, I think that's the level for most of the 
concerns my constituency has, that things are going to be 
handled internal to the current council and the current council 
makeup, Mr. Chairman.
    Mr. Gilchrest. Thank you very much.
    All right, I want to thank each of you. This has been very 
informative and very, very--extremely helpful to us.
    I think what we'll do is take a five-minute break.
    (Off record).
    (On record).
    Mr. Gilchrest. If I could have your attention again, we 
will get started here. I do have to say this is a different 
experience than holding a hearing in Washington. I'll have to 
try to have refreshments and good conversation at our hearings 
from now on. It's also nice not to be interrupted by votes.
    Well, thank you all very much. Our third panel will be Mr. 
Frank Kelty, Natural Resource Analyst, City of Unalaska; Mr. 
Glenn Reed, who his colleague said was always late. I'm not 
sure if that's fitting.
    Mr. Reed. Not true.
    Mr. Gilchrest. Pacific Seafood Processors Association, 
welcome. Mr. Kevin Duffy, Executive Director, At-Sea Processors 
Association; Mr. Eugene Asicksik, President and CEO, Norton 
Sound Economic Development Corporation. Welcome, sir. Mr. Arni 
Thomson, Executive Director, Alaska Crab Coalition. Welcome. 
And Mr. Thorn Smith, Executive Director for North Pacific 
Longline Association. Thank you very much, gentlemen, for 
coming. We look forward to your testimony.
    Mr. Kelty, you may begin, sir.

          STATEMENT OF FRANK KELTY, RESOURCE ANALYST, 
                        CITY OF UNALASKA

    Mr. Kelty. Thank you, Mr. Chairman, and welcome to Alaska. 
For the record, my name is Frank Kelty. I'm the resource 
analyst for the City of Unalaska. Previously I worked in the 
Alaska seafood industry for 30 years and served as mayor of 
Unalaska for 10 years. I'll be testifying today in support of 
the regional council system and its positive impact on fishery-
dependent communities such as Unalaska.
    Since 1988, Unalaska has been the nation's leading 
commercial fishing port in the number of pounds landed. And in 
2003, the community set a national record for pounds landed 
with 908.7 million pounds at a value of $157 million.
    Alaska's fisheries resources provide half of this nation's 
seafoods. Virtually the entire economic base of Unalaska is 
fisheries related, from fishing and seafood processing to 
fisheries support functions. The revenues that are generated 
from the seafood industry and support sector businesses have 
allowed the City of Unalaska to embark on a number of major 
quality of life improvements that have changed the face of 
Unalaska.
    None of these improvements would have been possible without 
the investment of over $400 million by the seafood industry and 
support sector businesses in our community. They made this 
investment knowing that it holds their own future and that of 
the community are sustained by a well-managed, healthy, and 
strong fisheries resource in the Bering Sea.
    In Unalaska, we realize that the health and sustainability 
of the fisheries resources of the Bering Sea/Aleutian Islands 
is critical to our community's survival. We've seen firsthand 
what can happen to a community and an industry that supports it 
when a fisheries resource collapses.
    When the Bering Sea red king crab fishery failed in the 
early 1980s, we went from harvesting 150 million pounds 
annually down to a closed fishery in three years time. The 
community faced seafood plant closure, support sector 
businesses failed or left the community, and 50 percent of the 
city's general fund revenues were gone overnight.
    For over 28 years now, Alaska's annual groundfish fishery 
quotas have been set by the North Pacific Council at 
conservative, sustainable levels based on the best science 
available. As an added precautionary measure, the Bering Sea/
Aleutian Island quotas for all groundfish combined have been 
tapped at 2 million metric tons annually, and not one of these 
groundfish stocks is overfished during that timeframe.
    The council system was designed to work at a regional level 
that allows maximum participation by the stakeholders which is 
done in an open and transparent process. It is critical for 
fishery-dependent communities, and we support this system. The 
North Pacific Council works hard to create management measures 
that meet conservation needs and still supports fishery-
dependent communities.
    In the Bering Sea region, we have a very successful CDQ 
program for communities in Western Alaska. In the development 
of the crab rationalization plan, the North Pacific Council 
used a suite of protection measures for Bering Sea and Gulf 
communities. They included regionalization of crab delivery to 
communities based on historic landings, a right of first 
refusal on the sale of processor quota shares outside of the 
community, and the ability to buy quota shares and lease them 
within the community. These types of programs and others that 
may come forward are critical for the protection of fishery-
dependent communities.
    The challenges for the future in the North Pacific are 
many. They include the movement toward an eco-based management 
system. Although the industry and councils have done a 
tremendous job in the reduction of discharge and bycatch, work 
must continue in this area. A good example of such work is that 
being done by the industry in developing the salmon excluder 
device in pollock trawl nets.
    The success story of fisheries management in the North 
Pacific is one of biological and economic stability. I'm going 
to say that again, biological and economic stability. That 
proves that the management systems in place in this country and 
the Magnuson-Stevens Act are far from broken. The work done by 
the North Pacific Council is now viewed as a model by many 
other fishery councils across the country.
    The Council's work shows that the regional council system 
can and does work and that it should be supported. We believe 
the MSA provides an excellent framework for successfully 
managing fisheries resources in this country. This framework 
shouldn't go through any major changes in the reauthorization 
of the Act. Thank you for allowing me to testify. I look 
forward to answering any questions.
    Mr. Gilchrest. Thank you, Mr. Kelty.
    [The prepared statement of Mr. Kelty follows:]

          Statement of Frank Kelty, Natural Resource Analyst, 
                        City of Unalaska, Alaska

    Mr. Chairman and Members of the Committee:
    For the record, my name is Frank Kelty, and I am the Resource 
Analyst for the City of Unalaska, Alaska. Before becoming a Resource 
Analyst, I worked in the Alaska seafood industry for 30 years in 
Unalaska as a manager for two seafood processing companies. I also 
served the community as an elected City Council member for 19 years, 
the last ten years of which I served as Mayor of the City of Unalaska. 
In December of 2000, I resigned my position as mayor and council member 
to become the City Resource Analyst.
    The City of Unalaska with its Port of Dutch Harbor is located in 
the Aleutian Islands, approximately 800 miles southwest of Anchorage, 
and 1,700 miles northwest of Seattle, Washington. The community enjoys 
a strategic location at the center of the rich fishing grounds of the 
Bering Sea and Aleutian Islands. Over the last 25 years, this community 
has seen tremendous growth and diversification which can be directly 
attributed to the commercial fishing and processing industry of the 
Bering Sea and Aleutian Islands. Unalaska, like other communities in 
the Bering Sea/Aleutian Islands, is located in one of the most remote 
areas in Alaska. We are not on the road system with the rest of Alaska, 
and we don't have a booming tourism industry. What we do have are the 
marine resources of the Bering Sea, upon which the harvesters, 
processors and communities depend to survive and thrive economically.
    Unalaska's seafood plants process more Bering Sea/Aleutian Island 
groundfish and crab than those of any other community in Alaska. Since 
1988, Unalaska has been the nation's leading commercial fishing port in 
the number of pounds landed, and in 2003, the community set a national 
record for volume landed with 908.7 million pounds, the value of which 
was $157 million. From 1992 through 1999, Unalaska was ranked number 
one in the nation in the value of the fish landed, and since 1999, 
Unalaska has been ranked number two, behind New Bedford, Massachusetts, 
in value of fish landed. However, Unalaska continues to hold the 
national record in dollar value of seafood processed in a year; that 
record was set in 1994, with the value of the catch in Unalaska at $224 
million.
    The Pollock fishery of the Eastern Bering Sea makes up 
approximately 85% of the fishery landings for Unalaska. This fishery is 
the nation's largest and most valuable with annual quotas in the 1.4 
million metric ton range, or three-billion pounds, which clearly shows 
the importance of that fishery to Unalaska and other fishery-dependant 
communities in the Bering Sea.
    The Alaska seafood industry is the State's largest private sector 
employer, providing over 35,000 jobs, and it is second only to the oil 
and gas industry in providing revenues to Alaska's general fund, 
contributing more than $90 million in taxes and fees. National Marine 
Fisheries Service figures show that in 2003, Alaska state fishery 
resources accounted for 55% of this nation's seafood landings for a 
total of 5.3 billion pounds valued at $1 billion.
    The City of Unalaska has been a long-time proponent of 
conservation. The well being of our community depends on the 
sustainable use of the resources of the Bering Sea. Virtually the 
entire local economic base of Unalaska is fishery-related, from fishing 
and seafood processing, to fishery support functions, such as fuel 
sales, vessel repair, trans-shipping of seafood products, longshoring, 
marine equipment sales, groceries sales, vehicle rentals, fishing gear 
replacement and repair. The seafood industry and support sector 
businesses provide $20 million in annual general fund revenues for the 
City of Unalaska, which is approximately 65% of the $30 to $32 million 
total annual operating budget for the City. I have provided some graphs 
with my written testimony that give a breakdown of City of Unalaska 
revenue streams from the early 1990s to the present. For your 
convenience, I have also included National Marine Fisheries Service 
reports on the current Bering Sea/Aleutian Island fishery quotas, and 
landing and value reports that focus on Unalaska and the State of 
Alaska.
    The revenues that come from the seafood industry have allowed the 
City to embark on a number of major quality-of-life improvements that 
have changed the face of Unalaska over the past 18 years. Newly built 
facilities include an elementary school, an award-winning medical 
health facility, a community center, a new city hall facility, new 
public works facility, a new library, a state-of-the-art museum, park 
developments, road paving, utility upgrades, improvements in the high 
school and the aquatics center, and improvements to City-owned docks. 
The City has also made hundreds of thousands of dollars in funding 
available annually to local non-profits that provide such services as 
mental health care, alcohol and drug abuse programs, daycare programs, 
nutrition programs for senior citizens, and shelter and support for 
victims of domestic violence. Upcoming projects include a new power 
house, new boat harbor, improvements to the landfill and wastewater 
treatment plant, remodeling the airport, and additional road paving. 
None of these improvements and programs would have been possible 
without the investment of well over $400 million by the seafood 
industry and support sector business in the community of Unalaska who 
made these investment decisions knowing that their own future and that 
of the community is sustained by the well managed, healthy, and strong 
fishery resource in the Bering Sea and Aleutian Islands.
    In Unalaska, we realize that the health and sustainability of the 
fisheries resource of the Bering Sea/Aleutian Islands is critical to 
our community's survival. Fishing and seafood processing are all we 
have; they are our only industry. I have seen first hand what can 
happen to a community and the industry that supports that community 
when a fishery resource collapses. I lived and worked in Unalaska when 
the Bering Sea Red King Crab fishery failed. It wasn't pretty; we went 
from harvest of 150 million pounds annually down to a closed fishery in 
three years time in the early 1980s.
    The community faced seafood plant closures; support sector 
businesses failed or left the community; 50% of the City's general fund 
revenues were gone overnight. This led to massive layoffs and cut-backs 
in projects. It took years for the City to get back on its feet. (This 
happen before the Americanization of the groundfish resource in the 
Bering Sea) Because of what we have seen happen with resource failures 
in the past, we support the North Pacific Fishery Management Council 
and the National Marine Fisheries Service in their efforts to set 
conservative catch limits for each species. For over 28 years, annual 
fishery quotas have been set at conservative, sustainable levels based 
on the best science, thorough scientific review, and current research. 
As an added precautionary measure, the Bering Sea/Aleutian Island 
quotas for all groundfish combined has been capped at two million 
metric tons annually, no matter what the recommended Allowable 
Biological Catch (ABC) levels. In the past 28 years, there has not been 
one groundfish stock considered as over-fished in the North Pacific. We 
do have two crab stocks in the Bering Sea listed as over-fished, but 
the stocks are currently in aggressive rebuilding plans. It should be 
noted that these two crab stocks, most likely, were impacted by 
climatic factors, rather than fishing activity.
    The review process in the North Pacific is substantial for the 
setting of annual fishing quotas. After annual stock surveys are 
completed, stock assessment scientists recommend ABC levels for each 
species. These recommendations are reviewed by the Council's groundfish 
plan team (the Council also has a plan team for crab stocks). The data 
is further reviewed by the Council's Scientific and Statistical 
Committee (SSC) prior to the Council setting of the Total Allowable 
Catch (TAC); the TAC is always set below the ABC level recommended by 
the SSC, and far below the over-fishing level. Science and research 
programs in the North Pacific are a priority for the North Pacific 
Council. The Council incorporates the science and research with 
reporting requirements, in-season management, industry-paid observer 
programs, conservative catch limits, limits on bycatch and discards, 
and habitat protection measures, all of which is done in an open and 
transparent process that involves stakeholders at all levels.
    The Council system was designed to work at a regional level that 
allows maximum participation by the stakeholders, which is critical for 
fishery-dependant communities such as Unalaska whose livelihood may 
depend on the decisions made at the Council level. The North Pacific 
Council meetings allow many opportunities for public testimony, both 
written and oral, before the SSC, the Advisory Panel, and the Council. 
The Council also appoints many working committees that include 
stakeholders from all industry sectors and the environmental community, 
with assistance from agency members who work on specific issues. 
Considering the record of the North Pacific Council in the management 
of the federal water fisheries in Alaska over the past 29 years, it is 
hard to challenge a system that has worked so well in the long-term 
sustainability of the marine resources of Alaska. The North Pacific 
Council is now viewed as a model by many other fishery councils across 
the country. And has even been praised, by some environmental groups.
    One of the major points in the successful management system in the 
North Pacific is that it is based on the use of the advice provided by 
the 15-member Scientific and Statistical Committee panel. Following 
their recommendations has led to science-based management decisions 
that have, in turn, led to sustainable fishing quotas. The North 
Pacific Council has successfully used the rationalization programs in 
their reduction efforts in specific fisheries. The nation's largest 
fishery, the Bering Sea Pollock fishery, operates entirely as a 
cooperative management regime. The Halibut/Sablefish fishery operates 
as an Individual Fishing Quota (IFQ) fishery. The Bering Sea/Aleutian 
Island Crab rationalization program, which is a rights-based program, 
goes on line this year, and the North Pacific Council is considering a 
Gulf of Alaska Groundfish rationalization program.
    In addition, the Council uses license limitation programs in other 
fisheries in the North Pacific to mitigate over-capitalization. We 
believe it is very important that the authority for these types of 
decisions remain at the regional council level.
    Habitat protection is another key element in the future of the 
fisheries; the North Pacific Council takes habitat impacts into 
consideration in all of their management decisions. The North Pacific 
Council receives an annual assessment from the groundfish plan teams as 
a supplement to their annual stock assessment report. Included in their 
annual report are updates on the status of on-going ecosystem research, 
local observations from fishermen and coastal people, and new 
information on the status of sea birds and marine mammals. In an effort 
to reduce potential impacts on coral, sponges and Rockfish habitats, 
over 380,000 square miles have been permanently closed to bottom 
trawling in the North Pacific. Included in those closures are also 
protected areas for crab, salmon, herring; and other habitat 
conservation areas, in addition areas for the protection of Steller Sea 
Lions have been in place for many years.
    Coastal communities depend on the ocean resources, and the MSA-
managed North Pacific Fisheries have met the subsistence and commercial 
needs of rural Alaskans. The Community Development Quota (CDQ) program 
is very successful for the Bering Sea communities, and non-CDQ 
communities are built upon the sustainability of the marine resources. 
The North Pacific Council works hard to create management measures that 
meet conservation needs while, at the same time, supporting a healthy 
coastal economy. For example, coastal communities in the Gulf of Alaska 
are allowed to purchase and hold halibut quota shares for community 
harvesters to use, and the halibut subsistence program has been 
revamped to allow subsistence fishing activities by certain rural 
residents and native tribes that hold on to their customary and 
traditional practices of using halibut to feed their families.
    At this time, there are many issues that are of concern to Unalaska 
and other fishery-dependant communities in Southwest Alaska. The issue 
of the Steller Sea Lion is far from over. We have seen some recovery of 
Stellers in some areas of the North Pacific, but the recovery has been 
slow. Because of the significance of this issue, we support increased 
research on the possible reasons for the decline, and we are working to 
support the recovery of this important marine mammal. The emerging 
possibility of designating segments of the Bering Sea and Aleutian 
Islands (BSAI) as critical habitat areas for the Pacific Right Whale 
could have major economic impacts on the seafood industry of BSAI, 
which, in turn, will impact communities that depend on the fishing 
industry for their economic livelihood. The possible listing of the 
Aleutian Sea Otters as endangered is of concern throughout the Gulf of 
Alaska and the Aleutian Islands. The continued decline Northern Fur 
Seal and sea birds in the Bering Sea is also a major concern in the 
region. The decline of many of the crab stocks in Bering Sea is a very 
important issue that is not well understood and that, therefore, 
requires increased research efforts. The formation of Marine Protection 
Areas (MPA) is an issue that could have major impacts in the BSAI and 
Gulf of Alaska, and it is an issue we will continue to monitor. We 
believe that the MPA should be formed at the regional council level and 
should be based on the best science available.
    The challenges in the North Pacific for the future are many. They 
include the ways in which the movement toward an ecosystem-based 
management plan will allow for the extraction of fishery resources at 
sustainable levels for both the fish stock and the ecosystem. The North 
Pacific Council should continue to accommodate fishery-dependant 
communities in all of its management actions.
    Work needs to continue on streamlining the regulatory process, 
including the improvement in the quality of the analyses of all 
proposed fishery management actions. Although the North Pacific Council 
and the industry have done an outstanding job in by-catch reductions 
and in protection of habitat, we should continue to work on by-catch 
reduction and habitat protection. Increased research funding is 
critical to the management process; we need to have the best science 
available to the fishery managers when they make their decisions.
                                 ______
                                 
    Mr. Gilchrest. Mr. Reed.

              STATEMENT OF GLENN REED, PRESIDENT, 
             PACIFIC SEAFOOD PROCESSORS ASSOCIATION

    Mr. Reed. Chairman Gilchrest, my name is Glenn Reed. I'm 
the President of Pacific Seafood Processors Association. I'd 
like to thank you for giving me the opportunity to testify 
today, and more specifically I'd like to thank you for the 
attention you've been paying to the panels. The questions 
you've been asking and the interest that you've shown in the 
issues, that's obviously critical to all of us that have come 
here today.
    Since 1914, PSPA has represented seafood processing 
companies in the Pacific Northwest on matters relating to 
legislation and regulation that affect our members businesses. 
In the over-90-year history of our group, no piece of Federal 
legislation has had greater impact on the operation of the 
members of PSPA and the livelihoods of coastal Alaska than the 
Magnuson-Stevens Fishery Conservation and Management Act. The 
vast majority of these impacts have been positive.
    I'm going to focus my discussion today on the rights-based 
management program. You've heard a lot of discussion about them 
so far. But specifically those programs in Alaska, their 
impacts on the stakeholders which include harvesters, 
processors, and coastal communities.
    In Alaska, the North Pacific Fishery Management Council has 
designed and implemented more rights-based management programs 
than the rest of the Nation combined. More fish is managed 
annually through rights-based fishing in Alaska than any of the 
other seven regions managed individually under all of their 
management systems per region.
    The largest fishery in North America, and one of the 
largest in the world, the Bering Sea pollock fishery, is 
managed under a cooperative rights-based system which is one of 
these programs that the North Pacific has implemented. The 
benefits to the Nation as a result of rights-based management 
include greater opportunities for resource conservation and 
utilization, improved safety and opportunities for new product 
forms, expanding domestic markets, economic stability, and the 
list goes on.
    It's important to note that all the fisheries in the North 
Pacific, including these managed through rights-based 
approaches, are managed through the use of total allowable 
catches based on recommendations of research scientists. This 
TAC process requires all fishing stop once the overall 
biological quota is reached. As a result, as you've heard, the 
North Pacific Region currently has no overfished groundfish 
stock.
    Also, as was mentioned earlier, the first rights-based 
management system that the North Pacific Council implemented 
was the CDQ program or Community Development Program 
implemented in 1992. The program initially awarded 7.5 percent 
of the annual Bering Sea pollock harvest to 65 Native Alaskan 
communities in proximity to the Bering Sea taking a resource 
that was historically exploited by foreign fleets and granting 
it to the named communities as an economic engine for their 
future. The resource is available to all the participating 
sectors of the fishery. And I think others are going to speak--
Eugene was going to speak more about the CDQ program in his 
testimony, so I'm just going to move on. I mentioned it as the 
first rights-based system that the Council passed.
    The second rights-based system passed by the North Pacific 
Council was implemented in 1994 and was the Individual Fishing 
Quota system. This system awarded fishery resources in the 
halibut and sablefish fisheries to the historic harvesters of 
those resources. No other historic user groups were given any 
future rights. By allocating all the value of these two 
fisheries to one user group, the IFQ system created groups of 
beneficiaries or winners and several groups of disenfranchised 
perhaps or loser groups, to use a simple term.
    The vessel owners were the winners. This in some cases was 
the actual harvester and some cases it was the owner of the 
vessel. Vessel owners enjoyed immediate wealth to pay for 
fishing operations and improve market opportunities.
    Processing companies, communities, the State of Alaska, and 
perhaps crews were included in the groups of losers. Processors 
experienced bankruptcies, loss of investment value, loss of 
revenue. Communities experienced loss of tax revenues, loss of 
community job base, loss of service sector base. The state 
experienced loss of tax revenue and employment base, and crew 
members lost jobs and potential future opportunities.
    The IFQ program is the only rights-based management program 
implemented in Alaska that awards rights exclusively to one 
group, any one group. All programs that have followed, have 
been more inclusive and have included more of the historical 
participants. No one is suggesting this program be changed. 
It's been in place for a long time. It has a lot of benefits, 
but I think from one person's perspective, this is some of both 
the benefits and the downside of the program.
    The American Fisheries Act. After the experience of the IFQ 
model of rewarding rights to only one historic fishery 
participant, we congressionally approved the American Fisheries 
Act in 1998, awarded rights in the Bering Sea pollock fishery 
to both harvesters and processors. By virtue of awarding rights 
to two groups, harvesters and processors, the AFA became the 
most inclusive rights-based system ever implemented in the 
United States.
    This program provides the opportunity for harvesters and 
processors to form cooperatives based on their respective 
history and business relationship with each other. The benefit 
for the program flows through communities as well as local and 
state government, in addition to the historic fishery 
participants in both harvesting and processing sectors. This 
plan improved opportunities for resource conservation, 
increased state TAC and improved the economics of the fishery 
for vessel owners, the operators of processing companies, and 
the communities that depend upon both of them. The AFA system 
didn't take one group and make them wealthy at the expense of 
others. It improved the position of all of those participants 
considered in the program.
    Crab rationalization. Later this year, the Bering Sea Crab 
Rationalization Program will begin implementation. This program 
is the most inclusive rights-based system designed in the 
United States to date and includes protection for rights for 
harvesters, processors, communities, and skippers. This program 
may have set a new world standard for inclusivity on awarding 
rights to public fishery resources. The success of the program 
over time will make the most dangerous jobs in America safer or 
provide increased economic stability for harvesters, 
processors, and communities as well as new market opportunities 
for all participants.
    The rockfish rationalization pilot program. The Gulf of 
Alaska rockfish pilot program passed by Congress directed the 
Secretary of Commerce in consultation with the councils to 
implement a program that includes all aspects of the economic 
portfolio for this fishery. Specifically the legislation 
directs that all harvesters and processors need to be 
recognized in a meaningful way. The final motion of this plan 
was passed by the North Pacific Council just last month and 
this program is scheduled for implementation in 2007.
    Conclusion. Each of these rights-based management programs 
is different than the ones that came before it. This is a 
testament to the people who designed these programs learning 
from each system's strengths and weaknesses as well as 
recognition that one size does not fit all when it comes to 
managing fisheries. The council process that led to development 
of these rights-based systems is an open, iterative public 
process that benefits from a vast amount of input provided by a 
broad-based spectrum of interest.
    My request to you today, as you work toward updating the 
Magnuson-Stevens Act, is that you maintain a regional fisheries 
council system and give the regional councils all the tools 
available for managing the fisheries in their region and insist 
that all stakeholders are considered. I think this will allow 
the councils the ability to choose the tools that work in each 
region for each fishery management plan that they implement.
    I would like to thank you again for the opportunity to 
testify, and I look forward to your questions.
    Mr. Gilchrest. Thank you, Mr. Reed.
    [The prepared statement of Mr. Reed follows:]

                Statement of Glenn E. Reed, President, 
                 Pacific Seafood Processors Association

    Chairman Gilchrest, Representative Young, my name is Glenn Reed; I 
am the President of the Pacific Seafood Processors Association (PSPA). 
Thank you for giving me the opportunity to appear before you today.
    Since 1914 PSPA has represented seafood processing companies in the 
Pacific Northwest on matters relating to legislation and regulation 
that affect our business. In the over 90 year history of our group no 
piece of federal legislation has had greater impacts on the operations 
of the members of PSPA and the livelihoods of coastal Alaskans than the 
Magnuson-Stevens Fishery Conservation and Management Act. The vast 
majority of these impacts have been positive.
    I am going to focus my discussion today on rights based management 
programs in Alaska and their impacts on stakeholders, including 
harvesters, processors, and coastal communities. In Alaska the North 
Pacific Fishery Management Council has designed and implemented more 
rights based management programs than the rest of the nation combined. 
More fish is managed annually through rights based systems in Alaska, 
than any of the other seven regions manage individually under all of 
their management systems. The largest fishery in North America and one 
of the largest in the world, the Bering Sea pollock fishery is managed 
under a co-operative rights based system. The benefits to the nation as 
a result of rights based management include greater opportunities for 
resource conservation and utilization, improved safety, opportunities 
for new product forms, expanding domestic markets, and the list goes 
on. It's important to note that all of the fisheries of the North 
Pacific, including these managed through rights based approaches, are 
managed through the use of a total allowable catch (TAC) based on the 
recommendations of resource scientists. This TAC process requires all 
fishing to stop once the overall biological quota is reached. The North 
Pacific region has no over fished groundfish stocks.
CDQ
    The first rights based system established in Alaska was the 
Community Development Quota (CDQ) program. Implemented in 1992 the CDQ 
program initially awarded 7.5% of the annual Bering Sea pollock harvest 
to 65 Native Alaskan communities in proximity to the Bering Sea, taking 
a resource that was historically exploited by foreign fleets and 
granting it to the named communities as an economic engine for their 
future. Others will speak more specifically to this program today.
IFQ
    The second rights based system established in Alaska, in 1994, was 
the Individual Fishing Quota (IFQ) system. This system awarded the 
fishery resources in the halibut and sablefish fisheries to the 
historic harvesters of those resources. No other user historic groups 
were given any future rights. By allocating all of the value of these 
two fisheries to one user group the IFQ system created one group of 
``winners'', and several groups of ``losers''.
    The vessel owners were the winners while the processors, 
communities, State, and crews were the losers. Vessel owners enjoyed 
immediate wealth, safer fishing operations, and improved market 
opportunities. Processors experienced bankruptcies, loss of investment 
value, and loss of revenue; communities experienced loss of tax 
revenues, loss of community job base, loss service sector base; the 
State experienced a loss of tax revenue and employment base; crew 
members lost jobs and potential future opportunity. The IFQ program is 
the only rights based management program implemented in Alaska that 
awarded rights exclusively to one group, all programs that have 
followed have been progressively more inclusive.
AFA
    After the experience of the halibut and sablefish IFQ model of 
rewarding rights to only one historic fishery participant, the 
Congressionally approved American Fisheries Act (AFA) in 1998 awarded 
quasi-rights in the Bering Sea pollock fishery to both harvesters and 
processors. By virtue of awarding rights to two groups, harvesters and 
processors, the AFA became the most inclusive rights based system ever 
implemented in the United States. This program provides the opportunity 
for harvesters and processors to form cooperatives based on their 
respective history and business relationship with each other--the 
benefits of the program flow to communities as well as local and state 
government in addition to the historic fishery participants in both 
harvesting and processing sectors. This plan improved opportunities for 
resources conservation, increased safety at sea, and improved the 
economics of the fishery for vessel owners, the operators of processing 
operations, and the communities that depend upon them. The AFA system 
did not make one group wealthy at the expense of the others, it 
improved the position of all those considered.
CRAB RATIONALIZATION
    Later this year the Bering Sea crab rationalization program will 
begin implementation. This program is the most inclusive rights based 
system designed in the United States to date, and includes protections 
or rights for harvesters, processors, communities, and skippers. This 
program may have set a new world standard for inclusivity in awarding 
rights to public fishery resources. The success of this program over 
time will make the most dangerous jobs in America safer while providing 
increased economic stability for harvesters, processors, and 
communities as well as new market opportunities.
ROCKFISH RATIONALIZATION PILOT PROGRAM
    The Gulf of Alaska rockfish pilot program passed by Congress 
directed the Secretary of Commerce in consultation with the Council, to 
implement a program that includes all aspects of the economic portfolio 
of the fishery. Specifically the legislation directs that all 
harvesters (both catcher vessels and catcher processors) and processors 
need to be recognized in a meaningful way. The final motion on this 
plan was passed by the North Pacific Council just last month.
IN CONCLUSION
    Each of these rights based management programs is different from 
the ones that came before. This is a testament to people learning from 
each systems strengths and weaknesses as well as a recognition that 
``one size does not fit all'' when in comes to managing fisheries.
    The Council process that lead to the development of these rights 
based systems is an open, iterative, public process that benefits from 
vast amounts of input provided by a broad based spectrum of interests. 
My request of you today as you work toward updating the Magnuson-
Stevens Act is that you maintain the Regional Council system and give 
the regional councils all the tools available for managing the 
fisheries in their regions allowing them the ability to choose the 
tools that work in each fishery management plan.
    Thank you again for the opportunity to express my views.
                                 ______
                                 
    Mr. Gilchrest. Mr. Duffy.

         STATEMENT OF KEVIN DUFFY, EXECUTIVE DIRECTOR, 
                 AT-SEA PROCESSORS ASSOCIATION

    Mr. Duffy. Thank you, Mr. Chairman, for the invitation to 
testify on fisheries management successes in Alaska today. I'm 
Kevin Duffy, executive director of the At-Sea Processors 
Association, a trade organization composed of seven member 
companies that operate U.S. Flag catcher-processor vessels. In 
the Bering Sea/Aleutian Islands, we own and operate 19 catcher-
processors that are allocated 40 percent of the TAC annually.
    The Alaska pollock fishery is a proven fishery management 
success story. In 2005, the Alaska pollock fishery was 
certified as sustainably managed by the Marine Stewardship 
Council, the international nonprofit organization funded by the 
World Wildlife Fund. The certification was earned through a 
four-year-long process or assessment of the fishery against the 
MSC sustainability criteria and standards by a team of 
independent scientists and fishery management experts.
    I'm not aware of any fishery that has been subject to such 
a rigorous comprehensive evaluation. And the MSC process is 
simply one of many internal and external reviews to conclude 
that management of the Alaska pollock fishery by the North 
Pacific Council and NOAA Fisheries has been exemplary.
    The sustainability certification of the fishery is a 
notable achievement for many reasons, not the least of which is 
the significance of Alaska pollock in the world marketplace. 
Alaska pollock production is a dominant player in the world 
whitefish market because it is valued as a consistent and 
dependable source of high quality product. The harvesting and 
primary processing of pollock in Alaska generates $800 million 
annually in revenue. The U.S., Japan, and European Union are 
important markets for Alaska pollock products.
    I want to talk a bit about keys to successful management of 
the Alaska pollock fishery. First, in 1998, Congress passed the 
American Fisheries Act principally to resolve chronic over-
capitalization in the nation's largest fishery. The AFA 
included a buyback of certain fishing vessels and created a 
framework that allowed the industry sectors to form fish 
harvesting cooperatives as part of fishery rationalization.
    In February of 2002, representatives of APA testified to 
this Subcommittee on the success of harvesting cooperatives in 
the Alaska pollock fishery. The Alaska pollock cooperatives in 
which eligible harvesters agreed voluntarily to allocate the 
available harvest on an individual basis has successfully 
resolved overcapitalization with its incidental nontarget 
species catches, and dramatically increased utilization of 
harvested resources.
    Rationalization of the pollock fishery is a critical 
component to successful fishery management. The PCC or Pollock 
Conservation Cooperative is the catcher-processor co-op reports 
that due to the deliberate pace of fishing and use of the most 
efficient vessels under a rationalized fishery, the fleet is 
producing nearly 50 percent more fish products per pound of 
fish harvested than the fleet achieved during the pre-AFA race 
for fish.
    There are also demonstrated conservation benefits of 
cooperative fishing. While the midwater trawl Alaska pollock 
fishery is always ranked as one of the world's cleanest 
fisheries, under the fishing cooperative, less than 0.5 percent 
of what is harvested is discarded. Any MSA reauthorization 
efforts should support the formation of cooperatives as part of 
the fishery rationalization program.
    There are other keys to successful management pertinent to 
reauthorization of the MSA, and I'm going to address those 
quickly in my testimony.
    First, science and management of the Alaska pollock. NOAA 
Fisheries has a long time series of reliable data on pollock 
abundance derived from hydro-acoustic surveys, bottom trawl 
surveys, and some fishery-dependent data collected under a 
comprehensive Federal fishery observer program. NOAA Fisheries' 
scientists use state-of-the-art stock assessment models in 
analyzing data to determine pollock abundance levels.
    Currently the adult spawning biomass of Alaska pollock 
exceeds 20 billion pounds. The methodologies employed by NOAA 
Fisheries' stock assessment teams and their findings are peer 
reviewed internally and then again through the groundfish plan 
team process, a review process conducted by scientists inside 
and outside of NOAA, and at which public comment is invited. 
The findings of the groundfish plan team are then considered by 
the SSC of the Council, which meets five times a year to 
forward recommendations on safe harvest levels to the Council.
    Second, enhancing and standardizing the role of SSCs 
nationally. It is well documented and perhaps well known that 
the Council traditionally defers to the SSC in setting catch 
levels at or below the safe harbor levels recommended by the 
SSC. Congress should consider amending MSA to require each 
council's SSC to propose ABC levels, acceptable biological 
catch levels, for fish species under the jurisdiction of each 
council and for councils to adopt the SSC proposal and to 
recommend catch levels no higher than the upper range of ABC 
recommendations.
    With respect to the pollock fishery in Alaska, managers and 
scientists have been using an ecosystem-based approach since 
well before the term came into common usage. Virtually every 
element of the ecosystem-based approach is in effect for the 
pollock fishery including conservative catch limits, 
comprehensive monitoring and enforcement, a precautionary 
approach to possible fishing impacts on the environment, 
bycatch reduction measures, and extensive use of marine 
protected areas.
    In formalizing and standardizing the role of SSCs in the 
process, we should not minimize the value of the independent 
external scientific review currently conducted through the 
Center for Independent Experts. However, fishery managers are 
concerned about a recent administrative action that could 
impede Council decisions based on the best scientific 
information available.
    New guidelines developed by OMB to the Information Quality 
Act have created concerns. These new provisions mandate outside 
review of certain scientific information and highly influential 
scientific assessments developed by the Agency's scientists. 
The APA urges the Subcommittee to evaluate the impact of these 
new provisions on the fisheries management decisionmaking 
process.
    My written testimony includes additional recommendations on 
the proper role of SSCs in the regional fishery management 
process, and I would encourage you to consider them.
    Third, in the TAC-setting process alone in the North 
Pacific, stakeholders of all stripes are afforded ample 
opportunity to provide public comment to the plan team, the 
SSC, the Council, the numerous committee councils that are 
formed that include stakeholders as well as when proposals are 
published in the Federal Register.
    To the extent that opportunities for public participation 
in the fishery management process are not standard across all 
regions, APA urges that this be done by law or regulation. 
Fisheries management in the North Pacific is open, transparent, 
and has resulted in a progressive ecosystem-based approach to 
management.
    In terms of final comments, NOAA Fisheries and the regional 
councils have been resolute in implementing the 1996 
Sustainable Fisheries Act. Fishery managers appear to have 
effectively addressed overfishing in regions and fisheries 
where it was occurring. Fisheries managers have also instituted 
rebuilding plans when necessary. A next step is to evaluate 
what their effective monitoring and course of mechanisms in 
place for major fisheries to ensure that responsible catch 
levels required under the Sustainable Fishery Act are 
respected.
    Two quick issues on the observer program. Two national 
policy issues if addressed could strengthen the observer 
program in the North Pacific. The first issue deals with vessel 
owner liability in the event that an observer is injured. 
Current law is not clear about the legal status of observers. 
As a result, vessel owners often purchase more than one 
insurance policy since it is not clear under which statute an 
injured observer might choose to file a suit.
    The second has to do with the Fair Labor Standards Act and 
specifically whether government observers are considered 
professionals or technicians. If the latter designation is 
applied, observers are entitled to overtime pay for time on the 
vessel even when they are not on duty. This designation, if it 
occurred, would substantially increase costs which either makes 
an observer program less practical or results in significantly 
scaled back programs.
    APA proposes that Federal observers be dedicated as 
professionals and be fairly compensated in line with their 
experience, knowledge, and level of responsibility. I would 
concur with the number of comments made earlier about the 
observer program and the privacy issues associated with that. I 
would encourage the Subcommittee in MSA reauthorization to 
merely get used to using the word aggregated when you talk 
about observer data, and I think a lot of these problems go 
away.
    Mr. Chairman, that concludes my testimony. I apologize for 
being a couple minutes long-winded. This is a big opportunity 
for us to testify in front of you. I appreciate the 
opportunity. Thank you.
    Mr. Gilchrest. Yes, sir. Thank you, Mr. Duffy.
    [The prepared statement of Mr. Duffy follows:]

       Statement of Kevin C. Duffy, At-Sea Processors Association

    Thank you, Mr. Chairman and Members of the Subcommittee for the 
invitation to testify on fisheries management successes in Alaska. I am 
Kevin Duffy, Executive Director of the At-sea Processors Association 
(APA). APA is a trade association composed of seven member companies 
that operate U.S.-flag catcher/processor vessels, primarily in the 
Bering Sea/Aleutian Islands Alaska pollock fishery. The seven companies 
own and operate 19 U.S.-flag catcher/processor vessels that are 
allocated 40 percent of the annual Bering Sea/Aleutian Islands pollock 
catch.
    The Alaska pollock fishery is a proven fishery management success 
story. In 2005, the Alaska pollock fishery was certified as sustainably 
managed by the Marine Stewardship Council (MSC), an international non-
profit organization founded by the World Wildlife Fund (WWF). The 
certification was earned through a four-year long assessment of the 
fishery against the MSC sustainability standard by a team of 
independent scientists and fishery management experts. I am not aware 
of any fishery that has been subject to such a rigorous and 
comprehensive evaluation, and the MSC process is simply one of many 
internal and external reviews to conclude that management of the Alaska 
pollock fishery by the North Pacific Council and NOAA Fisheries has 
been exemplary.
    The sustainability certification of the fishery is a notable 
achievement for many reasons, not the least of which is the 
significance of Alaska pollock in the world marketplace. Alaska pollock 
production is a dominant player in the world whitefish market because 
it is valued as a consistent and dependable source of high quality 
product. In 2005, three billion pounds of Alaska pollock will be 
harvested, accounting for approximately one-third the weight of all 
U.S. seafood landings. While few seafood consumers might know Alaska 
pollock by name, most have likely eaten pollock. Alaska pollock is the 
principal whitefish used in frozen fish products in retail stores as 
well as ``quick service'' restaurants. Alaska pollock fillets 
reportedly account for 90 percent of the 275 million McDonald's fish 
sandwiches served each year in North America. Alaska pollock is also 
processed into surimi, a minced, frozen product used to make imitation 
crab products. The harvesting and primary processing of pollock in 
Alaska generates $800 million in revenue annually. The U.S., Japan and 
the European Union are important markets for Alaska pollock products.
Keys To Successful Management of Alaska Pollock
    In February 2002, APA testified before this Subcommittee on the 
success of fish harvesting cooperatives in the Alaska pollock fishery. 
The Alaska pollock cooperatives, in which eligible harvesters agree 
voluntarily to allocate the available harvest on an individual basis, 
have successfully resolved overcapitalization, reduced incidental, non-
target species catches and dramatically increased utilization of 
harvested resources. Rationalization of the Alaska pollock fishery is a 
critical component of successful fishery management, but there are 
other keys to successful management pertinent to reauthorization of the 
Magnuson-Stevens Act that my testimony will focus on today.
Science and the Management of Alaska Pollock
    NOAA Fisheries has a long time series of reliable data on Alaska 
pollock abundance, data derived from hydro-acoustic surveys, bottom 
trawl surveys and from fishery dependent data collected under a 
comprehensive federal fishery observer program. NOAA Fisheries' 
scientists use state-of-the-art stock assessment models in analyzing 
data to determine pollock abundance levels. Currently, the adult 
spawning biomass of Alaska pollock exceeds 20 billion pounds.
    The methodologies employed by NOAA Fisheries' stock assessment 
teams and their findings are peer-reviewed internally and then again 
through the Groundfish Plan Team process, a review process conducted by 
scientists inside and outside of NOAA and at which public comment is 
invited.
    The findings of the Groundfish Plan Team are then considered by the 
North Pacific Council's Scientific and Statistical Committee (SSC). The 
SSC, which meets five times a year in conjunction with the nCouncil, 
forwards a recommendation of a safe harvest level--the Acceptable 
Biological Catch (ABC)--to the Council. The Council sets the Total 
Allowable Catch (TAC) at, and most often below, the ABC recommended by 
the scientific panel.
    While recent policy discussions focus appropriately on enhancing 
and standardizing the role of SSC's in the council process, the 
Subcommittee should be mindful that investment in science and rigorous 
internal and external review of scientific findings and methodologies 
beyond the contributions of the SSC's contributions play a significant 
role in management of the Alaska pollock fishery.
Enhancing and Standardizing the Role of SSCs Nationally
    It is well-documented and perhaps well-known that the North Pacific 
Council traditionally defers to its SSC in setting catch levels at or 
below the safe harvest level recommended by the SSC. Congress should 
consider amending the Magnuson-Stevens Act to require each council's 
SSC to propose ABC levels for fish species under the jurisdiction of 
each council and for councils to adopt the SSC proposal and to 
recommend catch levels no higher than the upper range of ABC 
recommendations.
    With respect to the Alaska pollock fishery, managers and scientists 
have been using an ecosystem-based management approach since well 
before the term came into common usage. Virtually every element of an 
ecosystem-based management approach is in effect for the Alaska pollock 
fishery, including conservative catch limits, comprehensive monitoring 
and enforcement, a precautionary approach to possible fishing impacts 
on the environment, bycatch reduction measures and extensive use of 
marine protected areas.
    The above progressive fishery management measures adopted by the 
North Pacific Council were reviewed by the Council's SSC, including 
analyses of proposed measures required under the Magnuson-Stevens Act 
and the National Environmental Policy Act (NEPA). APA recommends that 
either through law or regulation SSCs be directed to peer review 
analyses pertinent to the development of all fishery management 
measures developed by councils.
    In formalizing and standardizing the role of SSCs in the regional 
fishery management council process, we should not minimize the value of 
independent external scientific review. Currently, peer review teams 
selected by the Center for Independent Experts (CIE) at the University 
of Miami provide valuable advice to NOAA Fisheries on major issues, 
including reviews of stock assessment procedures in the North Pacific 
and important new research results on possible fishing impacts on 
Steller sea lion populations.
    NOAA Fisheries and the North Pacific Council cooperate on 
integrating science seamlessly into the fishery management process, but 
fishery managers are concerned about a recent administration action 
that could impede Council decisions based on the best scientific 
information available. New guidelines developed by the Office of 
Management and Budget (OMB) to the Information Quality Act (sometimes 
called the Data Quality Act) have created concerns. OMB's revised 
guidelines mandate outside review of certain scientific information and 
``highly influential'' scientific assessments developed by agency 
scientists. While regular external review of major scientific 
developments that could provide the basis for altering the regulatory 
regime is appropriate and desirable, APA urges the Subcommittee to 
evaluate the impact on the fishery management system of OMB's recent 
action. Fisheries management in the North Pacific is based on the best 
scientific information available and is intended to be adaptive. If the 
revised Information Quality Act guidelines require external review of 
information and assessments routinely peer reviewed by the SSC, the 
process would suffer from increased costs, lack of timeliness for 
incorporating new data into the decision making process and delays in 
the regulatory process.
    As Congress considers the proper role for SSCs in the regional 
fishery management council process, APA offers the following comments 
as well:
    <bullet>  To ensure that SSC members are knowledgeable about the 
fisheries being managed, new SSC members should be nominated by the 
existing SSC members and appointed by the relevant Council.
    <bullet>  SSC candidates should be federal or state employees or in 
academia.
    <bullet>  If SSC members are to be compensated, Congress must 
increase funding for councils since councils are already under-funded 
to meet mandates required by law.
    <bullet>  SSC members should be free from conflicts of interest, 
including affiliations with non-governmental organizations (NGOs) or 
commercial or sport fishing interests.
Transparent Public Process
    In February 2005, the North Pacific Council adopted a fishery 
management plan amendment closing 280,000 square nautical miles of 
ocean to bottom trawling and six additional areas with especially high 
density coral and sponge habitat to all bottom contact fishing gear. 
Oceana, an environmental stakeholder group hailed the Council's action 
in a media release that read in part,
        ``In an historic move for our nation's fisheries, the North 
        Pacific Fishery Management Council today unanimously adopted 
        Oceana's Approach to protect nearly one million square 
        kilometers of seafloor, including the exquisite coral gardens 
        of the Aleutians...Three years and 33,000 public comments 
        later, due to the diligence of Oceana and the vision of the 
        (Council), the Fisheries Service will...protect the Aleutian 
        Island (sic) coral gardens...''
    There is no shortage of irony that Oceana, which was created by the 
Pew Trusts environmental program as the litigation arm of its oceans 
advocacy program, provides such a clear example of the public's 
opportunity to effectively shape policy by participating in the 
rulemaking process, but it is the case nonetheless.
    In the TAC setting process alone in the North Pacific, stakeholders 
of all stripes are afforded public comment opportunities during the 
Plan Team, SSC and Council processes as well as when the proposed rule 
is published in the Federal Register for comment. Beyond that, 
stakeholders are provided opportunities to serve on the Council and on 
its Advisory Panel. Both bodies include a wide range of interested 
stakeholders, including Alaska natives, NGO representatives, sport 
fishermen, onshore and offshore processors, and competing commercial 
fishing interests using longline, pot and trawl gear. The Secretary, in 
making appointments to the Council, and the Council in making 
appointments to its Advisory Panel must accommodate all of the above 
interests while also considering geographic balance among three states 
and disparate regions within Alaska.
    To the extent that opportunities for public participation in the 
fisheries management process are not standard across all regions, APA 
urges that this be done by law or regulation. Fisheries management in 
the North Pacific is an open, transparent public process and that 
process has resulted in a progressive, ecosystem-based approach to 
management. We do not favor changing this successful system, but if it 
can be replicated elsewhere there is much to recommend it.
Final Comments and Recommendations
    NOAA Fisheries and the regional councils have been resolute in 
implementing the 1996 Sustainable Fisheries Act (SFA). Fishery managers 
appear to have effectively addressed overfishing in regions and 
fisheries where it was occurring. Fishery managers have also instituted 
rebuilding plans where necessary. A next step is to evaluate whether 
effective monitoring and enforcement mechanisms in place for major 
fisheries to ensure that responsible catch levels required under the 
SFA are respected.
    Earlier in my testimony, I referenced the comprehensive federal 
fishery observer program in effect for the North Pacific groundfish 
fisheries. In the BS/AI pollock fishery, every vessel greater than 125 
feet in length carries a fisheries observer 100 percent of the time 
while fishing. There are two federally-certified observers on pollock 
catcher/processors. The $13 million annual cost of this program is 
borne by fishermen and processors.
    There are two national policy issues that, if addressed, could 
strengthen the North Pacific fishery observer program. The first issue 
deals with vessel owner liability in the event that an observer is 
injured. Current law is not clear about the legal status of observers. 
As a result, vessel owners often purchase more than one insurance 
policy since it is not clear under which statute an injured observer 
might choose to file a lawsuit. Congress should clarify the status of 
observers and help contain insurance costs for vessel owners.
    The second observer related issue pertains to observers' status 
under the Fair Labor Standards Act, specifically, whether government 
observers are ``professionals'' or ``technicians.'' If the latter 
designation is applied, observers are entitled to overtime pay for time 
on the vessel even when they are not on duty. Obviously, such a 
designation substantially increases program costs, which either makes 
an observer program less practical or results in significantly scaled 
back levels of observer coverage. APA proposes that federal observers 
be designated as ``professionals'' and be fairly compensated in line 
with their experience, knowledge and level of responsibility.
    Beyond observer programs, monitoring and enforcement is being 
enhanced in Alaska and other regions through application of various 
technologies, including onboard cameras and Vessel Monitoring System 
(VMS) units. These technologies can often offer significant cost 
savings over labor intensive observer programs, but regulations 
requiring onboard surveillance technologies raise privacy issues, among 
other concerns. We urge the Subcommittee to consider necessary changes 
in the Magnuson-Stevens Act to promote cost-effective methods that 
promote fisheries monitoring and enforcement without infringing upon 
individuals' privacy rights.
    That concludes my testimony, Mr. Chairman. Thank you, for the 
opportunity to testify on Alaska's fisheries management successes and 
on efforts to further improve living marine resource management in the 
region and nationally. I am pleased to answer any questions from the 
Subcommittee.
                                 ______
                                 
    Mr. Gilchrest. Mr. Asicksik.

STATEMENT OF EUGENE ASICKSIK, PRESIDENT AND EXECUTIVE DIRECTOR, 
         NORTON SOUND ECONOMIC DEVELOPMENT CORPORATION

    Mr. Asicksik. Mr. Chairman, and, for the record, members of 
the Subcommittee that aren't here, I'm Eugene Asicksik, 
President and Executive Director of Norton Sound Economic 
Development Corporation, one of the six CDQ groups that are 
participating in the Western Alaska Community Development CDQ 
program. However, I am testifying today on behalf of all six of 
the groups. Each of the groups may be submitting its own 
written testimony to the Subcommittee noting that you mentioned 
earlier that there would be a 60-day open period.
    In 1976, Congress enacted the Magnuson-Stevens Fishery 
Conservation and Management Act. The Act directed the Secretary 
of Commerce to phase commercial fishing by foreign fishermen 
out of the 200-mile exclusive economic zone, EEZ, and to 
regulate commercial fishing conducted by United States 
fishermen in a manner that would ensure the biological health 
and long-term sustainability of the United States fishery 
resource.
    To assist the Secretary to achieve those objectives, the 
Act established regional councils to advise the Secretary 
regarding the discharge of these regulatory responsibilities. 
For the Bering Sea and North Pacific Ocean areas of the EEZ, 
the Act established the North Pacific Fishery Management 
Council. Over the years, the North Pacific Council has done an 
outstanding job particularly in working with representatives of 
all sectors of the Bering Sea and North Pacific Ocean, 
commercial fisheries to develop innovative conservation and 
management measures that have reduced wastes, protected fishery 
resources, marine mammals, and rationalizing the fisheries for 
the benefit of fishermen and the health of the resource.
    To further assist the Secretary, the Magnuson-Stevens Act 
contained national standards with which the Secretary's 
regulations of commercial fishing inside the EEZ must comply. 
One of the most important of those standards is National 
Standard 4. As the phase-out of foreign fishing inside the EEZ 
occurred, National Standard 4 directed the Secretary to 
allocate the new fishing opportunities among United States 
fishermen in a manner that would be fair and equitable to all 
United States fishermen.
    Unfortunately, between 1977 and 1992, the Secretary did not 
afford United States fishermen who live in small rural 
communities in Western Alaska that are scattered along the 
coast of the Bering Sea a fair and equitable opportunity to 
participate in the new Bering Sea commercial fisheries. When 
that fact became apparent in 1992, the North Pacific Council 
urged the Secretary to establish the Western Alaska Community 
Development Quota Program and to authorize Western Alaska 
communities eligible to participate in the program to harvest 
annually 7.5 percent of the total allowable catch of the Bering 
Sea pollock. At the further urging of the North Pacific 
Council, the Secretary soon thereafter expanded the CDQ program 
to include first halibut and sablefish, and then crab and other 
Bering Sea groundfish species.
    In the mid-1990s, a question was raised regarding whether 
the Magnuson-Stevens Act delegated the Secretary's authority to 
promulgate the regulations that had established the CDQ 
program. At Congressman Young's urging, in 1996, Congress 
responded including a provision in the Sustainable Fisheries 
Act that added Section 305(i)(1) to the Magnuson-Stevens Act. 
Section 305(i)(1) not only authorized but required the 
Secretary to establish the CDQ program.
    In 1998, when it rationalized the Bering Sea pollock 
fishery by enacting the American Fisheries Act, Congress 
included a provision in that Act which increased the 7.5 
percent to 10 percent, the percentage of total allowable catch 
of the Bering Sea pollock that the Secretary allocates annually 
to the CDQ program. The regulation implementing the CDQ program 
created the following regulatory framework.
    To participate in the CDQ program, each of the 65 eligible 
Western Alaska communities must join a CDQ group. The group 
then submits a community development plan first to the State of 
Alaska, then to the Secretary. The plan identifies the amount 
of the percentage of total allowable catch or guideline harvest 
levels of each Bering Sea fishery that had been allocated to 
the CDQ program that the group wishes to harvest annually.
    The plan also describes the CDQ projects the groups will 
undertake while the plan is in effect. The State of Alaska 
reviews and then makes recommendations to the Secretary 
regarding each plan including a recommendation regarding the 
harvest allocation. In 1992, the eligible communities organized 
themselves into six CDQ groups. The groups vary widely in terms 
of numbers of member communities. Similarly the total number of 
community residents that a group represents also varies widely 
from group to group.
    In 1992, when the first community development plans were 
submitted and approved, none of the CDQ groups had any capital 
for that reason. The plan simply described how the groups would 
contract with established fishing companies to harvest the 
groups' pollock allocation, and how the groups would use oil 
revenues they received from those contracts to fund the CDQ 
projects that would benefit their member communities.
    Once the CDQ groups began accumulating capital, they began 
purchasing various percentage of equity interest in fishing 
vessels, onshore and offshore fish processing companies, and 
other Bering Sea fishery-related businesses, as well as 
starting fishery-related businesses of their own. As a 
consequence in addition to oil revenue, the groups now also use 
the revenue their investments generate to further local 
economic development by financing additional investments and by 
providing employment, economic, education, and social benefits 
to the approximately 28,000 residents of their member 
communities.
    For example, since 1992, the six groups have used those 
revenues to provide nearly $125 million in wages as well as 
educational and training benefits. I have with me today Teresa 
Asicksik who is a young student taking advantage of one of our 
scholarship programs and studying marine biology at Florida 
State University.
    Mr. Chairman, while all six of the CDQ groups are sharing 
in that success, the CDQ program has grown and matured much 
faster than many of us initially envisioned. As a result, the 
program has outgrown the administrative structure that the 
Secretary created in 1992. However, the six groups have had 
difference in views regarding how the administrative structure 
of the program should be modified.
    For example, should CDQ groups be encouraged to concentrate 
their future investments into equity ownership interests in the 
Bering Sea fishing companies, or should they be encouraged to 
diversify into non-fishery holdings? Is external oversight the 
best method of governance for the CDQ groups, or is governance 
from the groups' member communities more appropriate?
    In the past, the ability of the CDQ groups to make certain 
types of investments and to provide certain benefits to member 
communities has been subjected to significant regulatory 
restrictions. Should those restrictions be reduced or 
eliminated and the board or directors of the CDQ groups allowed 
to make their own decisions regarding the mix of investments 
and benefits that will best continue the objectives of the CDQ 
program.
    In that regard, the National Marine Fisheries Service 
recently concluded that the Secretary's regulations do not 
require the CDQ projects that the groups undertake to have a 
fishery-related purpose as along as the project will advance 
the economic and social development of a group's member 
community or communities.
    Should Section 305(i)(1) of the Magnuson-Stevens Act or the 
Secretary's regulation be amended to restrict the amount of 
sorts of revenue that the CDQ groups may use to finance CDQ 
projects that do not have a fishery-related purposes?
    Another important question is whether the fishing 
allocation for which the Secretary now requires the CDQ groups 
to compete, should be made permanent. All six of the CDQ groups 
agree that stable fishing allocations would be beneficial, but 
that the groups have had differing views regarding how best to 
achieve the important objectives. To try and develop a common 
position, I and other representatives of the six CDQ groups 
have been meeting to discuss those and related questions.
    We have set August 15th as our target date to reach 
agreement on as many of the issues as we can. I am hopeful that 
our discussions will produce a recommendation to the 
Subcommittee regarding an amendment to Section 305(i)(1) of the 
Magnuson-Stevens Act that all of the CDQ groups can support.
    Also at the urging of the North Pacific Council, in April, 
Alaska Governor Frank Murkowski created a blue ribbon panel 
which is chaired by Council member Edward Rasmuson and which 
will be submitting recommendations to Governor Murkowski 
regarding many of those same issues. I and the other 
representatives of the six CDQ groups look forward to working 
with the panel as well as to evaluate the panel's 
recommendation.
    In conclusion, Mr. Chairman, on behalf of all six of the 
CDQ groups, I would like to express our appreciation to you and 
other members of the Subcommittee for coming to Alaska and for 
your ongoing interest in the CDQ program. We also would like to 
particularly express our appreciation to Congressman Young, 
even though he is not here, for his steadfast and long-time 
support of the CDQ program. I'd be happy to answer any 
questions. Thank you.
    Mr. Gilchrest. Thank you very much, Mr. Asicksik.
    [The prepared statement of Mr. Asicksik follows:]

Statement of Eugene Asicksik on Behalf of the Aleutian Pribilof Island 
  Community Development Association, Bristol Bay Economic Development 
   Corporation, Central Bering Sea Fishermen's Association, Coastal 
 Villages Region Fund, Norton Sound Economic Development Corporation, 
           and Yukon Delta Fisheries Development Association

    Mr. Chairman and members of the Subcommittee, I am Eugene Asicksik. 
I am President and Executive Director of the Norton Sound Economic 
Development Corporation, one of the six groups that are participating 
in the western Alaska community development quota (CDQ) program. 
However, I am testifying today on behalf of all six of the groups.
    Each of groups may be submitting its own written testimony to the 
Subcommittee. For that reason, I would like to request that the hearing 
record be kept open for a reasonable period of time in order to allow 
the groups to do so.
    In 1976 Congress enacted the Magnuson-Stevens Fishery Conservation 
and Management Act. The Act directed the Secretary of Commerce to phase 
commercial fishing by foreign fishermen out of the 200-mile exclusive 
economic zone (EEZ), and to regulate commercial fishing conducted by 
United States fishermen in a manner that would ensure the biological 
health, and long term sustainability, of United States fishery 
resources.
    To assist the Secretary achieve those objectives, the Act 
established regional councils to advise the Secretary regarding the 
discharge of his regulatory responsibilities. For the Bering Sea and 
North Pacific Ocean area of the EEZ, the Act established the North 
Pacific Fishery Management Council. Over the years, the North Pacific 
Council has done an outstanding job particularly in working with 
representatives of all sectors of the Bering Sea and North Pacific 
Ocean commercial fisheries to develop innovative conservation and 
management measures that have reduced waste, protected fishery 
resources and marine mammals, and ``rationalized'' the fisheries for 
the benefit of fishermen and the health of the resource.
    To further assist the Secretary, the Magnuson-Stevens Act contains 
national standards with which the Secretary's regulation of commercial 
fishing inside the EE2 must comply. One of the most important of those 
standards is national standard no. 4.
    As the phase-out of foreign fishing inside the EEZ occurred, 
national standard no. 4 directed the Secretary to allocate the new 
fishing opportunities among United States fishermen in a manner that 
would be ``fair and equitable'' to all United States fishermen.
    Unfortunately, between 1977 and 1992 the Secretary did not afford 
United States fishermen who live in small rural communities in western 
Alaska that are scattered along the coast of the Bering Sea a ``fair 
and equitable'' opportunity to participate in the new Bering Sea 
commercial fisheries.
    When that fact became apparent, in 1992 the North Pacific Council 
urged the Secretary to establish the western Alaska community 
development quota program and to authorize western Alaska communities 
eligible to participate in the program to harvest annually 7.5 percent 
of the total allowable catch of Bering Sea pollock. At the further 
urging of the North Pacific Council, the Secretary soon thereafter 
expanded the CDQ program to include, first halibut and sablefish, and 
then crab and other Bering Sea groundfish species.
    In the mid-1990s, a question was raised regarding whether the 
Magnuson-Stevens Act delegated the Secretary authority to promulgate 
the regulations that had established the CDQ program. At Congressman 
Young's urging, in 1996 Congress responded by including a provision in 
the Sustainable Fisheries Act that added section 305(1) (1) to the 
Magnuson-Stevens Act. Section 305(i)(1) not only authorized, but 
required, the Secretary to establish the CDQ program.
    In 1998 when it rationalized the Bering Sea pollock fishery by 
enacting the American Fisheries Act, Congress included a provision in 
that Act which increased from 7.5 percent to 10 percent the percentage 
of the total allowable catch of Bering Sea pollock that the Secretary 
allocates annually to the CDQ program.
    The regulations implementing the CDQ program create the following 
regulatory framework:
    To participate in the CDQ program, each of the 65 eligible western 
Alaska communities must join a ``CDQ group.'' The group then submits a 
community development plan, first to the State of Alaska, and then to 
the Secretary.
    The plan identifies the amount of the percentage of the total 
allowable catch or guideline harvest level of each Bering Sea fishery 
that has been allocated to the CDQ program that the group wishes to 
harvest annually. The plan also describes the ``CDQ projects'' the 
group will undertake while the plan is in effect.
    The State of Alaska reviews and then makes recommendations to the 
Secretary regarding each plan, including a recommendation regarding the 
harvest allocations.
    In 1992, the eligible communities organized themselves into six CDQ 
groups. The groups vary widely in terms of the number of member 
communities. For example, the community of St. Paul is the only member 
of the Central Bering Sea Fishermen's Association, while fifteen 
communities are members of the Norton Sound Economic Development 
Corporation. Similarly, the total number of community residents that a 
group represents also varies widely from group to group.
    In 1992 when the first community development plans were submitted 
and approved, none of the CDQ groups had any capital. For that reason, 
the plans simply described how the groups would contract with 
established fishing companies to harvest the groups' pollock 
allocations, and how the groups would use the royalty revenue they 
received from those contracts to fund CDQ projects that would benefit 
their member communities.
    Once the CDQ groups began accumulating capital, they began 
purchasing various percentages of equity interests in fishing vessels, 
onshore and offshore fish processing companies, and other Bering Sea 
fisheries-related businesses as well as starting fisheries-related 
businesses of their own. As a consequence, in addition to royalty 
revenue, the groups now also use the revenue their investments generate 
to further local economic development by financing additional 
investments and by providing employment, economic, educational, and 
social benefits to the approximately 28,000 residents of their member 
communities. For example, since 1992 the six CDQ groups have used those 
revenues to provide nearly $125 million in wages, as well as 
educational and training benefits.
    Mr. Chairman, while all six of the CDQ groups are sharing in that 
success, the CDQ program has grown and matured much faster than many of 
us initially envisioned. As a result, the program has outgrown the 
administrative structure that the Secretary created in 1992. However, 
the six CDQ groups have had differing views regarding how the 
administrative structure of the program should be modified.
    For example, should CDQ groups be encouraged to concentrate their 
future investments into equity ownership interests in Bering Sea 
fishing companies, or should they be encouraged to diversify into non-
fishery holdings? Is external oversight the best method of governance 
for the CDQ groups or is governance from the groups' member communities 
more appropriate?
    In the past, the ability of CDQ groups to make certain types of 
investments and to provide certain benefits to member communities has 
been subject to significant regulatory restriction. Should those 
restrictions be reduced or eliminated and the boards of directors of 
the CDQ groups allowed to make their own decisions regarding the mix of 
investments and benefits that will best achieve the objectives of the 
CDQ program?
    In that regard, the National Marine Fisheries Service recently 
concluded that the Secretary's regulations do not require the CDQ 
projects that the groups undertake to have a fisheries-related purpose 
as long as the projects will advance ``the economic or social 
development'' of a group's member community or communities. Should 
section 305(i)(l) of the Magnuson-Stevens Act, or the Secretary's 
regulations, be amended to restrict the amount or source of revenue 
that the CDQ groups may use to finance CDQ projects that do not have a 
fisheries-related purpose?
    Another important question is whether the fishing allocations for 
which the Secretary now requires the CDQ groups to compete should be 
made permanent? All six of the CDQ groups agree that stable fishing 
allocations would be beneficial. But the groups have had differing 
views regarding how best to achieve that important objective.
    To try and develop a common position, I and other representatives 
of the six CDQ groups have been meeting to discuss those and related 
questions. We have set August 15 as our target date to reach agreement 
on as many as issues as we can. I am hopeful that our discussions will 
produce a recommendation to the Subcommittee regarding an amendment to 
section 305(i)(1) of the Magnuson-Stevens Act that all of the CDQ 
groups can support.
    Also, at the urging of the North Pacific Council, in April Alaska 
Governor Frank Murkowski created a ``blue ribbon'' panel, which is 
chaired by Council member Edward Rasmuson and which will be submitting 
recommendations to Governor Murkowski regarding many of those same 
issues. I and other representatives of the six CDQ groups look forward 
to working with the panel, as well as to evaluating the panel's 
recommendations.
    In conclusion, Mr. Chairman, on behalf of all six of the CDQ 
groups, I. would like to express our appreciation to you and the other 
members of the Subcommittee for coming to Alaska and for your ongoing 
interest in the CDQ program. We also would like to particularly express 
our appreciation to Congressman Young for his steadfast and longtime 
support for the CDQ program.
    I would be happy to answer any questions that you or other members 
of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Thomson.

        STATEMENT OF ARNI THOMSON, EXECUTIVE DIRECTOR, 
                     ALASKA CRAB COALITION

    Mr. Thomson. Good afternoon, Mr. Chairman.
    Mr. Gilchrest. Excuse me. I will pass that along to 
Congressman Young, your kind remarks.
    Mr. Thomson.
    Mr. Thomson. Good afternoon, Chairman Gilchrest and Mr. 
Whaley. On behalf of the Alaska Crab Coalition, I'd like to 
express appreciation for the opportunity to provide testimony 
on this vitally important subject of fisheries management 
successes in Alaska and reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act.
    My name is Arni Thomson. I am executive director of the 
Alaska Crab Coalition. The ACC is the longest standing 
organization of Bering Sea crab fishing vessel owners. Our 
organization has worked closely with the North Pacific Council, 
the State of Alaska, Congress, the industry, conservation 
groups, and local communities in the effort to achieve 
improvements for the basic fabric of the MSA and to adopt our 
national laws to the unique circumstances of fisheries off the 
coast of Alaska.
    Beginning in 1992, we strongly supported bycatch reduction 
amendments to the MSA. Twelve years ago on August 20th, 1993, 
here in Kodiak High School, I testified before the U.S. Senate 
Committee on Commerce, Science, and Transportation in concert 
with like-minded organizations to kick off an industry effort 
to achieve enactment of national standards to reduce bycatch 
and to improve safety that culminated in the enactment of 
National Standard 9 and 10 to the Magnuson-Stevens Act in 1996.
    Our recommendations even back then included support for 
development of an individual vessel incentive program, known as 
a VIP, to reduce bycatch in the trawl fisheries. The first 
sector-wide rights-based management program is yet to be 
developed in the North Pacific. Later on, in 2001 and 2004, 
following the model of the shore-based AFA pollock program, we 
spearheaded crab harvesters' support for the legislation that 
authorized and provided for the implementation of the new crab 
rationalization program.
    The ACC ranks the 3-pie voluntary co-op program for BSA 
crab fisheries among the most significant achievements in 
fisheries management. The program adopted on a Council vote of 
11-0, representatives of all three states, Alaska, Washington, 
and Oregon, after extensive public input, represents a fair 
balance of harvester, processor, and community interests. This 
compromise achieves a fundamental goal of ending the race for 
crab that killed our fishermen, accelerated bycatch to the 
detriment of our resource base, and hurt the economies of the 
fisheries for all concerned.
    There are six key elements to the program: 1) extended 
fishing seasons to avoid dangerous fishing conditions and 
improve resource utilization; 2) quotas to fishermen, 
processors, and communities, and regional landing requirements 
to provide economic stability; 3) mandatory binding arbitration 
to settle price disputes between harvesters and processors and 
to ensure competitive market prices; 4) comprehensive data 
collection and program review to assess the success of the 
rationalization program and to provide oversight on the revenue 
share ratio between harvesters and processors.
    We note that Congress needs to complete its work on the 
BSAI crab program by complying with the Federal Credit Reform 
Act to authorize crab IFQ loans that will benefit skippers and 
crewmen.
    Today management of major fisheries including BSAI crab 
under the jurisdiction of the North Pacific Council stands as a 
model for the nation. This success evidences the fundamental 
soundness of the Magnuson-Stevens Act and the effectiveness of 
Congress in adopting our national fisheries law as 
circumstances warrant.
    We encourage the Council to adopt preferred alternatives to 
the non-pollock groundfish fisheries of the Bering Sea and 
Aleutian Islands and the major groundfish fisheries of the Gulf 
of Alaska at the earliest possible date.
    It is exceedingly important the new BSAI program for non-
pollock groundfish fisheries include an individual vessel 
incentive program, VIP, allowing allocations of bycatch species 
to cooperatives to reduce bycatches of crab and halibut with a 
phase-in ratchet-down program at the current allowances of 
those species, and these are under consideration in that 
program.
    Rights-based management programs in the North Pacific have 
proven to reduce bycatch. In light of the North Pacific Council 
record of success, the ACC urges caution on the part of 
Congress in considering any major changes to the MSA. We 
believe the first principle should be to do no harm. The 
success of fisheries management including most notably those in 
the EEZ off Alaska should be preserved. Accordingly, Congress 
should take great care to ensure that any new standards or 
procedures do not upset existing successful programs, waste 
scarce management resources, impose heavier costs on industry, 
or spawn new litigation.
    By way of example, we believe that ecosystem management 
should be integrated into existing regional management plans 
not established as a separate nationally standardized process. 
The ACC commends the Chairman for holding this hearing and 
looks forward to working closely with him, Congressman Young, 
and other friends from Congress as we approach reauthorization 
of the Magnuson-Stevens Act. Our fishing industry in fishery-
dependent communities are fortunate to have representatives in 
Congress without whose dedication and effectiveness the success 
of our fisheries management could not have been achieved.
    Thank you very much for the opportunity to testify.
    Mr. Gilchrest. Thank you, Mr. Thomson.
    [The prepared statement of Mr. Thomson follows:]

            Statement of Arni Thomson, Executive Director, 
                         Alaska Crab Coalition

    Mr. Chairman, Congressman Young:
    The Alaska Crab Coalition (``ACC''), a trade association 
representing the owners of Bering Sea crab fishing vessels, as well as 
service and supply companies in the fishing industry, is grateful to 
have been invited to testify at this important hearing on fisheries 
management successes in Alaska and reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act (``MSA'').
Summary
    I think it beyond challenge to say that the major fisheries of the 
Exclusive Economic Zone in the area under the jurisdiction of the North 
Pacific Fishery Management Council (``Council'') are models of 
fisheries conservation and management. This success reflects the fact 
that the standards and procedures of the MSA, in accordance with which 
those fisheries are managed, are fundamentally sound, and that Congress 
has been superbly effective in adapting the MSA to the unique and 
widely differing circumstances of the major fisheries off the coast of 
Alaska. The United States fishing industry is fortunate, indeed, to 
have the benefit of the MSA and of the continuing dedication of you, 
Chairman Gilchrest, and you, Congressman Young, as well as that of 
other distinguished Members of Congress, to the conservation and 
management of our Nation's fisheries. And, in view of the venue of 
today's hearing, I think it especially appropriate to pay tribute to 
Senator Ted Stevens for his longstanding leadership in fisheries 
affairs. The United States fishing industry, the fishery-dependent 
communities, and the American public at large, owe him an enormous debt 
of gratitude.
    Since its inception, in 1986, the ACC has worked closely with the 
North Pacific Fishery Management Council (``Council''), the State of 
Alaska, the Department of Commerce (``Commerce''), and Congress in the 
development and implementation of an array of statutes, regulations, 
and policies aimed at the improvement of safety, conservation, 
efficiency, and fairness in the Bering Sea and Aleutian Islands 
(``BSAI'') crab fisheries. Over the years, the challenges have been 
enormous: the highest occupational fatality rate in the Nation, 
resources in severe difficulty, the industry on its financial knees, 
and communities at serious economic risk. The Congress, the Council, 
the State of Alaska, and Commerce have risen to these challenges.
    Through amendments to the MSA in 1992, Congress set us and the 
North Pacific Fishery Management Council, with the leadership of the 
State of Alaska, on the path that led to a series of innovative 
approaches and industry compromises to addressing the adverse impacts 
of excessive bycatch, a problem that long vexed the crab fisheries in 
the BSAI, where bottom trawling wreaked havoc on female and juvenile 
crab. Then, again, in 1996, Congress elevated the priority of bycatch 
control, by enacting National Standard Nine. In that same year, 
Congress placed safety at the forefront, along with conservation, by 
the enactment of National Standard 10. The ACC, in concert with like-
minded organizations, was proud to provide Congress with proposals that 
eventually were reflected in these vitally important amendments. In 
addition, Congress included authority for capacity reduction 
``buyback'' programs. The ACC supported that legislation and the 
eventual implementation that resulted in removal of ten percent of the 
fishing capacity in the BSAI crab fisheries.
    Then, in 2004, Congress crowned its efforts, for the benefit of the 
BSAI crab fisheries, with enactment of legislation to authorize and 
implement the rationalization plan (``Plan'') that the Council adopted 
in accordance with far-seeing legislation enacted several years 
earlier. This achievement, with the cooperation and support of the 
State of Alaska and Commerce, was possible only because the standards 
and procedures of the MSA were fundamentally sound, and Congress could 
be counted upon to adapt the Act, as needed, to the unique 
circumstances of the BSAI crab fisheries.
    What sets the Plan apart from all previous management responses, 
and what delivers the long-sought after solutions, is its comprehensive 
approach to addressing the root cause of the problems plaguing these 
fisheries--the race for crab. Through implementation of the Plan, in 
October of this year, excess harvesting and processing capacity will be 
removed from the BSAI crab fisheries in a way that will be fair to 
harvesters and processors, alike, and will avoid economic dislocation 
of dependent communities. Through a carefully balanced system of 
harvester and processor quota shares and regional delivery provisions, 
a sustainable equilibrium of production capacity and resource 
availability will be achieved, markets will be stabilized, safety will 
be improved, and communities will be protected. It is true that the 
Plan encountered some spirited opposition, but the debate only served 
to highlight the foresight and resoluteness of Congress, and the 
effectiveness of the Council process.
    The ACC urges Congress to proceed carefully with reauthorization of 
the MSA. The successes in Alaskan fisheries demonstrate the fundamental 
soundness of the Act. The unique circumstances of particular Alaskan 
fisheries, including BSAI crab, have been well accommodated by 
judicious amendments to the MSA. Accordingly, the ACC maintains that 
any further amendments to the MSA be crafted to avoid upsetting the 
basic fabric of the Act and the provisions specific to particular 
fisheries. In short, we would urge that BSAI crab fisheries be 
grandfathered against any new requirements that could result in costly 
and potentially damaging revisions to the Plan as only recently 
authorized and implemented by Congress in the MSA.
Background and Need for BSAI Crab Rationalization
    The BSAI crab fisheries have long presented daunting challenges to 
fisheries managers, our industry, and dependent communities. Safety 
concerns have necessarily attended fishing operations in the extremely 
harsh natural environment of the Bering Sea and Aleutian Islands area. 
Conservation became an issue, as soon as major fishing fleets began to 
exploit the resource. Allocation issues arose for our fishermen, when 
we first sought to ``Americanize'' the fisheries, by wresting control 
from the foreign fleets, and later, after such issues arose again, when 
that goal was achieved and our domestic harvesting exceeded the 
available resources.
    As communities became dependent upon BSAI harvesting and 
processing, the scope and complexity of economic and social issues 
greatly increased. The full spectrum of these challenges became less 
and less manageable, as BSAI crab resources suffered declines and 
failures under enormous fishing pressures.
    Following much debate and the rejection of a harvester-only 
individual quota program, a license limitation program (``LLP'') was 
adopted in 1995 and implemented in 1998, with the objective of slowing, 
if not halting, increased harvesting capacity in the fisheries. Of 
course, this was only a halfway measure, as it failed to prevent 
``capital stuffing,'' that is, additional investments increasing the 
efficiency of the limited number of vessels that were permitted to 
operate in the fisheries. Limits on the number of pots per vessel and 
various other management measures, including time and area closures, 
also failed to solve the fundamental problem of excessive harvesting 
capacity. The race for fish intensified.
    In the superheated race for crab, these measures had perverse 
safety, conservation, and economic effects. Crab pots are designed to 
``soak'' for long enough to allow all the bait to be consumed, and for 
the juveniles to leave, through escape panels, in search of other 
forage. Fishing seasons comprised of a few days, coupled with pot 
limits, led to a spiral of increased risk to the safety of fishermen 
and to the sustainability of the resources, as frantic efforts were 
made to maximize the numbers of pot lifts in short seasons. In these 
circumstances, juvenile crab feeding on bait, would still be in the 
pots at the time they were lifted, and a high percentage of juveniles 
would perish, as a result of the changes in temperature, when they 
ascended and descended through the water column. The future of the crab 
fisheries was dying with its juveniles. Many independent vessel owners 
were left hanging precariously on the brink of bankruptcy. Worst of 
all, the BSAI crab fishery remained the most dangerous occupation in 
the United States.
    In 1996, while the LLP was wending its way through the bureaucracy 
toward implementation, the Sustainable Fisheries Act was enacted. As 
noted, above, it included two measures first proposed by the ACC, new 
national standards to limit and reduce bycatch, and to improve safety, 
and a third measure supported by the organization, authority for the 
federal government to conduct industry-funded fishing capacity 
buybacks. However, to the disappointment of the ACC, the Act also 
included a four-year moratorium on new individual fishing quotas.
    Bering Sea pollock took center stage in the North Pacific, and in 
October 1998, the American Fisheries Act (``AFA''), established a 
unique system of harvester/processor coops for that fishery, including 
a 90/10 formula for mandatory deliveries to exclusive processors. Most 
of the Council's time during the ensuing 18 months was consumed with 
resolving those issues left to its jurisdiction by the new law.
    During the year 2000, the crab industry considered various forms of 
coops, modeled after the shorebased AFA coops, and a buyback. However, 
these potential management responses to the crisis in the BSAI crab 
fisheries failed to achieve a critical mass of support.
    At the close of the year 2000, the moratorium on individual fishing 
quotas was extended for an additional two years. However, in the 
Consolidated Appropriations Act of 2001 (P.L. 106-554), Congress also 
enacted special legislation that served as a guidepost for future BSAI 
crab management:
        ...The North Pacific Fishery Management Council shall examine 
        the fisheries under its jurisdiction, particularly the Gulf of 
        Alaska groundfish and Bering Sea crab fisheries, to determine 
        whether rationalization is needed. In particular, the North 
        Pacific Council shall analyze individual fishing quotas, 
        processor quotas, and quotas held by communities. The analysis 
        should include an economic analysis of the impact of all the 
        options on communities and processors as well as the fishing 
        fleets. The North Pacific Council shall present its analysis to 
        the appropriations and authorizing committees of the Senate and 
        House of Representative in a timely manner.
    In January of the following year, the Council formally constituted 
a 21-member Crab Rationalization Committee that represented all 
affected interests, including the crab industry organizations, 
dependent communities, and the environmental community. The work of 
that committee culminated on March 23 of that same year with 
endorsement, by a two-thirds vote, of a system that would provide 
quotas for both fishermen and processors, as well as regionalized 
landing requirements. This served as the basis for the Council's 
eventual adoption of a ``three-pie voluntary cooperative program.''
    On June 10, 2002, the Council adopted the Plan by a unanimous vote 
of 11-to-0. The very fact that the long public debate leading up to 
this decision was spirited and even rancorous at times demonstrated 
that the Council's proceedings were a model of public participation, 
with input received from every party who had a perspective to bring to 
the table. There were countless hours of deliberation in the Council 
and its committees, as well as within and among interested and affected 
individuals and organizations over a period of more than two-and-one-
half years. Anyone who failed to offer his or her views cannot claim to 
have lacked the opportunity for participation in the process.
    There was, it is true, a last-minute disagreement over a system of 
arbitration designed to resolve price disputes. No organization was 
more concerned than was the ACC, which withdrew support for the Plan, 
pending the outcome of efforts to resolve the crisis. Fortunately, the 
ACC was able to support the end-product, based on the expectation that 
the Council and Congress would critically and continually review the 
operation of the arbitration process, and that the Council would make 
changes, if that proved necessary to assure fairness. This expectation 
was proved correct, when the Council submitted its May 6, 2003, report 
to the Congress, with the following statement concerning arbitration:
        If the preferred arbitration program does not function as 
        intended, the Council is committed to using a different 
        arbitration structure to provide a fair price setting 
        environment. Because of the completed analyses of these 
        different structures, an alternative structure, such as the 
        ``Steele Amendment,'' could be expeditiously adopted as part of 
        the binding arbitration program should Council review of the 
        program suggest that the arbitration program is not working as 
        intended. If Congress approves this program, such explicit 
        authority could be provided to the Council to ensure timely 
        action to address problems that might arise...We hope that 
        Congressional authorization of the program will provide 
        explicit direction to the Council concerning its obligation to 
        review and amend the program should any unanticipated negative 
        impacts arise.
The BSAI Crab Rationalization Plan
    While there were concerns that the Plan would somehow establish 
precedents unsuitable for other fisheries, the fact is that it 
responded in a tailored way to a unique combination of circumstances:
    <bullet>  Horrendous weather and ice problems on the fishing 
grounds, resulting in the highest occupational fatality rate in the 
Nation.
    <bullet>  Extreme over-capitalization in both the harvesting and 
the processing sectors.
    <bullet>  Heavy economic and social reliance of five communities, 
located in two regions, on crab production.
    <bullet>  Unstable and declining crab resources, and excessive 
bycatch waste.
    <bullet>  Foregone fishing opportunities, due to inability to 
manage small resources.
    The Plan responds, in a sustainable, fair, and balanced manner, to 
the complex resource, environmental, economic, social, and safety 
challenges confronting stakeholders in the major BSAI crab fisheries:
    <bullet>  Vessel owners;
    <bullet>  Skippers and crews;
    <bullet>  Processors;
    <bullet>  Communities; and
    <bullet>  The public at large.
    To achieve this goal, the Plan contains the following primary 
elements:
    <bullet>  Harvest shares allocated to fishermen for 100 percent of 
the total allowable catch (TAC), with 90 percent of those shares to be 
delivered to processors holding processing shares, and the remaining 10 
percent to be deliverable to any processor.
    <bullet>  Processing shares allocated to processors for 90 percent 
of the TAC.
    <bullet>  Regional share designations for processor allocations and 
the corresponding 90 percent of the harvest allocations, distributing 
landings and processing between specific regions, plus additional 
community protections.
    <bullet>  A mandatory binding arbitration program to settle price 
disputes between harvesters and processors and to insure competitive 
market prices.
    <bullet>  Voluntary harvester cooperatives permitted to achieve 
efficiencies through the coordination of harvest activities and 
deliveries to processors.
    <bullet>  Community Development Quota allocations of 10 percent of 
the TAC.
    <bullet>  Initial harvest share allocations to captains of 3 
percent of the TAC, and the opportunity for skippers and crew to 
purchase shares.
    <bullet>  Low-interest federal loan program for captains and crew 
to purchase harvest shares.
    <bullet>  Comprehensive data collection and program review to 
assess the success of the rationalization program and to provide 
oversight on revenue share ratio between harvesters and processors.
    The Plan presents an impressive array of improvements over the 
prevailing situation.
Biological Benefits:
    <bullet>  Improved stock management through use of a TAC;
    <bullet>  Reduced overharvests through individual allocations;
    <bullet>  Reduced discards resulting longer soak times and better 
sorting of undersized crab through escape mechanisms in gear; and
    <bullet>  Improved handling of discards by ending the race for 
crab.
Economic Benefits:
    <bullet>  Compensated reductions in capitalization through 
voluntary share transactions; and
    <bullet>  Economic stability for the harvesting and processing 
sectors and communities.
Social Benefits:
    <bullet>  Preservation of regional distribution of economic 
activity;
    <bullet>  Facilitated entry to the fishery for crew; and
    <bullet>  Protection of historical interests of captains.
Safety Benefit:
    <bullet>  Improved safety by ending the race for crab in bad 
weather and sea-state conditions.
The ACC Position on MSA Reauthorization
What the ACC Supports
    The ACC strongly supports the provisions in the MSA that apply to 
individual quotas. We believe that those provisions have well served 
the Nation with respect to existing programs, and are adequate to 
support future programs.
    The ACC also strongly supports the MSA provisions that apply 
uniquely to the BSAI crab fisheries as providing a successful 
adaptation of conventional management measures and the institution of 
novel approaches to addressing, in a fair, balanced, and effective way, 
the unique circumstances of those fisheries.
    The ACC supports any modifications to the MSA that may be necessary 
or otherwise useful to ensuring effective implementation of the BSAI 
crab IFQ loan program. For that program, the ACC also supports 
provision for a loan subsidy of $250,000 and a loan ceiling of 
$25,000,000, in an appropriations Act, as required by the Federal 
Credit Reform Act. These amounts were recommended by the Council.
What the ACC Opposes
    In general, the ACC opposes any changes to the MSA that would 
introduce either new, higher costs of operating in the fisheries, or 
otherwise reduce the practicability or effectiveness of individual 
quotas in achieving the broad goals of that Act. The ACC opposes any 
new authority to provide for processor quotas in any other fisheries 
than those for crab in the BSAI. However, the ACC does believe that, 
for each fishery, management measures, taking into account the 
particular circumstances, should provide for a fair and balanced 
approach to addressing the myriad affected private and public 
interests. We note in this regard, that there is, in important 
fisheries, a close interrelationship between harvesters, communities 
and shorebased processors. These relationships should be carefully 
considered in the crafting of any new quota programs.
    The ACC would vigorously oppose any new standards or procedures 
that are not accompanied by a grandfather provision that ensures the 
continuity of individual quotas under the law as it exists today. Any 
new standards or procedures, therefore, should apply only prospectively 
to any program established after their enactment into law.
    Among the previous proposals we have opposed, and would continue to 
resist, are the following:
    <bullet>  Any sunset of individual quotas. Such a measure would 
reduce the effectiveness of rationalization, by adversely impacting the 
value of quotas over time, and thus would impede consolidation and 
other measures leading to increased efficiency.
    <bullet>  Any new fees, the current law already provides for fees 
in individual quota programs, and there is no justification for 
increasing the costs to operators in those fisheries through what would 
amount to an additional, special tax. Any statutory requirement that 
would increase the time required for development and implementation of 
individual quota programs. The current statutory requirements are 
excessively time-consuming, and thus, costly to both the private sector 
and government. This situation should not be further aggravated by new 
law.
    <bullet>  Any new statutory provisions that would predictably spawn 
litigation. Commerce is already under severe assault in the courts, 
with seriously deleterious consequences for the management system. New 
provisions that are controversial, ambiguous, or duplicative must be 
avoided.
    <bullet>  Any penalties or enforcement mechanism that is suspect 
from the standpoint of due process. We believe the current penalties 
and enforcement provisions of the MSA serve its purposes adequately. 
(We support the special provisions in the enabling legislation for the 
BSAI crab rationalization plan.)
Matters of Particular Interest to the Subcommittee in this Hearing
    The letter of invitation to this hearing identified matters of 
particular interest to the Subcommittee, and accordingly, requested 
information regarding them.
What is the importance of fisheries both to Alaska and the various 
        regions?
    Fisheries are vital to the economic well-being of Alaska. They 
provide thousands of jobs and revenues for the State and local 
governments. Many coastal communities depend upon fisheries, and have 
few if any major, alternative sources of economic activity. Fisheries 
off Alaska are managed on a sustainable basis. Therefore, they provide 
a renewable resource for the indefinite future, and thereby, stand in 
contrast to the such extractive activities as oil, gas, and hard rock 
mineral production. The BSAI crab fishery, alone, produces $120 million 
in landings, and as the crab resources continue to recover, will 
produce much more.
How is science integrated into the management process and is this a 
        transparent and public process?
    The Scientific and Statistical Committee (``SSC'') of the Council 
considers every management action in open meetings, and reports to the 
Council, where the public at large has an opportunity to comment. The 
Council is diligent in weighing scientific considerations, when making 
management decisions. In addition, the Council relies on the support of 
the impressive science capabilities of NMFS and other elements of NOAA. 
The process is both transparent and highly effective.
What management processes occur in the North Pacific and what lessons 
        can we learn from the North Pacific for the reauthorization of 
        the MSA?
    The management process in the Council is characterized by careful 
consideration of inputs from scientists, fisheries managers, 
economists, communities, industry organizations, and members of the 
general public. Public hearings, recorded votes, exhaustive analyses in 
EIS and other regulatory analyses, ensure responsible decisions. The 
ACC believes that the North Pacific is a model for other regions. The 
views of the ACC on MSA reauthorization are set forth above.
What are the major issues affecting each region in Alaska and what are 
        the challenges for each region?
    The ACC would not presume to comment on issues affecting, and 
challenges confronting, all the regions in Alaska. However, we would 
point out that, in the BSAI, the key issues and challenges are, as they 
always have been, conservation, safety, and allocations. The new Crab 
Rationalization Plan resolves the major issues for the BSAI crab 
fisheries. However, challenges will arise in crafting refinements, as 
experience is gained with the program and circumstances change.
    Also, the ACC, given its lengthy experience with Olympic fishery 
threats to overall sustainability of resources, resulting in excesses 
of discards of target and non-target groundfish species, bycatch 
mortality of crabs, halibut, salmon and herring, and threats to the 
safety of life at sea, recognizes a pressing need for the NPFMC to 
adopt at the earliest possible date, a suite of preferred alternatives 
for fair and balanced rationalization programs for the Bering Sea and 
Aleutian Islands non-pollock groundfish fisheries and for the Gulf of 
Alaska pollock, cod and flatfish fisheries.
Additional comments.
    The ACC has long taken an interest in ecosystem management 
proposals. While we find them intellectually interesting, we believe 
them to run the risk of making an already complicated, yet highly 
effective, management system unworkable, excessively costly, and prone 
to even more litigation than now swamps the agency. The fact is that 
the complexity of marine ecosystems exceeds the technical, scientific, 
and management capabilities of NMFS and NOAA.
    The ACC supports ecosystem-based management as an important goal 
for the nation's federal fisheries management system. The MSA currently 
allows for an ecosystem-based approach to management and that this 
approach should be given higher priority with increased research 
funding and enhanced collaborative efforts among fishing and non-
fishing management bodies. The ACC concurs with the National Academy of 
Sciences (``NAS'') conclusion that, given our current state of 
knowledge, single-species assessments currently provide the best 
guidance for scientific stock forecasting and fishery management 
advice. We endorse the use of currently available tools in implementing 
ecosystem-based management and the resources and funding necessary to 
better engage those tools on a regional basis.
    ACC does not support establishment of a separate ecosystem council, 
but we do support establishment of regional ecosystem collaborative 
bodies designed to coordinate fishing and non-fishing information, 
research and management. The concept of ``national standardization'' is 
incompatible with the need for ecosystem approaches. The Regional 
Fishery Management Councils and NMFS need to maintain the flexibility 
to manage regional fisheries taking into account regional ecosystem 
differences. In March of this year, these same conclusions emerged in 
the official findings of the NOAA sponsored, Managing Our Nation's 
Fisheries Conference II. Participants were specifically wary of 
mandating development of overarching fishery ecosystem plans rather 
than building an ecosystem approach into existing management practices 
and plans.
Conclusion
    The ACC is a major stakeholder in the BSAI crab fisheries, and 
therefore, in the MSA. We have a long history of constructive and 
successful participation in the legislative and regulatory processes, 
with the goal of improved conservation of our Nation's fisheries.
    The ACC believes that the MSA is an excellent law, and should only 
be amended where a compelling need is demonstrated, the risk of 
litigation is low, and the probability of demonstrable, material 
improvement to conservation and management is high. We are strongly 
opposed to any changes that could increase operator costs or otherwise 
impede the effective management of individual quota fisheries.
    The MSA is the organic fisheries law of our country, and as such, 
should not be amended by provisions of general application to address 
special cases. Special legislation, such as that enacted for the BSAI 
crab fisheries, is by far the preferable route to dealing with unique 
situations.
                                 ______
                                 
    Mr. Gilchrest. Mr. Smith.

         STATEMENT OF THORN SMITH, EXECUTIVE DIRECTOR, 
               NORTH PACIFIC LONGLINE ASSOCIATION

    Mr. Smith. Good afternoon, Chairman Gilchrest. I'm Thorn 
Smith of the North Pacific Longline Association. Welcome to 
Alaska and sincere thanks for the opportunity to express my 
views on fisheries management successes in Alaska and the 
reauthorization of the MSA. I very much regret that Mr. Young 
is not here. I know he too is very much dedicated to this 
process.
    I want to take this opportunity on behalf of all of us to 
thank Dave Whaley, who we refer to often as a national 
treasure, for the many, many years of work that he has put into 
this field. I'm really serious. Dave's been a wonderful guy, 
continues to be, and, Dave, we appreciate it very much.
    I represent freezer longliners that harvest, process, and 
freeze groundfish, primarily cod, off Alaska. The product is of 
the highest quality commanding top prices. We deploy baited 
hooks on the sea bed through automatic baiters to catch our 
fish. We showed you a little earlier, Mr. Gilchrest, how this 
stuff looks. We set many miles of this sort of thing on the 
bottom of the ocean. We're not midwater fishermen which has 
significance for bycatch and incidental take.
    Rather than address the many issues that have been 
addressed repeatedly here, and I agree with most of those who 
have gone before, I'd like to address one specific experience 
we had with the Endangered Species Act with an endangered 
species and consider what that may tell us about fisheries 
management and MSA reauthorization.
    In the fall of 1995, freezer longliners encountered the 
mother of all endangered species problems when we took two 
short-tailed albatrosses on our baited hooks. We were told only 
that it was a highly endangered species. None of us had ever 
heard of a short-tailed albatross. In fact, I laughed when told 
we took the first one. I didn't laugh when I heard about the 
second one.
    I called to ask the Alaska Fisheries Science Center, and 
that's Bill Aaron, then the director, whether there was such a 
thing as a short-tailed albatross. Yes, Thorn, there is. OK, 
Bill, they tell us we caught a couple of them. How many are 
there? And he pulled out his 1962 Audubon book and said, Thorn, 
in 1962, there were 300, and I about died. And I said, well, 
Bill, how many are there now? He said nobody knows. If you 
consider that there were 6-8,000 spotted owls when we ran into 
that crisis and 30-40,000 Steller sea lions in the Western 
Aleutians, you get an idea of the magnitude of our problem. And 
things just kept getting worse.
    We found out that they were hunted to near extinction at 
the turn of the 20th Century and you've seen this photograph, 
Mr. Gilchrest, of the dead birds that are actually thought to 
be extinct until 1950 when a small remnant population was 
rediscovered on their home island. It turns out they nest on an 
active volcano, Torishima. It's a very violently active 
volcano. It's gone off several times in this century.
    In 1908, it blew up and killed 125 people who were there 
for the purpose of killing albatrosses known in Japan as the 
raid under the albatross. In 2002, this thing started to blow 
up again. I was sitting in my office and people gleefully 
started resending e-mails of the photograph. Fortunately it was 
not a major eruption. Fortunately none of these eruptions have 
occurred during the half year when the birds are on the island. 
But the Japanese scientists warned that that may happen, and if 
that does happen, they may lose as much as 40 percent of the 
population. I'll get back to that later.
    The significance of all this is not lost on the 
environmental community. I was advised that there was a 
consortium of 12 environmental groups coming after us. Indeed, 
we started getting bad press, including this article which 
appeared almost immediately in the Science Times in the New 
York Times.
    Mr. Gilchrest. What is the year?
    Mr. Smith. This is Tuesday, November 5th, 1996.
    Mr. Gilchrest. Oh.
    Mr. Smith. Early on.
    Mr. Gilchrest. I'd like to get a copy of that before we----
    Mr. Smith. You may have this one. And this National 
Fisherman came out just a little later, January of 1997. This 
is not going to be a favorable article which told the truth 
basically.
    Mr. Gilchrest. So the New York Times Science Section can 
sometimes be a little bit off the mark.
    Mr. Smith. I think on the congressional record I prepared 
that--I did spend a lot of time talking to the reporters and 
was disappointed in what came out.
    Now, then. So I then visited--flew to Anchorage and visited 
the U.S. Fish & Wildlife Service, who took a dim view of all 
this stuff to begin with. They had absolutely no idea how to 
resolve the problem. They did warn me this is a highly 
endangered species, that they had to write a biological opinion 
on this species and to determine an incidental take limit. And 
if they didn't have an incidental take limit, they would have 
to shut our fishery down.
    They informed me further they didn't have the biological or 
the population dynamic data they needed. The only human being 
who had that is Hiroshi Hasegawa, Dr. Hasegawa, of Toho 
University in Japan, and they'd been trying to reach him for 
two or three years without success. So no bi-op, no incidental 
take limit, no fishery, no Hasegawa.
    So I had been having similar difficulties with the regional 
director in Alaska of NMFS, who didn't seem very interested in 
fisheries or in seabirds in fisheries. So I got a $2,000 ticket 
and went back to see the national director of NMFS in 
Washington D.C.
    I prepared a slide show like this one. I suggested there 
that NMFS had taken the initiative with trawl bycatch, had a 
wonderful scientist on board with the Alaska Fisheries Science 
Center, hands-on guy who went out and invented new kinds of 
nets and escape panels that work with industry as well as 
manufacturers. Might NMFS not consider hiring somebody like 
that to help us with our seabird problem because we had no idea 
what to do. And she listened to me, she saw this side show, she 
looked me in the eye and said, not our problem, and walked out 
of the room.
    And at that moment, I realized that the official agency had 
literally turned its back on us, and we were on our own. And 
that we were going to have to do something very fast because 
there was an environmental firestorm arising, and they're going 
to have to do that outside of the traditional fishery 
management system.
    My idea at that point was to try to develop some 
regulations and get them in the Federal Register before the 
million-pound hammer came down. So I swore my people to secrecy 
so we wouldn't attract too much attention. I studied longliner 
and seabird interactions around the world. Came across the 
CCAMLR regs from Antarctica, used those to develop a model set 
of seabird avoidance regulations for Alaska. Gave it to my 
board of directors, they gave me comments, then we went out to 
the fleet and all the other associations. We e-mailed, we 
faxed, we got some mighty interesting comments back from 
captains at sea. And in the end, we got a pretty good set of 
regulations.
    We went to the North Pacific Council, said we've got a 
problem, here's our best shot at a solution. They said sounds 
like a good idea to us, implement these by emergency rule.
    Right after that I found Hiroshi Hasegawa. He came to the 
United States, gave Fish & Wildlife the population dynamics 
data it needed. They wrote two bi-ops, the first of which gave 
us a very stringent limit of two shirt-tailed albatrosses per 
year that we could take in our fishery. The second one said, 
well, NMFS you will now assess scientifically the effectiveness 
of the measures of these regulations.
    We found that NMFS once again had no expertise, no money, 
and no particular interest in doing this. So we were obliged to 
join with Washington Sea Grant, which really does have some 
seabird experts, Ed Melvin and Julia Parrish. They designed the 
first ever, massive seabird avoidance experiment ever done in 
the world, never been done before, completely new experiment. 
We obtained a series of appropriations to support the work.
    In over two years on our commercial fishing vessels, we set 
millions of hooks in this experiment and discovered that paired 
streamer lines, this orange stuff right here, suspended over 
the baits as we set the baits scared the birds away and was 
very effective. And you, Mr. Gilchrest, have seen on the back 
of this cover document that we reduced our seabird incidental 
take by 80 percent. We have not taken a short-tailed albatross 
since 1998.
    Interestingly enough, a week from today, we will begin yet 
another very large experiment, even larger, by using integrated 
weight groundlines, like this. It sinks 2-1/2 times as fast as 
the normal line. Very effective in getting the bait to a depth 
where birds can't get down to it. Being used widely, and this 
is widely, in the southern hemisphere. As our principle 
researcher said this will not only be the biggest seabird 
avoidance experiment we will have done, it will probably be the 
biggest one that will ever be done.
    In terms of outreach, which is a tough problem, we designed 
and printed 17,000 of these pamphlets, 3,000 of these books 
from Australia were distributed this week, 11,000 copies of the 
North Pacific albatross guide which I showed you earlier which 
identifies the albatrosses not only for the fishermen, but for 
the observers.
    And because these animals fly from Torishima off Japan, off 
the Russian coast, China coast, Korean coast, up to Alaska each 
year, we wanted to reach out to some of these other countries. 
We knew that the Russians had taken a short-tailed albatross, 
so we joined with the Marine Conservation Alliance and the 
World Wildlife Fund, translated this guide into Cyrillic, had 
it printed, took it to Russia, and World Wildlife delivered it 
to the longliners.
    And then I went too with my slide show to Russia, China, 
Korea, Japan, Singapore, Hawaii, Midway, and so forth. The 
University printed up this video which actually went to our 
fleet and elsewhere. This also was translated into Cyrillic and 
delivered to the Russians.
    Mr. Gilchrest. Mr. Smith, do we have a copy of that video?
    Mr. Smith. You may have this one, sir.
    Mr. Gilchrest. Thank you.
    Mr. Smith. We support the short-tailed albatross recovery 
team set up by Fish & Wildlife. It's a group of Japanese and 
American scientists and me who are dedicated to the recovery of 
this animal. We have 50 tasks in the recovery plan. The main 
though is to establish a new breeding colony on a non-volcanic 
island.
    What lessons have we learned? What significance is there to 
all this?
    First of all, from the perspective of ecosystem-based 
management, I think it's the first time seabirds have ever been 
taken into account, certainly in American fishery management. 
And that I think is--and I think the way this occurred has 
illustrated what I regard to be ecosystem-based management. 
There was no real seabird avoidance science at the time. We had 
to develop it. We had to do it in real-time. And we had to 
again step outside the traditional framework of fishery 
management to do it, but we did it. And what we did was 
discovered a problem, went out and got the results, and 
designed a program to stop it with the full cooperation of the 
Council. The Council does this all the time. It was just one 
example of how it was done.
    I think that much can be achieved through cooperative 
research involving industry and outside third parties like 
Washington Sea Grant and Alaskans elsewhere. I think much can 
be achieved outside the box of traditional fishery management 
as long as we has have the cooperation of the councils and the 
agencies. Overall, I think this is a good thing.
    In retrospect, I'm glad NMFS didn't respond. It's a fishery 
management agency. It's core of expertise is fish, not birds. 
The MSA is a fishery management statute. The definition of fish 
is, finfish, mollusks, crustaceans, and all other forms of 
marine and animals and plant life other than marine mammals and 
birds. Pretty clear what the framers of the Magnuson Act had in 
mind.
    We don't think it's necessary to amend the statute further 
to protect seabirds. We've been at this for 10 years now. We 
know how to do that. We have the tools. We know where the 
problems are. Any of the material--there's a document showing 
what an excellent job they've done in Hawaii in avoiding 
albatrosses. There were a number of things in the earlier bill 
that we have examined and thought were unnecessary.
    We don't think there's any need for a list of fisheries or 
public comments on such a list, that is, fisheries with seabird 
problems. Certainly no need for the Secretary to work with 
fishermen. The Secretary still lacks that expertise. The 
expertise lies outside the Agency and we've tapped it. We're 
ready to go if another problem arises.
    So we would ask, please, that you not give NMFS any 
substantive statutory responsibilities with regard to seabirds. 
NOAA GC says they have authority to implement regs as the ones 
we've got now. Also, we joined with the State of Alaska and the 
Marine Conservation Alliance to encourage you not to change the 
definition of bycatch. Bycatch is fish, not marine mammals or 
seabirds.
    Finally, I was talking with a colleague in Hawaii who's 
working on this stuff, and he said, you know, Thorn, in 
retrospect, after all the smoke has cleared, this is a fairly 
easy problem to solve. We have a localized problem where 
seagulls are attracted to birds because we're either dumping 
bait or offal off of the bait. We're only setting bait a very 
short period of time we're out there, and the fishermen can 
figure out ways to avoid the birds during that period of time, 
and they have done so. And the scientist then, this is his 
words, go out and put numbers around it, and then we develop 
regulations.
    So I just hope that the word seabird will not appear in the 
Magnuson-Stevens Act.
    I'd like to support what Julie Bonney said about the 
observer program. I think we need Federal funding for small 
vessels throughout Alaska, beyond the Gulf. I approve the 
amendment of MSA to be NEPA-compliant, and I think we do need 
to protect unaggregated observer and other data from FOIA. 
Thank you, sir.
    Mr. Gilchrest. Thank you very much, Mr. Smith. Fascinating 
testimony.
    [The prepared statement of Mr. Smith follows:]

             Statement of Thorn Smith, Executive Director, 
                   North Pacific Longline Association

    Mr. Gilchrest, Members of the Subcommittee, Welcome to Alaska and 
sincere thanks for the opportunity to express my views on fisheries 
management successes in Alaska and the reauthorization of the MSA. I 
represent freezer-longliners that harvest, process, and freeze 
groundfish--primarily cod--off Alaska. The product is of the highest 
quality, commanding top prices. We deploy baited hooks on the seabed 
through automatic baiters to catch our fish. Freezer- longliners are 
owned and operated by Alaskans, Community Development Quota groups, and 
companies from Washington State. The Alaska cod fishery and its 
sustainability are essential to all these groups.
    There are many fishery management success stories in Alaska--you 
will hear some today. I would like to focus on one problem that took us 
by surprise and required fast footwork and ``thinking outside the box'' 
to reach a resolution. It touches on ecosystem management, how science 
is developed and used in our management process, how that process can 
work in Alaska and elsewhere, and what lessons it may hold for MSA 
reauthorization and for the future. There may be some surprises.
    In the fall of 1995, the Alaska freezer-longliner fleet ran 
headlong into the mother of all endangered species problems. We took 
two short-tailed albatrosses on our baited hooks. These iconic seabirds 
nest on an active volcanic island off Japan, and were hunted to near 
extinction by the Japanese at the turn of the nineteenth century. In 
1995 the only population information available was that in 1962 there 
were 300 short-tailed albatrosses in the world (there are now 1,990).
    The significance of these takes was not lost on the longline 
industry or the environmental industry. It was obvious that immediate 
action was necessary if we were to avoid the million-pound hammer 
effect of the Endangered Species Act. Unfortunately neither the 
National Marine Fisheries Service (NMFS) with responsibility for the 
fishery, nor the U.S. Fish and Wildlife Service (USFWS) with 
responsibility for the endangered albatrosses, had any idea what to 
do--the seabird issue had not arisen previously in the context of U.S. 
fishery management. As the environmental industry organized to blow us 
out of the water, the longline industry undertook an immediate study of 
longline/seabird problems worldwide and wrote its own set of seabird 
avoidance regulations. These were approved by the North Pacific Fishery 
Management Council in December of 1996, and were implemented by May of 
1997. The United States Coast Guard (USCG) volunteered to enforce the 
regulations by overflying the fleet.
    The USFWS then wrote a Biological Opinion requiring that NMFS 
conduct research to determine the effectiveness of the measures 
contained in the regulations. We found that NMFS did not have the money 
or the expertise required for the work (NMFS needs and deserves more 
funding), and here began a remarkable collaboration between the fishing 
industry and the Washington Sea Grant Program (WSGP)--outside of the 
usual fishery management process. Industry was able to obtain funding 
from Congress, and the WSGP seabird experts designed and staffed a 
first-ever massive experiment to test seabird avoidance methods. The 
experiment was conducted over a period of two years on vessels 
participating in the commercial longline fisheries--millions of hooks 
were set. In the end it was discovered that paired streamer lines 
suspended over the baited hooks while setting gear were 88%-100% 
effective in deterring seabird strikes. The method that worked for 
albatrosses worked for all seabird species. Paired streamer lines are 
now required on our longliners and the longliners of many other 
countries. Since the implementation of our first regulations in 1997, 
we have reduced overall seabird incidental take in the freezer-
longliner fleet by more than 80%. No short-tailed albatrosses have been 
taken since 1998. A week from now, on July 15, we will begin at-sea 
testing of integrated weight groundlines, which sink two and one-half 
times as fast as unweighted groundlines, and which have been found 
highly effective in avoiding seabirds in Southern Hemisphere longline 
fisheries. Again we are working with Washington Sea Grant.
    The fishing industry engaged in extensive outreach exercises to get 
the word to longliners at home and abroad. We printed and NMFS 
distributed 17,000 brochures on the new regulations and on streamer 
lines. We created and laminated in plastic a North Pacific Albatross 
Guide for use by our longliners and observers. These guides were 
delivered to longliners in Hawaii and on the West Coast of Canada. The 
Marine Conservation Alliance and the North Pacific Longline Association 
had the guides translated into Cyrillic, laminated in plastic, and 
hand-carried to Russia where they were delivered to Russian longliners 
by the World Wildlife Fund--which has a remarkable program promoting 
conservation in Russian longline fisheries. Washington Sea Grant 
prepared an excellent video, ``Off the Hook,'' which demonstrates the 
use of streamer lines on longliners of various sizes. These were 
distributed to the fleet. I developed a seabird avoidance slide show 
which I presented in the U.S. and several foreign longlining countries. 
USFWS created a program with the Pacific States Marine Fisheries 
Commission (PSMFC) to deliver streamer lines to the fleet free of 
charge. There were many other outreach efforts.
    Finally, the industry obtained appropriations for the Short-Tailed 
Albatross Recovery Team, a group of Japanese and American scientists 
dedicated to recovery of the species.
    What can we learn from all this? First, it constitutes an expansion 
of the concept of ecosystem-based management, as seabirds had not 
previously been considered in U.S. fishery management. Second, it shows 
that sometimes science must be developed in the course of management--
in real time. There was no reliable science of seabird avoidance until 
our first-time experiment. Third, it shows that amazing things can be 
accomplished through cooperative research between industry and outside 
third parties like WSGP. If it can be done in Alaska, it can be done 
elsewhere. Fourth, it shows that much can be accomplished ``outside the 
box'' of routine fishery management--again, with the cooperation of all 
involved (the Council, NMFS, USFWS, USCG, PSMFC were all supportive). 
Finally, it shows that there is no need to amend the MSA to ensure the 
protection of seabirds. Industry and academia have taken the lead here, 
with great success. In addition to the longliner work above, the trawl 
fleet is about to conduct seabird avoidance experimentation with the 
same Washington Sea Grant personnel used in the longline experiment. 
Our actions are being emulated worldwide. Great progress has been 
achieved in Hawaiian longline fisheries, as well. We have been at this 
for ten years now. It is not necessary for Congress to mandate a ``list 
of fisheries with significant seabird interaction problems,'' or for 
public comment on such a list, or for the Secretary to work with 
industry to develop seabird avoidance methodologies. The problem 
fisheries have been identified, and most of the problems are well on 
the way to resolution. Such work is best done collaboratively by 
industry and academia, with support from the councils and agencies. 
Grant Authority to fund such activity is a good idea.
    There is no need to change the definition of ``bycatch'' in the MSA 
to include seabirds, for the above reasons. The MSA is a fisheries 
statute, and NMFS is a fisheries agency. If seabirds were included in 
``bycatch,'' a number of substantive obligations come into play that 
are aimed at fish, not seabirds or marine mammals. Modifying the 
definition of ``bycatch'' would put us on a slippery slope, shift the 
focus of the fishery management program, and invite frivolous 
litigation. We should recognize that the MSA and NMFS cannot do 
everything, and rely on responsible industry and academia to resolve 
problems that are outside the core expertise of the agency and the 
councils.
    In this regard I have recently been reminded by a colleague at the 
Western Pacific Fishery Management Council that the seabird incidental 
take problem is a relatively easy one to fix--unlike the sea turtle 
problem. The birds are focused on fishing vessels and their bait or 
offal discharge. The problem is a highly localized one, and fishermen 
have been able to develop solutions. Please see Melvin and Parrish, 
``Focusing and Testing Fisher Know-How to Solve Conservation Problems: 
A Common Sense Approach.''
    As a final aside on another topic, the continued warming of North 
Pacific and Arctic waters is a real concern for all of us. Some 
problems really are beyond legislation.
    In closing, I thank you again for the opportunity to express these 
views, and wish you the best of luck in the MSA reauthorization 
process.
                                 ______
                                 
    Mr. Gilchrest. I think I'll start with you with the 
questioning.
    Mr. Smith. Uh oh.
    Mr. Gilchrest. Since we're talking about seabirds. And I 
really--I hate to take this art--this may be, this is a 1996 
Science Times from the New York Times, and I may just want to 
keep it as a--I don't know. Do you want this back as a 
souvenir? It looks like----
    Mr. Smith. I bought 200 when it came out.
    Mr. Gilchrest. You bought 200.
    Mr. Smith. I have stacks.
    Mr. Gilchrest. All right, good.
    Mr. Smith. And I'll have you know I was talking to Andy 
Ruskin (ph) of their staff and trying to get him to, not write 
a retraction, but to get him to write an article in Science 
Times that will explain what has been done in the interim.
    Mr. Gilchrest. Well, I appreciate the copy because I read 
it every Tuesday.
    Mr. Smith. Good, would you call Andy for me.
    Mr. Gilchrest. I look forward--it's the most important 
thing for me to do every Tuesday morning is to read the Science 
Times of the New York Times.
    Mr. Smith. I enjoy it too, yeah.
    Mr. Gilchrest. My question though is what was happening to 
seabirds in 1996 compared with longliners compared to what's 
happening with seabirds and longliners in 2005.
    Mr. Smith. Well, in 2005 (sic) we encountered this problem, 
which took us completely by surprise. And it was in the fall, I 
think.
    Mr. Gilchrest. Was it '96, you mean.
    Mr. Smith. No, '95.
    Mr. Gilchrest. Oh, '95.
    Mr. Smith. 1995. And when I made my efforts to get help 
that was unsuccessful, I realized we were completely exposed to 
an onslaught by the environmental community. And so I kind of 
went underground for awhile. I swore my board to secrecy. I 
said don't talk about this. It'll leak from NMFS eventually, 
but keep quiet because we got to do something. And then I 
engaged in about a six-month study of, you know, I couldn't 
spend all my time on it, but every time I had--whenever I had 
time I contacted somebody, and it kept going all around the 
world and mostly found problems in the southern hemisphere. And 
the only regulations in the world were the CCAMLR regulations, 
the Antarctic regulations, and use those for a model.
    So in '96, I was going through that. We got our regs done 
and the process I described I would say in about September, 
October, and went to the Council late in that year. So we were 
at the point of, when that article was written, we had 
developed our regulations, were trying to get them to and 
through the Council, and the Council cooperated completely. 
They were in effect the next day which is the fastest that kind 
of thing has ever happened.
    Mr. Gilchrest. So what you've done starting in '95 
certainly to the present is develop gear technology that is 
much better today for seabird avoidance than it was when this 
article was written.
    Mr. Smith. Well, there was no technology when that article 
was written.
    Mr. Gilchrest. OK.
    Mr. Smith. There wasn't anything yet. And the answer is, 
yes, and a lot of--Ed Melvin and his colleague did a wonderful 
job. This is their report, and I've given you an executive 
summary, and I'll give you this one if you want. This is a 
report that he turned out that is very thorough going--
basically became the Bible for seabird avoidance around the 
world, and a lot of other countries have followed suit. I won't 
say we're the only people who've been involved in this. The 
Australians have been involved too at the same time.
    Mr. Gilchrest. I see.
    Mr. Smith. But this was the first major study and the work 
that Ed and his colleague did was utterly fantastic. And it 
really started a great interest in many, many countries in this 
particular issue.
    Mr. Gilchrest. Well, we'll take a--certainly we'll take a 
look at all the information that is given to us this morning. 
There has been a great deal of interest in seabird avoidance by 
a number of different groups, so as we go through the process 
of reauthorizing this, we'll keep your thoughts in mind as far 
as any reference to seabirds, seabird avoidance, and gear 
technology in our reauthorization. But we want to compliment 
you on your relentless efforts to solve this problem.
    Mr. Smith. Well, I just encourage you to understand that 
we're not alone. There are other parts of our seafood industry 
who have done similar things, and I think that's a part of our 
management process, as I explained to you in our conversation 
earlier. I don't think you need to legislate everything. I 
think sometimes you confuse things when you legislate. I'm very 
confident that you open yourself up for what might be frivolous 
litigation when you do that.
    We've experienced so much litigation that the agencies 
can't do their jobs. So I would say please keep seabirds out of 
the statute. We're taking care of it. Others like us in Hawaii 
are taking care of it, and we're ready to help when somebody 
else runs into a problem. We've got the tools, we've got the 
people, we can do it.
    Mr. Gilchrest. All right. Thank you very much.
    I guess I'm going to have some, except for maybe Mr. Duffy, 
but anyone else can answer this particular question. Mr. Duffy 
mentioned an ecosystem approach with the pollock fishery in the 
Bering Sea, if I'm paraphrasing correctly. I guess my question 
is as we, and it's been mentioned by a number of different 
panels, both here and Ketchikan and certainly other places 
around the country, as we pursue this reauthorization, your 
recommendation as far as any reference to national standards or 
to an ecosystem pilot project or approach as far as the 
Magnuson Act is concerned, do you have any recommendations on 
how we approach that in statute, in language, in reference. And 
each panel has mentioned that, I don't know when it was. I 
guess two or three years ago we had a Magnuson Reauthorization 
Act that passed the full committee but never made it to the 
House Floor for a number of reasons.
    Our approach was at the time, but I think the councils and 
a lot of people have gone at least that far and maybe have 
exceeded what we did a few years, was for two years to take a 
look at what we didn't know about ecosystems, for a year with 
enough money to fill in the gap of what we didn't know. And 
then in the fourth and fifth year of the reauthorization, we 
were to develop--we wanted to develop with councils on the West 
and East Coast, a pilot project and pilot projects for an 
ecosystem fisheries management plan in a particular fishery.
    It sounds like though a number of--North Pacific Council as 
well as some other councils have actually moved in that 
direction without that statute. But do you have any 
recommendation on the kind of way we should treat ecosystems in 
this new reauthorization?
    Mr. Duffy. Thank you, Mr. Chairman, for that question. It's 
a big one. I would proceed with caution; that may not be 
helpful, but that would be my first recommendation. I do not 
think it would be appropriate in reauthorization to have 
detailed criteria for establishing a framework for an ecosystem 
approach.
    In my previous testimony, the point I was trying to make is 
I think the way that the Bering Sea/Aleutian Island pollock 
fishery is managed with its conservative catch limit, bycatch, 
minimal bycatch impacts, comprehensive observer and monitoring 
program, that we are really, and one can argue, we are 
conducting an ecosystem-based approach as we speak. We just 
didn't call it that over the last few years. And so I would 
urge caution.
    In terms of reference to a pilot type project in 
reauthorization, I think there was previous testimony from Ms. 
Salveson and Ms. Madsen about some of the things that the North 
Pacific Council is looking at out in the Aleutian Islands. So I 
would not encourage detailed criteria on an ecosystem approach 
under reauthorization.
    There are a number of arguments that I believe previous 
council members, like me and others, would make. For example, 
the programmatic SEIS for the management of the Bering Sea/
Aleutian Island and Gulf of Alaska groundfish fisheries is a 
comprehensive document just approved by the Council. And the 
programmatic SEIS envisions making progress through time best 
on scientific information on a number of the measures that 
we've been talking about today, whether it's bycatch reduction, 
whether it's, you know, there's a whole set of provisions 
they've been looking at with the reauthorization.
    So I think the Council's doing it. I think pushing to 
maintain the regional structure and to allow them to move 
forward is the best way to go. And I am concerned that if there 
are general references in Magnuson-Stevens to ecosystem 
approaches, it could lead to litigation, and I'm concerned 
about that. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you.
    Anyone else want to make a comment on that?
    Mr. Smith. I would certainly concur, Mr. Gilchrest. I think 
the North Pacific Council is making rapid strides in this 
direction. I think the seabird incident is just one small 
instance of what they've done. I think it's what we refer to as 
adaptive management where we see a problem, we have enough 
science to tackle the problem, and we go right after it. We're 
very aggressive about it. And as a non-scientist, I can tell 
you that some of the stuff they do is more or less beyond me. 
It's really kind of good stuff, I think. I would prefer that 
the statute not be amended to set standards or to do anything 
other than generally encourage ecosystem management. And 
frankly you talk to a lot of scientists, they say we're not 
sure what that is. They don't have the science yet.
    Mr. Gilchrest. Mr. Thomson.
    Mr. Thomson. Yes, Mr. Chairman. I would just like to refer 
to the comments of Stephanie Madsen and Chris Oliver of the 
North Pacific Council in terms of their recommendation for 
development of national guidelines being appropriate which 
would then be used as strategic guidance rather than as 
regulatory requirements for implementation specific regulatory 
programs to the existing FMPs.
    In other words, you just build ecosystem management into 
existing FMPs. And we believe that, you know, the Magnuson-
Stevens Act as it stands allows you to incorporate ecosystem 
management into existing FMPs.
    We're also concerned about if we start authorizing specific 
statutes in terms of ecosystem management, that it could result 
in litigation and swamp the Agency with litigation.
    Mr. Gilchrest. I see. Thank you.
    Now, I'm not sure if it was Mr. Reed or Mr. Duffy, maybe 
Mr. Kelty, somebody on this side of the room that made a 
recommendation for an amendment which I wanted to ask about. 
The recommendation for an amendment was that, I'm going to 
paraphrase here, for the SSC, the scientific statistical 
committee, when they give their acceptable biological catch to 
the council, the amendment recommendation was that the council 
could not exceed that, and put that in statute. That's a 
fascinating recommendation, and I'm just--I'm not sure who said 
it, but, OK, Mr. Duffy.
    Mr. Duffy. Mr. Chairman, that was me. I should have learned 
from sitting in DAP about being too definitive in my testimony 
this morning, but I didn't.
    Yes, APA does believe that that would be an appropriate 
action to consider under reauthorization to ensure that the 
councils set total allowable harvest levels lower than the ABCs 
in all circumstances recommended by the SSC. I also believe 
that that is the position of the Marine Conservation Alliance 
in some of their written testimony as well.
    Mr. Gilchrest. Thank you.
    Does anyone else want to make a comment on it? Mr. Reed.
    Mr. Reed. Thank you, Mr. Chairman. I think that's a fairly 
commonly held belief that surprises a lot of people from other 
parts of the country that folks who represent industry would 
support such an idea. And in my limited travels around, talking 
to folks in different regions, you know, you had mentioned in 
describing where you're from, how they had a system in place 
for 300 years and people like it, and change is considered to 
be something that isn't embraced maybe as much as you see here.
    We've had a system in place since 1976 or a little bit 
later of Americanizing this resource. So we look at it 
differently. I think it's natural. And I think that in the last 
30 years this, as people have told you, this state's benefited 
greatly from this, and we want to preserve that.
    The folks that I represent and the other people here 
represent have invested hundreds of millions of dollars based 
on a long-term healthy resource for us to have access to and to 
operate our businesses with. And so it seems counterintuitive 
sometimes when we go around and they say you guys would support 
having scientists determine how much you can catch and think 
nothing of it, but we have over the 30 years of the program I 
think gained faith in our scientists. We don't always agree 
with them, but we want the research here next year, too, and 
the years beyond to take benefit of the investment that we've 
made. So I think that that's a fairly commonly held position 
that you'll find in the North Pacific. We want to have a good 
future.
    Mr. Gilchrest. Thank you very much.
    Yes, sir.
    Mr. Asicksik. I think I can speak for the other five CDQ 
groups that, you know, that's something that we would like to 
see also because most of the communities are within 50 miles of 
the Bering Sea and they're predominantly Native residents in 
those communities and a lot of the subsistence occurs. So what 
happens out in the Bering Sea has an impact, you know, not just 
on the CDQ groups, but how subsistence is driven, you know, in 
each of our respective communities.
    Mr. Gilchrest. Thank you very much.
    Mr. Kelty.
    Mr. Kelty. I think I would just concur with that. You know, 
some of the, in my neck of the woods where I live we're in some 
of the most remote areas in Alaska, and all we have is the 
seafood industry. We're not on the road system. We're, you 
know, we don't have--it costs a thousand bucks round-trip to go 
to Unalaska from Anchorage, so our tourist industry is not 
booming right now. We don't have a golf course. We don't have a 
Coast Guard Base. So the sustainability of this resource is all 
we have, as I said in my testimony, so it's very important.
    Mr. Gilchrest. Thank you very much.
    Yes, sir.
    Mr. Reed. I want to clarify too that he also has no woods. 
    Mr. Kelty. I have no trees.
    Mr. Gilchrest. No trees.
    Mr. Kelty. The Russians logged us off.
    Mr. Gilchrest. Oh, my.
    Mr. Kelty. In the early 1800s.
    Mr. Gilchrest. The other question I had for actually all of 
you who have some direct interest in this particular arena of 
observers, is the question of should they be professionals or 
technicians? Where do we come down on that as far as vessel 
ownership/liability of the observers are concerned. And I'm not 
sure who, someone said they should be considered professionals. 
And that's an issue that I think we need to deal with so 
liability, the designation of profession or technician, where 
is that profession heading.
    Mr. Duffy. Mr. Chairman, once again, that was my testimony. 
First, in the groundfish fishery in Alaska, I think the cost to 
the industry is on the order of $13 million a year, industry-
funded, for observer programs.
    What has happened is in the absence of the clear definition 
whether observers are considered technicians or professional, 
if they're considered technicians, then there is significant 
overtime involved even when they're on the vessel. Because we 
have two observers on-board our catcher-processor vessels 
around the clock. We operate around the clock; two observers on 
board, 200 percent observer coverage.
    If they're identified as professionals, then I think you 
have some cost containment measures that in the end will 
provide more extensive observer coverage as opposed to the cost 
going up significantly. So that was the point I was trying to 
make by identifying them as professionals. The industry, as 
you've probably gathered from being here at the hearing, is 
very supportive of an observer program. Sure there's some 
tweaks they might want to add here and there, whether it's 
confidentiality or other issues, but I think it's important to 
note that the industry is very supportive of having a 
comprehensive observer program. But we don't want the cost to 
be so cost prohibitive that we would scale back in the observer 
coverage.
    I think there are other issues that I didn't touch on 
relative to the Gulf where I believe we're going to need some 
additional funding like in other areas of the country to help 
support an observer program in the Gulf particularly for the 
small boat fleet. But that was the issue that I brought up.
    Mr. Gilchrest. Thank you very much.
    Mr. Smith.
    Mr. Smith. Mr. Gilchrest, I'm not an expert in this area. I 
have consulted briefly with an expert here and we will provide 
you with a memorandum during this 60-day period that will try 
to elucidate this for you.
    Mr. Gilchrest. Well, thank you.
    Mr. Smith. It's explained to me that there are two issues 
here. The professional-technician issue has to do primarily 
with overtime pay and has nothing to do with liability. And on 
the liability issue, I believe that there's a question of 
whether the Jones Act or the Longshoremen's Act applies. I am a 
non-expert here, and so we will supply you with something 
written by somebody smarter than me.
    Mr. Gilchrest. Thank you very much.
    Mr. Thomson.
    Mr. Thomson. Yes, Mr. Gilchrest, I don't pretend to be an 
expert either, but I would concur with Mr. Duffy's remarks 
about the professional status of observers because it can help 
us contain the cost of observers, for sure.
    Mr. Gilchrest. Thank you.
    Mr. Thomson. Well, I guess, also I would add that the 
observers in the North Pacific have a very wide and 
professional range of duties. And as I understand it, the 
duties of the observers up here in terms of observing bycatch 
and knowledge of all different types of species and these kinds 
of things, would warrant them having this distinction as 
professionals.
    Mr. Gilchrest. Gentlemen, you have provided us with an 
extraordinary range of information that will be analyzed by us, 
and I think of great benefit as we proceed to reauthorize the 
Act.
    And the hearing record will be open for 60 days. And, Mr. 
Asicksik, I think that takes in, if it doesn't, we'll 
incorporate your remarks into the record, but I'm looking 
forward to your recommendations for the CDQ program. I think 
you made mention that by August the 15th you will have some of 
those recommendations from your six communities.
    Mr. Asicksik. Yes. And when it was heard that there would 
be hearings in Alaska, of course, you know, all six groups 
would probably have liked to be here and testified, but we were 
informed that they would hear only from one. So my testimony 
was basically put together by six of the groups.
    Mr. Gilchrest. I see.
    Mr. Asicksik. And that's why we requested that the hearing 
period be open, so each individual group can submit its own 
written testimony.
    Mr. Gilchrest. Well, we will look forward to those 
recommendations.
    Mr. Asicksik. Thank you.
    Mr. Gilchrest. Gentlemen, it's been a pleasure. It's a 
wonderful place, Kodiak. Thank you all very much.
    [Whereupon, at 3:13 p.m., the Subcommittee was adjourned.]
    [A statement submitted for the record by the Central Bering 
Sea Fishermen's Association follows:]

      Statement of the Central Bering Sea Fishermen's Association

    I would like to thank you, Mr. Chairman, for holding this hearing. 
I ask that the Central Bering Sea Fishermen's Association (CBSFA) 
testimony be included in the record in its entirety.
I. Introduction:
    In recent months, CBSFA has been actively involved with the other 
CDQ groups in efforts to amend certain aspects of the CDQ Program that 
will allow for its modernization and will reflect the level of economic 
maturity that many groups have achieved. While CBSFA is supportive of 
the objectives being pursued it has concerns about the proposed 
allocation freeze, in particular with respect to the valuable pollock 
allocation; the definition of the principal purposes of the CDQ 
program; and certain aspects of the program's administration. This 
testimony will elaborate on these concerns in greater detail below.
II. The CDQ Program and Its Success on Saint Paul Island:
    On St. Paul Island, sixty Aleuts now earn all, or a portion, of 
their living from the halibut fishery. CBSFA has been able to create a 
self-sustaining Halibut fishing coop for the local fishing fleet to 
harvest our CDQ Halibut. Over the past two years CBSFA has been able to 
increase the ex-vessel price paid to local St. Paul fishermen from a 
past average of $1.50 per pound to $2.60 in 2003 and $2.77 in 2004. 
Taking into consideration that the Halibut harvest has declined by over 
half since 2002 this increase in ex-vessel pricing has helped the local 
fishermen and their families dramatically. Thus, St. Paul residents 
have been provided with total revenue of $1,071,200 in 2003 and 
$865,000 in 2004. Had the fishery remained status quo St. Paul 
residents would have received $618,000 in 2003 and $468,000 in 2004, a 
combined difference of 44%.
    As a result of recent reduced Catch Per Unit of Effort in Area 4C, 
CBSFA has successfully worked with the North Pacific Fisheries 
Management Council to allow the harvest of 4C IFQ and CDQ in adjoining, 
and much larger, Area 4D. This action allows for the continued 
successful harvest of halibut resources by local quota holders while 
protecting the resource itself.
    The CDQ halibut fishery is a three month fishery that can be 
harvested by small boats during the day when the weather in the Bering 
Sea permits it. There are twelve captains of commercial day fishing 
vessels on St. Paul. The halibut fishery is a day fishery where the 
CBSFA fishermen fish on 20 to 36-foot boats. Some of the most 
successful captains are now trying to upgrade their boats to larger 
vessels in order to participate in other commercial fisheries for 
additional species where the fishermen have to venture further from 
port.
    All this has happened in the last 15 years thanks to the CDQ 
Program. Despite the fact that 55% of the United States' commercial 
fishing industry catches their fish within 65 miles of Saint Paul 
Island, there would not be an economically viable inshore fishing fleet 
in the community without the CDQ Program.
    The CDQ Program allows access to the fish and provides the 
resources to finance individual CBSFA fishermen in purchasing boats and 
also in purchasing additional IFQ halibut in the area around Saint Paul 
Island. Without the CDQ Program, this would be another situation where 
the residents of Saint Paul, which is over 90 percent Aleut, would have 
sat by in poverty and watched people from Seattle, Anchorage, Kodiak 
and Dutch Harbor benefit from the halibut resource in the waters around 
Saint Paul. Whatever improvements are necessary, the bottom line is 
that this program is a success.
    Giving local residents a stake in the sustainability of the 
commercial resources in their coastal areas is also one of the most 
effective ways to assure that the resource is well-managed. Unlike the 
distant water commercial fleet, which can move to other fishing grounds 
around the world if the resource is over fished, the residents of St. 
Paul Island, Alaska, and the other Western Alaska coastal communities, 
are not able to pick up their communities and move to distant grounds 
when a fishery declines as a result of mismanagement, or otherwise. 
This alone is an important benefit of the CDQ Program.
    The future of Saint Paul Island depends on the CDQ Program too. If 
CBSFA receives adequate allocations, particularly in pollock, and if it 
is not burdened with excessive regulation, there is potential for:
    1)  moving a processor to the harbor to process cod, pollock and 
other flat fish. This venture will expand the markets for the whole 
fleet and of course, CBSFA members;
    2)  the continued harvest and processing of crab for the benefit of 
CDQ groups that are not located near the resource under the newly 
rationalized crab fishery. CDQ crab harvesting and processing on Saint 
Paul benefits all the CDQ groups;
    3)  the ability of the community to develop the necessary 
infrastructure, such as the construction of the local authorized small 
boat harbor, so that CBSFA can upgrade its boats and other groups can 
take advantage of the immense resource around Saint Paul;
    4)  the revenues to finance individual fishermen's acquisition of 
larger vessels and additional fish quotas so that the fishermen can 
expand and diversify into other fisheries, and
    5)  the training, internship and other educational programs to 
allow the local Aleut residents to participate successfully in these 
developments.
    CBSFA is concerned about a proposed allocation freeze that would 
limit its pollock allocation (which is worth 84% of the entire CDQ 
Program's royalty income) at 60% of its original levels. CBSFA historic 
allocation of pollock stood at 10% and was reduced over the years, 
through decisions that CBSFA considers unjustified, to 4%. In recent 
allocation cycles CBSFA has been able to recoup one percentage point, 
to 5%, and based on the recommendations for the 2006-2008 cycle, 
CBSFA's allocation would be increased to 6%. A freeze at 60% of its 
original levels would prejudice this upward trend and would limit CBSFA 
from undertaking the numerous fishery-related projects discussed above 
that are important to the community and other CDQ groups as well. CBSFA 
aspires to end up closer to its historic pollock allocation levels.
III. The Establishment of the CDQ Program:
    The CDQ Program was initially established by the North Pacific 
Fishery Management Council (NPFMC) in 1991 to allow fishermen residing 
in Western Alaska communities an opportunity to participate in the 
Bering Sea/Aleutian Islands ground fisheries and other near-shore 
fisheries as part of the Council's Pollock Fishery Management Plan. The 
reason given was to provide a means to initiate or support commercial 
fisheries activities which will result in sustainable, regionally based 
commercial fisheries economies. The National Research Council notes the 
``...program was designed to improve social and economic 
conditions...by helping communities build their capacity to engage in 
commercial fishing.''
    When the NPFMC program was statutorily incorporated into the 
Sustainable Fisheries Act (Magnuson-Stevens) in 1996, the purpose was 
expressed as creating an opportunity for the residents of the coastal 
communities to participate commercially in the Bering Sea fisheries. 
The regulations implementing Magnuson-Stevens state that the goal is:
        ''...to allocate CDQ (Community Development Quota in certain 
        species) to eligible Western Alaska communities to provide the 
        means for starting or supporting commercial fisheries business 
        activities that will result in an ongoing, regionally based, 
        fisheries related economy.'' 50 C.F.R. 679.1(e)(N).
    The regulations are consistent with the initial intent of the NPFMC 
in establishing the CDQ Program. Thus, Magnuson-Stevens codified the 
NPFMC's CDQ Program for the Bering Sea. In the House Committee Report, 
accompanying the House-passed version of Magnuson-Stevens in October 
1995, the Committee recommended the continuation of the NPFMC's program 
pointing out that Western Alaska is one of the poorest, most 
underdeveloped areas in the United States. Located on the Bering Sea 
coast, the residents of the area, predominantly Native, have 
historically watched valuable marine resources exploited by both 
foreign and domestic distant water fleets. The CDQ Program provides a 
means to develop the local economies and to give the Native people an 
opportunity to participate in the commercial fisheries for each 
species.
    While begun in 1991 as part of the NPFMC pollock management plan, 
in 1992 the NPFMC, in conjunction with a limited access plan for 
halibut and cod, expanded the CDQ Program. Eligible communities were 
authorized to expand their participation by allowing them to harvest 20 
percent of the total allowable catch of Bering Sea cod and 
approximately 20 percent of the Bering Sea halibut. The plan was 
implemented in 1995 and has been the basis for developing the halibut 
and cod fishery at St. Paul Island.
    The 1996 Magnuson-Stevens Act reauthorization codified the 
additional pollock, cod and halibut fisheries and expanded the program 
to include a percentage of each species of the Bering Sea fishery. To 
accomplish this objective, the Act amended Section 313 of the Magnuson-
Act to require the NPFMC to establish, and the Secretary of Commerce to 
adopt, regulations implementing the Western Alaska CDQ Program as a 
permanent, independent program.
    The House Committee Report specifically states that:
        ``The Committee expects that, for each Bering Sea fishery, the 
        NPFMC, with the final approval of the Secretary, will allocate 
        to the communities participating in the program a percentage 
        that is adequate to ensure their significant and sustainable 
        economic participation in the fishery.''
    The CDQ Program was considered, by both houses of Congress, to be 
very important for the coastal communities in order to provide the 
opportunity for their commercial and subsistence fishermen to ensure 
healthy coastal communities. The program is essential for providing 
access to the resources in order to develop self-sustaining fisheries-
based economies and infrastructures to support continued development. 
In addition, by becoming stakeholders in the nearby commercial fishery 
resource, the program creates the incentive among coastal community 
residents to work for the protection and sustainable management of the 
resources on which they, their families, and their communities depend 
for economic and cultural survival.
    In implementing the federal regulations contained in 50 C.F.R. 
679.30, the State promulgated regulations in 6 AAC 93. State 
regulations have been issued and the State has been managing the 
program, but there are clearly areas of the program administration that 
need to be reviewed and, from the CBSFA perspective, improved.
    As amendments to the program are discussed, CBSFA considers it 
important that given Saint Paul Island's proximity to so much of the 
Bering Sea's fisheries, and its almost absolute dependence on these 
resources, the program's initial conception of providing eligible 
communities with the opportunity to participate and invest in fishery-
related activities to provide economic and social benefits to residents 
and allow such communities to achieve sustainable and diversified 
economies, should be protected.
IV. Problems with the Program:
A. Allocations:
    One of the main areas of discussion is whether the State of Alaska 
should make periodic determinations on allocation levels, which also 
ties in to issues regarding the administration of the program.
    As the Saint Paul halibut fleet demonstrates, access to the 
resources; financing and education; and infrastructure and markets are 
all important benefits that allow natives in western Alaska to 
participate in the private sector economy. The administration of the 
CDQ Program by short-term periodic, competitive allocations among the 
CDQ groups, particularly when the principal requirement is creation of 
jobs (of whatever nature), undermines the program. The competition 
process does not further the original intent of the CDQ Program and 
should be reconsidered.
    In some cases, consideration of population and the pressure for 
low-end jobs ends up as a higher priority than (1) long-term investment 
in a sustainable business enterprise, (2) infrastructure that creates 
opportunities for the coastal communities to participate in a 
sustainable fishery, or (3) in St. Paul's case, the development of a 
new fleet of commercial fishermen succeeding in a day boat halibut and 
cod fishery because they have access to the fish and the capital. 
CBSFA, for example, has suffered significant losses under the 
competitive allocation process (CBSFA at one point lost 60% of its 
original allocation) despite the fact that CBSFA is one of the CDQ 
groups that is and has excellent prospects for continuing to develop 
the infrastructure and the processing capacity to allow all Alaska and 
Northwest residents and its member fishermen to process species close 
to the resource.
    Generally, CBSFA agrees with the 1999 National Academy of Sciences 
study on the CDQ Program in Alaska that by making a long-term 
commitment to the CDQ Program, simplifying the criteria used in the 
allocation of quotas and reducing the high administrative expenses, the 
CDQ Program will run much more effectively. Ultimately, CDQ groups 
should be allowed to submit business records including annual audited 
financial statements maintained in the ordinary course of business, so 
that they can devote their time to management of CDQ programs.
B. Additional Policy Considerations:
    The opportunity for coastal communities to become stakeholders in 
the local commercial fisheries is important and needs to have a 
priority role. A CDQ group that has profits and only needs 
subsidization should not be given greater weight in quota decisions 
than one that is building commercial fishing infrastructure. CBSFA does 
not contend that CDQ allocations may not be used to subsidize jobs in 
some rural villages, even if the commercial fishery has declined or has 
never been significant in that village. This also may be good public 
policy. However, both should be balanced and administered to make long-
term commercial fisheries development the most important criteria.
    The CDQ allocation is also more than just dollars. It is access to 
the resource. It is the opportunity of the coastal communities to 
participate in the Bering Sea commercial fishery. At the outset, the 
allocation may be converted to dollars in order to develop and maintain 
the infrastructure, or capitalize the business. However, the allocation 
ultimately is worth more. It is critical to the coastal communities' 
ability to participate in the commercial fisheries, just as the 
allocations that are currently given to harvesters or processors allow 
them to participate.
    A portion of the CDQ resources awarded to a CDQ Program should be 
available to be used to develop and maintain public infrastructure in 
coastal communities on the Bering Sea. If public infrastructure is not 
supported in these communities, eventually the entire industry will be 
offshore, a negative development for the State and for conservation. In 
furtherance of community development, the National Academy of Sciences 
study on the CDQ Program in Alaska recommends the need for education 
and training. The study suggests that educational and training monies 
should be spent two-fold: scholarship money to send young adults to 
universities and training programs to enable the communities to become 
more self-sufficient. Education and training reinforces the 
infrastructure and furthers the investment in these communities. It has 
helped CBSFA build its fleet.
    The commercial fisheries outside of three miles is a federal 
resource, but the harbors, the small boat facilities, the outfalls, and 
other infrastructure that a community needs to participate in a 
fishery, requires a substantial investment of local resources. The 
federal resource should support access to the federal commercial 
fishery.
V. Conclusion:
    The CDQ Program is one of the most innovative and successful 
economic development programs that creates economic opportunities in 
those communities adjacent to our fishery resources. On behalf of 
CBSFA, we stand ready and willing to assist the Subcommittee, the 
Congress, the National Marine Fisheries Service, and the State of 
Alaska in revising the CDQ Program to carry out its intent. This 
program is a winner and has been crucial to the development of and 
participation in St. Paul Island's halibut, cod, crab and pollock 
fisheries. It clearly has worked on St. Paul, but there is much to be 
done.
    On St. Paul the Corps of Engineers' Small Boat Harbor Project 
requires local sponsor matching funds, and CDQ resources are available 
for this. The expansion of processing capabilities so that the local 
fishermen, and the Northwest fleet can process at St. Paul Island is 
beneficial to the United States, the State of Alaska, and the entire 
Northwest and should be a priority of the program. It requires a viable 
CDQ partnership in order for this to happen.
    In the longer term, the CDQ Program is critical to the development 
of waste facilities, outfalls, and other infrastructure necessary to 
allow one of the most important ecosystems in the Northern Hemisphere 
to develop in a sustainable, environmentally friendly manner. By giving 
the coastal communities an allocation of resource, the same as we do to 
harvesters and processors, the community has a stake in the management 
of that resource. This ensures that coastal communities will be active 
participants in pursuing goals of conservation, resource 
sustainability, and better management of the fisheries.
    Thank you for the opportunity to testify.
                                 ______
                                 
    [NOTE: Additional information submitted for the record has been 
retained in the Committee's official files.]

                                 <all>

</pre></body></html>
